APPENDIX

ia
TABLE OF CONTENTS TO APPENDIX
Pages
Appendix A: Opinion Below
Opinion of the Supreme Judicial Court of
Massachusetts (Dec. 10, 2020) ............... 1a-37a
Appendix B: Related Court Order
Order of the Supreme Judicial Court for
Suffolk County (July 2, 2020) ............... 38a-40a
Appendix C: Emergency Declaration
Executive Order 591 (Mar. 10, 2020) ... 41a-42a
Appendix D: Relevant Executive Orders
COVID-19 Order 2 ................................ 43a-44a
COVID-19 Order 3 ................................ 45a-46a
COVID-19 Order 5 ................................ 47a-48a
COVID-19 Order 10 .............................. 49a-51a
COVID-19 Order 13 .............................. 52a-65a
COVID-19 Order 15 .............................. 66a-67a
COVID-19 Order 16 .............................. 68a-69a
COVID-19 Order 21 .............................. 70a-86a
COVID-19 Order 22 .............................. 87a-88a

iia
COVID-19 Order 27 .............................. 89a-90a
COVID-19 Order 28 .............................. 91a-92a
COVID-19 Order 30 .............................. 93a-95a
COVID-19 Order 32 .............................. 96a-97a
COVID-19 Order 33 ............................ 98a-106a
COVID-19 Order 34 .......................... 107a-110a
COVID-19 Order 35 .......................... 111a-118a
COVID-19 Order 36 .......................... 119a-121a
COVID-19 Order 37 .......................... 122a-131a
COVID-19 Order 38 .......................... 132a-135a
COVID-19 Order 40 .......................... 136a-137a
COVID-19 Order 41 .......................... 138a-141a
COVID-19 Order 43 .......................... 142a-150a
COVID-19 Order 44 .......................... 151a-154a
COVID-19 Order 45 .......................... 155a-159a
COVID-19 Order 46 .......................... 160a-164a
COVID-19 Order 48 .......................... 165a-167a
COVID-19 Order 50 .......................... 168a-174a
COVID-19 Order 51 .......................... 175a-181a
COVID-19 Order 52 .......................... 182a-187a

iiia
COVID-19 Order 53 .......................... 188a-193a
COVID-19 Order 54 .......................... 194a-200a
COVID-19 Order 56 .......................... 201a-207a
COVID-19 Order 57 .......................... 208a-213a
COVID-19 Order 58 .......................... 214a-220a
COVID-19 Order 59 .......................... 221a-225a
COVID-19 Order 60 .......................... 226a-228a
COVID-19 Order 62 .......................... 229a-231a
COVID-19 Order 63 .......................... 232a-237a
COVID-19 Order 65 .......................... 238a-243a
COVID-19 Order 66 .......................... 244a-251a

1a
APPENDIX A

SUPREME JUDICIAL COURT OF
MASSACHUSETTS, WORCESTER
DAWN DESROSIERS1 & OTHERS2
v.
THE GOVERNOR
SJC-12983
Argued September 11, 2020
Decided December 10, 2020
Present: Lenk, Gaziano, Lowy, Budd,
Cypher & Kafker, JJ. 3
Civil action commenced in
the Superior Court Department on June 1, 2020.

1

Individually and doing business as Hair 4 You.

Susan Kupelian; Nazareth Kupelian; Naz Kupelian
Salon; Carla Agrippino-Gomes; Terramia, Inc.; Antico Forno,
Inc.; James P. Montoro; Pioneer Valley Baptist Church
Incorporated; Kellie Fallon; Bare Bottom Tanning Salon;
Thomas E. Fallon, individually and doing business as Union
Street Boxing; Robert Walker; Apex Entertainment LLC;
Devens Common Conference Center LLC; Luis Morales; Vida
Real Evangelical Center; Ben Haskell; and Trinity Christian
Academy of Cape Cod.
2

Justice Lenk participated in the deliberation on this
case prior to her retirement.
3

2a
Following transfer to the Supreme Judicial Court for
the county of Suffolk, pursuant to G. L. c. 211, § 4A,
the case was reported by Lenk, J.
Michael P. DeGrandis, of the District of Columbia, for
the plaintiffs.
Douglas S. Martland, Assistant Attorney General, for
the Governor.
John A. Sten, Boston, for Representative Shawn C.
Dooley, amicus curiae, submitted a brief.
Elissa Flynn-Poppey, Emily Kanstroom Musgrave, &
Andrew Nathanson, Boston, for Massachusetts
Health & Hospital Association & others, amici curiae,
submitted a brief.
CYPHER, J. On March 10, 2020, Governor
Charles D. Baker, Jr., declared a state of emergency in
the Commonwealth of Massachusetts in response to
the pandemic arising from COVID-19, a respiratory
illness caused by a novel coronavirus. See Governor's
Declaration of Emergency, Executive Order No. 591.
He did so under the Civil Defense Act (CDA), St. 1950,
c. 639, and G. L. c. 17, § 2A. At the time of the
emergency declaration, Massachusetts had about one
hundred COVID-19 cases and was facing its first
outbreak. Since the Governor declared the state of
emergency, he has issued numerous COVID-19
emergency orders (emergency orders). The emergency
orders placed restrictions on daily activities, which,
among other things, prohibited gatherings of more
than ten people; suspended in-person instruction at
schools; ordered restaurants and bars to suspend
on-premises service; and required all businesses and
other organizations not providing designated

3a
COVID-19 “essential services”4 to close premises to
workers, customers, and the public. As the public
health data improved, the Governor announced a
phased reopening plan, in which he classified
business and organization types in different
reopening phases. See Order Implementing a Phased
Reopening of Workplaces and Imposing Workplace
Safety Measures to Address COVID-19, COVID-19
Order No. 33 (May 18, 2020).
COVID-19 has taken a devastating toll on the
Commonwealth, the United States, and the world. As
of this writing, in Massachusetts alone, over 250,000
people have been infected and over 10,000 people have
died. During the April 2020 surge in Massachusetts,
the number of infections often exceeded 1,500 per day
and there were more than one hundred deaths per day
from COVID-19 for the majority of the month. In
addition to the medical toll COVID-19 has inflicted, the
personal toll resulting from the virus and containment
measures has been immeasurable. Behind every
infection and every death are those who could not visit
loved ones in the hospital due to visitation restrictions,
or who could not grieve the loss of loved ones with
family and friends in the traditional manner. Family
and friends had to isolate from one another, and
visiting a loved one in another country became
impossible, or nearly so. COVID-19 and the attendant
containment measures have also resulted in high
“Essential services” are those identified by the
government as “essential to promote the public health and
welfare.” See Order Assuring Continued Operation of Essential
Services in the Commonwealth, Closing Certain Workplaces,
and Prohibiting Gatherings of More Than 10 People, COVID-19
Order No. 13 (Mar. 23, 2020) (Order No. 13).
4

4a
unemployment, economic hardship, and shuttered
businesses.
In June 2020, the plaintiffs5 filed a complaint
in the Superior Court, seeking declaratory judgment
and injunctive relief and challenging the Governor's
declaration of a state of emergency and the emergency
orders as unauthorized and unconstitutional.6 The
parties agreed to defer seeking preliminary injunctive
relief from the Superior Court and jointly petitioned
for transfer of the case from the Superior Court to a
single justice of this court for reservation and report.
The single justice granted the petition, and the case
is now before us.
We conclude that the CDA provides authority
for the Governor's March 10, 2020, declaration of a
state of emergency in response to the COVID-19
pandemic and for the issuance of the subsequent
emergency orders; the emergency orders do not
violate art. 30 of the Massachusetts Declaration of
Rights; and the *372 emergency orders do not violate
the plaintiffs' Federal or State constitutional rights to
procedural and substantive due process or free
assembly.7
The plaintiffs are two hair salons, a tanning salon, a
boxing gym, and two restaurants, as well as the respective
owners of those businesses; two houses of worship and their
pastors; the head of a religious academy; a family entertainment
center that offers various indoor attractions; and a conference
center.
5

On June 1, 2020, the plaintiffs commenced their action,
and on June 19, they filed an amended complaint.
6

We acknowledge the amicus briefs submitted by the
Massachusetts Health & Hospital Association, Massachusetts
Medical Society, and Organization of Nurse Leaders; and by
Representative Shawn C. Dooley.
7

5a
Background. 1. COVID-19. Patients with
COVID-19 may be asymptomatic, may have a mild
respiratory illness, or may develop severe
complications leading to the need for hospitalization,
and even death. The virus spreads primarily from
person to person but can also spread through a person
contacting a surface that has the virus on it and then
touching his or her mouth, nose, or eyes. A person can
be asymptomatic or presymptomatic and still spread
the virus. Medical experts have identified ways in
which the spread of the virus can be curtailed, which
include wearing a cloth face mask, social distancing,8
quarantining when infected or exposed to the virus,
hand washing, and cleaning frequently touched
surfaces. People with certain underlying medical
conditions and older adults are at a higher risk of
developing severe illness from COVID-19. At this
time, there is no cure and effective vaccines have not
yet been distributed.
COVID-19 emerged at around the start of 2020
in China, and within months it spread around the
world. On January 11, 2020, the first known death
caused by COVID-19 was reported in China. Later in
January, a man in the State of Washington became the
first confirmed case in the United States. On January
30, the World Health Organization (WHO) declared “a
public health emergency of international concern,” and
in response to the growing outbreak, the President’s
administration implemented restrictions on travel

“Social distancing” refers to keeping at least six feet
apart from people who are not from one's household, in both
indoor and outdoor spaces.
8

6a
from China.9
On February 29, 2020, the United States
reported that an individual in Washington became
the country's first death from COVID-19.10 On March
11, WHO declared the coronavirus outbreak a
pandemic, and on March 13, the President declared a
national emergency.
2. The Governor’s declaration of a state of
emergency. On March 10, 2020, the Governor declared
a state of emergency, “to protect the health and welfare
of the people of the Commonwealth” and to “facilitate
and expedite the use of Commonwealth resources and
deployment of federal and interstate resources to
protect persons from the impacts of the spread of
COVID-19.” See Executive Order No. 591. He declared
the state of emergency pursuant to the powers

Throughout the course of the COVID-19 pandemic, the
United States and other countries implemented various travel
restrictions. See Coronavirus Travel Restrictions, Across the
Globe, N.Y. Times, July 16, 2020 (listing travel restrictions by
country).
9

It later was discovered that other people in the United
States had died earlier from COVID-19.
10

7a
provided in the CDA11 and in G. L. c. 17, § 2A.12 Id.
The state of emergency was effective immediately and
remained in effect “until notice is given, pursuant to
[the Governor's] judgment, that the state of
emergency no longer exists.” Id.
3. The emergency orders. From early March to
May 2020, the number of COVID-19 infections and
deaths from COVID-19 in the Commonwealth
increased at a grim rate. The Commonwealth faced
outbreaks at long-term care facilities, fear that a surge
would overwhelm hospitals, and uncertainty about the
future.13 Against that backdrop, the Governor issued
The Civil Defense Act (CDA), St. 1950, c. 639, provides
that the Governor can declare a state of emergency in specified
circumstances, St. 1950, c. 639, § 5, and provides the Governor
with “all authority over persons and property, necessary or
expedient for meeting said state of emergency, which the general
court in the exercise of its constitutional authority may confer
upon him as supreme executive magistrate of the commonwealth
and commander-in-chief of the military forces thereof,” St. 1950,
c. 639, § 7.
11

General Laws c. 17, § 2A, provides that upon the
Governor’s declaring “that an emergency exists which is
detrimental to the public health,” the Commissioner of Public
Health may “take such action and incur such liabilities as he [or
she] may deem necessary to assure the maintenance of public
health and prevention of disease” and “may establish procedures
to be followed ... to insure the continuation of essential public
health services and the enforcement of the same.”
12

The COVID-19 pandemic is far from the first public
health crisis the Commonwealth has faced. In 1701, quarantine
legislation aimed at preventing epidemics empowered the
Governor or commander-in-chief, once he was made aware of the
presence of the plague, smallpox, pestilential or malignant fever,
13

8a
numerous emergency orders, aimed first at efforts to
“flatten the curve,” i.e., to reduce the number of cases
at a given time. Through the emergency orders, the
Governor, among other things, banned large
gatherings;14 suspended all in-person instruction at
public and private elementary and secondary schools
in the Commonwealth;15 banned on-premises
consumption of food or drink at restaurants and bars;
suspended all child care operations but established
emergency child care for certain children; designated
specified service and production sectors as “COVID-19
Essential Services,” which were “urged to continue
operations during the state of emergency,” and ordered
businesses that did not provide essential services to
close their physical workspaces and facilities;16
mandated wearing a face covering when social
distancing was not possible; and mandated a
fourteen-day quarantine for travelers arriving in
Massachusetts, unless traveling from a specified State,
providing a negative COVID-19 test, or otherwise
falling within one of the exceptions. Certain orders

or other contagious sickness, “with the advice and consent of the
council, to take such further order therein as they shall think fit
for preventing the spreading of the infection.” St. 1701-1702, c. 9.
He first banned gatherings of more than 250 people,
then reduced that to no more than twenty-five people, and finally
to no more than ten people.
14

Residential and day schools for special needs students
were excluded from this order.
15

The order contained an exception that places of
worship could remain open subject to the emergency order’s
general limitation on the number of people who could gather.
16

9a
contained language about the penalties for violations.
For example, violation of Order No. 13, which limited
gatherings to no more than ten people and established
COVID-19 essential services, would result in criminal
penalty under § 8 of the CDA or a civil fine of up to
$300 per violation. Order Assuring Continued
Operation of Essential Services in the Commonwealth,
Closing Certain Workplaces, and Prohibiting
Gatherings of More Than 10 People, COVID-19 Order
No. 13 (Mar. 23, 2020) (Order No. 13).
As the public health data improved, the
Governor began transitioning the emergency orders to
“reopening” the Commonwealth. On May 18, 2020, the
Governor implemented a phased reopening plan. Order
Implementing a Phased Reopening of Workplaces and
Imposing Workplace Safety Measures to Address
COVID-19, COVID-19 Order No. 33. The plan
established phases in which categorized businesses
and organizations could reopen, subject to workplace
safety rules set forth in the plan. Id. Phase one
included businesses that could open first, including
construction, places of worship,17 and firearms retailers
and shooting ranges; and businesses that could open
second, including hair salons and barber shops, general
use offices, and pet groomers. On June 1, the Governor
announced the businesses in phases two, three, and
four, which could reopen when the Governor
authorized it in subsequent orders. Order Clarifying
the Progression of the Commonwealth's Phased
Workplace Reopening Plan and Authorizing Certain
Although places of worship were not subject to a
complete closure in the initial shutdown order, see note 16,
supra, “reopening” in phase one allowed them to operate at
higher capacity.
17

10a
Re-opening Preparations at Phase II Workplaces,
COVID-19 Order. No. 35. Phase two included retail
stores, restaurants, golf facilities, and day camps.
Phase three businesses included casino gaming floors,
fitness centers and health clubs, museums, and
aquariums. Phase four included amusement parks,
street festivals and parades, and large capacity
venues used for entertainment, group or spectator
sports, business, and cultural events.18 On June 6, the
Governor issued an order that phase two businesses
could reopen in two steps, the first taking place
immediately and including services such as outdoor
table service at restaurants, and the second taking
place subject to a subsequent order and including
services such as indoor dining. See Order Authorizing
the Reopening of Phase II Enterprises, COVID-19
Order No. 37. On July 2, the Governor issued an order
that phase three businesses and organizations could
reopen, again in a two-step process. See Order
Authorizing the Re-opening of Phase III Enterprises,
COVID-19 Order No. 43. Phase four businesses will
not be allowed to open until a COVID-19 vaccine or
treatments are developed.
4. Reservation and report. After the plaintiffs
filed their amended complaint in the Superior Court,
the parties jointly petitioned for transfer to a single
justice of this court for reservation and report. The
single justice ordered the case transferred and reserved
and reported the matter to the full court. The reported

The lists for phases three and four noted that they were
subject to amendment, and one such amendment was that arcades
were moved from phase three to phase four, but the Governor
subsequently allowed arcades to open in September 2020.
18

11a
questions are as follows:
“(1) Whether the [CDA], St. 1950, c. 639,
provides authority for Governor Baker's
declaration of a state of emergency on
March 10, 2020, and issuance of the
emergency orders pursuant to the
emergency declaration and, if so, whether
such orders, or any of them, violate the
separation of powers doctrine reflected in
[art.] 30 of the Massachusetts Declaration
of Rights; and
“(2) Whether the emergency orders
issued by Governor Baker pursuant to
his declaration of a state of emergency
on March 10, 2020, violate plaintiffs'
federal or state constitutional rights to
procedural and substantive due process
or free assembly as alleged by plaintiffs.”
Discussion. 1. The Governor’s authority under
the CDA. The plaintiffs argue that the Governor’s
emergency declaration and emergency orders under
the CDA are unenforceable, ultra vires actions because
the CDA vests the Governor with specified emergency
powers only in the event of “immediate and specific
cataclysmic events of limited duration,” which they
argue the COVID-19 pandemic is not. The plaintiffs
further argue that the Legislature intended the Public
Health Act (PHA), codified, as amended, in G. L. c. 111,
and not the CDA, to be used to protect Massachusetts
residents from “disease dangerous to the public
health,” such as COVID-19. The Governor counters
that the plain language of the CDA gives him broad

12a
authority in the context of the COVID-19 pandemic,
the PHA does not preclude the Governor from acting
under the CDA, and the current Legislature
repeatedly has ratified his reading of the CDA and his
application of the CDA to the COVID-19 pandemic.
We conclude that the CDA provides authority for the
Governor's declaration of a state of emergency in
response to the COVID-19 pandemic and the issuance
of the emergency orders.
In interpreting a statute, we follow the plain
language “when it is unambiguous and when its
application ‘would not lead to an “absurd result,” or
contravene
the
Legislature’s
clear
intent.’”
Commonwealth v. Kelly, 470 Mass. 682, 689 (2015),
quoting Commissioner of Revenue v. Cargill, Inc., 429
Mass. 79, 82 (1999). “The words of a statute are the
main source from which we ascertain legislative
purpose ....” Kelly, supra at 688, quoting Foss v.
Commonwealth, 437 Mass. 584, 586, (2002). “More
specifically, courts construe a statute in accord with
the intent of the Legislature ascertained from all its
words construed by the ordinary and approved usage
of the language, considered in connection with the
cause of its enactment, the mischief or imperfection to
be remedied and the main object to be accomplished,
to the end that the purpose of its framers may be
effectuated” (quotation and citation omitted). Kelly,
supra at 688-689.
a. The CDA. The CDA, entitled “An Act to
provide for the safety of the commonwealth during the
existence of an emergency resulting from disaster or
from hostile action,” provides the Governor with
expansive discretionary powers in the face of a
declared state of emergency, namely, “all authority

13a
over persons and property, necessary or expedient for
meeting said state of emergency, which the general
court in the exercise of its constitutional authority may
confer upon him as supreme executive magistrate of
the commonwealth and commander-in-chief of the
military forces thereof.” St. 1950, c. 639, § 7. The
Legislature enacted St. 1950, c. 639, as a temporary
measure. See St. 1950, c. 639, § 22 (providing CDA
would run only to July 1, 1952); Director of the Civ.
Defense Agency & Office of Emergency Preparedness
v. Civil Serv. Comm'n, 373 Mass. 401, 404 (1977). The
sunset clause was later extended and eventually
removed. See St. 1952, c. 269; St. 1953, c. 491.
Section 5 of the CDA, on which the plaintiffs
focus their statutory interpretation argument, and
under which the Governor, in part, declared the state
of emergency, provides, in relevant part:
“Because of the existing possibility of the
occurrence of disasters of unprecedented
size and destructiveness resulting from
enemy attack, sabotage or other hostile
action, in order to insure that the
preparations of the commonwealth will
be adequate to deal with such disasters,
and generally to provide for the common
defense and to protect the public peace,
health, security and safety, and to
preserve the lives and property of the
people of the commonwealth, if and
when the congress of the United States
shall declare war, or if and when the
President of the United States shall by
proclamation or otherwise inform the
governor that the peace and security of

14a
the commonwealth are endangered by
belligerent acts of any enemy of the
United States or of the commonwealth or
by the imminent threat thereof; or upon
the occurrence of any disaster or
catastrophe resulting from attack,
sabotage or other hostile action; or from
riot or other civil disturbance; or from
fire, flood, earthquake or other natural
causes; or whenever because of absence
of rainfall or other cause a condition
exists in all or any part of the
commonwealth
whereby
it
may
reasonably be anticipated that the
health, safety or property of the citizens
thereof will be endangered because of
fire or shortage of water or food; or
whenever the accidental release of
radiation from a nuclear power plant
endangers the health, safety, or property
of people of the commonwealth, the
governor may issue a proclamation or
proclamations setting forth a state of
emergency.”
St. 1950, c. 639, § 5, as amended through St. 1979, c.
796, § 26. The CDA further specifies that “[t]he
governor ... shall be responsible for carrying out the
provisions of this act,” St. 1950, c. 639, § 4, and that
the Governor may exercise any of the authority
conferred on him by any provision of the CDA in a
declaration of emergency under § 5, including
through executive orders issued thereafter, St. 1950,
c. 639, § 8.

15a
The plaintiffs contend that we must apply the
statutory interpretation canon of ejusdem generis19
because § 5 of the CDA contains general terms
preceded by specific, limiting terms. However, where,
as here, the language of a statute “is unambiguous
and when its application ‘would not lead to an “absurd
result,” or contravene the Legislature’s clear intent,’ ”
we follow the plain language. Kelly, 470 Mass. at 689,
quoting Cargill, Inc., 429 Mass. at 82. See Gooch v.
United States, 297 U.S. 124, 128 (1936) (“The rule of
ejusdem generis ... is only an instrumentality for
ascertaining the correct meaning of words when there
is uncertainty.... [I]t may not be used to defeat the
obvious purpose of legislation”).
Because the CDA does not specify that the
Governor's power to declare a state of emergency
extends to the COVID-19 pandemic specifically or to a
health crisis generally, the Governor's power turns on
whether the phrase “other natural causes” in § 5
encompasses a health crisis such as the COVID-19
pandemic. We note first that COVID-19 is naturally
caused, as scientists believe it originated from an
animal, likely a bat. When examining the phrase
“other natural causes” in the context of § 5 and the
statute as a whole, Kelly, 470 Mass. at 688-689, it is
apparent that the phrase encompasses a pandemic on
the scale of the COVID-19 pandemic. Section 5 states
the general purposes of the CDA as, in part, “to protect
Ejusdem generis “applies to lists ‘[w]here general words
follow specific words in a statutory enumeration.’ ” See Carey v.
Commissioner of Correction, 479 Mass. 367, 370 n.6 (2018),
quoting Banushi v. Dorfman, 438 Mass. 242, 244 (2002). “It limits
the ‘general terms which follow specific ones to matters similar to
those specified.’ ” Carey, supra, quoting Commonwealth v. Gallant,
453 Mass. 535, 542 (2009).
19

16a
the public peace, health, security and safety, and to
preserve the lives and property of the people of the
commonwealth.” St. 1950, c. 639, § 5. Given that
COVID-19 is a pandemic that has killed over a million
people worldwide, it spreads from person to person,
effective vaccines have not yet been distributed, there
is no known cure, and a rise in cases threatens to
overrun the Commonwealth's hospital system, it is a
natural cause for which action is needed to “protect
the public peace, health, security and safety, and to
preserve the lives and property of the people of the
commonwealth.” Id. Therefore, we conclude that the
CDA, through the phrase “other natural causes,”
encompasses a health crisis on the level of the
COVID-19 pandemic.
b. The PHA. The PHA covers an array of public
health related issues in the Commonwealth. See, e.g.,
G. L. c. 111, §§ 4G (care for epileptics), 8C (fluoridation
of water supplies), 72D (telephone access at long-term
care facilities), 127A (adoption and enforcement of
State sanitary code). Specific to the COVID-19
pandemic, the plaintiffs argue that certain sections of
the PHA pertain to the control of the pandemic and
preclude the Governor from acting under the CDA.20
See, e.g., G. L. c. 111, § 6 (“The [Department of Public
Health] shall have the power to define ... what diseases
shall be deemed to be dangerous to the public health,
and shall make such rules and regulations consistent
with law for the control and prevention of such
diseases as it deems advisable for the protection of the

The plaintiffs cite G. L. c. 111, §§ 1, 2, 6, 7, 92, 95, 96,
96A, 104, 106, 111, 111C, 112, 113.
20

17a
public health”). However, although it is evident that
the PHA was designed to protect Massachusetts
residents from, among other things, dangerous
diseases, there is nothing to prevent the CDA from
supplementing the PHA during times of actual public
health emergencies, such as the COVID-19 pandemic.
The PHA and the CDA differ significantly in
the scope of the emergency they seek to address. It is
clear from the language of both acts that the
Legislature could not have intended the PHA, and
therefore primarily local boards of health, to be
exclusively responsible for addressing a public health
crisis such as COVID-19, a pandemic that has killed
over one million people globally and over 10,000
people in Massachusetts. The CDA is broader in scope
for emergencies of a larger magnitude than is
encompassed by the PHA, which focuses largely on
the actions required of local boards. See G. L. c. 111,
§§ 104 (“If a disease dangerous to the public health
exists in a town, the selectmen and board of health
shall use all possible care to prevent the spread of the
infection ...”), 106 (“The board of health of a town near
to or bordering upon an adjoining state may in writing
appoint suitable persons ... who may examine such
travelers as the board suspects of bringing any
infection dangerous to the public health, and, if
necessary, restrain them from traveling until licensed
thereto by the board of health of the town to which
they may come”). In contrast, the CDA contemplates
the need to prepare for and respond to a serious
disaster requiring swift, top-down, coordinated relief
efforts. See, e.g., St. 1950, c. 639, §§ 1 (defining “[c]ivil
defense”), 5(a) (upon proclamation of state of
emergency, Governor “may employ every agency and
all members of every department and division of the

18a
government of the commonwealth to protect the lives
and property of its citizens and to enforce the law”), 7
(Governor “shall have and may exercise any and all
authority over persons and property, necessary or
expedient for meeting said state of emergency”). It
therefore appears that with the emphasis on
empowering local boards of health, the Legislature
contemplated the PHA to address public health issues
confined
to
particular
locales
within
the
Commonwealth. On the other hand, it appears that
with the latitude given to the Governor to respond to
“other natural causes,” the Legislature created the
CDA to deal with Statewide public health crises
beyond the scope of local authorities. In essence, the
existence of the CDA and the PHA demonstrates a
legislative intent not to limit the Governor's ability to
manage a public health crisis like the COVID-19
pandemic, but to empower him to do so.
Moreover, the CDA directs the Governor and executive
officers to utilize, to the maximum extent practicable,
the existing State and local departments, agencies,
officers, and personnel in carrying out the provisions of
the CDA. St. 1950, c. 639, § 16. See St. 1950, c. 639,
§ 20 (all members of governmental bodies must “fully
... co-operate with the governor and the director of civil
defense in all matters affecting civil defense”). See also
St. 1950, c. 639, § 13 (political subdivisions empowered
“to enter into contracts and incur obligations
necessary to combat such disaster, protecting the
health and safety of persons and property, and
providing emergency assistance to the victims of such
disaster”). Therefore, although under a different
framework from the PHA, local organizations and
agencies are part of the over-all CDA scheme.

19a
Accordingly, because the CDA encompasses a
larger scale emergency requiring executive action
coordinating State resources, the PHA is focused on
local health boards, and neither the PHA nor the CDA
contains language precluding the Governor from
acting under the CDA when faced with a public health
emergency, the PHA does not preclude the Governor
from acting under the CDA in relation to the COVID19 pandemic.21
c. Looking forward. Despite our emphasis on
the serious nature of the COVID-19 pandemic, we are
cognizant of the limits of the Governor’s power under
the CDA.
As is the case here, when the Governor acts
pursuant to an express authorization of the
Legislature, “his authority is at its maximum, for it
includes all that he possesses in his own right plus all
that [the Legislature] can delegate.” Youngstown Sheet
& Tube Co. v. Sawyer, 343 U.S. 579, 635-637 (1952)
(Jackson, J., concurring) (“If his act is held
unconstitutional under these circumstances, it usually
means that the [State] Government as an undivided
whole lacks power”). In Youngstown Sheet & Tube Co.,
the President ordered the Secretary of Commerce to
The plaintiffs’ argument that because the CDA is a
special law, and therefore not codified in the General Laws, the
Legislature did not intend for it to apply to diseases also is
unavailing. From a legal perspective, a special act has the same
force and effect as a General Law. See, e.g., Legislative Research
Council, Report Relative to Civil Defense, 1971 House Doc. No.
5034, at 65, 66 (“it has been the accepted practice of the General
Court not to incorporate either statutes with a specific expiration
date or statutes applicable to a unique situation in the General
Laws”).
21

20a
take possession of and operate most of the steel mills
in the country, and because he did not act pursuant to
an act of Congress, the issue was whether the
Constitution provided the President with the authority
to issue the order. Id. at 582-583, 585-587, 72 S.Ct.
863. The United States Supreme Court held that the
“Constitution [did] not subject this lawmaking power
of Congress to presidential ... supervision or control.”
Id. at 588-589, 72 S.Ct. 863 (“The Founders of this
Nation entrusted the lawmaking power to the
Congress alone in both good and bad times”).
In Justice Jackson’s concurrence, he detailed
three levels of executive action: (1) when the executive
acts pursuant to an express or implied legislative
authorization, (2) when the executive acts where the
Legislature has neither granted nor denied his
authority, and (3) when the executive's actions are
incompatible with the express or implied will of the
Legislature. Id. at 635-637 (Jackson, J., concurring).
Actions taken under the first level receive the
strongest presumption of validity, whereas when the
executive acts under the third level, his or her “power
is at its lowest ebb” and “[c]ourts can sustain exclusive
[executive] control in such a case only by disabling the
[Legislature] from acting upon the subject.” Id. at
635-638.
In the present case, it is the language of the
CDA, and therefore an express authorization from the
Legislature, that enables the Governor to act.
However, although we determine that the Governor is
acting pursuant to an express grant of authority from
the Legislature, we emphasize that not all matters
that have an impact on the public health will qualify
as “other natural causes” under the CDA, even though
they may be naturally caused. The distinguishing

21a
characteristic of the COVID-19 pandemic is that it has
created a situation that cannot be addressed solely at
the local level. Only those public health crises that
exceed the resources and capacities of local
governments and boards of health, and therefore
require the coordination and resources available under
the CDA, are contemplated for coverage under the
CDA. Therefore, although we hold that the COVID-19
pandemic falls within the CDA, we do not hold that
all public health emergencies necessarily will fall
within the CDA, nor do we hold that when the public
health data regarding COVID-19 demonstrates stable
improvement, the threshold will not be crossed where
it no longer constitutes an emergency under the CDA.
2. Separation of powers under art. 30. The
plaintiffs next argue that the Governor’s emergency
orders violate art. 30. They contend that the Governor
“does not have the authority to suspend, dispense, or
make law backed with civil and criminal penalties
through his COVID-19 Orders.” The Governor
counters that the emergency orders fall within the
limits on executive authority set by the
Massachusetts Constitution because the Governor is
discharging his constitutional duty to execute the
laws and because the orders are grounded in
statutory authority delegated to the Governor. We
conclude that because the Governor's actions were
carried out pursuant to the authority granted to the
Governor in the CDA, the emergency orders do not
violate art. 30.
Article 30 provides:
“In
the
government
of
this
commonwealth,
the
legislative
department shall never exercise the

22a
executive and judicial powers, or either
of them: the executive shall never
exercise the legislative and judicial
powers, or either of them: the judicial
shall never exercise the legislative and
executive powers, or either of them: to
the end it may be a government of laws
and not of men.”
The General Court is the Commonwealth’s
legislative department, and the Governor is its
“supreme executive magistrate.” See Part II, c. 1, § 1,
Art. 1, and Part II, c. II, § 1, Art. 1, of the Constitution
of the Commonwealth. “We have recognized that art.
30 does not rigidly demand a total separation between
the three branches of government but rather that
there is a ‘need for some flexibility in the allocation of
functions among the three departments.’” Boston Gas
Co. v. Department of Pub. Utils., 387 Mass. 531, 541
(1982), quoting Opinion of the Justices, 375 Mass.
795, 813 (1978). “The critical inquiry is whether the
actions of one branch interfere with the functions of
another.” Boston Gas Co., supra, citing Opinion of the
Justices, supra.
We first note that the Governor asserts that the
Legislature has expressed its approval of his actions
through its enactment of a wide range of legislation to
address the COVID-19 pandemic subsequent to the
emergency declaration. Assuming for the purposes of
this discussion that the Legislature has approved the
Governor's actions by not moving to curtail them, this
does not absolve us of our responsibility to determine
whether the emergency orders are within the bounds
of art. 30. We can look to the Legislature's lack of
exercise of the option under § 22 of the CDA to make

23a
any part of the CDA inoperative as an indication that
it approves of the Governor's actions, but that inaction
is not determinative of our decision. See St. 1950, c.
639, § 22. The validity of the Governor’s actions is for
the courts—not the Legislature—to decide.
We conclude that the emergency orders do not
interfere with the functions of the Legislature. See
Boston Gas Co., 387 Mass. at 541, citing Opinion of
the Justices, 375 Mass. at 813. As we have determined
supra that the CDA provides authority for the
Governor’s declaration of the state of emergency and
for his issuance of the emergency orders, by issuing
the emergency orders, the Governor is executing the
laws. See Opinion of the Justices, 375 Mass. 827, 833
(1978) (“constitutional prerogative, as well as duty, of
the Governor to execute the laws”). In addition to the
Legislature providing the Governor with the
authority to act under the CDA, the Governor states
in each emergency order the sections that authorize
him to act during the effective period of a declared
emergency. See, e.g., Order Extending the Temporary
Closure of All Public and Private Elementary and
Secondary Schools, COVID-19 Order No. 16 (Mar. 25,
2020) (identifying St. 1950, c. 639, §§ 7, 8, and 8A, as
“authoriz[ing] the Governor, during the effective
period of a declared emergency, to exercise any and
all authority over persons and property necessary or
expedient for meeting a state of emergency, including
but not limited to authority over public assemblages
in order to protect the health and safety of persons”).
Because the Governor was acting under an express
authorization of the Legislature, namely, the CDA,
his authority was, therefore, at its maximum. See
Youngstown Sheet & Tube Co., 343 U.S. at 635-637
(Jackson, J., concurring).

24a
Moreover, the emergency orders do not, as the
plaintiffs argue, “deprive the Legislature of its full
authority to pass laws.” See Opinion of the Justices,
430 Mass. 1201, 1203 (1999). Since the Governor
declared the state of emergency, the Legislature has
enacted many pieces of legislation to address COVID19. See, e.g., St. 2020, c. 118 (expanding take-out and
delivery options); St. 2020, c. 71 (virtual notarization);
St. 2020, c. 65 (eviction and foreclosure moratorium);
St. 2020, c. 45 (municipal election postponement and
increased voting options). The CDA also provides that
the Legislature can make any part of the CDA
“inoperative by the adoption of a joint resolution to
that effect by the house and senate acting
concurrently.” See St. 1950, c. 639, § 22. Therefore,
not only have the emergency orders not precluded the
Legislature from exercising its full authority to pass
laws, but the Legislature also has at its disposal a way
to curb the Governor's powers under the CDA, should
it desire to do so, and it has not done so.22 See Boston
Gas Co., 387 Mass. at 541, citing Opinion of the
Justices, 375 Mass. at 813 (“critical inquiry is whether
the actions of one branch interfere with the functions

The plaintiffs’ argument that the emergency orders
amount to an improper exercise of police power also fails. The
Legislature can delegate the police power, see Arno v. Alcoholic
Beverages Control Comm’n, 377 Mass. 83, 88-89 (1979); Milton
v. Donnelly, 306 Mass. 451, 459 (1940), and the penalties that
are provided for in some of the emergency orders, see, e.g., Order
No. 13, are provided pursuant to the CDA. See St. 1950, c. 639,
§ 8 (“Whoever violates any provision of [an executive order or
general regulation promulgated by the governor under the CDA]
... shall be punished by imprisonment for not more than one year,
or by a fine of not more than [$500], or both”).
22

25a
of another”).23 For the foregoing reasons, we conclude
that the emergency orders do not violate art. 30.24
The plaintiffs state that the Legislature cannot
delegate its lawmaking prerogative to the Governor; however,
they have not demonstrated how the Governor’s actions serve to
abrogate this power. The argument does not rise to the level
required for appellate advocacy. See Mass. R. A. P. 16 (a)(9)(A),
as appearing in 481 Mass. 1628 (2019). Moreover, nothing in the
Governor's actions prevents the Legislature from exercising its
lawmaking prerogative or police power.
23

The United States District Court for the Western
District of Michigan certified questions to the Michigan Supreme
Court relating to the Michigan Governor’s authority to issue her
COVID-19 emergency orders. In re Cetified Questions from the
U.S. Dist. Court, No. 161492, slip op. at 2 (Mich. Oct. 2, 2020 (In
re Certified Questions). The Michigan Supreme Court held that (1)
absent legislative authorization, the Michigan Governor did not
possess the authority under the Emergency Management Act,
Mich. Comp. Laws §§ 30.401 et seq., to redeclare a state of
emergency or state of disaster based on the COVID-19 pandemic
after the twenty-eight days provided for in the statute had run;
and (2) because the Emergency Powers of the Governor Act of
1945, Mich Comp. Laws §§ 10.31 et seq., was an unlawful
delegation of legislative power to the executive branch, the
Michigan governor did not possess the authority to exercise
emergency powers under that act. Id. Although the Michigan
Supreme Court addressed facially similar issues to the ones at
hand in the present matter, a deeper look reveals two core
differences. First, unlike the Michigan Emergency Management
Act, the CDA does not contain a requirement that a set number of
days after declaring a state of disaster or state of emergency “the
governor shall issue an executive order or proclamation declaring
the [state of disaster or state of emergency] terminated, unless a
request by the governor for an extension of a number of days is
approved by resolution of both houses of the legislature.” See
Mich. Comp. Laws §§ 30.403(3), (4). Second, although the court
determined that the Emergency Powers of the Governor Act was
an unlawful delegation of power because of the broad scope and
24

26a
3. Constitutional rights. The plaintiffs also
argue that the emergency orders violate their Federal
and State constitutional rights to due process and
assembly. The Governor counters that the emergency
orders do not violate the plaintiffs' Federal and State
due process and assembly rights and that broad
deference should be afforded to the emergency orders.
We conclude that the emergency orders do not violate
the plaintiffs’ Federal or State due process or
assembly rights.
As an initial matter, the Governor argues that
under Jacobson v. Massachusetts, 197 U.S. 11 (1905),
during times of public health crises State action should
be upheld unless it lacks a “real or substantial relation
to the protection of the public health” or represents “a
plain, palpable invasion of rights secured by the
fundamental law.” Id. at 31. In South Bay United
Pentecostal Church v. Newsom, 140 S. Ct. 1613 (2020)
(South Bay), in which the applicants sought to enjoin
the enforcement of the California Governor’s order
limiting attendance at places of worship, Chief Justice
Roberts’s concurrence relied, in part, on Jacobson,
stating that “[the United States] Constitution
principally entrusts ‘[t]he safety and health of the

indefinite duration of the delegated powers, and the standards
of being “reasonable” and “necessary” that governed the
Michigan governor’s exercise of emergency powers were not
sufficient to render the statute constitutional, In re Certified
Questions, supra at 31-33, the differentiating factor is that the
CDA provides substantially more detail and guidance to the
governor than the Emergency Powers of the Governor Act
provided the Michigan Governor. Compare Mich. Comp. Laws
§§ 10.31, 10.32, 10.33, with St. 1950, c. 639, §§ 1-22.

27a
people’ to the politically accountable officials of the
States ‘to guard and protect.’” Id. at 1613 (Roberts,
C.J., concurring), quoting Jacobson, supra at 38.
Chief Justice Roberts further elaborated that “[w]hen
those officials ‘undertake[ ] to act in areas fraught
with medical and scientific uncertainties,’ their
latitude ‘must be especially broad.’ ” South Bay,
supra, quoting Marshall v. United States, 414 U.S.
417, 427 (1974). “Where those broad limits are not
exceeded, they should not be subject to secondguessing by an ‘unelected [State] judiciary,’ which
lacks the background, competence, and expertise to
assess public health and is not accountable to the
people.” South Bay, supra at 1613-1614, quoting
Garcia v. San Antonio Metro. Transit Auth., 469 U.S.
528, 545 (1985). Therefore, as long as the “broad
limits” are not surpassed, we will look to see whether
the emergency orders bear a “real or substantial
relation to the protection of the public health,”
Jacobson, supra at 31, and will not second guess the
emergency orders.25
In County of Butler v. Wolf, U.S. Dist. Ct., No. 2:20-cv677, 2020 WL 5647480 (W.D. Pa. Sept. 14, 2020), the judge was
presented with a constitutional challenge to the Pennsylvania
Governor’s orders related to the COVID-19 pandemic. In
determining the constitutional standard to apply, the judge
rejected the defendants’ argument that the deferential standard
of Jacobson v. Massachusetts, 197 U.S. 11 (1905), should apply,
instead applying “regular” constitutional scrutiny. County of
Butler, supra at 17. The judge stated: “Although the Jacobson
Court unquestionably afforded a substantial level of deference to
the discretion of state and local officials in matters of public
health, it did not hold that deference is limitless.” Id. at 13. The
judge quoted from Jacobson for the proposition that a public
health measure may violate the Constitution:
25

28a
a. Due process. The plaintiffs argue that the
emergency orders violated their rights to procedural
and substantive due process under art. 10 of the
Massachusetts Declaration of Rights and under the
due process clause of the Fourteenth Amendment to
the United States Constitution.

“Before closing this opinion we deem it
appropriate,
in
order
to
prevent
misapprehension [of] our views, to observe—
perhaps to repeat a thought already sufficiently
expressed, namely—that the police power of a
[S]tate, whether exercised ... by the legislature,
or by a local body acting under its authority, may
be exerted in such circumstances ... or by
regulations so arbitrary and oppressive in
particular cases ... as to justify the interference
of the courts to prevent wrong and oppression.”
(Alterations added to reflect original language in
Jacobson.)
Id., quoting Jacobson, supra at 38. The judge went on to
note that other courts and commentators question whether
“[Jacobson] remains instructive in light of the [tiered levels of
scrutiny developing after Jacobson].” County of Butler, supra at
13-14. And the core basis of the judge’s reasoning was that
“Jacobson should not be interpreted as permitting the
‘suspension’ of traditional levels of constitutional scrutiny in
reviewing challenges to COVID-19 mitigation measures.” Id. at
16, 17, citing Wiley & Vladeck, Coronavirus, Civil Liberties, and
the Courts: The Case Against “Suspending” Judicial Review, 133
Harv. L. Rev. F. 179, 182 (2020) (“Two considerations inform this
decision—the ongoing and open-ended nature of the restrictions
and the need for an independent judiciary to serve as a check on
the exercise of emergency government power”).
We agree that Jacobson does not lead us to disregard
constitutional scrutiny and defer completely to the executive’s
orders. Instead, we determine the appropriate level of scrutiny
and analyze the issues thereunder.

29a
i. Procedural due process. The plaintiffs contend
that their procedural due process rights were violated
because the Governor failed to provide adequate
process before burdening or denying their liberty and
property interests. The Governor argues that the
plaintiffs were not entitled to individual hearings
because the emergency orders were in response to a
public health crisis and because the emergency orders
were not adjudications, but instead were rules of
general and prospective application. We disagree with
the plaintiffs’ assertion because the emergency orders
were general rules, not individual adjudications. See
American Grain Prods. Processing Inst. v. Department
of Pub. Health, 392 Mass. 309, 323 n.20 (1984) (“It is
well settled that, where a proceeding is legislative or
political rather than adjudicatory, a hearing is not
essential to due process ...”). Adjudications involve
“specifically identified persons” who are affected,
whereas general rules involve legislative or policy
decisions that have a prospective and general
application. See Cambridge Elec. Light Co. v.
Department of Pub. Utils., 363 Mass. 474, 486-487
(1973). The emergency orders were general rules
because they are policy decisions that apply
prospectively to entire categories of organizations. See
id.; Hayeck v. Metropolitan Dist. Comm’n, 335 Mass.
372, 374-375 (1957). Therefore, because general rules
do not require an individualized, adjudicatory hearing,
see American Grain Prods. Processing Inst., supra, the
absence of the additional procedures here did not
violate the plaintiffs’ rights to procedural due process.26
The emergency orders are not, as the plaintiffs argue,
required to go through notice and comment rulemaking pursuant
to G. L. c. 30A, § 2. General Laws c. 30A, § 2, in part, requires an
agency to hold a public hearing before the adoption of a regulation
26

30a
ii. Substantive due process. The plaintiffs
contend that the emergency orders violate their
substantive due process rights because the emergency
orders interfere with their enjoyment of their liberty
and property interests and because the Governor
unlawfully dispensed with the law by deciding
arbitrarily which businesses were “essential,” and that
only some businesses could reopen. The Governor
argues that the emergency orders do not violate the
plaintiffs' substantive due process rights because in
crafting the emergency orders, he consulted
recommendations from public health officials and acted
in accordance with public health recommendations,
and because the plaintiffs do not have a constitutional
right to conduct their business, religious, or
educational activities free from government regulation.
We determine that the Governor did not act arbitrarily
and that the emergency orders did not violate the
plaintiffs’ substantive due process rights.
When analyzing due process challenges under
art. 10, we “adhere[ ] to the same standards followed
in Federal due process analysis.” Gillespie v.
Northampton, 460 Mass. 148, 153 n.12 (2011), quoting
Goodridge v. Department of Pub. Health, 440 Mass.
309, 353 (2003) (Spina, J., dissenting). When a
fundamental right is burdened, we apply strict
scrutiny, which requires that governmental restraints
be “narrowly tailored to further a legitimate and
if violation of the regulation is punishable by a fine or
imprisonment. However, the Governor is exempt from the
statute’s definition of “agency,” G. L. c. 30A, § 1(2), and G. L. c.
30A, §§ 1A-1D, which apply the hearing requirement to State
bodies that are exempt from the definition of “agency,” do not
include the Governor.

31a
compelling governmental interest” (citation omitted).
Gillespie, supra at 153. We apply rational basis
review where the statute does not “collide with a
fundamental right.” Id. As a matter of due process,
under the rational basis test, governmental action is
“constitutionally sound if it is reasonably related to
the furtherance of a valid State interest.” Id.
To the extent the plaintiffs argue that operating
a business, teaching one's child, and assembling for
religious reasons are burdened by the emergency
orders, these arguments do not subject the emergency
orders to strict scrutiny. The right to work is not a
fundamental right that receives strict scrutiny,
Commonwealth v. Henry’s Drywall Co., 366 Mass. 539,
542 (1974); the orders do not ban teaching children,
but rather limit gatherings in schools; and limitations
on religious gatherings to mitigate COVID-19 risks are
valid as long as the limitations are no more stringent
than those imposed on similarly situated secular
institutions, which they are in this case,27 see Roman
Catholic Diocese v. Cuomo, 141 S. Ct. 63, (2020); South
Bay, 140 S. Ct. at 1613 (Roberts, C.J., concurring).
We further disagree with the plaintiffs that the
Governor unlawfully has dispensed with the law,
thereby rendering the emergency orders arbitrary and
a violation of the plaintiffs’ substantive due process
rights. The plaintiffs note that the CDA allows for the
The petitioners have not argued that the houses of
worship are being treated differently from the secular businesses.
Nevertheless, we have reviewed the orders relating to houses of
worship in light of the order in Roman Catholic Diocese v. Cuomo,
141 S.Ct. 63 (2020), and we have concluded that the Governor’s
orders do not suffer from the same features criticized by the
Court in that case.
27

32a
“suspension of the operation of [law]” in certain
circumstances, St. 1950, c. 639, § 7(k), and they cite
Picquet, appellant, 5 Pick. 65, 69-70 (1827), for the
proposition that a suspension of the law affects all
people equally. They argue, however, that instead of
suspending the law, the Governor has dispensed with
the law by closing and then reopening some, but not
all, businesses. Dispensing with the law occurs when
the Legislature, or one acting with authority from the
Legislature, “suspend[s] any of the general laws,
limiting the suspension to an individual person, and
leaving the law still in force in regard to every one
else.” Id. See Commissioner of Pub. Health v. Bessie M.
Burke Memorial Hosp., 366 Mass. 734, 741 (1975).
That is not what the emergency orders have done.
Although the emergency orders do place different
businesses in different categories, this does not equate
to dispensing with the law, as the emergency orders do
not limit the suspension of the law to an individual
person, or group, but instead apply equally to similarly
situated categories of businesses. The Governor is
not, as the plaintiffs argue, “donn[ing] the mantle and
crown” to pick winners and losers; he is making
difficult decisions about which types of businesses are
“essential” to provide people with the services needed
to live and which types of businesses are more
conducive to spreading COVID-19, and basing his
emergency orders on those determinations. Because
the CDA grants the Governor the authority to issue
the emergency orders, and because the emergency
orders applied to broad categories of similarly
situated businesses and organizations, we conclude
that the emergency orders did not dispense with the
law, were not arbitrary, and therefore did not violate
the plaintiffs’ substantive due process rights.

33a
Because we determine that the emergency
orders do not burden the plaintiffs’ fundamental rights,
and we reject the plaintiffs’ arguments that the
emergency orders’ status as executive-made law
renders them subject to strict scrutiny and that they
dispense with the law, we conclude that the emergency
orders are subject to rational basis review. The
emergency orders as a whole were informed by public
health recommendations and serve the State interest
of slowing the spread of COVID-19, which is a
legitimate State interest. See Jacobson, 197 U.S. at 31;
Gillespie, 460 Mass. at 153. Although some businesses
and organizations bear a larger burden than others
under the emergency orders, this alone does not render
arbitrary the restrictions imposed by the emergency
orders.28 Therefore, the emergency orders do not
violate the plaintiffs’ substantive due process rights.
b. Free assembly. The plaintiffs argue that the
emergency orders unconstitutionally burden their right

The plaintiffs use the example of arcades and casinos
being in different opening phases. Casinos were allowed to open
in phase three, whereas arcades were moved from phase three to
phase four, but were thereafter allowed to reopen in September
2020. See Order Authorizing the Re-opening of Phase III
Enterprises, COVID-19 Order No. 43 (July 2, 2020); Order Making
Certain Phase III Adjustments, COVID-19 Order No. 50 (Sept. 10,
2020). Although at first glance, casinos and arcades seem like they
would pose the same level of risk for patrons, unlike arcades,
casinos are highly regulated by the Gaming Commission, and
Massachusetts has only three casinos. The high level of regulation
that could lessen the risk of spread of COVID-19 suffices as a
reason for the Governor to have placed the entities in different
phases. See New Orleans v. Dukes, 427 U.S. 297, 303 (1976);
Gillespie v. Northampton, 460 Mass. 148, 153 (2011).
28

34a
to free assembly under art. 19 of the Massachusetts
Declaration of Rights and the First Amendment to the
United States Constitution. We agree with the
Governor that the emergency orders are valid time,
place, and manner restrictions.
States may impose reasonable restrictions on
the time, place, or manner of protected speech and
assembly “provided the restrictions ‘are justified
without reference to the content of the regulated
speech, that they are narrowly tailored to serve a
significant governmental interest, and that they leave
open ample alternative channels for communication
of the information.’ ” Boston v. Back Bay Cultural
Ass’n, Inc., 418 Mass. 175, 178-179 (1994), quoting
Ward v. Rock Against Racism, 491 U.S. 781, 791,
(1989). The same test applies to restrictions analyzed
under art. 19. Opinion of the Justices, 430 Mass. 1205,
1208-1209 & n.3 (2000). We agree with the Governor
that reducing the dangers of COVID-19 is a
significant government interest, and we therefore
look to whether the emergency orders are content
neutral and narrowly tailored and leave open
alternative channels of communication.
We first determine that the emergency orders
are content neutral. The “principal inquiry in
determining content neutrality ... in time, place, or
manner cases ... is whether the government has
adopted a regulation of speech because of disagreement
with the message it conveys.” Back Bay Cultural Ass’n,
Inc., 418 Mass. at 179, quoting Ward, 491 U.S. at 791.
An order may regulate the secondary effects of speech
and assembly, such as public health, without being
held to regulate the expressive content of the speech or
assembly at issue. See Showtime Entertainment, LLC
v. Town of Mendon, 472 Mass. 102, 107 (2015), quoting

35a
Renton v. Playtime Theatres, Inc., 475 U.S. 41, 47-48
(1986).
Here, the purpose of the emergency orders is
unrelated to regulating the expressive content of the
regulated activities. The emergency orders, and the
regulations they impose, are based on the public health
data regarding the risks of COVID-19 spreading in
certain types of environments and on which businesses
are essential in the circumstances presented by the
pandemic.29 See, e.g., Order No. 13 (list of essential
businesses and other organizations “based on federal
guidance and amended to reflect the needs of
Massachusetts’[s] unique economy”).
We next determine that the emergency orders
are narrowly tailored. A time, place, or manner
restriction must be tailored narrowly to achieve a
No. 46 exempts political and religious gatherings from
its reach, but this exemption does not render the order viewpoint
based. See Third Revised Order Regulating Gatherings
Throughout the Commonwealth, COVID-19 Order No. 46 (Aug.
7, 2020) (Order No. 46). If exemptions “represent a governmental
attempt to give one side of a debatable public question an
advantage in expressing its views to the people,” exemptions can
invalidate an otherwise content-neutral regulation. See McCullen
v. Coakley, 573 U.S. 464, 483 (2014), quoting Ladue v. Gilleo, 512
U.S. 43, 51 (1994). Here, the exemptions do not invalidate the
restriction because the exemptions can be justified in light of the
secondary effect on public health, see Showtime Entertainment,
LLC v. Mendon, 472 Mass. 102, 107 (2015), quoting Renton v.
Playtime Theatres, Inc., 475 U.S. 41, 47-48 (1986), ad also
because religious gatherings are subject to the limitations set
forth in the “Places of worship” guidance and it was social
gatherings that the order specifically identified as contributing
to the rise in the infection rate. See Order No. 46 (“clusters of
COVID-19 infections have been traced to house parties in the
Commonwealth and in other States”).
29

36a
substantial government interest, but “it need not be
the least restrictive or the least intrusive means of
doing so.” Opinion of the Justices, 430 Mass. at 1211,
quoting Ward, 491 U.S. at 799. We will uphold a
restriction “[s]o long as the means chosen are not
substantially broader than necessary to achieve the
government's interest.” Showtime Entertainment, LLC,
472 Mass. at 109, quoting Ward, supra at 800. The
restrictions at issue readily meet this standard, as
reducing the number of people who can gather together
and taking other measures aimed at reducing the rate
of COVID-19, which spreads from person-to-person
contact, are not “substantially broader than necessary
to achieve the government's interest” of reducing the
spread of COVID-19. See Showtime Entertainment,
LLC, supra, quoting Ward, supra.
We also determine that the emergency orders
leave open alternative channels of communication. The
orders limit the number of people allowed at most
gatherings, but do not ban all in-person assembly, and
the plaintiffs have alternative ways to assemble, such
as through virtual assembly. See Renton, 475 U.S. at
53-54 (leaving more than five percent of town available
for adult theaters provided sufficient alternative
channels of communication); Opinion of the Justices,
430 Mass. at 1211-1212 (proposed buffer zone law left
open alternative channels of communication because
protests could still occur outside designated zones);
Friends of Danny DeVito v. Wolf, 227 A.3d 872, 903,
cert. denied, 141 S. Ct. 239 (2020) (restrictions did not
ban all in-person gatherings, and online mediums of
communication also sufficed).
Therefore, the emergency orders do not
unconstitutionally burden the plaintiffs’ right to free
assembly because reducing the dangers of COVID-19

37a
is a significant government interest, and because the
emergency orders are content neutral and narrowly
tailored, and they leave open alternative channels of
communication.
Conclusion. For the foregoing reasons, we
conclude that the CDA provides the Governor with
the authority for his March 10, 2020, declaration of a
state of emergency in response to the COVID-19
pandemic and for his issuance of the emergency
orders; the emergency orders do not violate art. 30;
and they do not violate the plaintiffs’ Federal or State
constitutional rights to procedural and substantive
due process or free assembly.
So ordered.

38a
APPENDIX B
COMMONWEALTH OF MASSACHUSETTS
SUFFOLK, SS.

SUPREME
JUDICIAL
COURT
FOR SUFFOLK COUNTY
NO. SJ-2020-0505
___________________

DAWN DESROSIERS & OTHERS1
VS.

CHARLES D. BAKER, in his official capacity as
Governor of the Commonwealth of Massachusetts
RESERVATION AND REPORT
The petitioners, individuals, business owners,
schools, and religious organizations, filed in the
Superior Court a complaint challenging the Governor’s
authority to declare a state of emergency relative to
the COVID-19 pandemic under the Civil Defense Act,
St. 1950, c. 639, § 5, and to issue the related emergency
Dawn Desrosiers, Dawn Desrosiers d/b/a Hair 4 You,
Susan Kupelian, Nazareth Kupelian, Naz Kupelian Salon, Carla
Agrippino-Gomes, Terramia, Inc., Antico Forno, Inc., James P.
Montoro, Pioneer Valley Baptist Church Incorporated, Kellie
Fallon, Bare Bottom Tanning Salon, Thomas E. Fallon, Thomas
E. Fallon d/b/a Union Street Boxing, Robert Walker, Apex
Entertainment LLC, Devens Common Conference Center LLC,
Luis Morales, Vida Real Evangelical Center, Ben Haskell,
Trinity Christian Academy of Cape Cod.
1

39a
orders he has issue. The petitioners also assert that the
emergency orders violate their rights to substantive
and procedural due process and to free assembly. This
matter came before me on the parties’ joint motion to
transfer this case from the Superior Court to this court,
pursuant to pursuant to [sic] G.L. c. 211, § 4A, and to
reserve and report the matter to the full court.
Due to the nature of the questions raised, and
the multiple pending cases in State and Federal courts
related to these issues of State-wide significance, the
parties’ motion to transfer is the most expeditious way
to resolve the questions presented in the petitioner’s
complaint. Upon consideration, I exercise my
discretion, pursuant to G.L. c. 211, § 4A, to order the
Superior Court case to be transferred to this court.
Thereafter, I hereby reserve and report the matter to
the full court for decision.
In addition to their briefs in the full court, the
parties are to prepare and file in the full court a
sufficiently comprehensive statement of agreed facts
that will enable the court to resolve the legal issues
raised in the pleadings; they may choose to submit the
statements of facts attached to their motion for
transfer, may modify that statement to include
identification of any specific orders they are
challenging with respect to any specific petitioner
individually, any specific types of businesses, or any
religious organizations, or may provide a new
statement.
The matter shall be scheduled for argument in
September, 2020. The parties shall consult with the
Clerk of the Supreme Judicial Court for the
Commonwealth regarding the designation of the
parties and the service and filing of briefs; no
extensions of time for filing are anticipated. This

40a
matter shall proceed in all respects in conformance
with the Massachusetts Rules of Appellate Procedure.
By the Court,
/s/ Barbara A. Lenk
Barbara A. Lenk
Associate Justice
Entered: July 10, 2020

41a
APPENDIX C
OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

GOVERNOR'S DECLARATION OF EMERGENCY
WHEREAS, on January 30, 2020, the World Health Organization designated the 2019 novel
Coronavirus outbreak as a Public Health Emergency oflntemational Concern;
WHEREAS, on January 31, 2020, United States Health and Human Services Secretary Alex M.
Azar II declared a public health emergency for the entire United States to aid the nation's
healthcare community in responding to the 2019 novel Coronavirus ("COVID-19");
WHEREAS, the disease caused by the 2019 novel Coronavirus is a contagious, and at times
fatal, respiratory disease;
WHEREAS, symptoms ofCOVID-19 include fever, cough, and shortness of breath, and the
disease can spread from person to person via respiratory droplets produced when an infected
person coughs or sneezes;
WHEREAS, as of March 10, 2020, according to the Centers for Disease Control and Prevention
("CDC"), there are more than 114,000 confmned cases of COVID-19 worldwide, and over 4,000
of those cases have resulted in death;
WHEREAS, as of March 10, 2020, according to the CDC, there are more than 600 confirmed
cases ofCOVID-19 in the United States, and 25 of those cases have resulted in death;
WHEREAS, as of March 10, 2020, there are 91 presumed positive cases of COVID-19 in the
Commonwealth;
WHEREAS, both travel-related cases and community contact transmission of COVID-19 have
been detected in the Commonwealth and such transmission is expected to continue;
WHEREAS, the Massachusetts Department of Public Health has instituted a Public Health
Incident Management Team to manage the public health aspects of the incident;
WHEREAS, the worldwide outbreak ofCOVID-19 and the effects of its extreme risk ofpersonto-person transmission throughout the United States and the Commonwealth significantly affect
the life and health of our people, as well as the economy, and is a disaster that impacts the health,
security, and safety of the public;

0

PRJITT£D ON fu:CTCLED p"~ER

42a

WHEREAS, it is critical to take additional steps to prepare for, respond to, and mitigate the
spread ofCOVID-19 to protect the health and welfare of the people of the Commonwealth; and
WHEREAS, declaring a state of emergency will facilitate and expedite the use of
Commonwealth resources and deployment of federal and interstate resources to protect persons
from the impacts of the spread ofCOVID-19;
NOW THEREFORE, I, Charles D. Baker, Governor of the Commonwealth of Massachusetts,
pursuant to the powers provided by Chapter 639 of the Acts of 1950 and Section 2A of Chapter
17 of the General Laws, do hereby issue this proclamation that there now exists in the
Commonwealth of Massachusetts a STATE OF EMERGENCY.
Pursuant to the powers granted to the Governor in Sections 5, 6, 7, 8, and SA of Chapter 639 of
the Acts of 1950, as amended, and other provisions oflaw, I shall from time to time issue
recommendations, directives, and orders as circumstances may require.
This proclamation of a STATE OF EMERGENCY is effective immediately and shall remain in
effect until notice is given, pursuant to my judgment, that the STATE OF EMERGENCY no
longer exists.

Given in Boston on"J~J-,.0 PM this 10th day of
March two thousand and twenty.

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

43a
APPENDIX D
OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE • BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER PROHIBITING GATHERINGS OF MORE THAN 250 PEOPLE
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19"); and
WHEREAS, the Federal Centers for Disease Control and Prevention ("CDC") and the
Massachusetts Department of Public Health ("DPH") recommend implementation of community
mitigation strategies, including the cancellation of large events. Additionally, the CDC and DPH
have advised high-risk individuals, including people over the age of 60, anyone with underlying
health conditions or a wealcened immune system, and pregnant women, to avoid large gatherings.
WHEREAS, sections 7, 8, and SA of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise authority over public
assemblages as necessary to protect the health and safety of persons;
NOW, THEREFORE, I hereby order the following:
Gatherings of over 250 people are prohibited throughout the Commonwealth. Gatherings
subject to this Order include, without limitation, community, civic, public, leisure, faith-based
events, sporting events with spectators, concerts, conventions, fundraisers, parades, fairs,
festivals, and any similar event or activity that brings together 250 or more persons in a single
room or single space at the same time in a venue such as an auditorium, stadium, arena, large
conference room, meeting hall, theatre, or any other confined indoor or outdoor space. This
Order shall not apply to any municipal legislative body or to the General Court or to the
judiciary.
The Department of Public Health is directed to issue guidance, subject to my approval, to
implement the terms of this Order. The Department of Public Health, along with any board of
health or authorized agent pursuant to G. L. c. 111, §30, shall enforce this Order and if necessary
may do so with the assistance of State or municipal police. Violation of the terms of this this

G}

PRIITTED ON REcYCLED PAPEfl

44a

Order or the guidance issued by the Department of Public Health may be result in penalties
pursuant to Section 8 of Chapter 631 of the Acts of 1950.
This Order is effective immediately and shall remain in effect until rescinded or until the
State of Emergency is terminated, whichever happens first.

Given in Boston a t ~ M this 13th day of
March, two thousand and twenty

~l)~
CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

45a
OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER
GOVERNOR

ORDER TEMPORARILY CLOSING ALL PUBLIC AND PRIVATE
ELEMENTARY AND SECONDARY SCHOOLS
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19"); and
WHEREAS, on March 11, the COVID-19 outbreak was characterized as a pandemic by
the World Health Organization;
WHEREAS, the number of presumptive positive and confirmed cases of COVID-19
continues to rise in the Commonwealth. As ofMarch 15, 2020, 164 cases ofCOVID-19 were
reported by the Department of Public Health, with 10 of the 14 counties in the Commonwealth
impacted;
WHEREAS, the Federal Centers for Disease Control and Prevention and the
Massachusetts Department of Public Health recommend implementation of community
mitigation strategies, including the cancellation of large events;
WHEREAS, the Department of Public Health is urging all residents of the
Commonwealth to practice social distancing when outside of their homes;
WHEREAS, sections 7, 8, and SA of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over public assemblages in order to protect the health and safety of
persons;
NOW, THEREFORE, I hereby order the following:
All public and private elementary and secondary (K-12) schools in the Commonwealth,
excluding residential and day schools for special needs students, shall suspend all normal, in-

@

PR[NTED ON

RE□tLED PAl'~R

46a

person instruction and other educational operations at the end of the school day on Monday,
March 16, 2020 and shall not re-open for normal operations before Monday, April 6, 2020.
Public school superintendents are directed to determine how to maintain the operation of
programs that provide food services and other essential, non-educational services to students and
families during the period in which this Order is in effect. Public school superintendents are
further directed to consult with their school boards, teaching staff, and other stakeholders how
best to provide student access to alternative learning opportunities during this period based on
considerations of equity and the availability of resources to support such efforts.

I hereby direct the Commissioner of the Department of Elementary and Secondary
Education to issue guidance, subject to my approval, to implement the terms of this Order and,
more broadly, to support public school systems in developing and implementing plans to assist
families and students in accessing alternative learning opportunities during the period in which
this Order is in effect.
The Department of Public Health and the Department of Elementary and Secondary
Education, along with any board of health or authorized agent pursuant to G. L. c. 111, § 30,
shall enforce this Order. In addition, I hereby direct the Commissioner of Public Health to act
under the authority of G. L. c. 17, § 2A to supplement the terms of this Order in the event she
detennines additional measures are required to ensure that the terms of this Order are observed.
/""v· lation of the terms of this this Order may result in penalties pursuant to Section 8 of Chapter
( 6 1 fthe Acts of 1950.

This Order is effective immediately and shall remain in effect until rescinded or until the
State of Emergency is terminated, whichever happens first.

Given in Boston atU; ( ~ this 15th day of
March, two thousand and twenty

~!J~

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

47a
OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER PROHIBITING GATHERINGS OF MORE THAN 25 PEOPLE AND
ON-PREMISES CONSUMPTION OF FOOD OR DRINK

WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the number of presumptive positive and confirmed cases of COVID-19
continues to rise in the Commonwealth. As of March 15, 2020, 164 cases ofCOVID-19 were
reported by the Department of Public Health, with IO of the 14 counties in the Commonwealth
impacted;
WHEREAS, the Federal Centers for Disease Control and Prevention and the
Massachusetts Department of Public Health recommend implementation of community
mitigation strategies, including the cancellation of large events;
WHEREAS, the Department of Public Health is urging all residents of the
Commonwealth to practice social distancing when outside of their homes; and
WHEREAS, sections 7, 8, and SA of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over public assemblages in order to protect the health and safety of
persons;
NOW, THEREFORE, I hereby order the following:

i;

48a

Gatherings of over 25 people are prohibited throughout the Commonwealth. Gatherings
subject to this Order include, without limitation, community, civic, public, leisure, faith-based
events, sporting events with spectators, concerts, conventions, fundraisers, parades, fairs,
festivals, and any similar event or activity that brings together 25 or more persons in a single
room or single space at the same time in a venue such as an auditorium, stadium, arena, large
conference room, meeting hall, theatre, gymnasium, fitness center, private club, or any other
confined indoor or outdoor space.
Any restaurant, bar, or establishment that offers food or drink shall not permit onpremises consumption of food or drink; provided that such establishments may continue to offer
food for take-out and by delivery provided that they follow the social distancing protocols set
forth in Department of Public Health guidance.
This Order shall not apply to any municipal legislative body or to the General Court or to
the judiciary.
The Commissioner of Public Health is directed to issue guidance, subject to my approval,
to implement the terms of this Order. The Department of Public Health, along with any board of
health or authorized agent pursuant to G.L. c. 111, §30, shall enforce this Order and if necessary
may do so with the assistance of State or municipal police. Violation of the terms of this Order
or the guidance issuep/-bthe Commissioner of Public Health may result in penalties pursuant to
Section 8 of Chapter 1 qfthe Acts of 1950.
'~-·-/

This Order is effective March 17, 2020 and shall remain in effect through April 5, 2020
unless further extended. On the effective date of this Order, the March 13, 2020 Order
Prohibiting Gatherings of More than 250 People is hereby rescinded.

6 f
O:rt;M

Given in Boston at
this 15th day of
March, two thousand and twenty

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

49a
OFFICE OF THE GOVERNOR

COMMONWEAL TH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE • BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER TEMPORARILY CLOSING ALL CHILD CARE PROGRAMS
AND AUTHORIZING THE TEMPORARY CREATION AND OPERATION
OF EMERGENCY CHILD CARE PROGRAMS
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the number of presumptive positive and confirmed cases ofCOVID-19
continues to rise in the Commonwealth. As of March 17, 2020, 218 cases of COVID-19 were
reported by the Department of Public Health, with 10 of the 14 counties in the Commonwealth
impacted;
WHEREAS, the Federal Centers for Disease Control and Prevention and the
Massachusetts Department of Public Health recommend implementation of community
mitigation strategies, including the cancellation of large events;
WHEREAS, the Department of Public Health is urging all residents of the
Commonwealth to practice social distancing when outside of their homes;
WHEREAS, maintaining the availability of first-responders, health care workers, and
others who help maintain the health, safety, and welfare of the Commonwealth's residents is
crucial to ensuring a robust, consistent, and effective response to this pandemic. Accordingly,
establishing measures to address the child care needs of those workers is of critical importance;
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but

©

P1mmm ON REcYClEO PAPES;

50a

not limited to authority over public assemblages in order to protect the health and safety of
persons, over educational facilities that are supported in whole or in part by public funds, so as to
extend those facilities' benefits and availability, and over variances of the terms and conditions
of licenses issued by the Commonwealth or any of its agencies;

NOW, THEREFORE, I hereby order the following:
(1) Temporary Closing of Child Care Programs
All licensed, approved, or exempt child care programs in the Commonwealth shall
suspend all normal operations by the end of the day on March 22, 2020 and shall not re-open
before Monday, April 6, 2020 unless under approval granted by the emergency program
authorized in section (2) below.
(2) Emergency Child Care Programs
The Department of Early Education and Care ("EEC"), acting through its Commissioner
and subject to my approval, is hereby authorized to issue policies, procedures, requirements, and
guidance to provide for the creation, approval, operation, staffing, monitoring, inspection,
investigation, oversight, and closure of emergency child care programs, and to provide funding
for such programs. EEC shall have access to and use of all available Criminal Offender Record
Information, juvenile, and sealed records, and Sex Offender Registry Information in order to
review and approve the staffing of emergency child care programs. Vulnerable children and
children of families who work to maintain the health, safety, and welfare of all Commonwealth
residents shall receive priority access to such emergency child care programs.
EEC, through its Commissioner, is hereby further authorized to temporarily suspend or
modify any existing regulation applicable to licensed, approved, or exempt child care programs
to the extent necessary to provide for the creation, operation, and sufficient availability of
emergency child care programs consistent with this Order.
This Order is effective immediately and shall remain in effect until rescinded or until the
State of Emergency is terminated, whichever happens first.

51a
Given in Boston at): 6>~M this 18th day of
March, two thousand and twenty

~});~
CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

52a
OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER ASSURING CONTINUED OPERATION OF ESSENTIAL SERVICES
IN THE COMMONWEALTH, CLOSING CERTAIN WORKPLACES,
AND PROHIBITING GATHERINGS OF MORE THAN 10 PEOPLE
COVID-19 Order No. 13
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the number of presumptive positive and confirmed cases of COVID-19
continues to rise exponentially in the Commonwealth. As of March 22, 2020, the Department of
Public Health had reported 646 cases ofCOVID-19, including 5 deaths, with 13 of the 14
counties in the Commonwealth impacted;
WHEREAS, the Department of Public Health is urging all residents of the
Commonwealth to limit activities outside of the home and to practice social distancing at all
times, both inside and outside of the home to limit the spread of this highly contagious and
potentially deadly virus;
WHEREAS, on March 19, 2020, the Federal Cybersecurity and Infrastructure Security
Agency issued guidance to assist States that identifies 14 critical infrastructure sectors whose
workers provide services and functions that are essential to maintain in order to support a strong
response to the COVID-19 pandemic;
WHEREAS, as Governor, I have identified additional services and functions that
likewise are essential to promote the public health and welfare of the Commonwealth, and

(i} Prumiso ON R£c,·c,.oo l'Ar·rn

53a

therefore it is imperative to ensure that workers providing critical services and functions in these
State and Federally designated sectors may continue to work to ensure community resilience and
continuity of response efforts; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over public assemblages in order to protect the health and safety of
persons, regulating the sale of articles of food and household articles, and policing, protection,
and preservation of public and private property;
NOW, THEREFORE, in order to minimize all unnecessary activities outside of the
home during the state of emergency, I hereby order the following:
1.

Maintaining Operation ofCOVID-19 Essential Services and Workforces

The production and service sectors identified in Exhibit A are hereby designated as
"COVID-19 Essential Services." The workforces engaged and working in these production and
service sectors are hereby designated as "COVID-19 Essential Workforces." I shall amend and
publish updates to Exhibit A as I determine necessary in response to conditions as they develop.
Businesses and other organizations that provide the services and functions identified as
COVID-19 Essential Services in Exhibit A are urged to continue operations during the state of
emergency, but to do so with allowance for social distancing protocols consistent with guidance
provided by the Department of Public Health.
Restaurants, bars, and other retail establishments that sell food and beverage products to
the public provide COVID-19 Essential Services and are designated as such in Exhibit A. These
establishments are therefore encouraged to continue to offer food and beverages for take-out and
by delivery provided that they follow the social distancing protocols set forth in Department of
Public Health guidance. Restaurants, bars, or other establishments that offer food or beverages
to the public shall not permit on-premises consumption of food or beverages.
2.

Temporary Closing of Other Businesses and Organizations

All businesses and other organizations that do not provide COVID-19 Essential Services
shall close their physical workplaces and facilities ("brick-and-mortar premises") to workers,
customers, and the public as of 12:00 noon on March 24, 2020 and shall not re-open to workers,
customers, or the public before 12:00 noon on April 7, 2020. Churches, temples, mosques, and
other places of worship shall not be required to close their brick and mortar premises to workers
or the public; provided, however, that such institutions shall be required to comply with all
limitations on gatherings established in section 3 below.

54a

Businesses and other organizations that do not provide COVID-19 Essential Services are
encouraged to continue operations where they are able to operate through remote means that do
not require workers, customers, or the public to enter or appear at the brick-and-mortar premises
closed by this Order.
3.

Limitations on Gatherings

Gatherings of more than 10 people are prohibited throughout the Commonwealth.
Gatherings subject to this Order include, without limitation, community, civic, public, leisure,
faith-based, or sporting events, concerts, conferences, conventions, fundraisers, parades, fairs,
festivals, weddings, funerals, and any similar event or activity that brings together more than 10
persons in any confined indoor or outdoor space. This limitation shall not apply to the
operations or activities of any business or organization in its provision or delivery of COVID-19
Essential Services.
This Order does not prohibit gatherings of more than 10 people in an unenclosed, outdoor
space such as a park, athletic field, or parking lot.
Athletic and recreational activities that bring participants into close, physical contact are
prohibited even when involving 10 or fewer people and regardless of where conducted.
4.

Exceptions

(a) This Order shall not apply to any municipal legislative body or to the General Court
or to the Judiciary.
(b) This Order shall not apply to residential schools for special needs students. This
Order also does not apply to public and private elementary and secondary (K-12) schools in the
Commonwealth, which are subject to the March 15, 2020 Order Temporarily Closing All Public
and Private Elementary and Secondary Schools, as may be subsequently amended, which
suspended all normal, in-person instruction.
(c) This Order does not apply to the operation of child care programs in the
Commonwealth, which are subject to the March 18, 2020 Order Temporarily Closing All Child
Care Programs and Authorizing the Temporary Creation and Operation of Emergency Child
Care Programs, as may be subsequently amended.
5.

Implementing Guidance and Enforcement

The Commissioner of Public Health is directed to issue guidance ("DPH Guidance"),
subject to my approval, to implement the terms of this Order. The DPH Guidance shall include a
requirement that grocery stores and other retailers with substantial retail grocery sales establish
special limited access hours during which elderly and other vulnerable populations may have
exclusive access to make grocery purchases.

55a

The Department of Public Health, along with any board of health or authorized agent
pursuant to G. L. c. 111, § 30, shall enforce this Order and if necessary may do so with the
assistance of State or municipal police. Violation of the terms of this Order or the DPH
Guidance may result in a criminal penalty pursuant to Section 8 of Chapter 639 of the Acts of
1950 or a civil fine ofup to $300 per violation, in the manner provided for non-criminal
disposition of violations of municipal by-law, ordinance, rule, or regulation pursuant to G. L.
c. 40, § 21D. A criminal complaint for violation of or a motion for an injunction to enforce this
Order or the DPH Guidance shall be filed in the district court with jurisdiction for the
municipality in which the violation has been charged.
In addition, I hereby direct the Commissioner of Public Health to act under the authority
of G. L. c. 17, § 2A and G. L. c. 111, § 6 or any other appropriate authority to supplement the
terms of this Order in the event she determines additional measures are required to ensure that
the terms of this Order are observed.
This Order supersedes and makes inoperative any order or rule issued by a municipality
that will or might in any way impede or interfere with the achievement of the objectives of this
Order. With respect to work and travel in particular, any order or rule issued by a municipality is
hereby made inoperative to the extent: (1) such municipal order or rule will or might interfere
with provisions of this Order ensuring the continued operation of COVID-19 Essential Services;
or (2) such municipal order or rule will or might interfere with the free travel anywhere within
the Commonwealth of any person who is a member of any COVID-19 Essential Workforce
where such travel is made in connection with the ongoing operation of COVID-19 Essential
Services.
This Order rescinds and revokes the Order Prohibiting Gatherings of More than 25
People and On-Premises Consumption of Food or Drink, issued March 15, 2020.
If any provision of this Order or the application thereof to any person or entity or
circumstance is determined to be invalid by a court of competent jurisdiction, such judgment
shall not affect or impair the validity of the other provisions of this Order or the application
thereof to other persons, entities, and circumstances.

56a

This Order shall be effective at 12:00 noon March 24, 2020 and shall remain in effect
through 12:00 noon on April 7, 2020 unless further extended.

Given in Boston at G/, .' ):(~M this 23rd day
of March, two thousand and twenty

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

57a
COVID-19 Essential Services
COVID-19 ESSENTIAL SERVICES
EXHIBIT A OF THE ORDER OF THE GOVERNOR ASSURING CONTINUED OPERATION OF ESSENTIAL
SERVICES IN THE COMMONWEALTH, CLOSING CERTAIN WORKPLACES AND PROHIBITING GATHERINGS
OF MORE THAN 10 PEOPLE
March 23, 2020
Governor Charlie Baker issued an emergency order requiring all businesses and organizations that do
not provide “COVID-19 Essential Services” to close their physical workplaces and facilities to workers,
customers and the public as of Tuesday, March 24th at noon until Tuesday, April 7th at noon. These
businesses are encouraged to continue operations remotely.
The Baker-Polito Administration issued a list of designated businesses and other organizations that
provide essential services and workforces related to COVID-19 that shall continue to operate brick and
mortar facilities during this two-week time period. This list is based on federal guidance and amended to
reflect the needs of Massachusetts’ unique economy. While these businesses are designated as
essential, they are urged to follow social distancing protocols for workers in accordance with guidance
from the Department of Public Health.
Businesses and organizations not on the list of essential services are encouraged to continue operations
through remote means that do not require workers, customers, or the public to enter or appear at the
brick-and-mortar premises closed by the order.
Restaurants, bars, and other establishments that sell food and beverage products to the public are
encouraged to continue to offer food for take-out and by delivery if they follow the social distancing
protocols set forth in Department of Public Health guidance continue operations. On-premises
consumption of food or drink is prohibited.

HEALTHCARE / PUBLIC HEALTH / HUMAN SERVICES
• Workers providing COVID-19 testing; Workers that perform critical clinical research needed for
COVID-19 response
• Medical Professionals and caregivers (e.g., physicians, dentists, psychologists, mid-level
practitioners, nurses and assistants, infection control and quality assurance personnel,
pharmacists, physical and occupational therapists and assistants, social workers, speech
pathologists and diagnostic and therapeutic technicians and technologists, other providers of
mental and behavioral health care, personal care attendants, home health aides and home care
workers)
• Hospital and laboratory personnel (including accounting, administrative, admitting and
discharge, engineering, epidemiological, source plasma and blood donation, food service,
housekeeping, medical records, information technology and operational technology,
nutritionists, sanitarians, respiratory therapists, etc.)
• Workers in other medical facilities (including Ambulatory Health and Surgical, Blood Banks,
Medical Clinics, Community Mental Health Centers, Methadone/OBOT Clinics, 24 hour
Diversionary and Residential Behavioral Health Providers, Comprehensive Outpatient
rehabilitation, End Stage Renal Disease, Health Departments, Home Health care, Hospices,
Hospitals, Nursing Facilities, Rest Homes, Assisted Living Residences, Organ Pharmacies,

March 23, 2020

58a
COVID-19 Essential Services

•
•

•
•
•
•

•
•
•

•
•
•
•

Procurement Organizations, Psychiatric Residential, Residential Treatment Schools, Rural Health
Clinics and Federally Qualified Health Center s and Community Health Centers, State Hospitals,
and licensed medical marijuana retailers)
Workers in other 24/7 community resident services serving children and youth, and individuals
with developmental, intellectual, physical and/or cognitive disabilities
Manufacturers, technicians, logistics and warehouse operators, and distributors of or necessary
to the supply chain of medical equipment, personal protective equipment (PPE), medical gases,
pharmaceuticals, blood and blood products, vaccines, testing materials, laboratory supplies,
cleaning, sanitizing, disinfecting or sterilization supplies, and tissue and paper towel products
Public health / community health workers, including those who compile, model, analyze and
communicate public health information
Blood and plasma donors and the employees of the organizations that operate and manage
related activities
Workers that manage health plans, billing, and health information, who cannot practically work
remotely
Workers who conduct community-based public health functions, conducting epidemiologic
surveillance, compiling, analyzing and communicating public health information, who cannot
practically work remotely
Workers performing cybersecurity functions at healthcare and public health facilities, who
cannot practically work remotely
Workers conducting research critical to COVID-19 response
Workers performing security, incident management, and emergency operations functions at or
on behalf of healthcare entities including healthcare coalitions, who cannot practically work
remotely
Workers who support food, shelter, and social services, and other necessities of life for
economically disadvantaged or otherwise needy individuals, such as those residing in shelters
Pharmacy employees necessary for filling prescriptions
Workers performing mortuary services and workers at funeral homes, crematoriums, and
cemeteries
Workers who coordinate with other organizations to ensure the proper recovery, handling,
identification, transportation, tracking, storage, and disposal of human remains and personal
effects; certify cause of death; and facilitate access to mental/behavioral health services to the
family members, responders, and survivors of an incident

LAW ENFORCEMENT, PUBLIC SAFETY, FIRST RESPONDERS
• Personnel in emergency management, law enforcement, Emergency Management Systems, fire,
and corrections, including front line and management required to maintain operations
• Emergency Medical Technicians
• 911 call center employees, including telecommunicators, dispatchers and managers
• Fusion Center employees
• Hazardous material responders from government and the private sector.
• Workers – including contracted vendors -- who maintain digital systems infrastructure
supporting law enforcement and emergency service operations.
FOOD AND AGRICULTURE
• Workers supporting groceries, pharmacies and other retail, including farmers markets and farm
stands, that sells food and beverage products, including liquor stores
• Restaurant carry-out and quick serve food operations - Carry-out and delivery food employees

March 23, 2020

59a
COVID-19 Essential Services
•

•

•
•
•
•
•
•
•
•

•

•
•
•

Food manufacturer employees and their supplier employees—to include those employed in
food processing (packers, meat processing, cheese plants, milk plants, produce, etc.) facilities;
livestock, poultry, seafood slaughter facilities; pet and animal feed processing facilities; human
food facilities producing by-products for animal food; beverage production facilities; and the
production of food packaging
Farm workers to include those employed in animal food, feed, and ingredient production,
packaging, and distribution; manufacturing, packaging, and distribution of veterinary drugs;
truck delivery and transport; farm and fishery labor needed to produce our food supply
domestically
Farm workers and support service workers to include those who field crops; commodity
inspection; fuel ethanol facilities; storage facilities; and other agricultural inputs
Workers supporting the seafood and fishing industry
Employees and firms supporting food, feed, and beverage distribution, including warehouse
workers, vendor-managed inventory controllers and blockchain managers
Workers supporting the sanitation of all food manufacturing processes and operations from
wholesale to retail
Company cafeterias - in-plant cafeterias used to feed employees; food service workers in
residential schools with students who are unable to leave campus
Workers in food testing labs in private industries and in institutions of higher education
Workers essential for assistance programs and government payments
Employees of companies engaged in the production of chemicals, medicines, vaccines, and
other substances used by the food and agriculture industry, including pesticides, herbicides,
fertilizers, minerals, enrichments, and other agricultural production aids
Animal agriculture workers to include those employed in veterinary health; manufacturing and
distribution of animal medical materials, animal vaccines, animal drugs, feed ingredients, feed,
and bedding, etc.; transportation of live animals, animal medical materials; transportation of
deceased animals for disposal; raising of animals for food; animal production operations;
slaughter and packing plants and associated regulatory and government workforce
Organizations and workers responsible for the care and custody of animals, pets and livestock
Workers who support the manufacture and distribution of forest products, including, but not
limited to timber, paper, and other wood products
Employees engaged in the manufacture and maintenance of equipment and other infrastructure
necessary to agricultural production and distribution

ENERGY
Electricity industry:
• Workers who maintain, ensure, or restore the reliable generation, transmission, and distribution
of electric power, including call centers, utility workers, reliability engineers and fleet
maintenance technicians
• Workers needed for safe and secure operations at nuclear generation
• Workers at generation, transmission and electric blackstart facilities
• Workers at Reliability Coordinator (RC), Balancing Authorities (BA), and primary and backup
Control Centers (CC), including but not limited to independent system operators, regional
transmission organizations, and balancing authorities
• Mutual assistance personnel

March 23, 2020

60a
COVID-19 Essential Services
•

•
•
•

IT and OT technology staff – for EMS (Energy Management Systems) and Supervisory Control
and Data Acquisition (SCADA) systems, and utility data centers; Cybersecurity engineers;
cybersecurity risk management
Vegetation management crews and traffic workers who support
Environmental remediation/monitoring technicians
Instrumentation, protection, and control technicians

Petroleum workers:
• Petroleum product storage, pipeline, marine transport, terminals, rail transport, road transport
• Crude oil storage facilities, pipeline, and marine transport
• Petroleum refinery facilities
• Petroleum security operations center employees and workers who support emergency response
services
• Petroleum operations control rooms/centers
• Petroleum drilling, extraction, production, processing, refining, terminal operations,
transporting, and retail for use as end-use fuels or feedstocks for chemical manufacturing
• Onshore and offshore operations for maintenance and emergency response
• Retail fuel centers such as gas stations and truck stops, and the distribution systems that
support them
Natural and propane gas workers:
• Natural gas transmission and distribution pipelines, including compressor stations, and road
transport
• Underground storage of natural gas
• Natural gas processing plants, and those that deal with natural gas liquids
• Liquefied Natural Gas (LNG) facilities
• Natural gas security operations center, natural gas operations dispatch and control
rooms/centers natural gas emergency response and customer emergencies, including natural
gas leak calls
• Drilling, production, processing, refining, and transporting natural gas for use as end-use fuels,
feedstocks for chemical manufacturing, or use in electricity generation
• Propane gas dispatch and control rooms and emergency response and customer emergencies,
including propane leak calls
• Propane gas service maintenance and restoration, including call centers
• Processing, refining, and transporting natural liquids, including propane gas, for use as end-use
fuels or feedstocks for chemical manufacturing
• Propane gas storage, transmission, and distribution centers
Steam workers:
• Workers who support steam distribution companies’ provision of district heating and any
electric generation
• Workers who support steam distribution companies’ dispatch and control rooms and
emergency response and customer emergencies, including steam leak calls
• Workers who support steam distribution companies’ service maintenance and restoration,
including call centers
• Workers who support steam distribution companies’ storage, transmission, and distribution
centers

March 23, 2020

61a
COVID-19 Essential Services
WATER AND WASTEWATER
Employees needed to operate and maintain public and private drinking water and wastewater/drainage
infrastructure, including:
• Operational staff at water authorities
• Operational staff at community water systems
• Operational staff at wastewater treatment facilities
• Workers repairing water and wastewater conveyances and performing required sampling or
monitoring
• Operational staff for water distribution and testing
• Operational staff at wastewater collection facilities
• Operational staff and technical support for SCADA Control systems
• Chemical disinfectant suppliers for wastewater and personnel protection
• Workers that maintain digital systems infrastructure supporting water and wastewater
operations

TRANSPORTATION AND LOGISTICS
• Employees supporting or enabling transportation functions, including dispatchers, maintenance
and repair technicians, warehouse workers, truck stop and rest area workers, and workers that
maintain and inspect infrastructure (including those that require cross-border travel)
• Employees of firms providing services that enable logistics operations, including cooling, storing,
packaging, and distributing products for wholesale or retail sale or use
• Mass transit and passenger rail workers, including contracted vendors providing transportation
and maintenance services to public transit authorities
• Workers critical to operating rental car companies and Transportation Network Companies
(TNCs) that facilitate continuity of operations for essential workforces, and other essential travel
• Workers responsible for operating dispatching passenger, commuter and freight trains and
public transportation and buses and maintaining rail and transit infrastructure and equipment
• Maritime transportation workers - port workers, mariners, equipment operators
• Truck drivers who haul hazardous and waste materials to support critical infrastructure,
capabilities, functions, and services
• Automotive repair and maintenance facilities
• Workers who respond to and clear traffic crashes, including contracted vendors and dispatchers
• Manufacturers and distributors (to include service centers and related operations) of packaging
materials, pallets, crates, containers, and other supplies needed to support manufacturing,
packaging staging and distribution operations
• Postal and shipping workers, to include private companies
• Workers who support moving and storage services
• Employees who repair and maintain vehicles, aircraft, rail equipment, marine vessels, and the
equipment and infrastructure that enables operations that encompass movement of cargo and
passengers
• Air transportation employees, including air traffic controllers, ramp personnel, aviation security,
and aviation management and other workers – including contracted vendors – providing
services for air passengers
• Workers who support the maintenance and operation of cargo by air transportation, including
flight crews, maintenance, airport operations, and other on- and off- airport facilities workers

March 23, 2020

62a
COVID-19 Essential Services
PUBLIC WORKS
• Workers who support the operation, inspection, and maintenance of essential dams, locks and
levees
• Workers who support the operation, inspection, and maintenance of essential public works
facilities and operations, including roads and bridges, water and sewer main breaks, fleet
maintenance personnel, construction of critical or strategic infrastructure, traffic signal
maintenance, emergency location services for buried utilities, maintenance of digital systems
infrastructure supporting public works operations, and other emergent issues
• Workers – including contracted vendors – involved in the construction of critical or strategic
infrastructure including public works construction, airport operations, water, sewer, gas,
electrical, nuclear, oil refining and other critical energy services, roads and highways, public
transportation, solid waste collection and removal, and internet, and telecommunications
systems (including the provision of essential global, national, and local infrastructure for
computing services)
• Workers such as plumbers, electricians, exterminators, inspectors and other service providers
who provide services that are necessary to maintaining the safety, sanitation, and essential
operation of residences, construction sites and projects, and needed facilities
• Support, such as road and line clearing and utility relocation, to ensure the availability of needed
facilities, transportation, energy and communications
• Support to ensure the effective removal, storage, and disposal of residential and commercial
solid waste and hazardous waste
• Licensed site clean-up professionals and other workers addressing hazardous spills, waste sites,
and remediation.
• Workers who support the operation, maintenance and public safety of state parks, forests,
wildlife management areas, water supply protection lands, and other critical natural resources.
• Workers who support storm clean-up operations (e.g., foresters).

COMMUNICATIONS AND INFORMATION TECHNOLOGY
Communications:
• Maintenance of communications infrastructure- including privately owned and maintained
communication systems- supported by technicians, operators, call-centers, wireline and wireless
providers, cable service providers, satellite operations, undersea cable landing stations, Internet
Exchange Points, and manufacturers and distributors of communications equipment
• Workers who support radio, television, and media service, including, but not limited to front line
news reporters, studio, and technicians for newsgathering and reporting
• Workers at Independent System Operators and Regional Transmission Organizations, and
Network Operations staff, engineers and/or technicians to manage the network or operate
facilities
• Engineers, technicians and associated personnel responsible for infrastructure construction and
restoration, including contractors for construction and engineering of fiber optic cables
• Installation, maintenance and repair technicians that establish, support or repair service as
needed
• Central office personnel to maintain and operate central office, data centers, and other network
office facilities
• Customer service and support staff, including managed and professional services as well as
remote providers of support to transitioning employees to set up and maintain home offices,

March 23, 2020

63a
COVID-19 Essential Services

•

who interface with customers to manage or support service environments and security issues,
including payroll, billing, fraud, and troubleshooting
Dispatchers involved with service repair and restoration

Information Technology:
• Workers who support command centers, including, but not limited to Network Operations
Command Center, Broadcast Operations Control Center and Security Operations Command
Center
• Data center operators, including system administrators, HVAC & electrical engineers, security
personnel, IT managers, data transfer solutions engineers, software and hardware engineers,
and database administrators
• Client service centers, field engineers, and other technicians supporting critical infrastructure, as
well as manufacturers and supply chain vendors that provide hardware and software, and
information technology equipment (to include microelectronics and semiconductors) for critical
infrastructure
• Workers responding to cyber incidents involving critical infrastructure, including medical
facilities, SLTT governments and federal facilities, energy and utilities, and banks and financial
institutions, and other critical infrastructure categories and personnel
• Workers supporting the provision of essential global, national and local infrastructure for
computing services (incl. cloud computing services), business infrastructure, web-based services,
and critical manufacturing
• Workers supporting communications systems and information technology used by law
enforcement, public safety, medical, energy and other critical industries
• Support required for continuity of services, including janitorial/cleaning personnel

OTHER COMMUNITY-BASED ESSENTIAL FUNCTIONS AND GOVERNMENT OPERATIONS
• Workers to ensure continuity of building functions, including local and state inspectors and
administrative support of inspection services who are responsible for the inspection of
elevators, escalators, lifts, buildings, plumbing and gas fitting, electrical work, and other safety
related professional work
• Security staff to maintain building access control and physical security measures
• Elections personnel
• Federal, State, and Local, Tribal, and Territorial employees who support Mission Essential
Functions and communications networks
• Trade Officials (FTA negotiators; international data flow administrators)
• Weather forecasters
• Workers that maintain digital systems infrastructure supporting other critical government
operations
• Workers at operations centers necessary to maintain other essential functions
• Workers who support necessary credentialing, vetting and licensing operations for
transportation workers including holders of Commercial Drivers Licenses
• Workers who are critical to facilitating trade in support of the national, state and local
emergency response supply chain
• Educators and staff supporting public and private emergency childcare programs, residential
schools for students with disabilities, K-12 schools, colleges, and universities for purposes of
facilitating distance learning, provision of school meals, or performing other essential student
support functions, if operating under rules for social distancing

March 23, 2020

64a
COVID-19 Essential Services
•
•
•
•

•
•

•

•

•
•

Hotel workers
Critical government workers, as defined by the employer and consistent with Continuity of
Operations Plans
Construction Workers who support the construction, operation, inspection, and maintenance of
construction sites and construction projects (including housing construction)
Workers that provide services for or determine eligibility for public benefits such as subsidized
health care, food and feeding programs, residential and congregate care programs, shelter, inhome supportive services, child welfare, juvenile justice programs, adult protective services and
social services, and other necessities of life for economically disadvantaged or otherwise needy
individuals (including family members)
Workers in sober homes
Professional services (such as legal and accounting services) and payroll and employee benefit
services, when necessary to assist in compliance with legally mandated activities and critical
sector services or where failure to provide such services during the time of the order would
result in significant prejudice
Commercial retail stores that supply essential sectors, including convenience stores, pet supply
stores, auto supplies and repair, hardware and home improvement, and home appliance
retailers
Laundromats and laundry services
Workers and instructors supporting academies and training facilities and courses for the
purpose of graduating students and cadets that comprise the essential workforce for all
identified critical sectors
Workers at places of worship

CRITICAL MANUFACTURING
• Workers necessary for the manufacturing of materials and products needed for medical supply
chains including personal protective equipment and hygiene products, transportation, energy,
communications, food and agriculture, chemical manufacturing, nuclear facilities, the operation
of dams, water and wastewater treatment, emergency services, and the defense industrial base.
HAZARDOUS MATERIALS
• Workers at nuclear facilities, workers managing medical waste, workers managing waste from
pharmaceuticals and medical material production, and workers at laboratories processing test
kits
• Workers who support hazardous materials response and cleanup
• Workers who maintain digital systems infrastructure supporting hazardous materials
management operations

FINANCIAL SERVICES
•
Workers who are needed to process and maintain systems for processing financial transactions
and services (e.g., payment, clearing, and settlement; wholesale funding; services; and capital
markets activities)
• Workers who are needed to provide consumer access to banking and lending services, including
ATMs, and to move currency and payments (e.g., armored cash carriers)
• Workers who support financial operations, such as those staffing data and security operations
centers
March 23, 2020

65a
COVID-19 Essential Services

CHEMICAL
• Workers supporting the chemical and industrial gas supply chains, including workers at chemical
manufacturing plants, workers in laboratories, workers at distribution facilities, workers who
transport basic raw chemical materials to the producers of industrial and consumer goods,
including hand sanitizers, food and food additives, pharmaceuticals, textiles, and paper
products.
• Workers supporting the safe transportation of chemicals, including those supporting tank truck
cleaning facilities and workers who manufacture packaging items
• Workers supporting the production of protective cleaning and medical solutions, personal
protective equipment, and packaging that prevents the contamination of food, water, medicine,
among others essential products
• Workers supporting the operation and maintenance of facilities (particularly those with high risk
chemicals and/or sites that cannot be shut down) whose work cannot be done remotely and
requires the presence of highly trained personnel to ensure safe operations, including plant
contract workers who provide inspections
• Workers who support the production and transportation of chlorine and alkali manufacturing,
single-use plastics, and packaging that prevents the contamination or supports the continued
manufacture of food, water, medicine, and other essential products, including glass container
manufacturing

DEFENSE INDUSTRIAL BASE
• Workers who support the essential services required to meet national security commitments to
the federal government and U.S. Military. These individuals, include but are not limited to,
aerospace; mechanical and software engineers, manufacturing/production workers; IT support;
security staff; security personnel; intelligence support, aircraft and weapon system mechanics
and maintainers
• Personnel working for companies, and their subcontractors, who perform under contract to the
Department of Defense providing materials and services to the Department of Defense, and
government-owned/contractor-operated and government-owned/government-operated
facilities
If the function of your business is not listed above, but you believe that it is essential or it is an entity
providing essential services or functions, you may request designation as an essential business.
Requests by businesses to be designated an essential function should only be made if they are NOT
covered by the guidance.
To request designation as an essential business, please click here:
https://www.mass.gov/forms/essential-service-designation-request
Any questions can be directed to covid19.biz@mass.gov.

March 23, 2020

66a
OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER EXTENDING THE TEMPORARY CLOSING OF ALL
NON-EMERGENCY CHILD CARE PROGRAMS

COVID-19 Order 15
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, in response to the pandemic, on March 18, 2020, I issued an Order
requiring all child care programs in the Commonwealth to suspend normal operations by the end
of the day on March 22, 2020 and not to re-open before Monday, April 6, 2020, and further
authorizing the Department of Early Education and Care to establish emergency child care
programs;
WHEREAS, the number of presumptive positive and confirmed cases ofCOVID-19
continues to rise exponentially in the Commonwealth. As of March 24, 2020, 1,159 cases of
COVID-19 were reported by the Department of Public Health, including 11 deaths; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over public assemblages in order to protect the health and safety of
persons, over educational facilities that are supported in whole or in part by public funds, so as to
extend those facilities' benefits and availability, and over variances of the terms and conditions
of licenses issued by the Commonwealth or any of its agencies;
NOW, THEREFORE, I hereby order the following:

*

PRl~7ED ON RECYCLED PAPER

67a

All licensed, approved, or exempt child care programs in the Commonwealth shall not reopen for normal operations before Monday, May 4, 2020, unless authorized by the Department
of Early Education and Care to continue operations as emergency programs. This directive
supersedes the provision of the March 18, 2020 Order establishing an earlier date for re-opening.
The Department of Public Health and the Department of Early Education and Care, along
with any board of health or authorized agent pursuant to G. L. c. 111, § 30, shall enforce this
Order. In addition, I hereby direct the Commissioner of Public Health to act under the authority
of G. L. c. 17, § 2A to supplement the terms of this Order in the event she determines additional
measures are required to ensure that the terms of this Order are observed. Violation of the terms
of this Order may result in penalties pursuant to Section 8 of Chapter 639 of the Acts of 1950.
This Order is effective immediately and shall remain in effect until May 4, 2020 unless
further extended.
Given in Boston at ~ jpM this 25th day of
March, two thousand and twenty

5/

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

68a
OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER EXTENDING THE TEMPORARY CLOSURE OF ALL PUBLIC AND
PRIVATE ELEMENTARY AND SECONDARY SCHOOLS

COVID-19 Order 16
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, the COVID-19 outbreak was characterized as a pandemic by
the World Health Organization;
WHEREAS, in response to the pandemic, on March 15, 2020, I issued an Order
requiring all public and private elementary and secondary (K-12) schools in the Commonwealth
to suspend normal, in-person instruction at the end of the school day on March 16, 2020 and not
to re-open for normal operations before April 6, 2020;
WHEREAS, the number of presumptive positive and confirmed cases ofCOVID-19
continues to rise exponentially in the Commonwealth. As of March 24, 2020, 1,159 cases of
COVID-19 were reported by the Department of Public Health, including 11 deaths; and
WHEREAS, sections 7, 8, and SA of chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over public assemblages in order to protect the health and safety of
persons;
NOW, THEREFORE, I hereby order the following:

All public and private elementary and secondary (K-12) schools in the Commonwealth,
excepting residential schools for special needs students, shall not re-open for normal operations

69a

before Monday, May 4, 2020. This directive supersedes the provision of the March 15, 2020
Order establishing an earlier date for re-opening.
As provided in the March 23 Order regarding Essential Services, public schools are
directed to continue efforts to maintain the operation of programs that provide take-out or
delivery food services and other essential, non-educational services to students and families
during the period in which this Order is in effect. Public schools are additionally directed to
continue collaborative efforts to provide student access to alternative learning opportunities.
The Department of Public Health and the Department of Elementary and Secondary
Education, along with any board of health or authorized agent pursuant to G. L. c. 111, § 30,
shall enforce this Order. In addition, I hereby direct the Commissioner of Public Health to act
under the authority of G. L. c. 17, § 2A to supplement the terms of this Order in the event she
determines additional measures are required to ensure that the terms of this Order are observed.
Violation of the terms of this Order may result in penalties pursuant to Section 8 of Chapter 639
of the Acts of 1950.
This Order is effective immediately and shall remain in effect until May 4, 2020 unless
further extended.

/

'3; /)M

Given in Boston at
this 25th day of
March, two thousand and twenty

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

70a
OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

STATE House• BosToN, MA 02133

(617) 725-4000

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER EXTENDING THE CLOSING OF CERTAIN WORKPLACES
AND THE PROHIBITION ON GATHERINGS OF MORE THAN 10 PEOPLE

COVID-19 Order No. 21
Extending the Operation ofCOVID-19 Order No. 13
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 63 9 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the number of presumptive positive and confirmed cases ofCOVID-19
continues to rise exponentially in the Commonwealth. As of March 30, 2020, the Department of
Public Health had reported 5,752 cases ofCOVID-19, including 56 deaths, with all counties in
the Commonwealth impacted;
WHEREAS, the Department of Public Health continues to urge all residents of the
Commonwealth to limit activities outside of the home and to practice social distancing at all
times to limit the spread of this highly contagious and potentially deadly virus;
WHEREAS, on March 19, 2020, the Federal Cybersecurity and Infrastructure Security
Agency issued guidance to assist States with identifying critical infrastructure sectors whose
workers provide services and functions that are essential to maintain in order to support a strong
response to the COVID-19 pandemic;
WHEREAS, on March 23, 2020, I issued an Order that designated COVID-19 Essential
Services, temporary closed the bricks-and-mortar premises of businesses and organizations that
do not provide COVID-19 Essential Services, and prohibited gatherings of more than 10 people;

71a

WHEREAS, on March 28, 2020, the Federal Cybersecurity and Infrastructure Security
Agency issued updated guidance on the identification of critical infrastructure sectors during the
COVID-19 Response;
WHEREAS, as Governor, I have identified additional services and functions that
likewise are essential to promote the public health and welfare of the Commonwealth, and
therefore it is imperative to ensure that workers providing critical services and functions in these
State and Federally designated sectors may continue to work to ensure community resilience and
continuity of response efforts; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over public assemblages in order to protect the health and safety of
persons, transportation and travel by any means or mode, regulating the sale of articles of food
and household articles, and policing, protection, and preservation of public and private property;
NOW, THEREFORE, I hereby order the following:

The provisions of the March 23, 2020 Order Assuring Continued Operation of Essential
Services in the Commonwealth, Closing Certain Workplaces, and Prohibiting Gatherings of
More than 10 People ("COVID-19 Order No. 13") are hereby extended until May 4, 2020.
Accordingly, all businesses and other organizations that do not provide COVID-19 Essential
Services shall not re-open their bricks-and-mortar premises to workers, customers, or the public
before May 4, 2020.
Gatherings of more than 10 people also remain prohibited until May 4, 2020.
Effective at 12:00 noon on April 1, 2020, Exhibit A of the previously issued COVID-19
Order No. 13 is hereby replaced with the attached, updated Exhibit A of even date with this
Order to reflect the revised guidance of the Federal Cybersecurity and Infrastructure Security
Agency and the additional services and functions that I, as Governor, have identified as essential
to promote the public health and welfare of the Commonwealth.
The Commissioner of Public Health shall continue to issue guidance as necessary and
subject to my approval to implement the terms ofCOVID-19 Order No. 13.
The Massachusetts Department of Transportation, in consultation with the Division of
Capital and Asset Management and Maintenance, shall issue guidance and enforcement
procedures for the safe operation of public works construction sites, consistent with the terms of
Exhibit A of COVID-19 Order No. 13.

72a

The Department of Public Health, along with any board of health or authorized agent
pursuant to G. L. c. 111, § 30, shall continue to enforce the terms ofCOVID-19 Order No. 13
and implementing guidance issued under the authority of that Order as here amended.
In addition, I renew my directive to the Commissioner of Public Health to act under the
authority of G. L. c. 17, § 2A and G. L. c. 111, § 6 or any other appropriate authority to
supplement the terms of COVID-19 Order No. 13 in the event she determines additional
measures are required to ensure that its terms are observed.
This Order is effective immediately and shall remain in effect until May 4, 2020 unless
further extended.

~

Given in Boston at (; (rM this 31st day
of March, two thousand and twenty

C/4Jv 7) fb-W
CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

73a
COVID-19 Essential Services
COVID-19 ESSENTIAL SERVICES
EXHIBIT A OF THE ORDER OF THE GOVERNOR ASSURING CONTINUED OPERATION OF ESSENTIAL
SERVICES IN THE COMMONWEALTH, CLOSING CERTAIN WORKPLACES AND PROHIBITING GATHERINGS
OF MORE THAN 10 PEOPLE
As updated March 31, 2020
Governor Charlie Baker’s emergency order requiring that all businesses and organizations that do not
provide “COVID-19 Essential Services” close their physical workplaces and facilities to workers,
customers and the public will be extended until May 4. Businesses and organizations not on the list of
essential services are encouraged to continue operations through remote means that do not require
workers, customers, or the public to enter or appear at the brick-and-mortar premises closed by the
order. This order also prohibits gatherings of more than 10 people until May 4th.
The Administration updated the “COVID-19 Essential Services” list today, which is based on federal
guidance that was updated earlier this week. The new list will go into effect tomorrow, April 1, at noon.
While these businesses are designated as essential, they are urged to follow social distancing protocols
for workers in accordance with guidance from the Department of Public Health (DPH).
HEALTHCARE / PUBLIC HEALTH
• Workers who perform critical clinical research, development, and testing needed for COVID-19
response.
• Healthcare providers and Caregivers including physicians, dentists, psychologists, mid-level
practitioners, nurses and assistants, infection control and quality assurance personnel,
pharmacists, physical and occupational therapists and assistants, social workers, optometrists,
speech pathologists, chiropractors, other providers of mental and behavioral health care, peer
support and recovery coach workers, personal care attendants, home health aides and home
care workers, and diagnostic and therapeutic technicians and technologists.
• Hospital and laboratory personnel (including accounting, administrative, admitting and
discharge, engineering, epidemiological, source plasma and blood donation, food service,
housekeeping, medical records, information technology and operational technology,
nutritionists, sanitarians, respiratory therapists, etc.).
• Workers in other medical and biomedical facilities (including Ambulatory Health and Surgical,
Blood Banks, Medical Clinics, Community Mental Health Centers, Comprehensive Outpatient
rehabilitation, Methadone/OBOT Clinics, 24 hour Diversionary and Residential Behavioral
Health Providers, End Stage Renal Disease, Health Departments, Home Health care, Hospices,
Hospitals, Rest Homes, Assisted Living Residences, Nursing Care Facilities, Organ Pharmacies,
Procurement Organizations, Psychiatric Residential, Residential Treatment Schools, Rural Health
Clinics and Federally Qualified Health Centers, State Hospitals, licensed medical marijuana
retailers, and retail facilities specializing in medical good and supplies).
• Manufacturer workers for health manufacturing (including biotechnology companies), materials
and parts suppliers, logistics and warehouse operators, distributors of medical equipment
(including those who test and repair), personal protective equipment (PPE), isolation barriers,
medical gases, pharmaceuticals (including companies and institutions involved in the research
and development, manufacture, distribution, warehousing, and supplying of pharmaceuticals,
biotechnology therapies, and medical devices, diagnostics, equipment and services) (including
materials used in radioactive drugs), dietary supplements, blood and blood products, vaccines,

Exhibit A updated as of 3/31/20

74a
COVID-19 Essential Services

•
•
•
•

•
•

•
•
•

testing materials, laboratory supplies, cleaning, sanitizing, disinfecting or sterilization supplies,
and tissue and paper towel products.
Public health / community health workers, including those who compile, model, analyze and
communicate public health information.
Blood and plasma donors and the employees of the organizations that operate and manage
related activities.
Workers who manage health plans, billing, and health information, who cannot practically work
remotely.
Workers who conduct community-based public health functions, conducting epidemiologic
surveillance, compiling, analyzing and communicating public health information, who cannot
practically work remotely.
Workers performing information technology and cybersecurity functions at healthcare and
public health facilities, who cannot practically work remotely.
Workers performing security, incident management, and emergency operations functions at or
on behalf of healthcare entities including healthcare coalitions, who cannot practically work
remotely.
Pharmacy employees necessary to maintain uninterrupted prescription filling.
Workers performing mortuary funeral, cremation, burial, cemetery, and related services,
including at funeral homes, crematoriums, cemeteries, and coffin makers.
Workers who coordinate with other organizations to ensure the proper recovery, handling,
identification, transportation, tracking, storage, and disposal of human remains and personal
effects; certify cause of death; and facilitate access to mental/behavioral health services to the
family members, responders, and survivors of an incident.

LAW ENFORCEMENT, PUBLIC SAFETY, AND OTHER FIRST RESPONDERS
• Public, private, and voluntary personnel (front line and management) in emergency
management, law enforcement, fire and rescue services, emergency medical services, and
private security, to include public and private hazardous material responders, air medical service
providers (pilots and supporting technicians), corrections, and search and rescue personnel.
• 911 call center employees (including telecommunicators, dispatchers and managers) and Public
Safety Answering Points and other police communication facilities who can’t perform their
duties remotely.
• Fusion Center employees.
• Workers – including contracted vendors -- who maintain, manufacture, or supply equipment
and services supporting law enforcement emergency service and response operations (to
include electronic security and life safety security personnel).
• Workers supporting the manufacturing of safety equipment and uniforms for law enforcement,
public safety personnel, and first responders.
• Workers supporting the operation of firearm or ammunition product manufacturers, importers,
and distributors.
• Public agency workers responding to abuse and neglect of children, elders, and dependent
adults.
• Workers who support weather disaster / natural hazard mitigation and prevention activities.
• Security staff to maintain building access control and physical security measures.
FOOD AND AGRICULTURE
• Workers supporting groceries, pharmacies, convenience stores, farmers markets and farm
stands, nurseries, greenhouses, garden centers, and agriculture supply stores, and other retail

Exhibit A updated as of 3/31/20

75a
COVID-19 Essential Services

•
•

•

•

•

•
•
•
•
•

•

•

•

•
•
•

(including unattended and vending) that sells human food, animal/pet food and pet supply, and
beverage products (including liquor stores), including retail customer support service and
information technology support staff necessary for online orders, pickup and delivery.
Restaurant carry-out and quick serve food operations, including dark kitchen and food prep
centers, and carry-out and delivery food employees.
Food manufacturer employees and their supplier employees—to include those employed in
food ingredient production and processing facilities; livestock, poultry, seafood slaughter
facilities; pet and animal feed processing facilities; human food facilities producing by-products
for animal food; beverage production facilities; and the production of food packaging.
Farmers, farm workers, and agribusiness support services to include those employed in auction
and sales: grain and oilseed handling, processing and distribution; animal food, feed, and
ingredient production, packaging, and distribution; manufacturing, packaging, and distribution
of veterinary drugs; truck delivery and transport; farm and fishery labor needed to produce our
food supply domestically and for export.
Farmers, farm workers, support service workers, and their supplier employees to include those
engaged in producing and harvesting field crops; commodity inspection; fuel ethanol facilities;
biodiesel and renewable diesel facilities; storage facilities; and other agricultural inputs.
Employees and firms supporting the distribution of food, feed, and beverage and ingredients
used in these products, including warehouse workers, vendor- managed inventory controllers
and blockchain managers.
Workers supporting the sanitation and pest control of all food manufacturing processes and
operations from wholesale to retail.
Employees in cafeterias used to feed employees, particularly employee populations sheltered
against COVID-19.
Food service workers in residential schools with students who are unable to leave campus
Workers in animal diagnostic and food testing laboratories in private industries and in
institutions of higher education.
Government, private, and non-governmental organizations’ workers essential for food
assistance programs (including school breakfast and lunch programs) and government
payments.
Employees of companies engaged in the production, storage, transport, and distribution of
chemicals, medicines, vaccines, and other substances used by the food and agriculture industry,
including seeds, pesticides, herbicides, fertilizers, minerals, enrichments, and other agricultural
production aids.
Animal agriculture workers to include those employed in veterinary health (including those
involved in supporting emergency veterinary or livestock services); raising of animals for food;
animal production operations; livestock markets; slaughter and packing plants, manufacturers,
renderers, and associated regulatory and government workforce.
Transportation supporting animal agricultural industries, including movement of animal medical
and reproductive supplies and materials, animal vaccines, animal drugs, feed ingredients, feed,
and bedding, live animals, animal by-products, and deceased animals for disposal.
Workers who support sawmills and the manufacture and distribution of fiber and forest
products, including, but not limited to timber, paper, and other wood and fiber products.
Employees engaged in the manufacture and maintenance of equipment and other infrastructure
necessary for agricultural production and distribution.
Organizations and workers responsible for the care and custody of animals, pets and livestock

ENERGY

Exhibit A updated as of 3/31/20

76a
COVID-19 Essential Services
•

Workers supporting the energy sector, regardless of the energy source (including but not limited
to nuclear, fossil, hydroelectric, or renewable), segment of the system, or infrastructure the
worker is involved in, or who are needed to monitor, operate, engineer, and maintain the
reliability, safety, environmental health, and physical and cyber security of the energy system.
• Energy/commodity trading/scheduling/marketing functions, who can't perform their duties
remotely.
• IT and OT technology for essential energy sector operations including support workers,
customer service operations; energy management systems, control systems, and Supervisory
Control and Data Acquisition SCADA systems, and energy sector entity data centers;
cybersecurity engineers; and cybersecurity risk management.
• Workers supporting the energy sector through renewable energy infrastructure or energy
efficiency projects (including, but not limited to wind, solar, biomass, hydrogen, ocean,
geothermal, and/or hydroelectric), including those supporting construction, manufacturing,
transportation, permitting, operation/maintenance, monitoring, and logistics.
• Workers and security staff involved in nuclear re-fueling operations.
• Providing services related to energy sector fuels (including, but not limited, petroleum (crude
oil), natural gas, propane, natural gas liquids, other liquid fuels, nuclear, and coal), supporting
the mining, processing, manufacturing, construction, logistics, transportation, permitting,
operation/maintenance, security, waste disposal and storage, and monitoring of support for
resources.
• Environmental remediation/monitoring, limited to immediate critical needs technicians.
• Manufacturing and distribution of equipment, supplies, and parts necessary to maintain
production, maintenance, restoration, and service at energy sector facilities (across all energy
sector segments).
Electricity industry:
• Workers who maintain, ensure, or restore, or are involved in the reliable development,
transportation, fuel procurement, expansion, or operation of the generation, transmission, and
distribution of electric power, including call centers, utility workers, engineers, retail electricity,
constraint maintenance, and fleet maintenance technicians- who cannot perform their duties
remotely.
• Workers at coal mines, production facilities, and those involved in manufacturing,
transportation, permitting, operation/maintenance and monitoring at coal sites which is critical
to ensuring the reliability of the electrical system.
• Workers who produce, process, ship and handle coal used for power generation and
manufacturing.
• Workers needed for safe and secure operations at nuclear generation to include but not limited
to, the broader nuclear supply chain, parts to maintain nuclear equipment, fuel manufacturers
and fuel components used in the manufacturing of fuel.
• Workers at renewable energy infrastructure (including, but not limited to wind, solar, biomass,
hydrogen, geothermal, and/or hydroelectric), including those supporting construction,
manufacturing, transportation, permitting, operation/maintenance, monitoring, and logistics.
• Workers at generation, transmission, and electric black start facilities.
• Workers at Reliability Coordinator, Balancing Authorities, and primary and backup Control
Centers, including but not limited to independent system operators, regional transmission
organizations, and local distribution control centers.
• Mutual assistance personnel which may include workers from outside of the state or local
jurisdiction.
• Vegetation management and traffic control for supporting those crews.

Exhibit A updated as of 3/31/20

77a
COVID-19 Essential Services
•
•
•
•

Environmental remediation/monitoring workers limited to immediate critical needs technicians.
Instrumentation, protection, and control technicians.
Essential support personnel for electricity operations.
Generator set support workers such as diesel engineers used in power generation including
those providing fuel.

Petroleum industry:
• Workers for onshore and offshore petroleum drilling operations; platform and drilling
construction and maintenance; transportation (including helicopter operations), maritime
transportation, supply, and dredging operations; maritime navigation; well stimulation,
intervention, monitoring, automation and control, extraction, production; processing; waste
disposal, and maintenance, construction, and operations.
• Workers for crude oil, petroleum and petroleum product storage and transportation, including
pipeline, marine transport, terminals, rail transport, storage facilities and racks and road
transport for use as end-use fuels such as gasoline, diesel fuel, jet fuel, and heating fuels or
feedstocks for chemical manufacturing.
• Petroleum and petroleum product security operations center employees and workers who
support maintenance and emergency response services.
• Petroleum and petroleum product operations control rooms/centers and refinery facilities.
• Retail fuel centers such as gas stations and truck stops, and the distribution systems that
support them.
• Supporting new and existing construction projects, including, but not limited to, pipeline
construction.
Natural Gas, Natural Gas Liquids (NGL), Propane, and other liquid fuels:
• Workers who support onshore and offshore drilling operations, platform and drilling
construction and maintenance; transportation (including helicopter operations); maritime
transportation, supply, and dredging operations; maritime navigation; natural gas and natural
gas liquid production, processing, extraction, storage and transportation; well intervention,
monitoring, automation and control; waste disposal, and maintenance, construction, and
operations.
• Transmission and distribution pipeline workers, including compressor stations and any other
required, operations maintenance, construction, and support for natural gas, natural gas liquid,
propane, and other liquid fuels.
• Natural gas, propane, natural gas liquids, and other liquid fuel processing plants, including
construction, maintenance, and support operations.
• Natural gas processing plants workers, and those that deal with natural gas liquids.
• Workers who staff natural gas, propane, natural gas liquids, and other liquid fuel security
operations centers, operations dispatch and control rooms/centers, and emergency response
and customer emergencies (including leak calls) operations.
• Drilling, production, processing, refining, and transporting natural gas for use as end-use fuels,
feedstocks for chemical manufacturing, or use in electricity generation.
• Dispatch and control rooms and emergency response and customer emergencies, including
propane leak calls.
• Propane gas service maintenance and restoration, including call centers.
• Propane, natural gas liquids, and other liquid fuel distribution centers.
• Propane gas storage, transmission, and distribution centers.
• Supporting new and existing construction projects, including, but not limited to, pipeline
construction

Exhibit A updated as of 3/31/20

78a
COVID-19 Essential Services
•
•

Ethanol and biofuel production, refining, and distribution.
Workers in fuel sectors (including, but not limited to nuclear, coal, and gas types and liquid
fuels) supporting the mining, manufacturing, logistics, transportation, permitting,
operation/maintenance, and monitoring of support for resources.

Steam workers:
• Workers who support steam distribution companies’ provision of district heating and any
electric generation
• Workers who support steam distribution companies’ dispatch and control rooms and
emergency response and customer emergencies, including steam leak calls
• Workers who support steam distribution companies’ service maintenance and restoration,
including call centers
• Workers who support steam distribution companies’ storage, transmission, and distribution
centers
WATER AND WASTEWATER
Employees needed to operate and maintain public and private drinking water and wastewater/drainage
infrastructure, including:
• Operational staff at water authorities.
• Operational staff at community water systems.
• Operational staff at wastewater treatment facilities.
• Workers repairing water and wastewater conveyances and performing required sampling or
monitoring, including field staff.
• Operational staff for water distribution and testing.
• Operational staff at wastewater collection facilities.
• Operational staff and technical support for SCADA Control systems.
• Chemical and equipment suppliers to water and wastewater systems and personnel protection.
• Workers who maintain digital systems infrastructure supporting water and wastewater
operations.
TRANSPORTATION AND LOGISTICS
• Employees supporting or enabling transportation functions, including truck drivers, bus drivers,
dispatchers, maintenance and repair technicians, warehouse workers, truck stop and rest area
workers, Registry of Motor Vehicle (RMV) employees, towing/recovery services, roadside
assistance workers, intermodal transportation personnel, and workers who maintain and
inspect infrastructure (including those that require cross-jurisdiction travel).
• Workers supporting the distribution of food, pharmaceuticals (including materials used in
radioactive drugs) and other medical materials, fuels, chemicals needed for water or water
treatment and energy
• Workers, including contracted vendors, engaged in the maintenance and operation of essential
highway infrastructure, including roads, bridges, and tunnels (e.g., traffic operations centers and
moveable bridge operators).
• Employees of firms providing services, supplies, and equipment that enable warehouse and
operations, including cooling, storing, packaging, and distributing products for wholesale or
retail sale or use. Includes cold- and frozen-chain logistics for food and critical biologic products.

Exhibit A updated as of 3/31/20

79a
COVID-19 Essential Services
•

•

•
•

•

•
•
•
•
•

•
•
•

•

•

•
•
•

Mass transit, freight and passenger rail workers, including contracted vendors, providing transit
services and/or performing critical or routine maintenance to rail or mass transit infrastructure
or equipment.
Employees supporting personal and commercial transportation services – including taxis,
delivery services, vehicle rental services, bicycle maintenance and car-sharing services, and
transportation network providers.
Workers responsible for operating and dispatching passenger, commuter and freight trains
public transportation and buses and maintaining rail and transit infrastructure and equipment.
Maritime transportation workers, including dredgers, port workers, mariners, ship
crewmembers, ship pilots and tug boat operators, equipment operators (to include
maintenance and repair, and maritime-specific medical providers), ship supply, chandler, and
repair companies.
Workers including truck drivers, railroad employees and contractors, maintenance crew, and
cleaners supporting transportation of chemicals, hazardous, medical, and waste materials to
support critical infrastructure, capabilities, functions, and services, including specialized carriers,
crane and rigging industry workers.
Bus drivers and workers who provide or support intercity, commuter and charter bus service in
support of other essential services or functions.
Automotive repair, maintenance, and transportation equipment manufacturing and distribution
facilities (including those who repair and maintain electric vehicle charging stations).
Workers who respond to and clear traffic crashes, including contracted vendors and dispatchers
Transportation safety inspectors, including hazardous material inspectors and accident
investigator inspectors.
Manufacturers and distributors (to include service centers and related operations) of packaging
materials, pallets, crates, containers, and other supplies needed to support manufacturing,
packaging staging and distribution operations.
Postal, parcel, courier, last-mile delivery, and shipping and related workers, to include private
companies.
Workers who support moving and storage services
Employees who repair and maintain motor vehicles, subway and rail vehicles, rolling stock,
buses, aircraft, rail equipment, marine vessels, bicycles, and the equipment and infrastructure
that enables operations that encompass movement of cargo and passengers.
Air transportation employees, including air traffic controllers and maintenance personnel, ramp
workers, aviation and aerospace safety, security, and operations personnel and accident
investigations.
Workers, including contracted vendors, who support the operation, distribution, maintenance,
and sanitation, of air transportation for cargo and passengers, including flight crews,
maintenance, airport operations, those responsible for cleaning and disinfection, and other onand off- airport facilities workers.
Workers supporting transportation via inland waterways such as barge crew, dredging, river
port workers for essential goods.
Workers critical to rental and leasing of vehicles and equipment that facilitate continuity of
operations for essential workforces and other essential travel.
Warehouse operators, including vendors and support personnel critical for business continuity
(including HVAC & electrical engineers; security personnel; and janitorial staff) and customer
service for essential functions.

PUBLIC WORKS AND INFRASTRUCTURE SUPPORT SERVICES

Exhibit A updated as of 3/31/20

80a
COVID-19 Essential Services
•
•
•
•
•

•

Support to ensure the effective removal, storage, and disposal of residential and commercial
solid waste, recycling, and hazardous waste, including landfill operations.
Workers who support the operation, inspection, and maintenance of essential dams, locks and
levees.
Workers who support the inspection and maintenance of aids to navigation, and other
government provided services that ensure continued maritime commerce.
Licensed site clean-up professionals and other workers addressing hazardous spills, waste sites,
and remediation.
Workers who support the operation, maintenance and public safety of parks, forests,
reservations, conservation restrictions, wildlife management areas, water supply protection
lands, and other critical natural resources and open space for passive recreation.
Workers who support storm clean-up operations (e.g., foresters).

COMMUNICATIONS AND INFORMATION TECHNOLOGY
Communications:
• Maintenance of communications infrastructure- including privately owned and maintained
communication systems- supported by technicians, operators, call -centers, wireline and
wireless providers, cable service providers, satellite operations, Internet Exchange Points, Points
of Presence, Network Access Points, back haul and front haul facilities, and manufacturers and
distributors of communications equipment.
• Government and private sector employees (including government contractors) with work
related to undersea cable infrastructure and support facilities, including cable landing sites,
beach manhole vaults and covers, submarine cable depots and submarine cable ship facilities.
• Government and private sector employees (including government contractors) supporting
Department of Defense internet and communications facilities.
• Workers who support radio, television, newspaper and media service, including, but not limited
to front-line news reporters, studio, and technicians for newsgathering, and reporting, and
publishing news.
• Network Operations staff, engineers and/or technicians to include IT managers and staff, HVAC
& electrical engineers, security personnel, software and hardware engineers, and database
administrators that manage the network or operate facilities.
• Engineers, technicians and associated personnel responsible for infrastructure construction and
restoration, including contractors for construction and engineering of fiber optic cables, buried
conduit, small cells, other wireless facilities, and other communications sector-related
infrastructure. This includes construction of new facilities and deployment of new technology as
these are required to address congestion or customer usage due to unprecedented use of
remote services.
• Installation, maintenance and repair technicians that establish, support or repair service as
needed.
• Central office personnel to maintain and operate central office, data centers, and other network
office facilities, critical support personnel assisting front line employees.
• Customer service and support staff, including managed and professional services as well as
remote providers of support to transitioning employees to set up and maintain home offices,
who interface with customers to manage or support service environments and security issues,
including payroll, billing, fraud, logistics, and troubleshooting.
• Workers providing electronic security, fire, monitoring and life safety services, and to ensure
physical security, cleanliness and safety of facilities and personnel, including temporary licensing
waivers for security personnel to work in other States or Municipalities.

Exhibit A updated as of 3/31/20

81a
COVID-19 Essential Services
•
•

Dispatchers involved with service repair and restoration.
Retail customer service personnel at critical service center locations for onboarding customers,
distributing and repairing equipment and addressing customer issues in order to support
individuals’ remote emergency communications needs, supply chain and logistics personnel to
ensure goods and products are on-boarded to provision these front-line employees.
• External Affairs personnel to assist in coordinating with local, state and federal officials to
address communications needs supporting COVID-19 response, public safety, and national
security.
Information Technology:
• Workers who support command centers, including, but not limited to Network Operations
Command Centers, Broadcast Operations Control Centers and Security Operations Command
Centers.
• Data center operators, including system administrators, HVAC & electrical engineers, security
personnel, IT managers and purchasers, data transfer solutions engineers, software and
hardware engineers, and database administrators, for all industries (including financial services).
• Workers who support client service centers, field engineers, and other technicians and workers
supporting critical infrastructure, as well as manufacturers and supply chain vendors that
provide hardware and software, support services, research and development, and information
technology equipment (to include microelectronics and semiconductors), and HVAC and
electrical equipment for critical infrastructure, and test labs and certification agencies that
qualify such equipment (to include microelectronics, optoelectronics, and semiconductors) for
critical infrastructure, including data centers.
• Workers needed to preempt and respond to cyber incidents involving critical infrastructure,
including medical facilities, SLTT governments and federal facilities, energy and utilities, and
banks and financial institutions, securities/other exchanges, other entities that support the
functioning of capital markets, public works, critical manufacturing, food & agricultural
production, transportation, and other critical infrastructure categories and personnel, in
addition to all cyber defense workers (who can't perform their duties remotely).
• Suppliers, designers, transporters and other workers supporting the manufacture, distribution
and provision and construction of essential global, national and local infrastructure for
computing services (including cloud computing services and telework capabilities), business
infrastructure, financial transactions/services, web-based services, and critical manufacturing.
• Workers supporting communications systems and information technology- and work from home
solutions- used by law enforcement, public safety, medical, energy, public works, critical
manufacturing, food & agricultural production, financial services, education, and other critical
industries and businesses.
• Employees required in person to support Software as a Service businesses that enable remote
working, performance of business operations, distance learning, media services, and digital
health offerings, or required for technical support crucial for business continuity and
connectivity.
OTHER COMMUNITY- , EDUCATION- OR GOVERNMENT-BASED OPERATIONS AND ESSENTIAL
FUNCTIONS
• Workers to ensure continuity of building functions, including but not limited to security and
environmental controls (e.g., HVAC), the manufacturing and distribution of the products
required for these functions, and the permits and inspections for construction supporting
essential infrastructure.

Exhibit A updated as of 3/31/20

82a
COVID-19 Essential Services
•

•
•
•
•
•
•
•
•
•
•
•

•
•

•
•
•

•
•

•
•

•

Local and state inspectors and administrative support of inspection services who are responsible
for the inspection of elevators, escalators, lifts, buildings, plumbing and gas fitting, electrical
work, and other safety related professional work
Elections personnel to include both public and private sector elections support.
Federal, State, and Local, Tribal, and Territorial employees who support Mission Essential
Functions and communications networks.
Trade Officials (FTA negotiators; international data flow administrators).
Employees necessary to maintain news and media operations across various media.
Employees supporting Census 2020.
Weather forecasters.
Workers at places of worship
Workers who maintain digital systems infrastructure supporting other critical government
operations.
Workers who support necessary credentialing, vetting and licensing operations for critical
infrastructure workers including holders of Commercial Drivers Licenses.
Workers who are critical to facilitating trade in support of the national, state and local
emergency response supply chain.
Educators and staff supporting emergency childcare programs and residential schools for
students with severe disabilities, and public and private K-12 schools, colleges, and universities
for purposes of facilitating distance learning, provision of school meals and other essential
student support functions, and essential administrative functions necessary to maintain
continuity of operations.
Scientific researchers in higher education completing in-process research to ensure health and
safety and to prevent the loss of essential data
Workers who support the design, production and distribution of educational materials or
technologies for the use of educators or students in distance learning during the state of
emergency
Staff at government offices who perform title search, notary, and recording services in support
of mortgage and real estate services and transactions.
Residential and commercial real estate services, including settlement services.
Workers supporting essential maintenance, manufacturing, design, operation, inspection,
security, and construction for essential products, services, and supply chain and COVID-19 relief
efforts.
Critical government workers, as defined by the employer and consistent with Continuity of
Operations Plans
Workers that provide services for or determine eligibility for public benefits such as subsidized
health care, food and feeding programs, residential and congregate care programs, shelter, inhome supportive services, child welfare, juvenile justice programs, adult protective services and
social services, and other necessities of life for economically disadvantaged or otherwise needy
individuals (including family members)
Workers in sober homes
Professional services (such as legal, accounting and tax preparation) and payroll and employee
benefit services when necessary to assist in compliance with legally mandated activities and
critical sector services or where failure to provide such services during the time of the order
would result in significant prejudice
Commercial retail stores that supply essential sectors, including convenience stores, pet supply
stores, auto supplies and repair, hardware and home improvement, and home appliance
retailers

Exhibit A updated as of 3/31/20

83a
COVID-19 Essential Services
•

Workers and instructors supporting academies or training facilities and courses or assessments
for the purpose of graduating or certifying, during the duration of the state of emergency,
healthcare personnel, cadets, and other workers who are critical to the ongoing response to
COVID-19

CRITICAL MANUFACTURING
• Workers necessary for the manufacturing of metals (including steel and aluminum), industrial
minerals, semiconductors, materials and products needed for medical supply chains, and for
supply chains associated with transportation, energy, communications, information technology,
food and agriculture, chemical manufacturing, nuclear facilities, wood products, commodities
used as fuel for power generation facilities, the operation of dams, water and wastewater
treatment, processing and reprocessing of solid waste, emergency services, and the defense
industrial base. Additionally, workers needed to maintain the continuity of these manufacturing
functions and associated supply chains, and workers necessary to maintain a manufacturing
operation in warm standby.
• Workers necessary for the manufacturing of materials and products needed to manufacture
medical equipment and personal protective equipment (PPE).
• Workers necessary for mining and production of critical minerals, materials and associated
essential supply chains, and workers engaged in the manufacture and maintenance of
equipment and other infrastructure necessary for mining production and distribution.
• Workers who produce or manufacture parts or equipment that supports continued operations
for any essential services and increase in remote workforce (including computing and
communication devices, semiconductors, and equipment such as security tools for Security
Operations Centers (SOCs) or datacenters).
HAZARDOUS MATERIALS
• Workers who manage hazardous materials associated with any other essential activity, including
but not limited to healthcare waste (medical, pharmaceuticals, medical material production),
testing operations (laboratories processing test kits), and energy (nuclear facilities) Workers at
nuclear facilities, workers managing medical waste, workers managing waste from
pharmaceuticals and medical material production, and workers at laboratories processing tests
Workers who support hazardous materials response and cleanup.
• Workers who maintain digital systems infrastructure supporting hazardous materials
management operations.
FINANCIAL SERVICES
• Workers who are needed to provide, process and maintain systems for processing, verification,
and recording of financial transactions and services, including payment, clearing, and
settlement; wholesale funding; insurance services; consumer and commercial lending; and
capital markets activities).
• Workers who are needed to maintain orderly market operations to ensure the continuity of
financial transactions and services.
• Workers who are needed to provide business, commercial, and consumer access to bank and
non-bank financial services and lending services, including ATMs, lending and money
transmission, and to move currency, checks, securities, and payments (e.g., armored cash
carriers).

Exhibit A updated as of 3/31/20

84a
COVID-19 Essential Services
•

•
•

Workers who support financial operations and those staffing call centers, such as those staffing
data and security operations centers, managing physical security, or providing accounting
services.
Workers supporting production and distribution of debit and credit cards.
Workers providing electronic point of sale support personnel for essential businesses and
workers.

CHEMICAL
• Workers supporting the chemical and industrial gas supply chains, including workers at chemical
manufacturing plants, workers in laboratories, workers at distribution facilities, workers who
transport basic raw chemical materials to the producers of industrial and consumer goods,
including hand sanitizers, food and food additives, pharmaceuticals, paintings and coatings,
textiles, building materials, plumbing, electrical, and paper products.
• Workers supporting the safe transportation of chemicals, including those supporting tank truck
cleaning facilities and workers who manufacture packaging items.
• Workers supporting the production of protective cleaning and medical solutions, personal
protective equipment, disinfectants, fragrances, and packaging that prevents the contamination
of food, water, medicine, among others essential.
• Workers supporting the operation and maintenance of facilities (particularly those with high risk
chemicals and/ or sites that cannot be shut down) whose work cannot be done remotely and
requires the presence of highly trained personnel to ensure safe operations, including plant
contract workers who provide inspections.
• Workers who support the production and transportation of chlorine and alkali manufacturing,
single-use plastics, and packaging that prevents the contamination or supports the continued
manufacture of food, water, medicine, and other essential products, including glass container
manufacturing.
DEFENSE INDUSTRIAL BASE
• Workers who support the essential services required to meet national security commitments to
the federal government and U.S. Military. These individuals include, but are not limited to, space
and aerospace; mechanical and software engineers (various disciplines),
manufacturing/production workers; IT support; security staff; security personnel; intelligence
support, aircraft and weapon system mechanics and maintainers; and sanitary workers who
maintain the hygienic viability of necessary facilities.
• Personnel working for companies, and their subcontractors, who perform under contract or subcontract to the Department of Defense, as well as personnel at government-owned/contractoroperated and government-owned/government-operated facilities, and who provide materials
and services to the Department of Defense, including support for weapon systems, software
systems and cybersecurity, defense and intelligence communications and surveillance, space
systems and other activities in support of our military, intelligence and space forces.
COMMERCIAL FACILITIES
• Workers who support the supply chain of building materials from production through
application/installation, including cabinetry, fixtures, doors, cement, hardware, plumbing,
electrical, heating/cooling, refrigeration, appliances, paint/coatings, and employees who provide
services that enable repair materials and equipment for essential functions.
• Workers supporting ecommerce through distribution, warehouse, call center facilities, and
other essential operational support functions.

Exhibit A updated as of 3/31/20

85a
COVID-19 Essential Services
•

•

Workers in hardware and building materials stores, consumer electronics, technology and
appliances retail, and related merchant wholesalers and distributors - with reduced staff to
ensure continued operations.
Workers distributing, servicing, repairing, installing residential and commercial HVAC systems,
boilers, furnaces and other heating, cooling, refrigeration, and ventilation equipment.

RESIDENTIAL/SHELTER FACILITIES AND SERVICES
• Workers in dependent care services, in support of workers in other essential products and
services.
• Workers who support food, shelter, and social services, and other necessities of life for needy
groups and individuals, including in-need populations and COVID-19 responders (including
travelling medical staff).
• Workers in animal shelters.
• Workers responsible for the leasing of residential properties and RV facilities to provide
individuals and families with ready access to available housing.
• Workers at hotels, motels, inns, and other lodgings providing overnight accommodation, but
only to the degree those lodgings are offered or provided to accommodate the COVID-19
Essential Workforce, other workers responding to the COVID-19 public health emergency, and
vulnerable populations
• Workers responsible for handling property management, maintenance, and related service calls
who can coordinate the response to emergency “at-home” situations requiring immediate
attention, as well as facilitate the reception of deliveries, mail, and other necessary services.
• Workers performing services in support of the elderly and disabled populations who coordinate
a variety of services, including health care appointments and activities of daily living.
HYGIENE PRODUCTS AND SERVICES
• Workers who produce hygiene products.
• Workers in laundromats, laundry services, and dry cleaners.
• Workers providing personal and household goods repair and maintenance.
• Workers providing disinfection services, for all essential facilities and modes of transportation,
and supporting the sanitation of all food manufacturing processes and operations from
wholesale to retail.
• Workers necessary for the installation, maintenance, distribution, and manufacturing of water
and space heating equipment and its components.
• Support required for continuity of services, including commercial disinfectant services,
janitorial/cleaning personnel, and support personnel functions that need freedom of movement
to access facilities in support of front-line employees.
CONSTRUCTION-RELATED ACTIVITIES
• Workers such as plumbers, electricians, exterminators, builders, contractors, HVAC Technicians,
landscapers, inspectors and other service providers who provide services that are necessary to
maintaining the safety, sanitation, and essential operation of residences, businesses and
buildings such as hospitals, health care facilities, senior living facilities, and any temporary
construction required to support COVID-19 response.
• Workers – including contracted vendors - who support the operation, inspection, maintenance
and repair of essential public works facilities and operations, including roads and bridges, water
and sewer, laboratories, fleet maintenance personnel, construction of critical or strategic
infrastructure, traffic signal maintenance, emergency location services for buried utilities, and

Exhibit A updated as of 3/31/20

86a
COVID-19 Essential Services

•

•

•

maintenance of digital systems infrastructure supporting public works operations. Critical or
strategic infrastructure includes public works construction including construction of public
schools, colleges and universities and construction of state facilities, including leased space,
managed by the Division of Capital Asset Management; airport operations; water and sewer;
gas, electrical, nuclear, oil refining and other critical energy services; roads and highways; public
transportation; steam; solid waste and recycling collection and removal; and internet and
telecommunications systems (including the provision of essential global, national, and local
infrastructure for computing services)
Workers who support infrastructure, such as by road and line clearing and utility relocation, to
ensure the availability of and access to needed facilities, transportation, energy and
communications.
Workers performing housing construction related activities, including construction of mixed-use
projects that include housing, to ensure additional units can be made available to combat the
Commonwealth’s existing housing supply shortage.
Workers supporting the construction of housing, including those supporting government
functions related to the building and development process, such as inspections, permitting and
plan review services that can be modified to protect the public health, including allowing
qualified private third-party inspections accountable to government agencies).

If the function of your business is not listed above, but you believe that it is essential or it is an entity
providing essential services or functions, you may request designation as an essential business.
Requests by businesses to be designated an essential function should only be made if they are NOT
covered by the guidance.
To request designation as an essential business, please click here:
https://www.mass.gov/forms/essential-service-designation-request
Any questions can be directed to covid19.biz@mass.gov.

Exhibit A updated as of 3/31/20

87a
OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS
STATE

House• BOSTON, MA 02133
(617) 725-4000

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER LIMITING ACCESS TO AND USE OF STATE BEACHES

COVID-19 Order No. 22
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the number of presumptive positive and confirmed cases of COVID-19
continues to rise exponentially in the Commonwealth. As of April 1, 2020, the Department of
Public Health had reported 7,738 confirmed cases of COVID-19, including 122 deaths, with
counties across the Commonwealth affected;
WHEREAS, the Department of Public Health is urging all residents of the
Commonwealth to limit activities outside of the home and to practice social distancing at all
times to limit the spread of this highly contagious and potentially deadly virus; and
WHEREAS, sections 7, 8, and 8A of Chapter 63 9 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over the policing of public and private property, transportation or travel
by any means or mode, and assemblages and pedestrian travel in order to protect the safety of
persons;
NOW, THEREFORE, I hereby order the following:

All public parking facilities and spaces at State beaches shall be closed to the public as of
12:00 noon on April 3, 2020 and shall remain closed until the state of emergency is terminated,
except as expressly permitted in accordance with Guidance issued by the Department of

@

Pm1111m ON RECYCLED PAPER

88a

Conservation and Recreation ("DCR"). All DCR coastal parkways and other roads that provide
direct access to State beaches shall also be closed to parking and dropping of passengers and
otherwise restricted as far as is practicable, provided that such closure or restriction does not
create a public safety risk, or prohibit through traffic, or prevent access to residences or other
property where there is no other means of access available to a public way.
For the purposes of this Order, the term "State beaches" shall include all coastal beaches
and coastal reservations maintained by DCR and associated parking facilities and spaces.
State beaches shall otherwise remain open to the public, but only for passive recreational
activities and enjoyment that involve transitory movement and for solitary beach fishing. Sitting,
sunbathing, and other stationary recreational activities are prohibited on State beaches.
Additionally, athletic and recreational activities that bring participants into close, physical
contact are prohibited on State beaches as they are throughout the Commonwealth pursuant to
COVID-19 Order No. 13.
The Commissioner of the Department of Conservation and Recreation is directed to issue
guidance ("DCR Guidance"), subject to my approval, to implement the terms of this Order.
The Massachusetts Environmental Police, State Police, and Department of Conservation
and Recreation shall enforce this Order and if necessary may do so with the assistance of
municipal police. Violation of the terms of this Order or the DCR Guidance may result in a
criminal penalty pursuant to Section 8 of Chapter 639 of the Acts of 1950 or pursuant to G. L. c.
266, § 123, or a civil fine pursuant to G. L. c. 92, § 37 or c. 132A, § 7. A criminal complaint for
violation of this Order or the DCR Guidance shall be filed in the district court with jurisdiction
for the municipality in which the violation has been charged.
This Order is effective immediately and shall remain in effect until rescinded or until the
state of emergency is terminated, whichever happens first.
Given in Boston aJl'.1 )LA.M this 2nd day of
April, two thousand and twenty

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

89a
OFFICE OF THE GOVERNOR

COMMONWEAL TH OF MASSACHUSETTS
STATE HOUSE• BOSTON,

MA 02133

(617) 725-4000

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER EXTENDING THE TEMPORARY CLOSING OF ALL
NON-EMERGENCY CHILD CARE PROGRAMS
COVID-19 Order No. 27
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Connnonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, in response to the pandemic, on March 18, 2020, I issued an Order
requiring all child care programs in the Connnonwealth to suspend normal operations by the end
of the day on March 22, 2020, and not to re-open for normal operations before Monday, April 6,
2020, and further authorizing the Department of Early Education and Care to establish
emergency child care programs;
WHEREAS, on March 25, 2020, I issued an Order extending the closure of child care
programs for normal operations and providing that such programs would not be permitted to
re-open before May 4, 2020, with the exception of those authorized by the Department of Early
Education and Care to continue operation as emergency programs;
WHEREAS, the number of confirmed cases of COVID-19 continues to rise dramatically
in the Commonwealth. As of April 20, 2020, the Department of Public Health had reported
39,643 cases ofCOVID-19, including 1,809 deaths, with all counties across the Commonwealth
affected;
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority

*

Prnm:m ON Rl:CYCl.1(11

PAPrn

J.A. 152

90a

over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over assemblages to protect the health and safety of persons, over
educational facilities that are supported in whole or in part by public funds, and over variances of
the terms and conditions of licenses issued by the Commonwealth or any of its agencies;
NOW, THEREFORE, I hereby Order the following:

All licensed, approved, or exempt child care programs in the Commonwealth shall
remain closed and shall not re-open for normal operations before Monday, June 29, 2020, unless
specifically authorized by the Department of Early Education and Care to continue operations as
emergency programs. This directive supersedes the provision of the March 25, 2020 Order
establishing an earlier date for re-opening.
The Department of Public Health and the Department of Early Education and Care, along
with any board of health or authorized agent pursuant to G.L. c. 111, § 30, shall enforce this
Order. In addition, I hereby direct the Commissioner of Public Health to act under the authority
of G.L. c. 17, § 2A to supplement the terms of this Order in the event she determines additional
measures are required to ensure that the terms of this Order are observed. Violation of the terms
of this Order may result in penalties pursuant to Section 8 of Chapter 639 of the Acts of 1950.
This Order is effective immediately and shall remain in effect until rescinded or further
extended.

_/

Given in Boston at//:/) AM this 21st day
of April, two thousand and twenty

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

J.A. 153

91a
OFFICE OF THE GOVERNOR

COMMONWEAL TH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE • BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER EXTENDING THE TEMPORARY CLOSURE OF ALL PUBLIC AND
PRIVATE ELEMENTARY AND SECONDARY SCHOOLS
COVID-19 Order No. 28
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, in response to the pandemic, on March 15, 2020, I issued an Order
requiring all public and private elementary and secondary (K-12) schools in the Commonwealth
to suspend normal, in-person instruction at the end of the school day on March 16, 2020, and not
to re-open for normal operations before April 6, 2020;
WHEREAS, on March 25, 2020, I issued an Order extending the closure of all public
and private elementary and secondary (K-12) schools for normal, in-person instruction and
providing that K-12 schools would not be permitted to re-open for normal operations before May
4, 2020;
WHEREAS, the number of confirmed cases of COVID-19 continues to rise dramatically
in the Commonwealth. As of April 20, 2020, the Department of Public Health had reported
39,643 cases ofCOVID-19, including 1,809 deaths, with all counties across the Commonwealth
affected;
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but

@ Prum,,o

ON RECYCLED f'AI'EI<

J.A. 154

92a

not limited to authority over vocational or other educational facilities supported in whole or in
part by public funds, and over assemblages to protect the health and safety of persons;
NOW, THEREFORE, I hereby Order the following:

All public and private elementary and secondary (K-12) schools in the Commonwealth,
excepting residential schools for special needs students, shall remain closed for normal,
in-person instruction and shall not re-open for normal operations prior to June 29, 2020. This
directive supersedes the provision of the March 25, 2020 Order establishing an earlier date for
re-opening.
Public and private elementary and secondary (K-12) schools may not begin in-person
summer learning programs before June 29, 2020, unless specifically granted permission by the
Department of Elementary and Secondary Education, acting in consultation with the Department
of Public Health.
As provided in the March 15 and March 25, 2020 Orders, public schools are directed to
continue efforts to maintain the operation of programs that provide take-out or delivery food
services and other essential, non-educational services to students and families during the period
in which this Order is in effect. Public schools are additionally directed to continue collaborative
efforts to provide student access to alternative learning opportunities.
The Department of Public Health and the Department of Elementary and Secondary
Education, along with any board of health or authorized agent pursuant to G.L. c. 111, § 30, shall
enforce this Order. In addition, I hereby direct the Commissioner of Public Health to act under
the authority of G.L. c. 17, § 2A to supplement the terms of this Order in the event she
determines additional measures are required to ensure that the terms of this Order are observed.
Violation of the terms of this Order may result in penalties pursuant to Section 8 of Chapter 639
of the Acts of 1950.
This Order is effective immediately and shall remain in effect until rescinded or further
extended.

}r{M

this 21st day
Given in Boston at(/'.
of April, two thousand and twenty

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

J.A. 155

93a
OFFICE OF THE GOVERNOR

COMMONWEAL TH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE • BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER FURTHER EXTENDING THE CLOSING OF CERTAIN WORKPLACES
AND THE PROHIBITION ON GATHERINGS OF MORE THAN 10 PEOPLE
COVID-19 Order No. 30
Further Extending the Operation of COVID-19 Order No. 13
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, on March 19, 2020, the Federal Cybersecurity and Infrastructure Security
Agency issued guidance to assist States in identifying critical infrastructure sectors whose
workers provide services and functions that are essential to maintain in order to support a strong
response to the COVID-19 pandemic;
WHEREAS, on March 23, 2020, I issued COVID-19 Order No. 13, which designated
certain COVID-19 Essential Services, as defined in the Order, temporarily closed the bricks-andmortar premises of businesses and organizations that do not provide COVID-19 Essential
Services, and prohibited gatherings of more than 10 people;
WHEREAS, on March 31, 2020, I issued COVID-19 Order No. 21, which amended the
earlier issued list ofCOVID-19 Essential Services and extended the operation ofCOVID-19
Order No. 13;
WHEREAS, the number of presumptive positive and confirmed cases ofCOVID-19
continues to rise in the Commonwealth. As of April 27, 2020, the Department of Public Health

®

I'IUNITW ON RECYClEO PAPfm

94a

had reported 56,462 cases of COVID-19, including 3,003 deaths, with all counties in the
Commonwealth affected;
WHEREAS, the Federal Centers for Disease Control have advised that COVID-19 is
spread mainly by person to person contact and that the best means of slowing the spread of the
virus is through practicing social distancing and protecting oneself and others by minimizing
personal contact with environments where the virus may be transmitted;
WHEREAS, the Department of Public Health accordingly continues to urge all residents
of the Commonwealth to limit activities outside of the home and to practice social distancing at
all times to limit the spread of this highly contagious and potentially deadly virus; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, regulating the sale of articles of food and
household articles, and policing, protection, and preservation of public and private property;
NOW, THEREFORE, I hereby order the following:

The provisions of the March 23, 2020 Order Assuring Continued Operation of Essential
Services in the Commonwealth, Closing Certain Workplaces, and Prohibiting Gatherings of
More than 10 People ("COVID-19 Order No. 13") are hereby extended until May 18, 2020.
Accordingly, all businesses and other organizations that do not provide COVID-19 Essential
Services shall not re-open their bricks-and-mortar premises to workers, customers, or the public
before May 18, 2020.
Gatherings of more than 10 people also remain prohibited until May 18, 2020.
The Commissioner of Public Health shall continue to issue guidance as necessary and
subject to my approval to implement the terms ofCOVID-19 Order No. 13.
The provisions of COVID-19 Order No. 21 that extended the operation of COVID-19
Order No. 13 until May 4, 2020 are hereby rescinded and superseded by this Order. Exhibit A to
COVID-19 Order No. 13, as amended by COVID-19 Order No: 21, remains effective and is
unchanged by this Order.

95a

This Order is effective immediately and shall remain in effect until May 18, 2020 unless
further extended.
Given in Boston at//:J() AM this 28th day
of April, two thousand and twenty

(4h,!J~~
CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

96a

OFFICE OF THE GOVERNOR

COMMONWEAL TH OF MASSACHUSETTS
STATE HoUSE • BOSTON,

MA 02133

(617) 725-4000

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER TEMPORARILY EXTENDING COVID-19 ORDER NO.13
COVID-19 Order No. 32
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, on March 23, 2020, in order to restrict all non-essential person-to-person
contact and non-essential movement outside the home as a means of combatting the spread of
COVID-19 within the Commonwealth, I issued COVID-19 Order No. 13, which designated
certain COVID-19 Essential Services, as defined in the Order, temporarily closed the brick:s-andmortar premises of businesses and organizations that do not provide COVID-19 Essential
Services, and prohibited gatherings of more than 10 people;
WHEREAS, on March 31, 2020 and April 28, 2020, I issued COVID-19 Orders No. 21
and 30, respectively, which extended the period in which COVID-19 Order No. 13 would
continue to restrict the operation of businesses and organizations that do not provide COVID-19
Essential Services;
WHEREAS, recent public health data indicate sustained improvement in key areas of
measurement as a result of the extraordinary efforts of health care providers in the
Commonwealth and the public's unselfish compliance with the restrictions imposed in COVID19 Order No. 13 and other limitations imposed in response to the COVID-19 health crisis;
WHEREAS, the improving public health data permits a carefully phased relaxation of
the restrictions that COVID-19 Order No. 13 has placed on businesses and other organizations,

97a

provided that any adjustment must reflect the reality that the Commonwealth remains in the
midst of a public health emergency, as demonstrated by reporting from the Department of Public
Health that as of May 14, 2020, 2,859 persons remain hospitalized in the Commonwealth as a
result of COVID-19, with 781 of those in intensive care units;
WHEREAS, in order to execute a measured relaxation of currently existing restrictions it
is necessary to extend the operation of certain provisions of Order No. 13 as other limitations of
the Order are progressively removed; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, regulating the sale of articles of food and
household articles, and policing, protection, and preservation of public and private property;
NOW, THEREFORE, I hereby order the following:
COVID-19 Order No. 13 is hereby extended to, and shall expire at, 12:00 A.M. on May
19, 2020. The provisions ofCOVID-19 Order No. 30, which extended the operation ofCOVID19 Order No. 13 until May 18, 2020, are hereby rescinded and superseded by this Order. On
May 18, I will issue an Order modifying in part and further extending in part the application of
COVID-19 Order No. 13.
This Order is effective immediately and shall remain in effect until rescinded or until the
state of emergency is terminated, whichever occurs first.

' /

,,,,-!}-

l
Given in Boston at __:_Ql
PM this l.J_day of
May, two thousand and twenty

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

98a

OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HousE • BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER IMPLEMENTING A PHASED REOPENING OF
WORKPLACES AND IMPOSING WORKPLACE SAFETY
MEASURES TO ADDRESS COVID-19
COVID-19 Order No. 33
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control have advised that COVID-19 is
spread mainly by person to person contact and that the best means of slowing the spread of the
virus is through practicing social distancing and protecting oneself and others by minimizing
personal contact with environments where this potentially deadly virus may be transmitted;
WHEREAS, on March 23, 2020, in order to restrict all non-essential person-to-person
contact and non-essential movement outside the home as a means of combatting the spread of
COVID-19 within the Commonwealth, I issued COVID-19 Order No. 13, which designated
certain COVID-19 Essential Services, as defmed in the Order, temporarily closed the brick-andmortar premises of businesses and organizations that do not provide COVID-19 Essential
Services, and prohibited gatherings of more than 10 people;
WHEREAS, on March 31, 2020, April 28, 2020, and May 15, 2020, I issued COVID-19
Orders No. 21, 30, and 32, respectively, which extended the period in which COVID-19 Order
No. 13 would continue to restrict the operation of businesses and organizations that do not
provide COVID-19 Essential Services;

1

®

PRENl1lD ON l<EGYCLED PAPER

99a

WHEREAS, recent public health data indicate improvement in key areas of
measurement as a result of the extraordinary efforts of health care providers in the
Commonwealth and the public's unselfish compliance with the restrictions imposed in COVID19 Order No. 13 and other limitations imposed in response to the COVID-19 health crisis;
WHEREAS, the improving public health data permits a carefully phased relaxation of
certain restrictions that COVID-19 Order No. 13 has placed on businesses and other
organizations, provided that any adjustment can only be maintained or expanded on the basis of
continuing improvements in the public health data, and further provided that any adjustment
must reflect the reality that the Commonwealth remains in the midst of a public health
emergency, as demonstrated by reporting from the Department of Public Health that as of May
17, 2020, 2,597 persons remain hospitalized in the Commonwealth as a result of COVID-19 and
702 of these patients are receiving treatment in intensive care units;
WHEREAS, sections 7, 8, and SA of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, regulating the sale of articles of food and
household articles, and policing, protection, and preservation of public and private property;
NOW, THEREFORE, I hereby order the following:
1. Phase I Opening of Businesses and Other Organizations

Beginning on the dates specified below, businesses and other organizations that are
included within the Phase I categories below are permitted to operate from their physical
workplaces and facilities ("brick-and-mortar premises") and may open those premises to
workers, customers, and the public provided they comply with all workplace safety rules and
standards issued or maintained pursuant to Section 2 and all other terms of this Order.
Beginning May 18, 2020
A. COVID-19 Essential Services: businesses and other organizations providing products
and services identified as "COVID-19 Essential Services" in Exhibit A to COVID-19
Order No. 13 (as amended March 31, 2020)
B. Manufacturing: businesses and other organizations engaged in the making, altering,
repairing, finishing, or adapting for sale any article or part
C. Construction
D. Places of Worship: churches, temples, mosques, and other places of worship
E. Firearms retailers and shooting ranges

2

100a

Beginning May 25, 2020
F. General Use Offices: businesses and other organizations operating within general use
office spaces, provided that such offices located within the limits of the City of
Boston shall not be open before June 1, 2020
G. Car Washes
H. Hair Salons and Barber Shops
I. Pet Groomers
J. Drive-In Movie Theaters
K. Laboratories: businesses and other organizations operating within facilities equipped
and used for scientific experiments, research, or for the manufacture of drugs or
chemicals or similar products
L. Certain Outdoor Recreational Facilities and Activities as specified in Attachment 1
As of the dates indicated above, businesses and other organizations included within
categories B-L above are no longer subject to the restrictions imposed by COVID-19 Order No.
13.
Businesses and other organizations not included within categories A-Labove remain
subject to the restrictions imposed by COVID-19 Order No. 13.

2. Adoption of Workplace Safety Rules
General Workplace Safety Rules: All businesses and other organizations in the
Commonwealth that are permitted to operate brick-and-mortar premises must immediately adopt
and maintain the following generally applicable COVID-19 workplace safety rules.
Social Distancing

Hygiene Protocols

•

•
•
•
•
•
•

Staffmg and
Operations

•
•

•
Cleaning and
Disinfecting

•
•

All persons, including employees, customers, and vendors should remain at least six
feet apart to the greatest extent possible, both inside and outside workplaces
Establish protocols to ensure that employees can practice adequate social distancing
Provide signage for safe social distancing
Require face coverings or masks for all employees
Provide hand-washing capabilities throughout the workplace
Ensure frequent hand washing by employees and adequate supplies to do so
Provide regular sanitization ofhigh touch areas, such as workstations, equipment,
screens, doorknobs, restrooms throughout work site
Provide training for employees regarding the social distancing and hygiene protocols
Employees who are displaying COVID-19-like symptoms do not report to work
Establish a plan for employees getting ill from COVID-19 at work, and a return-towork plan
Establish and maintain cleaning protocols specific to the business
When an active employee is diagnosed with COVID-19, cleaning and disinfecting
must be performed

3

101a

• Disinfection of all common surfaces must take place at intervals appropriate to said
workplace

The Director of the Department of Labor Standards ("DLS") is hereby directed to post on
the Department's publicly accessible website a directive implementing these generally applicable
COVID-19 workplace safety rules for all workplaces subject to this Order.
Sector-Specific Rules: The Director of Labor Standards, in consultation with the
Commissioner of Public Health and subject to my approval, shall in addition issue COVID-19
workplace safety rules for certain, specific workplace sectors ("Sector-Specific Rules") to
address the particular circumstances and operational needs of those specific workplace sectors.
Sector-Specific Rules shall supplement the generally applicable COVID-19 safety rules
applicable to all workplaces in the Commonwealth. Businesses and other organizations shall
adopt and comply with all Sector-Specific Rules applicable to their workplace.
Phase I Sector-Specific Requirements: The Director of Labor Standards is directed
immediately to issue detailed Sector-Specific Rules for the following workplace sectors:
Manufacturing
Construction
Places of Worship
General Use Offices
Car Washes
Hair Salons and Barber Shops
Pet Groomers
Laboratories
Earlier Issued DPH Sector-Specific Orders: The Commissioner of Public Health, at my
direction, has previously issued orders and mandatory guidance implementing detailed, sectorspecific COVID-19 workplace safety standards for the workplaces indicated below that have
been designated as Essential Services pursuant to COVID-19 Order No. 13. These previously
issued orders and mandatory guidance, as they may be subsequently amended by the
Commissioner, shall continue to apply to these businesses and organizations under the terms of
this Order.
Grocery Stores and Pharmacies
Nurseries, Greenhouses, Garden Centers, and Agricultural Supply Stores
Farmer's Markets, Farm Stands, and Community-Supported Agriculture Programs
(CSAs)
Otherwise Applicable Health and Safety Standards: These generally applicable COVID19 workplace safety rules and any Sector-Specific Rules shall supplement and, except as
4

102a

provided in Section 6 below, shall not displace otherwise applicable health and safety rules
issued by any Federal, State, or Local authority acting within the scope of its lawful authority.

3.

Compliance and Self-Certification

Newly Opened Workplaces: Businesses and other organizations that are authorized under
the terms of this Order to open their brick-and-mortar premises to workers, customers, and the
public shall be required to certify compliance with all applicable general and applicable SectorSpecific rules. Before opening a brick-and-mortar premises under the terms of this Order, a
business or other organization not previously authorized to operate as COVID-19 Essential
Service pursuant to COVID-19 Order No. 13 shall be required to implement the following
measures:

a. Bring the workplace into full compliance with all generally applicable COVID-19
workplace safety rules and all Sector-Specific Rules that are applicable to the
individual workplace
b. Complete the required self-certification to verify compliance with all general and
specific rules and make the self-certification available for inspection upon a request
by State or Local authorities
c. Post on the premises all public notices and advisories that are required to be displayed
under the terms of this Order
The Director of Labor Standards shall establish the procedures and publish the forms of
self-certification and public notice required to comply with these provisions.
Re-starting Construction Projects: In addition, before any construction project that is
inactive as of May 17, 2020 re-opens pursuant to this Order, the general contractor shall:

a. Ensure that all municipal permits are in place
b. Satisfy all conditions that appear in the Sector-Specific Rules for Construction; and
c. For all projects that do not involve construction or remodeling in I to 3 unit
residences involving 5 or fewer workers, notify the City or Town in which the project
is located of the date that construction will re-start and meet any City or Town
requirements necessary to confirm that the project satisfies all of the conditions that
appear in the Sector-Specific Rules for Construction.
COVID-19 Essential Services: A business or other organization that has prior to the
issuance ofthis Order been authorized to remain open to workers, customers, and the public as a
"COVID-19 Essential Service" shall have until May 25, 2020 to comply with and certify its
compliance with any COVID-19 workplace safety rule issued pursuant to this Order or with the
public notice provisions specified above.

Such businesses and other organizations shall, in any event, immediately undertake best
efforts to comply with the generally applicable COVID-19 workplace safety rules adopted in
Section 2 of this Order.

5

103a

4.

Limitations on Gatherings

A business or other organization that is authorized to open its brick-and-mortar premises
to workers, customers, and the public under the terms of this Order shall not be subject to the 10person limitation on gatherings established in Section 3 of COVID-19 Order No. 13 in its normal
operations of those premises; provided, however, that such businesses and other organizations
must comply with the general social distancing requirements and any more specific limitations
on gatherings and meeting sizes established pmsuant to the provisions of Section 2 of this Order.
Section 3 of COVID-19 Order No. 13 shall otherwise remain in effect.

5. Limited Operations by Retail Stores not providing Essential Services
Retail stores that do not provide Essential Services as defined in COVID-19 Order No. 13
(and Exhibit A to the Order) are not included in the Phase I Opening and may not open their
brick-and-mortar premises. These retail businesses may, however, continue to provide limited
remote :fulfillment in accordance with guidance issued by the Executive Office of Housing and
Economic Development, provided that they adopt and maintain the generally applicable COVID19 workplace safety rules in Section 2. (Guidance available at https://www.mass.gov/infodetails/covid-19-essential-services-faq s#general-questions---essential-services-related-)
Additionally, I hereby direct the Executive Office of Housing and Economic
Development to issue supplemental guidance specifying methods by which retail businesses may
permissibly expand their current limited remote fulfilment operations to accommodate customer
cmb-side pick-up. This guidance shall permit retail business customer cmb-side pick-up
transactions beginning May 25, 2020.

6.

Enforcement and Authority

The Department of Labor Standards, in consultation with the Department of Public
Health ("DPH"), shall have general authority to promulgate directives, regulations, and guidance
to implement and enforce the COVID-19 workplace safety rules established or authorized under
this Order.
DPH shall have specific authority to promulgate directives, regulations, and guidance to
implement and enforce the terms of this Order as it applies to businesses, organizations, and
workplaces subject to the sanitary code established pmsuant to section 127A of chapter 111 of
the General Laws and where DPH otherwise has existing regulatory authority.
A municipal board of health or authorized agent pmsuant to G. L. c. 111, § 30 shall have
concurrent authority with DLS and DPH to enforce the terms of this Order and any directives,
regulations, or guidance issued by DLS and DPH under the authority of this Order.
This Order is intended to establish a uniform set of COVID-19 workplace safety rules for
all businesses and other organizations operating brick-and-mortar premises across the
Commonwealth. No municipal or other local authority should adopt or enforce any workplace
6

104a

health or safety rule to address COVID-19 that is in addition to, stricter than, or otherwise in
conflict with any COVID-19 workplace safety rule adopted in this Order or under the
implementing directives, regulations, and guidance issued by DLS or DPH under the authority
granted by this Order. DLS, DPH, and each municipal or local authority shall uniformly apply
any enforceable COVID-19 workplace safety rule.
Violation of the terms of this Order or any directives, regulations, or guidance issued by
DLS or DPH pursuant to this Order may result in a civil fine ofup to $300 per violation. This
Order may also be enforced by injunction. A motion for an injunction to enforce this Order or
any directives, regulations, or guidance issued on its authority may be filed in the district court or
other any court of competent jurisdiction for the municipality in which the violation has been
charged.
In issuing directives, regulations, or guidance under the terms of this Order, (a) the
Director of Labor Standards shall act under the authority G. L. c. 149, §§ 6 & 6½; and (b) the
Commissioner of Public Health shall act under the authority of G. L. c. 17, § 2A and G. L. c.
111, §§ 6 & 127A, insofar as those statutes are consistent with the provisions of this Order and
authority is available thereunder. The Director of Labor Standards and the Commissioner of
Public Health may issue regulations implementing the terms of this Order pursuant to the
processes generally provided in G. L. c. 30A, §§ 2-6.
If any provision of this Order or the application thereof to any person or entity or
circumstance is determined to be invalid by a court of competent jurisdiction, such judgment
shall not affect or impair the validity of the other provisions of this Order or its application to
other persons, entities, and circumstances.

Exceptions

7.

This Order shall not apply to any of the following businesses, organizations, workplaces,
or facilities:
a.
b.
c.
d.

Any municipal legislative body, the General Court, or the Judiciary
Federal governmental entities
Any health care facility or provider licensed by the Department of Public Health
Any of the following workplaces or facilities with specialized functions and
populations, provided that DPH shall in each case consult with the responsible
authority and provide COVID-19 health and safety guidance as needed:
•

Public and private elementary and secondary (K-12) schools

•

Residential and day schools for special needs students

•

Licensed, approved, or exempt child care programs and any emergency child
care centers and emergency residential programs operating under emergency

•

authorization
Facilities operated by the Department of Correction or any Sheriff

7

105a

•
•

Facilities operated or licensed by the Department of Mental Health or the
Department of Developmental Services
And any other facilities or workplaces that the Commissioner of Public Health
may in writing exempt from the terms of this Order

COVID-19 Order No. 32 is hereby rescinded.
COVID-19 Order No. 13 as modified by this Order is hereby extended and shall remain
in effect until rescinded or until the state of emergency is ended, whichever occurs first.
This Order is effective immediately and shall remain in effect until rescinded or until the
state of emergency is ended, whichever occurs first.

(O

Given in Boston at)':
AM this 18th
day of May, two thousand and twenty

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

8

106a

Attachment I to COVID-19 Order No. 33
Defining Certain Outdoor Recreational Activities and Facilities
included in the Phase I Opening
"Certain Outdoor Recreational Activities and Facilities" means the following:
a. campgrounds; provided, however, that individual campsites, including campsites with
cabins and campsites for self-contained recreational vehicles, be occupied and used only
by single household groups, and provided further that all common areas, excluding
restrooms, remain closed
b. recreational boating facilities, solely for the purpose of enabling recreational boating,
including rowing and sailing facilities, yacht clubs, boat clubs, and boat rentals; provided,
however, that the occupants of a vessel be limited to a single household group and that no
more than IO people are aboard a single vessel at any one time
c. for hire and charter fishing; provided, however, that no more than IO people, including
any captain and crew, are aboard a single vessel at any one time
d. white water rafting; provided, however, that the occupants of a raft or kayak be limited
to a single household group and, if applicable, a guide
e. zoos, botanical gardens, nature centers, and outdoor wildlife reserves; provided,
however, that buildings, other than restrooms, remain closed to the public; and provided,
further that admission be capped at not more than 20% of overall outdoor capacity

f.

businesses providing outdoor recreational experiences and educational activities,
including ski area summer activities, alpine slides, zip-lines, horse riding schools and
stables, mountain biking, and archery ranges

May 18, 2020

9

107a

OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER EXP ANDING ACCESS TO AND USE OF STATE BEACHES AND
ADDRESSING OTHER OUTDOOR RECREATIONAL ACTIVITIES
COVID-19 Order No. 34
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control have advised that COVID-19 is
spread mainly by person to person contact and that the best means of slowing the spread of the
virus is through practicing social distancing and protecting oneself and others by minimizing
personal contact with environments where this potentially deadly virus may be transmitted;
WHEREAS, on April 2, 2020, in order to limit all non-essential person-to-person contact
and non-essential movement outside the home as a means of combatting the spread of COVID19 within the Commonwealth, I issued COVID-19 Order No. 22, which closed public parking
spaces and facilities at State beaches, prohibited parking on Department of Conservation and
Recreation ("DCR") coastal parkways and roads that provide direct access to State beaches, and
limited activities permitted on State beaches to only passive recreational activities and enjoyment
that involve transitory movement or solitary beach fishing;
WHEREAS, recent public health data indicate improvement in key areas of
measurement as a result of the extraordinary efforts of health care providers in the
Commonwealth and the public's unselfish compliance with the restrictions imposed in COVID19 Order No. 13 and other limitations imposed in response to the COVID-19 health crisis;

@ PRlmm, ON fu:CYCJ.W PAPC:~

108a

WHEREAS, the improving public health data permits a carefully phased relaxation of
the restrictions that COVID-19 Order No. 22 has placed on access to State beaches, provided that
any adjustment can only be maintained or expanded on the basis of continuing improvements in
the public health data, and further provided that any adjustment must reflect the reality that the
Commonwealth remains in the midst of a public health emergency, as demonstrated by reporting
from the Department of Public Health that as of May 17, 2020, 2,597 persons remain
hospitalized in the Commonwealth as a result of COVID-19 and 702 of these patients are
receiving treatment in intensive care units;
WHEREAS, the Commonwealth has expended significant financial resources to protect
and enhance its public spaces, and natural recreational resources, and those public spaces and
resources are particularly valuable to Massachusetts residents as we begin a phased re-opening of
the Commonwealth;
WHEREAS, on May 18, 2020 I issued an Order Implementing a Phased Reopening of
Workplaces and Imposing Workplace Safety Measures to Address COVID-19 (COVID-19 Order
No. 33), which requires all businesses and other organizations in the Commonwealth that are
permitted to operate brick-and-mortar premises to adopt and maintain generally applicable
COVID-19 workplace safety rules; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, regulating the sale of articles of food and
household articles, and policing, protection, and preservation of public and private property;
NOW, THEREFORE, I hereby order the following:
COVID-19 Order No. 22 is hereby rescinded effective as of 6:00 A.M. on May 25, 2020.
As of 6:00 A.M. on May 25, 2020, State beaches shall be open to the public for passive
recreational activities and enjoyment and for beach fishing, subject to any rules issued by the
Commissioner of the Department of Conservation and Recreation ("DCR"). Permitted passive
recreational activities include sitting, sunbathing, and picnicking, subject to compliance with
appropriate social distancing practices. Water sport activities that do not bring participants into
close, physical contact or involve sharing equipment are also permitted, provided participants
practice adequate social distancing (e.g., swimming, surfing, body boards). Organized ball
games remain prohibited on State beaches.
Effective immediately, DCR may begin reopening public parking facilities and spaces at
State beaches that have been closed, and may continue to manage or restrict public parking at

109a

State beaches as necessary to limit beach capacity to combat crowd density on State beaches and
to accommodate adequate social distancing and as otherwise necessary or appropriate.
For the purposes of this Order, the term "State beaches" shall include all inland and
coastal beaches and reservations maintained by DCR and associated parking facilities and
spaces.
The Commissioner ofDCR may issue rules for users of State beaches, subject to my
approval, to implement the terms of this Order.
The Secretary of the Executive Office of Energy and Environmental Affairs is directed to
provide guidance on implementing the COVID-19 workplace safety standards to managers of
public and private beaches not under the control ofDCR in order to protect managers, workers,
and visitors to beaches in the Commonwealth.
The Secretary is also directed to issue guidance for the implementation of the generally
applicable COVID-19 workplace standards by operators of and participants in outdoor
recreational activities.
The Secretary is further authorized to take reasonable measures to ensure that residents of
the Commonwealth are afforded the highest priority to access and enjoyment of the recreational
resources managed by the Executive Office of Energy and Environmental Affairs and its
departments and divisions.
The Massachusetts Environmental Police, State Police, and Department of Conservation
and Recreation shall enforce this Order and if necessary may do so with the assistance of
municipal police. Violation of the terms of this Order or rules issued by the DCR Commissioner
to implement this Order may result in a criminal penalty pursuant to Section 8 of Chapter 639 of
the Acts of 1950 or pursuant to G. L. c. 266, § 123, or a civil fine pursuant to G. L. c. 92, § 37 or
c. 132A, § 7. A complaint for violation of this Order or rules issued by the DCR Commissioner
to implement this Order shall be filed in the district court with jurisdiction for the municipality in
which the violation has been charged.

110a

This Order is effective immediately and shall remain in effect until rescinded or until the
state of emergency is terminated, whichever happens first.
Given in Boston at~- '0 AM this 18th day of
May, two thousand and twenty

C/4h

u~

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

111a
OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER CLARIFYING THE PROGRESSION OF THE COMMONWEALTH'S
PHASED WORKPLACE RE-OPENING PLAN AND AUTHORIZING
CERTAIN RE-OPENING PREPARATIONS AT PHASE II WORKPLACES
COVID-19 Order No. 35

WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control have advised that COVID-19 is
spread mainly by person to person contact and that the best means of slowing the spread of the
virus is through practicing social distancing and protecting oneself and others by minimizing
personal contact with environments where this potentially deadly virus may be transmitted;
WHEREAS, on March 23, 2020, in order to restrict all non-essential person-to-person
contact and non-essential movement outside the home as a means of combatting the spread of
COVID-19 within the Commonwealth, I issued COVID-19 Order No. 13, which designated
certain COVID-19 Essential Services, as defined in the Order, temporarily closed the brick-andmortar premises of businesses and organizations that do not provide COVID-19 Essential
Services, and prohibited gatherings of more than 10 people;
WHEREAS, on March 31, 2020, April 28, 2020, and May 15, 2020, I issued COVID-19
Orders No. 21, 30, and 32, respectively, which extended the period in which COVID-19 Order
No. 13 would continue to restrict the operation of businesses and organizations that do not
provide COVID-19 Essential Services;

1

112a

WHEREAS, recent public health data indicate continued improvement in key areas of
measurement as a result of the extraordinary efforts of health care providers in the
Commonwealth and the public's unselfish compliance with the restrictions imposed in COVID19 Order No. 13 and other measures implemented in response to the COVID-19 health crisis;
WHEREAS, on May 18, 2020, I issued COVID-19 Order No. 33, which authorized the
re-opening of certain brick-and-mortar premises designated as "Phase I'' workplaces ("Phase I
enterprises"), subject to the requirement that all such workplaces comply with workplace safety
rules and standards implemented to protect against the risk of the COVID-19 virus and which
otherwise further extended the period in which COVID-19 Order No. 13 will continue to restrict
the operations of businesses and organizations that do not provide Essential Services or that have
not been designated as Phase I workplaces;
WHEREAS, a sustained trend of improvement in public health data will permit a
continuing, carefully phased relaxation of certain restrictions that COVID-19 Order No. 13 has
placed on businesses and other organizations, provided that any adjustment can only be
maintained or expanded on the basis of continuing improvements in the public health data, and
further provided that any adjustment must reflect the reality that the Commonwealth remains in
the midst of a public health emergency, as demonstrated by reporting from the Department of
Public Health that as of May 31, 2020, 1,824 persons remain hospitalized in the Commonwealth
as a result ofCOVID-19 and 436 of these patients are receiving treatment in intensive care units;
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, regulating the sale of articles of food and
household articles, variance of the terms and conditions oflicenses and permits issued by the
Commonwealth or any of its agencies or political subdivisions, and policing, protection, and
preservation of public and private property;
NOW, THEREFORE, I hereby order the following:
1. Advance Preparations by Phase II Enterprises

Beginning immediately, businesses and other organizations that are included within
Phase II of the re-opening plan, as defined in Section 2 below, may open their physical
workplaces and facilities ("brick-and-mortar premises") to workers for the purpose of preparing
for a Phase II re-opening when authorized. In preparing their premises for re-opening, Phase II
businesses and other organizations ("Phase II enterprises") must at all times comply with all
generally applicable COVID-19 workplace safety rules and any relevant sector-specific COVID2

113a

19 workplace safety rules issued pursuant to Section 2 ofCOVID-19 Order No. 33 or otherwise
by the Department of Labor Standards ("DLS"), the Department of Public Health ("DPH"), or
any other agency authorized to issue similar health and safety rules.
Phase II enterprises may not open their premises to customers and the public generally
until authorized to do so by subsequent Order.

2. Designation of Phase Il Enterprises
Phase II enterprises are businesses or other organizations that meet each of the following
conditions:
They are
•
•
•
•

Phase II

not currently permitted to open their premises as an Essential Service or Phase I
enterprise pursuant to Section 1 of COVID-19 Order No. 33;
not closed by any COVID-19 Order separate from or in addition to COVID-19
Order No. 13;
not excluded or excepted from the terms ofthis Order in Section 4; and
not designated on the chart below as a Phase III or Phase IV enterprise.
All Phase II, III, and IV enterprises will be required to comply with general and, where
applicable, sector-specific COVID-19 workplace safety rules administered by DPL, DPH, and
local boards of health. Workplace safety roles will include a variety of mandatory contextspecific COVID-19 safety measures such as occupancy limitations, operational modifications,
social distancing rules, and specialized cleaning requirements.
Enterprises that meet all of the conditions specified above and including

•

•
•
•
•

•

•
•

•
•

Retail Stores including stores in enclosed shopping malls
Restaurants providing seated food service prepared on-site and under retail food
permits issued by municipal authorities pursuant to 105 CMR 590.000, including beer
gardens/wineries/distilleries meeting these criteria
Hotels, motels, inns, and other short-term lodgings (no events, functions, or meetings)
Limited organized youth and adult amateur sports activities and programs---no contact
and no games or scrimmages, and indoor facilities limited to youth programs
Professional sports practice and trainingprograms--no inter-team games and no
admission for the public
Personal Services provided at a fixed place of business or at a client location
0
Step 1: Services involving no close personal contact (photography, window
washers, individual tutoring, home cleaning, etc.)
Step 2: Services involving close personal contact (massage, nail salons,
0
personal training for individuals or no more than 2 persons from same
household, etc.)
Non-athletic instructional classes in arts/education/life skills for youths under 18 years
of age in groups of fewer than 10
Driving schools and flight schools
Outdoor historical spaces-no functions or gatherings and no guided tours
Funeral homes-increased capacity to permit 40% occupancy for one service at a time
within the facility

3

114a

•

•
•

•

•
•
Phase ill

•

•

•
•

•

•
•
•
•

•

•

•
•

•

•

•

Warehouses and distribution centers
Golf facilities including outdoor driving ranges
Other outdoor recreational facilities
0
pools, playgrounds and spray decks
0
mini golf, go karts, batting cages, climbing walls, ropes courses
Post-Secondmy/Higher Ed/Vocational-Tech/Trade/Occupational Schools
0
for the limited purposes of penn.itting students to complete a degree, program,
or prerequisite for employment, or other similar requirement for completion,
for summer youth programming including athletic facilities, and any
necessary supporting services
Day Camps including sports and arts camps
Public libraries
Post-Secondary/Higher Ed/Vocational-Tech/Trade/Occupational Schools--general
operations
Casino gaming floors
Horse racing simulcast facilities (no spectators)
Indoor recreational and athletic facilities for general use (not limited to youth
programs)
Fitness centers and health clubs incJuding
0
cardio/weight rooms/1ocker rooms/inside facilities
0
fitness studios (yoga, barre, cross-fit, spin classes, general fitness studios)
indoor common areas
0
indoor swimming pools
0
indoor racquet courts and gymnasiums
0
locker rooms/shower rooms
0
excluding saunas, hot-tubs, steam rooms
0
Museums
Indoor historic spaces/sites
Aquariums
Outdoor theatres and performance venues of moderate capacity
Indoor theatres, concert hal1s, and other petformance venues of moderate capacity
Sightseeing and other organized tours (bus tours, duck tours, harbor cruises, whale
watching)
Fishing and hunting tournaments and other amateur or professional derbies
Weddings/events/gatherings in parks, reservations, and open spaces with allowance for
moderate capacity
Overnight camps
Indoor non-athletic instructional classes in arts/education/life skills for persons 18
years or older
Indoor recreational businesses: batting cages, driving ranges, go karts, bowling alleys,
arcades, laser tag, roller skating rinks, trampolines, rock-climbing

This listing is subject to amendment.
Phase IV

•

•
•

•
•

Amusement parks, theme parks, indoor or outdoor water parks
Saunas, hot-tubs, steam rooms at fimess centers, health clubs, and other facilities
Bars, dance clubs, and nightclubs--venues offering entertainment, beverages, or
dancing and not providing seated food service prepared on-site and under retail food
permits issued by municipal authorities pursuant to 105 CMR 590.000
Beer gardens/breweries/wineries/distiUeries not providing seated food service prepared
on-site and under retail food permits issued by municipal authorities pursuant to 105
CMR590.000
Large capacity venues used for group or spectator sports, entertainment, business, and
cultural events including

4

115a

o
o
o

•
•
•

Theaters and concert halls
Ballrooms
Stadiums, arenas, and ballparks
o Dance floors
o Exhibition and convention halls
Private party rooms
Street festivals and parades and agricuhural festivals
Road races and other large, outdoor organized amateur or professional group athletic
events

This listing is subject to amendment.

3. Rules for Phase II Limited Organized Sports Activities and Programs
Amateur Sports: Effective immediately, organizers of sports activities and programs for
youths and adults and facilities that host such programs or activities may open their premises to
employees to begin preparations, consistent with the provisions of Section 1, for authorized
Phase II activities. In addition to complying with generally applicable COVID-19 workplace
safety rules, organizers of sports activities and programs for youths and adults and facilities that
host such programs or activities shall be subject to the following directives during Phase II:
a. Programs for contact sports must limit activities exclusively to no-contact drills
and practices. Programs for no contact sports where ordinary play allows for
social distancing may include ordinary play.
b. Games, scrimmages, and tournaments shall not be permitted for any organized
sports activities.
c. Programs must separate participants into groups of no more than 10 participants,
including coaches and staff.
d. Indoor athletic facilities shall be open and available exclusively for the use of
supervised sports programs, including sports camps, for youths under the age of
18.
The Secretary of the Executive Office of Energy and Environmental Affairs (''EEA")
shall issue guidance to implement these directives and all generally applicable COVID-19
workplace standards for organizers of youth and adult sports programs and operators of facilities
that host those programs. Organizers of youth and adult sports programs shall follow the EEA
guidance; provided, however, that when the program is governed by formal league rules or other
binding agreements or affiliations, the organizer shall comply with any COVID-19 and other
health and safety rules applicable under those authorities. The requirements of items (a) - (d)
above shall apply in all circumstances.

Professional Sports: Effective immediately, professional sports organizations may open
their premises to employees and other workers for the activities provided for in Section 1 and
may also open their premises to employees for on-premises athletic practices and training,

5

116a

subject to adoption of COVID-19 health and safety rules implemented under the authority of
formal league rules or other binding agreements or affiliations.
Professional sports organizations may not engage in inter-team games within the
Commonwealth and may not open any facilities within the Commonwealth to the public until
further Order.

4. Preparations and Accommodation for Outdoor Restaurant Dining Service
Restaurants will be authorized to provide outdoor table service at the commencement of
Phase II of the Commonwealth's phased re-opening of workplaces. If the public health data
reflects continued positive progression, restaurants will be authorized at a later date and by a
subsequent Phase II Order to commence indoor table service. In each case, restaurants will be
required to comply with sector-specific COVID-19 workplace safety rules for restaurants.
"Outdoor table service" shall mean service tlmt is provided outside the restaurant building
envelope, whether on a sidewalk, patio, deck, lawn, parking area, or other outdoor space.
Outdoor table service may be provided under awnings or table umbrellas or other cover from the
elements, provided, however, that at least 50 percent of the perimeter of any covered dining
space must remain open and unobstructed by any form of siding 01· barriers at all times.
Notwithstanding the provisions of chapter 40A of the general laws, or any special permit,
variance or other approval thereunder, or any other general or special law to the contrary, a city
or town may approve requests for expansion of outdoor table service, including in the description
of licensed premises as described below. Prior to such approval, the mayor, select board, or
chief executive as established by charter or special act, shall establish the process for approving
such requests. Such process need not comply with the notice and publication provisions of
section 11 of chapter 40A.
Any such approval may be exercised immediately upon filing of notice thereof with the
city or town clerk, without complying with any otherwise applicable recording or certification
requirements.
In order to provide improved opportunities for outdoor table service, for any type of
license that permits the sale of alcoholic beverages for on-premises consumption, a local
licensing authority ("LLA") may grant approval for a change in the description of the licensed
premises for the purpose of permitting outdoor alcohol service as the LLA may deem reasonable
and proper, and issue an amended license to existing license holders, without further review or
approval by the Alcoholic Beverages Control Commission ("ABCC") prior to issuance. Upon
approval of an amended license, the LLA shall provide notice of the amended license to the
ABCC. Nothing in this Order shall prevent the ABCC from exercising its statutory or regulatory
enforcement authority over any such amended license issued.

6

117a

On November 1, 2020 or the date this Order is rescinded, whichever is sooner, any
approval issued under this Section, including any amended license issued by an LLA as a result
of this Order, shall automatically revert back to its status prior to the approval of the change for
expansion of outdoor table service or in the description of a licensed premises.

5. Sector-Specific Rules
The Director of Labor Standards and the Commissioner of Public Health shall issue,
subject to my approval, COVID-19 workplace safety rules for certain, specific Phase II
enterprise workplace sectors ("Sector-Specific Rules") to address the particular circumstances
and operational needs of those specific workplace sectors. These Phase II Sector-Specific Rules
shall supplement the generally applicable COVID-19 safety rules applicable to all workplaces in
the Commonwealth. Phase II enterprises shall adopt and comply with all Sector-Specific Rules
applicable to their workplaces.

6. Limitations on Gatherings
A Phase II enterprise that is authorized to open its brick-and-mortar premises to workers
under the terms of this Order shall not be subject to the 10-person limitation on gatherings
established in Section 3 ofCOVID-19 Order No. 13 in its normal operations of those premises;
provided, however, that Phase II enterprises must comply with the social distancing requirements
in the Commonwealth's generally applicable COVID-19 workplace safety rules, any more
specific limitations on gatherings and meeting sizes included in any applicable Sector-Specific
Rules, and any other similar restrictions specified in this Order.
Section 3 ofCOVID-19 Order No. 13 shall otherwise remain in effect for businesses or
organizations not permitted to open their brick-and-mortar premises as COVID-19 Essential
Services, or Phase I or Phase II enterprises.

4.

Exceptions

This Order shall have no application to any of the following businesses, organizations,
workplaces, or facilities:
a. Any municipal legislative body, the General Court, or the Judiciary
b. Federal governmental entities
c. Any health care facility or provider licensed by the Department of Public Health or
the Board of Registration in Medicine
d. Any of the following workplaces or facilities with specialized functions and
populations:
• Public and private elementary and secondary (K-12) schools
• Residential and day schools for special needs students

7

118a

•

•
•
•

Licensed, approved, or exempt child care programs and any emergency child
care centers and emergency residential programs operating under emergency
authorization
Facilities operated by the Department of Correction or any Sheriff
Facilities operated or licensed by the Department of Mental Health or the
Department of Developmental Services
And any other facilities or workplaces that the Commissioner of Public Health
may in writing exempt from the terms of this Order

This Order is effective inunediately and shall remain in effect until rescinded or until the
state of emergency is ended, whichever occurs first.
Given in Boston at A;}. t) PM this I st day
of June, two thousand and twenty

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

8

119a
OFFICE OF THE GOVERNOR

COMMONWEAL TH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER AUTHORIZING RE-OPENING PREPARATIONS FOR CHILD CARE
PROGRAMS
COVID-19 Order No. 36
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control have advised that COVID-19 is
spread mainly by person to person contact and that the best means of slowing the spread of the
virus is through practicing social distancing and protecting oneself and others by minimizing
personal contact with environments where this potentially deadly virus may be transmitted;
WHEREAS, on March 18, 2020, in order to restrict person-to-person contact as a means
of combatting the spread of COVID-19 within the Commonwealth, I issued COVID-19 Order
No. 10, which temporarily closed all licensed, approved, or exempt child care programs in the
Commonwealth, effective at the end of the day on March 22, 2020;
WHEREAS, on March 25, 2020, and April 21, 2020, I issued COVID-19 Orders No. 15
and 27, respectively, which extended the period in which COVID-19 Order No. 10 would require
all licensed, approved, or exempt child care programs to remain closed;
WHEREAS, recent public health data indicate continued improvement in key areas of
measurement as a result of the extraordinary efforts of health care providers in the
Commonwealth and the public's unselfish compliance with the restrictions imposed in response
to the COVID-19 health crisis;

@ PRINTED ON RlcCYCI.ED PAPrn

120a

WHEREAS, a sustained trend of improvement in public health data has permitted an
ongoing carefully phased relaxation of certain restrictions placed on businesses and other
organizations to combat the COVID-19 pandemic, provided, however, that any adjustment can
only be maintained or expanded on the basis of continuing improvements in the public health
data, and further provided that any adjustment must reflect the reality that the Commonwealth
remains in the midst of a public health emergency, as demonstrated by reporting from the
Department of Public Health that as of May 31, 2020, 1,824 persons remain hospitalized in the
Commonwealth as a result of COVID-19 and 436 of these patients are receiving treatment in
intensive care units;
WHEREAS, child care programs are a necessary support to the re-opening of businesses
and organizations that are currently closed, and the continuing trend of improvement in the
public health data permits a similar carefully phased relaxation of restrictions on child care
programs; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over assemblages in order to protect the health and safety of persons,
over educational facilities that are supported in whole or in part by public funds, and variance of
the terms and conditions of licenses and permits issued by the Commonwealth or any of its
agencies;
NOW, THEREFORE, I hereby order the following:

1. Advance Preparations by Child Care Programs
Beginning inrmediately, any licensed, approved, or exempt child care program that was
closed by COVID-19 Order No. 10 and that is not currently operating as an emergency child care
program under the authority ofCOVID-19 Order No. 10 may open its physical workplaces and
facilities ("brick-and-mortar premises") to workers for the purpose of preparing for opening
when authorized.
Child care programs that admit workers to begin preparation of their brick-and-mortar
premises for opening under the terms of this Order must at all times comply with all generally
applicable COVID-19 workplace safety mies and any safety mies issued pursuant to Section 2 of
this Order.
Child care programs that commence re-opening preparations under the terms of this
Order may not open their brick-and-mortar premises to children and the public generally until
authorized to do so by subsequent Order.

121a

2. Requirements for Child Care Programs to Open
The Department of Early Education and Care ("EEC"), acting through its Commissioner
and subject to my approval, is hereby authorized to issue policies, procedures, requirements,
rules, and guidance to implement COVID-19 health and safety rules for the operation of
licensed, approved, or exempt child care programs. EEC, through its Commissioner, is hereby
further authorized to temporarily suspend or modify any existing EEC regulation applicable to
licensed, approved, or exempt child care programs to the extent necessary to provide for the
opening, operation, and funding of those programs.

3. Exceptions
This Order does not affect emergency child care programs created by and operating under
the authority of COVID-19 Order No. I 0, which programs may continue to operate subject to the
terms of that Order.
This Order does not affect emergency residential programs created by and operating
under the authority of COVID-19 Order No. 26, which programs may continue to operate subject
to the terms of that Order.
This Order is effective immediately and shall remain in effect until rescinded or until the
state of emergency is ended, whichever occurs first.

,.1/

,Jr

Given in Boston at .,.. •r-) PM this LZ'day
of June, two thousand and twenty

QphP~✓
CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

122a
OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER AUTHORIZING THE RE-OPENING OF PHASE II ENTERPRISES
COVID-19 Order No. 37

WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control and Prevention have advised that
COVID-19 is spread mainly by person to person contact and that the best means of slowing the
spread of the virus is through practicing social distancing and protecting oneself and others by
minimizing in-person contact with others and with environments where this potentially deadly
virus may be transmitted including, in particular, spaces that present enhanced risks because of
limited ventilation or numbers of persons present or passing through who may spread the virus
through respiratory activity or surface contacts;
WHEREAS, on March 23, 2020, in order to restrict all non-essential person-to-person
contact and non-essential movement outside the home as a means of combatting the spread of
COVID-19 within the Commonwealth, I issued COVID-19 Order No. 13, which designated
certain COVID-19 Essential Services, as defined in the Order, temporarily closed the brick-andmortar premises of businesses and organizations that do not provide COVID-19 Essential
Services, and prohibited gatherings of more than 10 people;
WHEREAS, on March 31, 2020, April 28, 2020, and May 15, 2020, I issued COVID-19
Orders No. 21, 30, and 32, respectively, which extended the period in which COVID-19 Order
No. 13 would continue to restrict the operation of businesses and organizations that do not
provide COVID-19 Essential Services;
1
(i) Prum·m ON R~c,'CLEO PAPoR

123a

WHEREAS, recent public health data indicate continued improvement in key areas of
measurement as a result of the extraordinary efforts of health care providers in the
Commonwealth and the public's unselfish compliance with the restrictions imposed in COVID19 Order No. 13 and other measures implemented in response to the COVID-19 health crisis;
WHEREAS, on May 18, 2020, I issued COVID-19 Order No. 33, which authorized the
re-opening of certain brick-and-mortar premises designated as "Phase I" workplaces ("Phase I
enterprises"), subject to the requirement that all such workplaces comply with workplace safety
rules and standards designed to protect against the risk of the COVID-19 virus and which
otherwise further extended the period in which COVID-19 Order No. 13 would continue to
restrict the operations of businesses and organizations that do not provide Essential Services or
that were not designated as Phase I workplaces;
WHEREAS, a sustained trend of improvement in public health data permits a continued,
carefully phased relaxation of certain restrictions on businesses and other organizations, provided
that any adjustment can only be maintained or expanded on the basis of continuing
improvements in the public health data, and at present the Commonwealth remains in the midst
of a public health emergency, as demonstrated by reporting from the Department of Public
Health on June 5, 2020 that 1,533 persons remain hospitalized in the Commonwealth as a result
ofCOVID-19 and 350 of these patients are receiving treatment in intensive care units;
WHEREAS, according to the Centers for Disease Control and Prevention, a precipitous
removal of targeted restrictions that have proven effective in combatting the spread of COVID19 could result in a recurrence of the virus spread, as has been the experience in certain States
and countries; and
WHEREAS, sections 7, 8, and SA of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessaiy or expedient for meeting a state of emergency, including but
not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, regulating the sale of articles of food and
household articles, variance of the terms and conditions oflicenses and permits issued by the
Commonwealth or any of its agencies or political subdivisions, and policing, protection, and
preservation of public and private property;
NOW, THEREFORE, I hereby order the following:
1. Opening of Phase II Enterprises Generally

Businesses and other organizations that are Phase II enterprises, as defined below, are
permitted to open and operate from their physical workplaces and facilities ("brick-and-mortar
premises") according to the progressive, two-step schedule specified in Section 2. Phase II
2

124a

enterprises may open those premises to workers, customers, and the public when authorized
under the two-step schedule in Section 2 provided they comply with all workplace safety rules
and standards issued or maintained pursuant to Section 3 and all other terms ofthis Order.
Phase II enterprises are businesses or other organizations that are designated as such on
the chart attached as Schedule A or businesses and other organizations that meet each of the
following conditions:
a. not previously permitted to open their premises as an Essential Service or Phase I
enterprise pursuant to Section 1 of COVID-19 Order No. 33;
b. not closed by any COVID-19 Order separate from or in addition to COVID-19
Order No. 13;
c. not excluded or excepted from the terms of this Order in Section 5; and
d. not designated as a Phase III or Phase IV enterprise on the chart attached as
Schedule A.
Businesses and other organizations that are designated as Phase III and Phase IV
enterprises on the chart attached as Schedule A must keep their brick-and-mortar premises closed
to workers, customers, and the public and may not conduct Phase III and IV activities except as
remote means permit. Phase III and IV enterprises shall not re-open their brick-and-mortar
premises until specifically authorized to do so by subsequent Order. Phase III and IV enterprises
may, however, open their premises to workers to the degree reasonably necessary to perform
critical tasks that cannot be conducted remotely, such as ensuring on-going maintenance of the
premises, preservation of inventory and equipment, and compliance with legal obligations.

2. Two-Step Progression of Phase II Openings
Step 1: On June 8, 2020, Phase II enterprises that are not designated as Step 2 enterprises
may open their brick-and-mortar premises to workers, customers, and the public.
Restaurants are authorized to provide outdoor table service beginning with the June 8
commencement of Step 1. For the purposes of this Order, the term "restaurant" shall mean an
establishment that provides seated food service that is prepared on-site and under a retail food
permit issued by a municipal authority pursuant to 105 CMR 590.000.
"Outdoor table service" shall mean service that is provided outside the restaurant building
envelope, whether on a sidewalk, patio, deck, lawn, parking area, or other outdoor space.
Outdoor table service may be provided under awnings or table umbrellas or other cover from the
elements, provided, however, that at least 50 percent of the perimeter of any covered dining
space must remain open and unobstructed by any form of siding or barriers at all times.
Step 2: If the public health data reflects continued positive progression, Step 2 will be
announced by a subsequent Phase II Order. Effective upon the commencement of Step 2

3

125a

a. close contact personal services, as defined below, may open their brick-andmortar premises to workers, customers, and the public; and
b. Restaurants may commence indoor table service.
"Close contact personal services" shall mean any personal service typically delivered
through close physical contact with a client including, without limitation, nail care services,
massage therapy, personal training services, and tattoo, piercing, and body art services. The
Director of Labor Standards shall issue guidance to define such services more completely.

3. Sector-Specific Rules and Self-Certification
The Director of Labor Standards and the Commissioner of Public Health shall issue,
subject to my approval, COVID-19 workplace safety rules for certain, specific Phase II
enterprise sectors ("Sector-Specific Rules") to address the particular circumstances and
operational needs of those specific sectors.
The Secretary of the Executive Office of Energy and Environmental Affairs ("EEA"),
subject to my approval, shall issue Sector-Specific Rules to implement COVID-19 safety
measures for organized youth and adult amateur sports activities and shall continue to issue
COVID-19 workplace safety standards for operators of and participants in outdoor recreational
activities as provided for in COVID-19 Order No. 34. In issuing such standards, the Secretary
may from time to time, following consultation with the Commissioner of the Department of
Public Health, adjust the capacity restrictions in Section 3(c) of COVID-19 Order No. 35 and the
capacity and other limitations applicable to the recreational activities and facilities specified in
Attachment 1 to COVID-19 Order No. 33.
Phase II Sector-Specific Rules shall supplement the generally applicable COVID-19
safety rules applicable to all workplaces in the Commonwealth adopted in COVID-19 Order No.
33. Phase II enterprises shall adopt and comply with all Sector-Specific Rules applicable to their
workplaces.
Newly Opened Premises: Phase II enterprises that are authorized under the terms of this
Order to open their brick-and-mortar premises to workers, customers, and the public shall be
required to self-certify that they are in compliance with all generally applicable COVID-19
workplace safety rules and any applicable Sector-Specific rules. Before opening a brick-andmortar premises under the terms of this Order, a Phase II enterprise not previously authorized to
operate as a COVID-19 Essential Service pursuant to COVID-19 Order No. 13 shall be required
to implement the following measures:

a. Bring the workplace into full compliance with all generally applicable COVID-19
workplace safety rules and all Sector-Specific Rules that are applicable to the
individual workplace

4

126a

b. Complete the required self-certification to verify compliance with all general and any
applicable Sector-Specific Rules and make the self-certification available for
inspection upon a request by State or Local authorities
c. Post on the premises all public notices and advisories that are required to be displayed
under the terms of this Order
A Phase II enterprise that has prior to the issuance of this Order been authorized to
remain open to workers, customers, and the public as a "COVID-19 Essential Service" shall have
until June 15, 2020 to certify its compliance with any COVID-19 workplace safety rule issued
pursuant to this Order and with the public notice provisions specified above.
All such businesses and other organizations shall, in any event, immediately undertake
best efforts to comply with all generally applicable COVID-19 workplace safety rules applicable
to all businesses and other organizations operating within the Commonwealth.

4.

Enforcement and Authority

The Department of Labor Standards, in consultation with the Department of Public
Health ("DPH"), shall have general authority to promulgate directives, regulations, and guidance
to implement and enforce the COVID-19 workplace safety rules authorized under this Order.
DPH shall have specific authority to promulgate directives, regulations, and guidance to
implement and enforce the terms of this Order as it applies to businesses, organizations, and
workplaces subject to the sanitary code established pursuant to section 127A of chapter 111 of
the General Laws and where DPH otherwise has existing regulatory authority.
A municipal board of health or authorized agent pursuant to G. L. c. 111, § 30 shall have
concurrent authority with DLS and DPH to enforce the terms of this Order and any directives,
regulations, or guidance issued by DLS, DPH, and EEA under the authority of this Order.
This Order is intended to establish a uniform set of COVID-19 workplace safety rules for
all businesses and other organizations operating brick-and-mortar premises across the
Commonwealth. No municipal or other local authority should adopt or enforce any workplace
health or safety rule to address COVID-19 that is in addition to, stricter than, or otherwise in
conflict with any COVID-19 workplace safety rule adopted in this Order or under the
implementing directives, regulations, and guidance issued by DLS, DPH, or EEA under the
authority granted by this Order. DLS, DPH, EEA, and each municipal or local authority shall
uniformly apply any enforceable COVID-19 workplace safety rule.
Violation of the terms of this Order or any directives, regulations, or guidance issued
pursuant to this Order may result in a civil fine ofup to $300 per violation, in the manner
provided for in G. L. c. 277, § 70C. This Order may also be enforced by injunction. A motion
for an injunction to enforce this Order or any directives, regulations, or guidance issued on its

5

127a

authority may be filed in the district court or other any court of competent jurisdiction for the
municipality in which the violation has been charged.
In issuing directives, regulations, or guidance under the tenns of this Order, (a) the
Director of Labor Standards shall act under the authority G. L. c. 149, §§ 6 & 6½; and (b) the
Commissioner of Public Health shall act under the authority of G. L. c. 17, § 2A and G. L. c.
111, §§ 6 & 127A, insofar as those statutes are consistent with the provisions ofthis Order and
authority is available thereunder. In addition, I hereby direct the Commissioner of Public Health
to act under the authority of G. L. c. 17, § 2A and G. L. 111, § 6 or any other appropriate
authority to supplement the terms of this Order in the event she determines that additional
measures are required to ensure that the terms of this Order are observed. The Director of Labor
Standards and the Commissioner of Public Health may issue regulations implementing the terms
of this Order pursuant to the processes generally provided in G. L. c. 30A, §§ 2-6.
If any provision of this Order or the application thereof to any person or entity or
circumstance is determined to be invalid by a court of competent jurisdiction, such judgment
shall not affect or impair the validity of the other provisions of this Order or its application to
other persons, entities, and circumstances.

5. Exceptions
This Order shall have no application to any of the following businesses, organizations,
workplaces, or facilities:
a. Any municipal legislative body, the General Court, or the Judiciary
b. Federal governmental entities
c. Any health care facility or licensed health care provider
d. Any of the following workplaces or facilities with specialized functions and
populations, provided that DPH shall in each case consult with the responsible
authority and provide COVID-19 health and safety guidance as needed:
•

Public and private elementary and secondary (K-12) schools

•
•

Residential and day schools for special needs students
Licensed, approved, or exempt child care programs and any emergency child
care centers and emergency residential programs operating under emergency

•
•

•

authorization
Facilities operated by the Department of Correction or any Sheriff
Facilities operated, contracted, or licensed by the Department of Youth
Services, Department of Mental Health, Department of Public Health, or the
Department of Developmental Services
Facilities that provide safe spaces for the unstably housed such as homeless
and domestic violence shelters
6

128a

•

and any other facilities or workplaces that the Commissioner of Public Health
may in writing exempt from the terms of this Order

COVID-19 Order No. 13 is rescinded effective at 12:01 am on June 8, 2020.
This Order is effective immediately and shall remain in effect until rescinded or until the
state of emergency is ended, whichever occurs first.

1i;lt{

Given in Boston at
PM this{e__th day
of June, two thousand and twenty

C)Ab!D~
CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

7

129a

Schedule A to COVID-19 Order No. 37

Phase I

All Phase I, II, Ill, and IV enterprises are required to comply with general and, where
applicable, sector-specific COVID-19 workplace safety rules administered by DPL, DPH, and
local boards of health. Workplace safety rules include a variety ofmandato1y context-specific
COVID-19 safety measures such as occupancy limitations, operational modifications, social
distancing rules, and specialized cleaning requirements.
As specified in COVID-19 Order No. 33:

•

•
•
•

•
•
•

•
•

•

•

•
Phase II

•
•

•
•
•

•

•
•

•

•

•

•
•
•

Businesses and other organizations providing products and services identified as
"COVID-19 Essential Services" in COVID-19 Order No. 13
Manufacturing
Construction
Places of Worship
Fireanns retailers and shooting ranges
General Use Offices
Car Washes
Hair Salons and Barber Shops
Pet Groomers
Drive-In Move Theaters
Laboratories
Certain Outdoor Recreational Facilities and Activities as specified in Exhibit 1 to
COVID-19 Order No. 33
Retail Stores including stores in enclosed shopping malls
Restaurants providing seated food service prepared on-site and under retail food
permits issued by municipal authorities pursuant to 105 CMR 590.000, including beer
gardens/wineries/distilleries meeting these criteria
Step 1: outdoor table service
0
Step 2: indoor table service
0
Hotels, motels, inns, and other short-term lodgings (no events, functions, or meetings)
Limited organized youth and adult amateur sports activities and programs-no contact
and no games or scrimmages, and indoor facilities limited to youth programs
Professional sports practice and training programs--no inter-team games and no
admission for the public
Personal Services provided at a fixed place of business or at a client location
Step 1: Services involving no close personal contact (photography, window
0
washers, individual tutoring, home cleaning, etc.)
Step 2: Services involving close personal contact (massage, nail salons,
0
personal training for individuals or no more than 2 persons from same
household, etc.)
Non-athletic instructional classes in arts/education/life skills for youths under 18 years
of age in groups offewer than 10
Driving schools and flight schools
Outdoor historical spaces-no functions or gatherings and no guided tours
Funeral homes-increased capacity to permit 40% occupancy for one service at a time
within the facility
Warehouses and distribution centers
Golf facilities including outdoor driving ranges
Other outdoor recreational facilities
0
pools, playgrounds and spray decks
mini golf, go karts, batting cages, climbing walls, ropes courses
0
Post-Secondarv/Higher Ed/Vocational-Tech/Trade/Occunational Schools

8

130a

for the limited purposes of permitting students to complete a degree, program,
or prerequisite for employment, or other similar requirement for completion,
for summer youth programming including athletic facilities, and any
necessary supporting services
Day Camps including sports and arts camps
Public libraries
0

•

•
Phase III

•

•
•
•
•

•
•
•
•
•
•
•
•
•
•
•
•

Post-Secondary/Higher EdNocational-Tech/Trade/Occupational Schools-general
operations
Casino gaming floors
Horse racing tracks and simulcast facilities (no spectators)
Indoor recreational and athletic facilities for general use (not limited to youth
programs)
Fitness centers and health clubs including
cardio/weight rooms/locker rooms/inside facilities
0
fitness studios (yoga, barre, cross-fit, spin classes, general fitness studios)
0
indoor common areas
0
indoor swimming pools
0
indoor racquet courts and gymnasiums
0
locker rooms/shower rooms
0
excluding saunas, hot-tubs, steam rooms
0
Museums
Indoor historic spaces/sites
Aquariums
Outdoor theatres and performance venues of moderate capacity
Indoor theatres, concert halls, and other performance venues of moderate capacity
Sightseeing and other organized tours (bus tours, duck tours, harbor cruises, whale
watching)
Motion picture, television, and video streaming production, except for activities
specifically pennitted in Phases I and II
Fishing and hunting tournaments and other amateur or professional derbies
Weddings/events/gatherings in parks, reservations, and open spaces with allowance for
moderate capacity
Overnight camps
Indoor non-athletic instructional classes in arts/education/life skills for persons 18
years or older
Indoor recreational businesses: batting cages, driving ranges, go karts, bowling alleys,
arcades, laser tag, roller skating rinks, trampolines, rock-climbing

This listing is subject to amendment.
Phase IV

•

•
•
•

•

Amusement parks, theme parks, indoor or outdoor water parks
Saunas, hot-tubs, steam rooms at fitness centers, health clubs, and other facilities
Bars, dance clubs, and nightclubs-venues offering entertainment, beverages, or
dancing and not providing seated food service prepared on-site and under retail food
permits issued by municipal authorities pursuant to 105 CMR 590.000
Beer gardens/breweries/wineries/distilleries not providing seated food service prepared
on-site and under retail food permits issued by municipal authorities pursuant to 105
CMR590.000
Large capacity venues used for group or spectator sports, entertainment, business, and
cultural events including
Theaters and concert halls
0
Ballrooms
0
Stadiums, arenas, and ballparks
0
Dance floors
0
Exhibition and convention halls
0

9

131a

•
•
•

Private party rooms
Street festivals and parades and agricultural festivals
Road races and other large, outdoor organized amateur or professional group athletic
events

This listing is subject to amendment.

10

132a

OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

REVISED ORDER REGULATING GATHERINGS
THROUGHOUT THE COMMONWEALTH
COVID-19 Order No. 38
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control and Prevention have advised that
COVID-19 is spread mainly by person to person contact and that the best means of slowing the
spread of the virus is through practicing social distancing and protecting oneself and others by
minimizing personal contact with large groups and with environments where this potentially
deadly virus may be transmitted including, in particular, spaces that present enhanced risks
because of the number of persons present or passing through the area who may spread the virus
through respiratory activity or surface contacts;
WHEREAS, on March 23, 2020, in order to restrict all non-essential person-to-person
contact, non-essential movement outside the home, and reduce opportunities for spreading the
COVID-19 virus within the Commonwealth, I issued COVID-19 Order No. 13, which
designated certain COVID-19 Essential Services, as defined in the Order, temporarily closed the
brick-and-mortar premises of businesses and organizations that do not provide COVID-19
Essential Services, and prohibited gatherings of more than 10 people;

1
Ci)

PRINTED ON RECYCLED PAPER

133a

WHEREAS, on March 31, 2020, April 28, 2020, and May 15, 2020, I issued COVID-19
Orders No. 21, 30, and 32, respectively, which extended the period in which COVID-19 Order
No. 13 would continue to operate;
WHEREAS, recent public health data indicate continued improvement in key areas of
measurement as a result of the extraordinary efforts of health care providers in the
Commonwealth and the public's unselfish compliance with the restrictions imposed in COVID19 Order No. 13 and other measures implemented in response to the COVID-19 health crisis;
WHEREAS, on May 18, 2020 and June 6, 2020, I issued COVID-19 Orders No. 33 and
3 7, respectively, which designated certain businesses and other organizations as Phase I, II, III,
or IV enterprises and initiated a progressive, phased plan for re-opening workplaces and other
facilities across the Commonwealth, thereby rendering the Essential Services designation no
longer practically useful, with the result that COVID-19 Order No. 13 will accordingly be
rescinded effective June 8, 2020 pursuant to COVID-19 Order No. 37;
WHEREAS, it remains imperative to continue to minimize opportunities for person-toperson spread of the COVID-19 virus while the Commonwealth remains in the midst of the
COVID-19 public health emergency; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, and policing, protection, and preservation of
public and private property;
NOW, THEREFORE, I hereby Order the following:
Gatherings that bring together more than 10 persons into close physical proximity in any
confined indoor or outdoor space remain prohibited throughout the Commonwealth.
Gatherings that are subject to the limitations of this Order include, without limitation,
community, civic, public, leisure, sporting events, concerts, conferences, conventions,
fundraisers, fairs, festivals, and other similar events or activities that attract 10 or more persons
to a particular location.
Indoor and Other Enclosed Gathering Spaces: Stadiums, arenas, theaters, concert halls,
ballrooms, conference facilities, exhibition and convention halls, and similar venues that are
designed or operated to accommodate gatherings and other assemblages of people shall remain
closed.
Outdoor Activities in Unenclosed Spaces: This Order does not prohibit gatherings of
more than 10 people in an unenclosed, outdoor space such as a park, backyard, athletic field, or

2

134a

parking lot, provided that (a) every person in attendance is able regularly to maintain at least 6
feet of distance from others in attendance; and (b) the type of gathering at issue has not been
prohibited or the outdoor space in which the gathering will take place has not been closed to the
public by previous Executive Order designating it as a Phase III or Phase IV enterprise or venue.
Street festivals, agricultural festivals, walk-a-thons, road races and bike races, and other
outdoor organized athletic or recreational events that gather large numbers of participants or
spectators outdoors are prohibited until further Order; provided, however, that outdoor
gatherings for the purpose of political expression are permitted.
Consistent with COVID-19 Order No. 31, which requires persons to wear face coverings
while in public places to prevent the spread of COVID-19, and the Safer at Home Advisory
issued by the Department of Public Health issued on May 18, 2020, all persons over the age of
two must wear a face covering when they attend outdoor gatherings if the circumstances of the
gathering could limit their ability to maintain at least six feet of distance from others, unless they
are prevented from wearing a face covering by a medical or disabling condition. All persons are
likewise advised to avoid close personal contact to prevent spreading the virus.
Context-Specific Rules: A business or other organization that has been designated by
Executive Order as a Phase I or Phase II enterprise and that is permitted to open its brick-andmortar premises to workers or the public shall not be subject to this general rule restricting
gatherings where the enterprise is operating in compliance with COVID-19 safety rules issued by
the Department of Public Health, the Department of Labor Standards, or the Department of
Energy and Enviromnental Affairs.
Legal Exceptions: This Order shall not apply to any of the following businesses,
organizations, workplaces, or facilities:

a.
b.
c.
d.

Any municipal legislative body, the General Court, or the Judiciary
Federal govermnental entities
Any health care facility or licensed health care provider
Any of the following workplaces or facilities with specialized functions and
populations:
• Public and private elementary and secondary (K-12) schools
• Residential and day schools for special needs students
• Licensed, approved, or exempt child care programs and any emergency child
care centers and emergency residential programs operating under emergency
authorization
• Facilities operated by the Department of Correction or any Sheriff
• Facilities operated, contracted, or licensed by the Department of Youth
Services, Department of Mental Health, Department of Public Health, or the
Department of Developmental Services

3

135a

•

Facilities and programs that provide safe spaces for the unstably housed such
as homeless and domestic violence shelters

•

and any other facilities or workplaces that the Commissioner of Public Health
may in writing exempt from the terms of this Order

Violation of the terms of this Order may result in a civil fine ofup to $300 per violation,
in the manner provided by G. L. c. 277, § 70C. This Order may also be enforced by injunction.
A motion for an injunction to enforce this Order may be filed in the district court or other any
court of competent jurisdiction for the municipality in which the violation has been charged.
This Order shall be effective at 12:01 am on June 8, 2020 and shall remain in effect until
rescinded or until the state of emergency is ended, whichever occurs first.

Given in Boston at /J...~tf (rM this 6th day
of June, two thousand and twenty

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

4

136a
OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER FURTHER ADVANCING THE RE-OPENING
OF PHASE II ENTERPRISES
COVID-19 Order No. 40
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS; on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, on March 23, 2020, in order to restrict all non-essential person-to-person
contact and non-essential movement outside the home as a means of combatting the spread of
COVID-19 within the Commonwealth, I issued COVID-19 Order No. 13, which designated
certain COVID-19 Essential Services, as defined in the Order and temporarily closed the brickand-mortar premises of businesses and organizations that do not provide COVID-19 Essential
Services;
WHEREAS, on May 18, 2020 and June 6, 2020, I issued COVID-19 Order Nos. 33 and
37, which authorized the re-opening of certain brick-and-m01tar premises designated as "Phase
I" and "Phase II" enterprises, subject to the requirement that all such enterprises comply with
workplace safety rules and standards designed to protect against the risk of the COVID-19 virus;
WHEREAS, COVID-19 Order No. 37 provided that certain Phase II enterprises were
authorized to re-open at the commencement of Phase II ("Step 1") and that certain other Phase II
enterprises would be authorized to re-open only when permitted to do so by a subsequent
Executive Order to be issued only on the basis of continued positive progression in the public
health data ("Step 2");

137a

WHEREAS, the cunent, sustained trend of improvement in public health data pe1mits a
continuing, carefully phased relaxation of certain restrictions on businesses and other
organizations, provided that any adjustment can only be maintained or expanded on the basis of
continuing positive trends in the public health data; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, regulating the sale of articles of food and
household articles, variance of the terms and conditions of licenses and permits issued by the
Commonwealth or any of its agencies or political subdivisions, and policing, protection, and
preservation of public and private prope1iy;
NOW, THEREFORE, I hereby order the following:
Step 2 of Phase II of the Commonwealth's Re-Opening Plan shall commence at 12:01 am
on Monday, June 22, 2020.
Effective upon the commencement of Step 2
a. close contact personal services, as defined in COVID-19 Order No. 37 and in any
implementing rules or regulations, may open their brick-and-mo1iar premises to
workers, customers, and the public; and
b. restaurants, as defined in COVID-19 Order No. 37, may commence indoor table
service.
Any Phase II enterprise that opens its brick-and-mortar premises to workers, customers,
or the public on or after the commencement of Step 2 shall be subject to all rules, requirements,
limitations, and provisions applicable to Phase II enterprises generally under the tenns of
COVID-19 Order No. 3 7 or under the tenns of any prior or subsequent Order of continuing
effect, including any Sector-Specific Rules applicable to those facilities.
Given in Boston at // ,#{ fA.Mthis 19th
day of June, two thousand and twenty

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

138a
OFFICE OF THE GOVE RNOR

COMMONWEALTH OF MASSACHUSETTS
STATE HOUSE • BOSTON,

MA 02133

(617) 725-4000

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LI EUTENANT GOVERNOR

ORDER AUTHORIZING THE REOPENING OF CHILD CARE PROGRAMS AND
RESCINDING EIGHT COVID-19 ORDERS
COVID-1 9 Order No. 41

WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-1 9 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, on March 17, I issued COVID-19 Order Nos. 7 and 8, which provided
automatic license renewals for physicians and other medical professionals whose licenses would
expire during the state of emergency, established an expedited means to re-instate the licenses of
recently-retired physicians, expanded authorization for the practice of telemedicine, and made
other allowances to expand capacity in the health care system to respond to an anticipated surge
in COVID-19 cases in the Commonwealth;
WHEREAS, on March 18, I issued COVID-19 Order No. 9, which provided for the
automatic extension of a wide range of other, non-medical professional licenses and registrations
issued to individuals by Commonwealth licensing authorities, and on March 26, I issued
COVID-19 Order No. 18, which did the same for licenses issued to businesses and other
organizations;
WHEREAS, on March 18, I also issued COVID-19 Order No. 10, which, as extended by
COVID-1 9 Order Nos. 15 and 27, closed licensed, approved, and exempt child care programs
until June 29 and authorized the establishment of an Emergency Child Care Program to provide
care to vulnerable children and the children of front-line workers;

1
@

Pmr,;no ON REcrcu:.o P APER

139a

WHEREAS, on March 20, I issued COVID-19 Order No. 12, which allowed for the
conditional deferral of certain inspections normally required upon the sale or transfer of
residential real estate;
WHEREAS, on March 30, I issued COVID-19 Order No. 19, which allowed public
companies headquartered in the Commonwealth to conduct annual or special shareholder
meetings exclusively by remote means;
WHEREAS, on March 30, I also issued COVID-19 Order No. 20, which allowed the
Executive Office of Health and Human Services to employ an expedited process for adjusting the
payments made to critical health and human services providers who were facing extraordinary
demand or severe disruptions to their service models as a result of the COVID-19 emergency;
WHEREAS, on April 9, I issued COVID-19 Order No. 23, which allowed for the
expedited licensing of physicians educated at foreign medical schools;
WHEREAS, the current, sustained trend of improvement in public health data has
reduced the demand on medical facilities, allowed for the re-opening of many businesses and
other organizations in the state, and permitted the resumption of state services and licensing, with
the consequence that the pressing need for flexibility and expedited processes that were
authorized by these earlier-issued Emergency Orders has substantially diminished; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and prope1iy necessary or expedient for meeting a state of emergency, including
authority over educational facilities that are supported in whole or in part by public funds, so as
to extend those facilities' benefits and availability; authority over public assemblages in order to
protect the health and safety of persons; authority to modify of the terms and conditions of
licenses, permits, or certificates of registration issued by the Commonwealth or any of its
agencies or political subdivisions; authority to regulate the manner and method of purchasing or
contracting for services for the Commonwealth and its agencies; and authority over the policing,
protection, and preservation of all private prope1iy by the owner or person in control thereof;
NOW, THEREFORE, I hereby order the following:

(1) Reopening of Child Care and July 13 Closure of Emergency Child Care Programs

Licensed, approved, or exempt child care programs closed by the Order Temporarily
Closing All Child Care Programs and Authorizing the Temporary Creation and Operation of
Emergency Child Care Programs (COVID-19 No. 10), may reopen under their current license,
approval, or exemption, provided that any such child care program must abide by the reopening
requirements and approval process established by the Department of Early Education and Care,
2

140a

including but not limited to the requirement to demonstrate capacity to meet the minimum health
and safety requirements issued pursuant to the Order Authorizing Re-Opening Preparations for
Child Care Programs (COVID-19 Order No. 36).
Emergency child care programs, as authorized by Section 2 of COVID-19 Order No. 10,
may continue operations through July 12, 2020. Effective at 12:01 am on July 13, 2020, the
provisions of COVID-19 Order No. 10 are rescinded in their entirety, and emergency child care
programs shall no longer be authorized to operate and must cease operation.
(2) Additional Rescissions of Orders
Each of the following Orders is hereby rescinded as of the dates indicated below,
provided that, except as otherwise specified below, rescission shall not invalidate any allowance
made, protection granted, or act taken under the authority of an Order prior to its rescission or
impair any license, registration, permit, or extension granted under the authority of any Order
prior to its rescission.
June 26, 2020
(a) Order Regarding the Conduct of Shareholder Meetings by Public Companies
(COVID-19 Order No. 19)
July 10, 2020
(b) Order Permitting the Temporary Conditional Deferral of Certain Inspections of
Residential Real Estate ( COVID-19 Order No. 12)
(c) Order Expanding Access to Physician Services (COVID-19 Order No. 7)
(d) Order Extending the Registrations of Certain Licensed Health Care Professionals
(COVID-19 Order No. 8)
(e) Order Extending the Registrations of Certain Licensed Professionals (COVID-19
Order No. 9)
(f) Order Extending Certain Professional Licenses, Permits, and Registrations Issued by
Commonwealth Agencies (COVID-19 Order No. 18)
For the Orders listed in (c)-(f), each relevant licensing authority shall ensure that all
licenses, registration, or permits previously issued or extended under the Orders' authority shall
at a minimum remain valid through October 1, 2020.

July 31, 2020
(g) Order Providing Accelerated Licensing of Physicians Educated in Foreign Medical
Schools (COVID-19 Order No. 23). The Board of Registration in Medicine shall
3

141a

ensure that all licenses issued pursuant to the authority of COVID-19 Order No. 23
remain valid for 2 years from the date of issuance.
(h) Order Authorizing the Executive Office of Health and Human Services to Adjust
Essential Provider Rates during the COVID-19 Public Health Emergency (COVID-19
Order No. 20); provided that (a) no further rate or payment adjustments shall be made
in reliance on COVID-19 Order No. 20 after July 10; and (b) any designations made or
temporary rates, supplemental payments, or other rate and payment methodologies or
anangements established prior to the date of this Order pursuant to COVID-19 Order
No. 20 shall also expire on July 31, 2020.
This Order is effective immediately.
Given in Boston at f ! J.l) PM this 26th day
of June, two thousand and twenty

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

4

142a
OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON ,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER AUTHORIZING THE RE-OPENING OF PHASE III ENTERPRISES
COVID-19 Order No. 43

WHEREAS, on March 10, 2020, I, Charles D . Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control and Prevention have advised that
COVID-19 is spread mainly by person-to-person contact and that the best means of slowing the
spread of the virus is through practicing social distancing and protecting oneself and others by
minimizing in-person contact with others and with environments where this potentially deadly
virus may be transmitted including, in particular, spaces that present enhanced risks because of
limited ventilation or large numbers of persons present or passing through who may spread the
virus through respiratory activity or surface contacts;
WHEREAS, on March 23, 2020, in order to restrict all non-essential person-to-person
contact and non-essential movement outside the home as a means of combatting the spread of
COVID-19 within the Commonwealth, I issued COVID-19 Order No. 13, which temporarily
closed the brick-and-mortar premises of businesses and organizations that do not provide
COVID-19 Essential Services as defined in the Order;
WHEREAS, on the basis of sustained improvement in the public health data, on May 18,
2020 and June 6, 2020, I issued COVID-19 Order Nos. 33 and 37 respectively, which authorized
the re-opening of ce1iain brick-and-m01iar premises designated as "Phase I" and "Phase II"
enterprises, subject to the requirement that all such enterprises comply with workplace safety
rules and standards designed to protect against the risk of the COVID-19 virus;
1

®

Pruml:D ON RE.c-i'clZD PAP.ER

143a

WHEREAS, the cmTent, continuing trend of improvement in public health data permits a
further, carefully phased relaxation of restrictions on businesses and other organizations,
provided that any adjustment can only be maintained or expanded on the basis of continuing
improvements in the public health data;
WHEREAS, according to the Centers for Disease Control and Prevention, a precipitous
removal of targeted restrictions that have proven effective in combatting the spread of COVID19 could result in a recurrence of the virus spread, as has been the experience in certain States
and countries; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all auth01ity
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, regulating the sale of articles of food and
household articles, variance of the terms and conditions of licenses and pennits issued by the
Col11111onwealth or any of its agencies or political subdivisions, and policing, protection, and
preservation of public and private prope1iy;
NOW, THEREFORE, I hereby order the following :
1. Opening of Phase III Enterprises

Businesses and other organizations that are designated as Phase III enterprises on the
chart attached as Schedule A are permitted to open and operate from their physical workplaces
and facilities ("brick-and-mortar premises") according to the progressive, two-step schedule
specified below. Phase III enterprises may open those premises to workers, customers, and the
public only when authorized under the two-step schedule and provided that they comply with all
workplace safety rules and standards issued or maintained pursuant to Section 4 and all other
terms of this Order. 1

Step 1: On July 6, 2020, Phase ill enterprises that are designated as Step 1 enterprises on
Schedule A may open their brick-and-m01iar premises to workers, customers, and the
public; provided, however, that for any premises located within the City of Boston, Step
1 of Phase III shall commence on July 13, 2020.
Step 2: If the public health data reflects continued positive progression, Step 2 will be
announced by a subsequent Phase III Order. Effective upon the cmmnencement of Step
2, Phase III enterprises that are designated as Step 2 enterprises on Schedule A may open
their brick-and-mortar premises to workers, customers, and the public.

1

Schedule A has been amended from the version adopted in COVID-19 Order No. 37 on June 6, 2020.

2

144a

Businesses and other organizations that are designated as Phase IV enterprises on the
chart attached as Schedule A must keep their brick-and-mortar premises closed to workers,
customers, and the public and may not conduct Phase IV activities except as remote means
permit. Phase IV enterprises shall not re-open their brick-and-mortar premises until specifically
authorized to do so by subsequent Order. Phase IV enterprises and enterprises pe1mitted to open
only in Step 2 of Phase III may, however, open their premises to workers to the degree
reasonably necessary to perform critical tasks that cannot be conducted remotely, such as
ensuring on-going maintenance and security of the premises, preservation of inventory and
equipment, and compliance with legal obligations.

2. Adjustments to Restrictions on Organized Sports Activities and Programs
Amateur Sports: The Secretary of the Executive Office of Energy and Environmental
Affairs ("EEA"), subject to my approval, shall continue to issue Sector-Specific Rules to
implement COVID-19 safety measures for organized youth and adult amateur sports activities
and shall continue to issue COVID- 19 Sector-Specific Rules and other safety standards for
operators of and paiiicipants in outdoor recreational activities as authorized in COVID-19 Order
Nos. 35 and 37.
The specific restrictions on amateur organized sports itemized in paragraphs (a) - (d) of
section 3 of COVID-19 Order No. 35 are hereby rescinded. Accordingly, the Secretary of EEA,
after consulting with the Department of Public Health, may dete1mine appropriate Step 1 and
Step 2 allowances, rules, and restrictions that
a. pe1mit games, scrimmages, and tournaments for both no-contact and contact
sports;
b. establish appropriate limitations on the number of persons that may paiiicipate at
one time in an organized spmis activity within a single facility or on a single
comi, field, or other playing surface; and
c. open indoor athletic facilities for use by both youths and adults.

Professional Sports: A professional spmis organization that has adopted comprehensive
COVID-19 health and safety rules under the authority of formal league rules or other binding
agreements or affiliations may engage in organized games, tournaments, and other competitions
within the Commonwealth. Prior to engaging in any such activities, a professional sports
organization shall submit such COVID-19 health and safety rules to the Commissioner of the
Department of Public Health for review.
No professional spmis organization shall admit spectators or other members of the public
to any training, practice, scrimmage, game, or tournament or other competition or exhibition
until authorized by further Order.
Section 4 of this Order shall not apply to professional sports organizations that have
complied with this section.
3

145a

3. Premises Regulated by the Massachusetts Gaming Commission
The Massachusetts Gaming Commission ("MOC"), following consultation with the
Department of Public Health, shall issue and may from time to time amend COVID-19 safety
rnles for the operation of all casinos, race tracks, and related facilities operating under licenses
issued pursuant to Chapters 23K or 128A and subject to the MGC' s regulatory authority, and for
simulcasting facilities approved under Chapter 128A. The MOC shall have authority to
promulgate and enforce such rules and in doing so may exercise any powers granted to it by
Chapters 23K or 128A.
Section 4 of this Order shall not apply to casinos, race tracks, or other facilities subject to
the MGC's regulatory authority and operated under licenses issued pursuant to Chapters 23K or
128A.

4. Sector-Specific Rules and Self-Certification
The Director of Labor Standards and the Commissioner of the Depmtment of Public
Health shall issue, subject to my approval, COVID-19 workplace safety rules for certain, specific
Phase III enterprise sectors ("Sector-Specific Rules") to address the particular circumstances and
operational needs of those specific sectors.
Phase III Sector-Specific Rules shall supplement the generally applicable COVID-19
safety rules applicable to all workplaces in the Commonwealth adopted in COVID-19 Order No.
33. Phase III enterprises shall adopt and comply with all Sector-Specific Rules applicable to
their workplaces.

Newly Opened Premises: Phase III enterprises that are authorized m1der the terms of this
Order to open their brick-and-mortar premises to workers, customers, and the public shall be
required to self-certify that they are in compliance with all generally applicable COVID-19
workplace safety rules and any applicable Sector-Specific rules. Before opening a brick-andm01tar premises under the te1ms of this Order, a Phase III enterprise shall:
a. Bring the workplace into full compliance with all generally applicable COVID-19
workplace safety rules and all Sector-Specific Rules that are applicable to the
individual workplace
b. Complete the required self-certification to verify compliance with all general and any
applicable Sector-Specific Rules and make the self-certification available for
inspection upon a request by State or Local authorities
c. Post on the premises all public notices and advisories that are required to be displayed
under the tenns of this Order

4

146a

5.

Enforcement and Authority

The Department of Labor Standards ("DLS"), in consultation with the Department of
Public Health ("DPH"), shall have general authority to promulgate directives, regulations, and
guidance to implement and enforce the COVID-19 workplace safety rules authorized under this
Order.
A municipal board of health or authorized agent pursuant to G. L. c. 111, § 30 shall have
concurrent authority with DLS and DPH to enforce the terms of this Order and any directives,
regulations, or guidance issued by DLS, DPH, and EEA under the authority of this Order.
The provisions of Section 4 of COVID-19 Order No. 37 are hereby incorporated and restated in full and shall apply to Phase III enterprises except where this Order provides a specific
limitation or exception.
If any provision of this Order or the application thereof to any person or entity or
circumstance is determined to be invalid by a court of competent jurisdiction, such judgment
shall not affect or impair the validity of the other provisions of this Order or its application to
other persons, entities, and circumstances.

6. Exceptions
This Order shall have no application to any of the following businesses, organizations,
workplaces, or facilities:
a.
b.
c.
d.

Any municipal legislative body, the General Court, or the Judiciary
Federal governmental entities
Any health care facility or licensed health care provider
Any of the following workplaces or facilities with specialized functions and
populations, provided that DPH shall in each case consult with the responsible
authority and provide COVID-19 health and safety guidance as needed:
• Public and private elementary and secondary (K-12) schools
• Residential and day schools for special needs students
• Licensed, approved, or exempt child care programs and any emergency child
care centers and emergency residential programs operating under emergency
authorization
• Facilities operated by the Department of Correction or any Sheriff
• Facilities operated, contracted, or licensed by the Department of Youth
Services, Department of Mental Health, Department of Public Health, or the
Department of Developmental Services
• Facilities that provide safe spaces for the unstably housed such as homeless
and domestic violence shelters

5

147a

•

and any other facilities or workplaces that the Commissioner of the
Department of Public Health may in writing exempt from the terms of this
Order

This Order is effective immediately and shall remain in effect until rescinded or until the
state of emergency is ended, whichever occurs first.
Given in Boston at// : HJ ~
M this 2nd
day of July, two thousand and twenty

(fahlJ~
CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

6

148a

Schedule A to COVID-19 Order No. 43

Phase I

All Phase I, II, III, and IV enterprises are required to comply with general and, where
applicable, sector-specific COVID-19 workplace safety rules administered by DPL, DPH, EEA,
and local boards of health. Workplace safety rules include a variety of mandatory contextspecific COVJD-19 safety measmes such as occupancy limitations, operational modifications,
social distancing rules, and specialized cleaning requirements.
As specified in COVID-19 Order No. 33:

•

•
•
•
•
•

•
•
•
•
•
•
Phase 11

Businesses and other organizations providing products and services identified as
"COVID-19 Essential Services" in COVID-19 Order No. 13
Manufacturing
Construction
Places of Worship
Fi.rearms retailers and shooting ranges
General Use Offices
Car Washes
Hair Salons and Barber Shops
.Pet Groomers
Drive-In Movie Theaters
Laboratories
Certain Outdoor Recreational Facilities and Activities as specified in Exhibit 1 to
COVID-19 Order No. 33

As specified in COVlD-19 Order No. 37 and including specifically:

•
•

•
•

•

•

•
•
•
•
•
•
•

Retai l Stores including stores in enclosed shopping malls
Restaurants providing seated food service prepared on-site and under retail food
permits issued by municipal authodties pmsuant to 105 CMR 590.000, including beer
gardens/wineries/distilleries meeting these criteria
0
Step 1: outdoor table service
0
Step 2: indoor table service
Hotels, motels, inns, and other shmt-term lodgings (no events, functions, or meetings)
Limited organized youth and adult amateur sports activities and programs-no contact
and no games or scrimmages, and indoor facilities limited to youth programs
Professional sports practice and training programs--no inter-team games and no
admission for the public
Personal Services provided at a fixed place of business or at a client location
Step 1: Services involving no close personal contact (photography, window
0
washers, individual tutoring, home cleaning, etc.)
0
Step 2: Services involving close personal contact (massage, nail salons,
personal training for individuals or no more than 2 persons from same
household, etc.)
Non-ath letic instructional classes in aits/education/life slcills for youths under 18 years
of age in groups of fewer than 10
Driving schools and flight schools
Outdoor historical spaces-no functions or gatherings and no guided toW's
Funeral homes-increased capacity to permit 40% occupancy for one service at a time
within the facility
Warehouses and distribution centers
Golf facilities including outdoor clTivi.ng ranges
Other outdoor recreational facilities
pools, playgrounds and spray decks
0

7

149a

•

•

•
Phase IIJ

mini golf, go kaiis, batting cages, climbing walls, ropes comses
0
Post-Secondary/Higher EdN ocational-Tech/Trade/Occupational Schools
for the limited purposes of permitting students to complete a degree, program,
0
or prerequisite for employment, or other similar requirement for completion,
for summer youth programming including athletic facilities, and any
necessary suppmiing services
Day Camps including spmis and mis camps
Public libraries

Step 1

•
•
•
•
•

•
•
•
•
•

•
•
•
•
•
•

•

Post-Secondary/.f-hgher EdN ocational-Tech/Trade/Occupational Schools-general
operations
Casino gaming floors
Horse racing ti-acks and simulcast facilities [a]
Indoor recreational and athletic facilities for general use (not limited to youth
programs)
Fitness centers and health clubs including
cardio/weight rooms/locker rooms/inside facilities
0
fitness studios (yoga, barre, cross-fit, spin classes, general fitness studios)
0
indoor common areas
0
indoor swimming pools
0
indoor racquet courts and gymnasiums
0
locker rooms [a]
0
excluding saunas, hot-tubs, steam rooms
0
Museums
Indoor historic spaces/sites
Aquariums
Outdoor theatres and other outdoor performance venues not designated as Phase IV
enterprises [a]
Movie theatres [a]
Sightseeing and other organ ized tours (bus tours, duck tours, harbor cruises, whale
watching)
Motion picture, television, and video streaming production [a]
Fishing and hunting tournainents and other amateur or professional derbies
Outdoor event spaces used for gatherings and celebrations including those in parks,
reservations, and other outdoor spaces not designated as Phase IV enterprises [a]
Indoor event spaces such as meeting rooms, ballrooms, and private party rooms--only
when used for functions or events permitted under Sector-Specific Rules for Indoor
and Outdoor Events [a]
Indoor non-athletic instructional classes in arts/education/life skills for persons 18
years or older
Indoor recreational activities with low potential for contact: batting cages, driving
ranges, go karts, bowling alleys, rock-climbing walls [a]

Step 2

•
•
PhaseN

•
•
•

Indoor perfOTmance venues used for Jive performances such as conce1i halls, theaters,
and other indoor performance spaces not designated as Phase IV enterprises [a]
Indoor recreational activities with greater potential for contact: laser tag, rolJer skating,
trampolines, obstacle courses [a]
Amusement parks, theme parks, indoor and outdoor gaming arcades, indoor or outdoor
water parks and indoor or outdoor ball pits [a]
Saunas, hot-tubs, steam rooms at fitness centers, health clubs, and other facilities
Bars, dance clubs, and nightclubs- venues offering ente1iainment, beverages, or
dancing and not providing seated food service prepared on-site and under retail food
permits issued by municipal authorities pursuant to 105 CMR 590.000

8

150a

•

•

•
•
•

Beer gardens/breweries/wineries/distilleries not providing seated food service prepared
on-site and under retail food permits issued by municipal authorities pm·suant to l 05
CMR590.000
Large capacity venues used for group or spectator sports, entertainment, business, and
cultural events including [a]
o Stadiums, arenas, and ballparks
o Dance floors
o Exhibition and convention halls
Street festivals and parades and agricultural festivals
Road races and other large, outdoor organized amateur or professional group athletic
events
Overnight camps (Summer 2021) [a]

This listing is subject to amendment.

Note: entries that reflect amendments from the version of Exhibit A adopted in COVID-19 Order No . 37 (June 6,
2020) are designated by the marker "[a]."

9

151a
OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS
STATE HOUSE• BOSTON ,

MA 02133

(617) 725-4000

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

SECOND REVISED ORDER REGULATING GATHERINGS
THROUGHOUT THE COMMONWEALTH
COVID-19 Order No. 44
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control and Prevention have advised that
COVID-19 is spread mainly by person-to-person contact and that the best means of slowing the
spread of the virus is through practicing social distancing and by minimizing personal contact
with large groups and with environments where this potentially deadly virus may be transmitted
including, in particular, spaces that present enhanced risks because of the large number of
persons present or passing through the area who may spread the virus through respiratory activity
or surface contacts;
WHEREAS, on March 23, 2020, in order to restrict all non-essential person-to-person
contact, non-essential movement outside the home, and reduce opportunities for spreading the
COVID-19 virus within the Commonwealth, I issued COVID-19 Order No. 13, which
temporarily closed the brick-and-m01iar premises of businesses and organizations that do not
provide COVID-19 Essential Services, and prohibited gatherings of more than 10 people;
WHEREAS, recent public health data indicate continued improvement in key areas of
measurement as a result of the extraordinary efforts of health care providers in the

1
@

PRINTED ON R£C:YCL.F.O PAI'£"

152a

Commonwealth and the public's unselfish compliance with the restrictions imposed in COVID19 Order No. 13 and other measures implemented in response to the COVID-19 health crisis;

WHEREAS, on May 18, 2020, June 6, 2020 and July 2, 2020, I issued COVID-19
Orders No. 33, 37, and 43, respectively, which designated ce1iain businesses and other
orgaruzations as Phase I, II, III, or IV enterprises and irutiated a progressive, phased plan for reoperung workplaces and other facilities across the Commonwealth;
WHEREAS, on June 6, 2020, I issued COVID-19 Order No. 38, which further extended
the prohibition on gatherings of more than 10 people;
WHEREAS, it remains imperative to continue to minimize opportunities for person-toperson spread of the COVID-19 virus while the Commonwealth remains in the midst of the
COVID-19 public health emergency; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and prope1iy necessary or expedient for meeting a state of emergency, including but
not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, and policing, protection, and preservation of
public and private property;
NOW, THEREFORE, I hereby Order the following:
1. Entities Subject to Sector-Specific Rules: A business or other organization that has been
designated by Executive Order as a Phase I, Phase II, or Phase III enterprise and that is
permitted to open its brick-and-mortar premises to workers and the public shall not be subject
to the general gathering limitations in Section 2 of this Order, if the enterprise is operating in
compliance with COVID-19 safety rules and any applicable capacity limitation issued by the
Depaitment of Public Health, the Department of Labor Standards, the Massachusetts Gaming
Commission, or the Depait ment of Energy and Environmental Affairs.
Phase N enterprises shall remain closed, consistent with the requirements of the Order
Authorizing the Re-Opening of Phase III Enterprises (COVID-19 Order No. 43).
2. Otherwise Applicable Indoor and Outdoor Gathering Limits: The following limitations apply
to indoor and outdoor gatherings not included within section 1 above:
Indoor gatherings are limited to 8 persons per 1,000 square feet of accessible, indoor
floor space, and never more than 25 persons in a single enclosed, indoor space.
Outdoor gatherings in enclosed, permitted, or leased spaces are limited to 25% of the
maximum permitted occupancy of the facility as documented in the facility's occupancy
permit on record with the murucipal building department or other municipal record

2

153a

holder, if there is a capacity limitation on record, or 8 persons per 1,000 square feet
where no occupancy limitation is on record, and never more than I 00 persons in a single
outdoor space that is enclosed, permitted, or leased.
A gathering in pe1mitted space is any gathering that is required to receive a permit from a
state or municipal authority. Gatherings that are subject to the limitations of this Section include,
without limitation, community, civic, public, leisure, sporting events, conce1is, conferences,
conventions, fundraisers, fairs, festivals, and other similar events or activities.
a. Outdoor Gatherings in Unenclosed Spaces: Outdoor gatherings that are not subject
to the capacity limitations above, such as those in a park, backyard, athletic field, or
parking lot are permitted, provided that the type of gathering is not prohibited in
Section 2(b) of this Order and the outdoor space in which the gathering will occur is
not a Phase IV enterprise or venue, as designated by COVID-19 Order No. 43.
b. Prohibited Activities: Street festivals, agricultural festivals, walk-a-thons, road
races and bike races, and other outdoor, organized athletic or recreational events that
gather large numbers of paiiicipants or spectators outdoors are prohibited until further
Order; provided, however, that outdoor gatherings for the purpose of political
expression are not subject to this Order.
3.
Face Coverings: Consistent with COVID-19 Order No. 31, which requires persons to
wear face coverings while in public places to prevent the spread of COVID-19, and the Safer at
Home Advisory issued by the Depaiiment of Public Health on May 18, 2020, all persons over
the age of two must wear a face covering when they attend indoor and outdoor gatherings in
public places if the circumstances of the gathering could limit their ability to maintain at least six
feet of distance from others, unless they are prevented from wearing a face covering by a
medical or disabling condition. All persons are likewise advised to avoid close personal contact
to prevent spreading the virus.
4. Legal Exceptions: This Order shall not apply to any of the following businesses,
organizations, workplaces, or facilities:

a.
b.
c.
d.

Any municipal legislative body, the General Comt, or the Judiciary
Federal governmental entities
Any health care facility or licensed health care provider
Any of the following workplaces or facilities with specialized functions and
populations:
• Public and private elementary and secondai·y (K-12) schools
• Residential and day schools for special needs students
• Licensed, approved, or exempt child care programs and any emergency child
care centers and emergency residential programs operating under emergency
authorization

3

154a

•
•

•
•

Facilities operated by the Department of Conection or any Sheriff
Facilities operated, contracted, or licensed by the Department of Youth
Services, Department of Mental Health, Department of Public Health, or the
Department of Developmental Services
Facilities and programs that provide safe spaces for the unstably housed such
as homeless and domestic violence shelters
and any other facility or workplace that the Commissioner of Public Health
may in writing exempt from the terms of this Order

Violation of the terms of this Order may result in a civil fine ofup to $300 per violation,
in the manner provided by G. L. c. 277, § 70C. This Order may also be enforced by injunction.
A motion for an injunction to enforce this Order may be filed in the district court or any other
court of competent jurisdiction for the municipality in which the violation has been charged.
The Revised Order Regulating Gatherings Throughout the Commonwealth (COVID-19
Order No. 38) is hereby rescinded effective 12:01 am on July 6, 2020, except for the city of
Boston, for which COVID-19 Order No. 38 is rescinded effective 12:01 am on July 13, 2020.
This Order shall be effective 12:01 am on July 6, 2020, except for the city of Boston, for
which the Order will be effective 12:01 am on July 13, 2020, and shall remain in effect until
rescinded or until the state of emergency is ended, whichever occurs first.

;.,f@M

Given in Boston at / / !
this 2nd
day of July, two thousar1d and twenty

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

4

155a

O FF ICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE H OUSE • BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER INSTITUTING A MANDATORY 14-DAY QUARANTINE
REQUIREMENT FOR TRAVELERS ARRIVING IN MASSACHUSETTS
COVID-19 Order No. 45
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, on March 23, 2020, in order to restrict all non-essential person-to-person
contact and non-essential movement outside the home as a means of combatting the spread of
COVID-19 within the Commonwealth, I issued COVID-19 Order No. 13, which temporarily
closed the brick-and-mortar premises of businesses and organizations that do not provide
COVID-19 Essential Services as defined in the Order;
WHEREAS, as a result of the extraordinary efforts of health care providers in the
Commonwealth and the public's unselfish compliance with the restrictions imposed in COVID19 Order No. 13 and other limitations imposed in response to the COVID-19 health crisis, public
health data trends over the past 95 days indicate substantial improvement in key areas of
measurement;
WHEREAS, the Commonwealth has maintained this continuing trend of improvement in
the public health data even while pursuing a re-opening of the Massachusetts economy by
implementing a carefully phased relaxation of many of the restrictions that COVID-19 Order No.
13 placed on businesses and other organizations;
WHEREAS, according to the Centers for Disease Control and Prevention, more than 3.9
million people in the United States have been infected with the coronavirus and the number of

1

© PRltnm o~ REcrc:uo PAiu

156a

presumptive positive and confirmed cases of COVID-19 continues to rise dramatically in parts of
the United States and around the world as reported by the World Health Organization;

WHEREAS, case counts, positive test rates, hospitalizations, and deaths from COVID19 are significantly higher in many other States and continue to increase, and in addition,
nationwide, nearly 60,000 patients were hospitalized due to COVID-19 as of July 22, a figure
that approaches the previously-recorded peak level of COVID-19 patients hospitalized in April
of2020;
WHEREAS, there is currently no known cure, effective h·eatment, or vaccine for
COVID-19 and, because people may be infected but asymptomatic, there is a substantial risk that
travelers atTiving in Massachusetts from States and countries where infection rates for COVID19 are high may present a new source of transmission within the Commonwealth;
WHEREAS, it is therefore necessary to implement a policy to require h·avelers entering
the Commonwealth to take responsible measures to protect against new sources of transmission
of the COVID-19 vims and the risk that these present to the progress achieved in reducing the
prevalence of the virus within the Commonwealth;

WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting the state of emergency, including
authority over transportation and travel by any means or mode;

NOW, THEREFORE, I hereby Order the following:
1. Mandatory 14-Day Quarantine for Travelers Entering Massachusetts
Effective at 12:01 am on August 1, 2020, all persons arriving in Massachusetts by any
means or mode must quarantine for 14 days in accordance with standards issued by the
Commissioner of the Department of Public Health ("DPH") unless
(a) the person is coming from a State designated by the Commissioner as a COVID-19
lower-risk State and, aside from merely transitory travel as described in Section 4(a), has
not been present in any State or jurisdiction not designated as a COVID-19 lower-risk
State during the last 14 days; or
(b) the person has received a negative test result for COVID-19 from a test performed on
a sample taken not longer than 72 hours before the person's anival in Massachusetts and
can produce proof of the negative test result on request; or
(c) the person falls within one of the limited, circumstance-specific exceptions specified
in Section 4.
A person who has arrived in Massachusetts and who is not exempt from the quarantine
requirement under sub-paragraph (a), (b), or (c) must immediately commence the required
quarantine on atTival but shall be released from the quarantine requirement if that person obtains
a negative test result for COVID-19 from a test administered after the person's anival in

2

157a

Massachusetts. A person released from the quarantine requirement under the preceding sentence
must be able to produce proof of the negative test result on request.
This Order applies to all persons- both residents and non-residents of Massachusettswho have been outside of Massachusetts for any period of time immediately before their arrival,
including all students traveling into Massachusetts to attend any academic program or for any
other purpose (except for commuter students as addressed in Section 4(b) below).
The Commissioner shall publish on the Massachusetts COVID-19 response website an
official list of COVID-19 lower-risk States. The Commissioner may from time to time add or
remove States from the lower-risk list to reflect changes in the COVID-19 risk profiles of
individual States based on available health data metrics.
Massachusetts residents are mged to limit out-of-State travel only to those States
included on the DPH list of COVID-19 lower-risk States and are strongly discouraged from
traveling to other States or to international destinations. Employers are strongly discouraged
from requiring or allowing business-related travel to destinations other than those appearing on
the DPH list of COVID-19 lower-risk States. Employers that permit employer-paid or employerreimbursed travel to States not on the lower-risk list should take measures to ensure employees
comply with this Order. Employers should also strongly discourage their employees from taking
personal travel to destinations not included on the list of COVID-19 lower-risk States.
2. Self-Certification and Acknowledgement of Quarantine Requirement
A person required to quarantine pursuant to Section 1 of this Order or a person who is not
subject to the quarantine requirement because the person can produce proof of a negative test
result as provided in Section 1(b) shall complete and submit a Massachusetts Travel Form
acknowledging his or her obligations under this Order and certifying the means by which he or
she will comply with those obligations. DPH shall post the Massachusetts Travel Form and
instructions for submitting the form on the Massachusetts COVID-19 response website.
Any person who is obligated to comply with the 14-day quarantine requirement in
Section 1 shall state on the Massachusetts Travel Form his or her intended place of quarantine
and provide other information necessary to permit DPH or its agents to make contact and
confam compliance with the quarantine requirement. Completed forms shall not be public
records. DPH may share completed forms with persons authorized to assist in the administration
of this Order but shall otl).erwise maintain the confidentiality of all inf01mation on completed
f01ms. DPH or its agents shall destroy or delete completed Massachusetts Travel Forms and
individual-specific information 60 days after the date of submission if no longer required for
enforcement proceedings.
3.

Release from Quarantine Requirement

A person required to quarantine pursuant to this Order shall be permitted to leave
Massachusetts prior to the expiration of the mandatory 14-day period, provided the person
complies with DPH-issued rnles for departure.

3

158a

4.

Circumstance-Specific Exceptions

The requirements established in this Order shall not apply to persons aITiving in
Massachusetts in the following limited circumstances:
(a) Persons in Transit: any person who passes through Massachusetts only in the course
of transit to another place, provided that this exception shall extend only so long as is reasonably
required for the person to complete his or her transit, make any necessary airplane, bus, train, or
other travel connection, or make use of travel services such as at a highway rest stop
(b) Persons Commuting for Work or School: any person who resides within
Massachusetts and who must regularly commute to a fixed place of work or school outside of
Massachusetts or any person who resides outside of Massachusetts and who must regularly
commute to a fixed place of work or school within Massachusetts, provided that in either case,
this exception shall extend only to travel between the person's residence and place of work or
school

(c) Patients Receiving Medical Treatment: any patient who must travel to Massachusetts
in order to seek or receive specialized medical care from a physician located in the
Commonwealth and persons accompanying and providing needed support to the patient
(d) Military Personnel: any person who is required to travel to Massachusetts at the
order or directive of a Federal or State military authority
(e) Persons Pe1forming Critical Infrastructure Services: any person who enters
Massachusetts to perform a critical infrastructure function, provided that this exception shall
apply only when such person is actively engaged in perf01ming that function and at all other
times a person entering under this exception shall be required to comply with the quarantine
requirement unless some other exemption applies. For purposes of this Order, the term "critical
infrastructure function" shall mean work performed by Critical Infrastructure Workers as
specified in Version 3 .1 of the listing published by the Federal Cybersecurity and Infrastructure
Security Agency and dated May 19, 2020.

The Commissioner of DPH may issue protocols to address other extraordinary
circumstances where quarantine is not advisable, subject to my approval and provided such
protocols provide adequate alternative measures to safeguard the public health.
5.

Implementing Guidance and Enforcement

The Commissioner ofDPH is directed to issue binding guidance, subject to my approval,
to implement the terms ofthis Order. The DPH guidance shall include, without limitation (a)
specifications for testing methods and protocols that will satisfy proof of a negative COVID-19
test as required under Section 1 of this Order; and (b) detailed rules for required quarantining
DPH shall enforce this Order and if necessary may do so with the assistance of State or
municipal police or any other agency that I may f01mally designate at the request of the
Commissioner of DPH. A local board of health or its authorized agent pursuant to G. L. c. 111,
§ 20 shall be authorized to enforce the Order when requested by DPH to provide assistance.
4

159a

Violation of the terms of this Order or the DPH guidance may result in a civil fine of up
to $500 per violation, in the manner provided for in G. L. c. 277, § 70C. ach day of failure to
quarantine when required and each other instance of non-compliance may be treated as a
separate violation and may result in a separate $500 civil fine. This Order may also be enforced
by injunction. A motion for an injunction to enforce this Order or any directives, regulations, or
guidance issued on its authority may be filed in the district court or any other comt of competent
jurisdiction for the municipality in which the violation has been charged.
The generally applicable COVID-19 Workplace Safety Rules adopted in Section 2 of
COVID-19 Order No. 33 are hereby amended to include the following additional provision:
•

Employers should talce measures to ensur~ employees comply with all State-issued
rules concerning out of state Travel for any employer-paid or employer-reimbursed
travel.

In addition, I hereby direct the Commissioner ofDPH to act under the authority of G. L.
c. 17, § 2A and G. L. c. 111, § 6 or any other appropriate authority to supplement the te1ms of
this Order in the event she determines additional measures are required to ensure that the terms
of this Order are observed.

This Order shall be effective at 12:01 am on August 1, 2020. This Order shall remain in
effect until rescinded or until the state of emergency is ended, whichever occurs first.
Given in Boston atl c} ,: ifAM this 24th day
of July, two thousand and twenty

~JJkr..,,;CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

5

160a
OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS
STATE HOUSE• BOSTON,

MA 02133

(617) 725-4000

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

THIRD REVISED ORDER REGULATING GATHERINGS
THROUGHOUT THE COMMONWEALTH
COVID-19 Order No. 46
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11 , 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control and Prevention ("CDC") have
advised that COVID-19 is spread mainly by person-to-person contact and that the best means of
slowing the spread of the virus is through practicing social distancing and by minimizing
personal contact with large groups and with environments where this potentially deadly virus
may be transmitted including, in particular, spaces that present enhanced risks because of the
large number of persons present or passing through the area who may spread the virus through
respiratory activity or surface contacts;
WHEREAS, the CDC has issued guidance for large gatherings and community events,
such as conferences, festivals, parades, concerts, sp01iing events, and other potentially superspreading events, recognizing that gatherings can significantly contribute to the spread of
COVID-19 and introduce the virus to new communities;
WHEREAS, that CDC guidance states that, while virtual-only activities are the safest,
the risks associated with in-person events can be reduced if they are held outdoors, remain small,
and paiiicipants maintain 6 feet of distance and weai· face coverings;

1
@

PruN'r'EO ON REcYCl.ED PAPER

161a

WHEREAS, on March 23, 2020, in order to restrict all non-essential person-to-person
contact, non-essential movement outside the home, and reduce opportunities for spreading the
COVID-19 virus within the Commonwealth, I issued COVID-19 Order No. 13 , which
temporarily closed the brick-and-mortar premises of businesses and organizations that do not
provide COVID-19 Essential Services and prohibited gatherings of more than 10 people;
WHEREAS, in response to gradual improvements in the public health data, on May 18,
2020, June 6, 2020, and July 2, 2020, I issued COVID-19 Orders No. 33 , 37, and 43,
respectively, which designated certain businesses and other organizations as Phase I, II, III, or IV
enterprises and initiated a progressive, phased plan for re-opening workplaces and other facilities
across the Commonwealth;
WHEREAS, again in response to sustained improvements in the public health data at the
time, on July 2, 2020 , I issued COVID-19 Order No. 44, which rescinded the 10 person
limitation on gatherings and set a maximum gatherings limitation of 25 persons for indoor
gatherings and 100 persons for outdoor gatherings, with exceptions for certain businesses and
organizations governed by sector-specific guidance and for outdoor gatherings organized for the
purposes of political expression;
WHEREAS, contrary to the sustained improvements in the public health data in the
preceding period, over the last 3 weeks, the 7-day rolling average of percent positive COVID-19
molecular tests has increased from approximately 1. 7% each day to approximately 2.1 % each
day and the 7-day rolling average number of confirmed cases from 166 to 234 over the same
period;
WHEREAS, clusters of COVID-19 infections have been traced to house paiiies in the
Commonwealth and in other States experiencing increases in infection rates, suggesting that
gatherings are contributing to the current rise in cases in the Commonwealth and that increased
vigilance and enforcement of safety measures for gatherings is necessary;
WHEREAS, the statewide increase in the rate of transmission means that it is
appropriate to reduce the allowances on outdoor gatherings so as to continue to minimize
opportunities for person-to-person spread of the COVID-19 virus while the Commonwealth
remains in the midst of the COVID-19 public health emergency; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and prope1iy necessary or expedient for meeting a state of emergency, including but
not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, and policing, protection, and preservation of
public and private property;
NOW, THEREFORE, I hereby Order the following :

2

162a

l. Entities Subject to Sector-Specific Rules: A business or other organization that has been
designated by Executive Order as a Phase I, Phase II, or Phase III enterprise and that is
permitted to open its brick-and-mortar premises to workers and the public shall not be subject
to the general gathering limitations in Section 3 of this Order, if the enterprise is operating in
compliance with COVID-19 safety rules and any applicable capacity limitation issued by the
Department of Public Health, the Department of Labor Standards, the Massachusetts Gaming
Commission, or the Executive Office of Energy and Environmental Affairs.
Phase IV enterprises shall remain closed, consistent with the requirements of the Order
Authorizing the Re-Opening of Phase III Enterprises (COVID-19 Order No. 43).
2. Gatherings for Political Expression and Religious Activities. Outdoor gatherings for the
purpose of political expression and gatherings for religious activities shall not be subject to
the limitations in Section 3 of this Order; provided, however, that indoor gatherings for the
purposes of political expression shall be governed by the indoor limitations of Section 3, and
gatherings for the purpose of religious services shall follow the COVID-19 safety rules and
capacity limitations set fmih in the Places of Worship sector-specific guidance.
3. Otherwise Applicable Indoor and Outdoor Gathering Limits: The following limitations apply
to indoor and outdoor gatherings not exempted by Sections 1 and 2:
Indoor gatherings are limited to 8 persons per 1,000 square feet of accessible, indoor
floor space, and never more than 25 persons in a single enclosed, indoor space.
Outdoor gatherings are limited to 25% of the maximum permitted occupancy of the
facility or space as documented in the occupancy permit on record with the municipal
building department or other municipal record holder if there is a capacity limitation on
record, or 8 persons per 1,000 square feet where no occupancy limitation is on record,
and never more than 50 persons in a gathering in a single outdoor space.
All participants in indoor and outdoor gatherings must maintain at least 6 feet of physical
distance from every other participant in the gathering aside from participants who are
members of the same household. A gathering shall violate this provision where, no
matter the number of participants present, conditions or activities at the gathering are
such that it is not reasonably possible for all paiiicipants to maintain this degree of
separation.
Gatherings that are subject to the limitations of this Section include, without
limitation, community, civic, public, leisure, spmiing events, conce1is, conferences,
conventions, fundraisers, fairs, festivals, road races, and other similar events or activities.
Except as provided in Sections 1 and 2, these restrictions apply to gatherings in all public and
private venues and locations in the Commonwealth, including private homes, backyards,
parks, athletic fields , and parking lots.

3

163a

This Order does not impose a general capacity limitation on large, unenclosed public
spaces such as beaches, parks, and recreation areas. Capacity limitations for such spaces set
by other rules and regulations shall continue to apply. The limitations of this Order are
instead specifically applicable to programs, celebrations, social outings, and similar events
that draw together groups of people. Such gatherings are subject to the limitations of this
Order when they take place within large, unenclosed public spaces such as beaches, parks,
and recreation areas or within any other indoor or outdoor space, public or private, that falls
within the scope of this Order.
4. Face Coverings: For gatherings of more than 10 people, all persons over the age of two must
wear a face covering when they attend indoor and outdoor gatherings where participants
other than those in the same household will be in attendance, unless they are prevented from
wearing a face covering by a medical or disabling condition. This restriction applies to
gatherings in all venues and locations, including private homes, backyards, parks, athletic
fields, and parking lots.
5. Legal Exceptions: This Order shall not apply to any of the following businesses,
organizations, workplaces, or facilities:
a.
b.
c.
d.

Any municipal legislative body, the General Court, or the Judiciary
Federal governmental entities
Any health care facility or licensed health care provider
Any of the following workplaces or facilities with specialized functions and
populations:
• Polling places
• Public and private elementary and secondary (K-12) schools
• Residential and day schools for special needs students
• Licensed, approved, or exempt child care programs and any emergency child
care centers and emergency residential pro grams operating under emergency
authorization
• Facilities operated by the Department of Correction or any Sheriff
• Facilities operated, contracted, or licensed by the Depaiiment of Youth
Services, Department of Mental Health, Depaiiment of Public Health, or the
Department of Developmental Services
• Facilities and programs that provide safe spaces for the unstably housed such
as homeless and domestic violence shelters
• and any other facility or workplace that the Commissioner of Public Health
may in writing exempt from the terms of this Order

6. Enforcement. The Depaiiment of Public Health, local boards of health and their authorized
agents pursuant to G. L. c. 111 , § 30, and State and municipal police are authorized to

4

164a

enforce this Order. Violation of the terms of this Order may result in a civil fine of up to
$500 per violation as provided in St. 1950, c. 639, § 8, provided that the fine shall be
administered in the manner provided for the non-criminal disposition of violations of
municipal by-law, ordinance, rule, or regulation pursuant to G. L. c. 40, § 21D. This Order
may also be enforced by injunction. A motion for an injunction to enforce this Order may be
filed in the district court or any other court of competent jurisdiction for the municipality in
which the violation has been charged. The Alcoholic Beverages Control Commission or a
local licensing authority may, after notice to the licensee and a reasonable opportunity to be
heard, suspend, revoke, or cancel a license for the sale or service of alcoholic beverages or
take other appropriate enforcement action upon satisfactory proof that the licensee has
violated or permitted a violation of this Order.
If any provision of this Order or the application thereof to any person, entity, or
circumstance is determined to be invalid by a court of competent jurisdiction, such judgment
shall not affect or impair the validity of the other provisions of this Order or its application to
other persons, entities, and circumstances.
The Second Revised Order Regulating Gatherings Throughout the Commonwealth
(COVID-19 Order No. 44) is hereby rescinded effective 12:01 am on August 11 2020.
This Order shall be effective 12:01 am on August 11, 2020 and shall remain in effect
until rescinded or until the state of emergency is ended, whichever occurs first.

Given in Boston atf l •4 G M/~ this 7th
day of August, two thousand and twenty

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

5

165a

OFFICE OF THE GOVERNOR

COMMONWEAL TH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER AMENDING THE ADMINISTRATION OF PENALTIES ISSUED PURSUANT
TO CERTAIN COVID-19 ORDERS
COVID-19 Order No. 48
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control and Prevention ("CDC") have
advised that COVID-19 is spread mainly by person-to-person contact and that the best means of
slowing the spread of the virus is through practicing social distancing and by minimizing
personal contact with large groups and with environments where this potentially deadly virus
may be transmitted including, in particular, spaces that present enhanced risks because of the
large number of persons present or passing through the area who may spread the virus through
respiratory activity or surface contacts;
WHEREAS, on May 1, I issued COVID-19 Order No. 31, which required that face
coverings be worn in public when social distancing is not possible and at all times on public
transportation and in retail settings;
WHEREAS, in response to gradual improvements in the public health data, on May 18,
2020, June 6, 2020, and July 2, 2020, I issued COVID-19 Orders No. 33, 37, and 43,
respectively, which designated certain businesses and other organizations as Phase I, II, III, or IV
enterprises and initiated a progressive, phased plan for re-opening workplaces and other facilities

I
@

PRINTED ON R.ii:cYCLED PAPER

166a

across the Commonwealth, provided that those businesses and other organizations permitted to
reopen comply with general and sector-specific workplace safety rules;

WHEREAS, on July 24, 2020, I issued COVID-19 Order No. 45, which required all
persons arriving to the Commonwealth, aside from those traveling from a designated list of
lower-risk states, to quarantine for 14-days or produce a negative COVID-19 test result from a
test administered within 72-hours of arrival, subject to certain enumerated exceptions;
WHEREAS, in response to a statewide increase in the rate of transmission, on August 7,
I issued COVID-19 Order No. 46, which reduced the permitted size of outdoor gatherings and
required face coverings to be worn by those attending gathering of more than 10 people;
WHEREAS, the Commonwealth's ability to control the spread of COVID-19 depends
on continued adherence to the requirements adopted in these Orders;
WHEREAS, in order to support and standardize municipal and State efforts to ensure
compliance with these COVID-19 safety mandates, it is critical that local and State authorities
have a clear and consistent process available to them to enforce these requirements, and that the
courts have clear instruction on how to process civil citations issued for violations of these
requirements; and
WHEREAS, sections 7, 8, and SA of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, and policing, protection, and preservation of
public and private property;
NOW, THEREFORE, I hereby Order the following:
All fines issued pursuant to the following COVID-19 Orders and their applicable guidance shall
be administered in the manner provided for the non-criminal disposition of violations of
municipal by-law, ordinance, rule, or regulation pursuant to G. L. c. 40, § 21D, notwithstanding
any contrary provision in such Orders:
•

Order Requiring Face Coverings in Public Places Where Social Distancing Is Not
Possible (COVID-19 Order No. 31)

•

Order Implementing a Phased Reopening of Workplaces and Imposing Workplace Safety
Measures to Address COVID-19 (COVID-19 Order No. 33)

•

Order Authorizing the Re-Opening of Phase II Enterprises (COVID-19 Order No. 37)

•

Order Further Advancing the Re-Opening of Phase II Enterprises (COVID-19 Order No.
40)

2

167a

•

Order Authorizing the Re-Opening of Phase III Enterprises (COVID-19 Order No. 43)

•

Order Instituting a Mandatory 14-Day Quarantine Requirement for Travelers A1Tiving in
Massachusetts (COVID-19 Order No. 45)

•

Third Revised Order Regulating Gatherings Throughout the Commonwealth (COVID-19
Order No. 46)

As provided in G. L. c. 40, § 21D, a duly-authorized person or entity may apply for the issuance
of a complaint for the violation of the applicable COVID-19 Order if any person fails to pay a
fine issued pursuant to such Order within the time specified or, having appeared, does not
confess the offense before the clerk or pay the sum of money fixed as a penalty after a hearing
and finding.
The adoption of this uniform method for processing violations shall not modify the maximum
fines, limit any other method of enforcement, or modify any other term specified in the above
Orders.
This Order is effective immediately and shall remain in effect until rescinded or until the state of
emergency is ended, whichever occurs first.
Given in Boston at;J..
AM/IPMJh_is
18th day of August, two thousan'ct-{ud
twenty

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

3

168a
OFF ICE OF THE GOVERNOR

COMMONWEAL TH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER MAKING CERTAIN PHASE III ADJUSTMENTS
COVID-19 Order No. 50
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control and Prevention ("CDC") have
advised that COVID-19 is spread mainly by person-to-person contact and that the best means of
slowing the spread of the virus is through practicing social distancing and by minimizing
personal contact with large groups and with environments where this potentially deadly virus
may be transmitted including, in pmiicular, spaces that present enhanced risks because of the
large number of persons present or passing through the area who may spread the virus through
respiratory activity or surface contacts;
WHEREAS, on March 23, 2020, in order to restrict all non-essential person-to-person
contact, non-essential movement outside the home, and reduce opp01iunities for spreading the
COVID-19 virus within the Commonwealth, I issued COVID-19 Order No. 13, which
temporarily closed the brick-and-m01iar premises of businesses and organizations that do not
provide COVID-19 Essential Services;
WHEREAS, in response to gradual improvements in the public health data, on May 18,
2020, June 6, 2020, m1d July 2, 2020, I issued COVID-19 Orders No. 33, 37, and 43,
respectively, which designated ce1iain businesses and other organizations as Phase I, II, III, or IV

1

®

PRJNTI:D ON RECYCLED PAPER

169a

enterprises and initiated a progressive, phased plan for re-opening workplaces and other facilities
across the Commonwealth;
WHEREAS, the Commonwealth has maintained a continuing trend of improvement in
public health data during the phased re-opening of workplaces and other facilities, which permits
continuing, gradual relaxation of restrictions on businesses and other organizations, provided that
any adjustment can only be maintained or expanded on the basis of continuing improvements in
the public health data;
WHEREAS, expanded opportunities for outdoor dining, as approved by local
authorities, have provided valuable suppo1i to restaurants and a popular amenity to the public
that should be permitted to continue during the state of emergency without inte1Tuption or undue
complication;
WHEREAS, the CDC, the Department of Public Health, and other public health
authorities continue to improve their understanding of how COVID-19 is spread, where the risk
of spread is greatest, and how best to mitigate the risk of transmission which permits periodic
adjustments to safety measures addressing commercial, recreational, and social activities; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and prope1iy necessary or expedient for meeting a state of emergency, including but
not limited to authority over assemblages in order to protect the health and safety of persons,
variance of the terms and conditions of licenses, permits, and ce1iificates of registration issued by
the Commonwealth or by any of its agencies or political subdivisions, and regulation of the sale
of aiiicles of food and household articles;
NOW, THEREFORE, I hereby Order the following:
1.

Extension of Outdoor Dining Provisions

Notwithstanding chapter 40A of the general laws, or any special permit, variance or other
approval thereunder, or any other general or special law to the contrary, a city or town may
approve requests for expansion of outdoor table service or extensions of earlier granted
approvals, including a local licensing authority ("LLA") approving a request for a change in the
description of licensed premises for the purpose of permitting outdoor alcohol service, until a
date beyond November 1, 2020, as specified in this Section. For the purposes of this Order,
"outdoor table service" shall mean restaurant service that includes food prepared on-site and
under food permits issued by municipal authorities pursuant to 105 CMR 590.00 that is served to
seated diners outside the restaurant building envelope, whether on a sidewalk, patio, deck, lawn,
parking area, or other outdoor space.

2

170a

Before approving any request made under this Order or extending a prior approval issued
pursuant to Section 4 of COVID-19 Order No. 35, a city, town, or LLA may modify the scope of
any prior approval issued pursuant to Section 4 of COVID-19 Order No. 35 as the city, town, or
LLA deems proper and appropriate including, without limitation, modifying the terms of an
earlier granted approval to address potential issues with snow removal, pedestrian traffic, or
similar concerns.
The provisions of Section 4 of COVID-19 Order No. 35 shall apply to any request for an
extension of an earlier granted approval or an expansion of outdoor table service or for approval
of a change in the description of the licensed premises for the purpose of permitting outdoor
alcohol service made pursuant to this Section except that (i) the definition of outdoor table
service adopted in paragraph 1 of this Section shall apply; and (ii) such approvals may extend
until the date specified below.
Any approval issued under this Section shall remain in effect until 60 days past the end of
the state of emergency or such earlier date the city or town establishes in granting the approval,
whichever is sooner, at which time any approval issued under this Section, including any
amended license issued by an LLA as a result of this Order, shall automatically reve1i back to its
status prior to any approval issued under either this Section or Section 4 of COVID-19 Order No.
35.
Any approval issued under Section 4 of COVID-19 Order No. 35 for expanded outdoor
table service, including any amended license issued by an LLA changing the description of the
licensed premises for the purpose of permitting outdoor alcohol service as a result of COVID-19
Order No. 35 shall remain in effect until November 1, 2020, unless the city or town approves a
request to extend such approval pursuant to this Order or otherwise deems such approval
automatically extended consistent with all other provisions of this Order.
2.

Opening of Indoor and Outdoor Gaming Arcades

Effective at 12:01 am on September 17, 2020, indoor and outdoor gaming arcades may
open their brick-and-mortar premises to workers, customers, and the public, and restaurants,
indoor and outdoor recreational facilities, and other enterprises with gaming devices on their
premises may permit these devices to be used by patrons. Schedule A to COVID-19 Order No.
43 is hereby amended, as attached, to reflect this adjustment.
The Director of the Department of Labor Standards ("DLS") shall issue, subject to my
approval, COVID-19 workplace safety rules to address the particular circumstances and
operational needs of indoor and outdoor gaming arcades and other enterprises with gaming
devices on their premises that are made available for use by patrons. These rules shall serve as
"Sector-Specific Rules" for such activities and facilities as that te1m is defined in Section 4 of
COVID-19 Order No. 43.

3

171a

The provisions of Sections 4 and 5 of COVID-19 Order No. 43 (and Section 4 of
COVID-19 Order No. 37 as incorporated in COVID-19 Order No. 43), which set requirements
for compliance with generally applicable and Sector-Specific COVID-19 safety rules and
mechanisms for enforcement for all Phase III enterprises shall apply to indoor and outdoor
gaming arcades and other enterprises with gaming devices on their premises that are made
available for use by patrons pursuant to this Order. Any penalty issued in an enforcement action
shall be administered as provided in COVID-19 Order No. 48.
This Order is effective immediately and shall remain in effect until rescinded or until the
state of emergency is ended, whichever occurs first.

Given in Boston at )..: I(' AM~
is
ID th day of September, two thousand and
twenty

~ 7)~
CHARLES D. BAICER
GOVERNOR
Commonwealth of Massachusetts

4

172a

Schedule A to COVID-19 Order No. 43
as revised by COVID-19 Order No. 50, effective September 17, 2020

Phase I

All Phase I, II, III, and IV enterprises are required to comply with general and, where
applicable, sector-specific COVID-19 workplace safety rules administered by DPL, DPH, EEA,
and local boards of health. Workplace safety rules include a variety of mandatory contextspecific COVID-19 safety measures such as occupancy limitations, operational modifications,
social distancing rules, and specialized cleaning requirements.
As specified in COVID-19 Order No. 33:

•
•

•

•
•
•
•
•
•
•
•
•
Phase II

Businesses and other organizations providing products and services identified as
"COVID-19 Essential Services" in COVID-19 Order No. 13
Manufacturing
Construction
Places of Worship
Firearms retailers and shooting ranges
General Use Offices
Car Washes
Hair Salons and Barber Shops
Pet Groomers
Drive-In Movie Theaters
Laboratories
Certain Outdoor Recreational Facilities and Activities as specified in Exhibit 1 to
COVID-19 Order No. 33

As specified in COVID-19 Order No. 37 and including specifically:

•
•

•
•

•
•

•

•
•

•
•

•
•

Retail Stores including stores in enclosed shopping malls
Restaurants providing seated food service prepared on-site and under retail food
permits issued by municipal authorities pursuant to 105 CMR 590.000, including beer
gardens/wineries/distilleries meeting these criteria
0
film2._l: outdoor table service
0
Step 2: indoor table service
Hotels, motels, inns, and other short-term lodgings (no events, functions, or meetings)
Limited organized youth and adult amateur sports activities and programs- no contact
and no games or scrimmages, and indoor facilities limited to youth programs
Professional spmts practice and training programs--no inter-team games and no
admission for the public
Personal Services provided at a fixed place of business or at a client location
Step I: Services involving no close personal contact (photography, window
0
washers, individual tutoring, home cleaning, etc.)
Step 2: Services involving close personal contact (massage, nail salons,
0
personal training for individuals or no more than 2 persons from same
household, etc.)
Non-athletic instructional classes in arts/education/life skills for youths under 18 years
of age in groups of fewer than 10
Driving schools and flight schools
Outdoor historical spaces- no functions or gatherings and no guided tours
Funeral homes- increased capacity to permit 40% occupancy for one service at a time
within the facility
Warehouses and distribution centers
Golf facilities including outdoor driving ranges
Other outdoor recreational facilities
pools, playgrounds and spray decks
0

5

173a

•

•
•
Phase III

mini golf, go karts, batting cages, climbing walls, ropes courses
0
Post-Secondary/Higher Ed/Vocational-Tech/Trade/Occupational Schools
for the limited purposes of permitting students to complete a degree, program,
0
or prerequisite for employment, or other similar requirement for completion,
for summer youth programming including athletic facilities, and any
necessary supporting services
Day Camps including sports and arts camps
Public libraries

Step 1

•

•
•
•
•

•
•
•
•
•
•
•
•
•

•
•
•
•

Post-Secondary/Higher Ed/Vocational-Tech/Trade/Occupational Schools- general
operations
Casino gaming floors
Horse racing tracks and simulcast facilities
Indoor recreational and athletic facilities for general use (not limited to youth
programs)
Fitness centers and health clubs including
cardio/weight rooms/locker rooms/inside facilities
0
fitness studios (yoga, barre, cross-fit, spin classes, general fitness studios)
0
indoor common areas
0
indoor swimming pools
0
indoor racquet courts and gymnasiums
0
locker rooms
0
excluding saunas, hot-tubs, steam rooms
0
Museums
Indoor historic spaces/sites
Aquariums
Outdoor theatres and other outdoor performance venues not designated as Phase IV
enterprises
Movie theatres
Sightseeing and other organized tours (bus tours, duck tours, harbor cruises, whale
watching)
Motion picture, television, and video streaming production
Fishing and hunting tournaments and other amateur or professional derbies
Outdoor event spaces used for gatherings and celebrations including those in parks,
reservations, and other outdoor spaces not designated as Phase IV enterprises
Indoor event spaces such as meeting rooms, balh-ooms, and private party rooms--only
when used for functions or events permitted under Sector-Specific Rules for Indoor
and Outdoor Events
Indoor non-athletic instructional classes in arts/education/life skills for persons 18
years or older
Indoor recreational activities with low potential for contact: batting cages, driving
ranges, go karts, bowling alleys, rock-climbing walls
Indoor and outdoor gaming arcades and associated gaming devices [a]

Step 2

•
•
Phase IV

•
•
•

Indoor performance venues used for live performances such as concert halls, theaters,
and other indoor performance spaces not designated as Phase IV enterprises
Indoor recreational activities with greater potential for contact: laser tag, roller skating,
trampolines, obstacle courses
Amusement parks, theme parks, indoor or outdoor water parks and indoor or outdoor
ball pits [a]
Saunas, hot-tubs, steam rooms at fitness centers, health clubs, and other facilities
Bars, dance clubs, and nightclubs- venues offering entertainment, beverages, or

6

174a

•

•

•
•
•

dancing and not providing seated food service prepared on-site and under retail food
permits issued by municipal authorities pursuant to 105 CMR 590.000
Beer gardens/breweries/wineries/distilleries not providing seated food service prepared
on-site and under retail food permits issued by municipal authorities pursuant to 105
CMR 590.000
Large capacity venues used for group or spectator sports, entertainment, business, and
cultural events including
o Stadiums, arenas, and ballparks
o Dance floors
o Exhibition and convention halls
Street festivals and parades and agricultw-al festivals
Road races and other large, outdoor organized amateur or professional group athletic
events
Overnight camps (Summer 2021)

This listing is subject to amendment.

Note: Amendment from the version of Exhibit A adopted in COVID-19 Order No. 43 (July 2, 2020) designated by
the marker "[a]."

7

175a
OFFICE OF THE GOVERNOR

COMMONWEAL TH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER FURTHER ADVANCING PHASE III RE-OPENINGS IN MUNICIPALITIES
WITH REDUCED INCIDENCE OF COVID-19 INFECTION
COVID-19 Order No. 51

WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control and Prevention ("CDC") have
advised that COVID-19 is spread mainly by person-to-person contact and that the best means of
slowing the spread of the virus is through practicing social distancing and by minimizing
personal contact with large groups and with environments where this potentially deadly virus
may be transmitted including, in paiiicular, spaces that present enhanced risks because of the
large number of persons present or passing through the area who may spread the virus through
respiratory activity or surface contacts;
WHEREAS, on March 23, 2020, in order to restrict all non-essential person-to-person
contact, non-essential movement outside the home, and reduce opportunities for spreading the
COVID-19 virus within the Commonwealth, I issued COVID-19 Order No. 13, which
temporarily closed the brick-and-mortar premises of businesses ai1d organizations that do not
provide COVID-19 Essential Services;

1

®

PRJtITED ON RECYCI.ED PAPER

176a

WHEREAS, in response to gradual improvements in the public health data, on May 18,
2020, June 6, 2020, and July 2, 2020, I issued COVID-19 Orders No. 33, 37, and 43,
respectively, which designated ce1iain businesses and other organizations as Phase I, II, III, or IV
enterprises and initiated a progressive, phased plan for re-opening workplaces and other facilities
across the Commonwealth;
WHEREAS, the CDC, the Department of Public Health, and other public health
authorities continue to improve their understanding of how COVID-19 is spread, where the risk
of spread is greatest, and how best to mitigate the risk of transmission, which permits periodic
adjustments to safety measures addressing commercial, recreational, and social activities;
WHEREAS, a sustained trend of improvement in public health data for the
Commonwealth has suppmied a continuing, carefully phased relaxation of restrictions on
businesses and other organizations, provided that such adjustments can only be maintained or
expanded on the basis of continuing positive trends in the public health data;
WHEREAS, public health data measuring the incidence of COVID-19 can be monitored
at the level of the individual municipality, and this permits a targeted relaxation of restrictions on
businesses and other organizations operating in municipalities that demonstrate a lower
incidence rate of infection over a sustained period; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and prope1iy necessary or expedient for meeting the state of emergency, including
but not limited to authority over assemblages in order to protect the health and safety of persons,
transpo1iation and travel by any means or mode, regulating the sale of articles of food and
household articles, variance of the terms and conditions of licenses and permits issued by the
Commonwealth or any of its agencies or political subdivisions, and policing, protection, and
preservation of public and private property;
NOW, THEREFORE, I hereby Order the following:
1.

Advancement of Lower Risk Communities to Phase III, Step 2

Effective October 5, 2020, municipalities that qualify as "Lower Risk Communities"
based on metrics reported by the Department of Public Health ("DPH") and as described below
shall advance to Step 2 of Phase III of the Commonwealth's phased Re-Opening Plan.
Municipalities that do not qualify as Lower Risk Communities shall not advance to Step 2 of
Phase III.
For the purposes of this Order, a "Lower Risk Community" shall mean a community that,
as of the date of the most recent weekly COVID-19 Public Health Repmi published by DPH, has
had an average daily incidence rate of 8 or fewer cases per 100,000 residents as recorded in each
of the 3 most recent 14-day measurement periods (the "Lower Risk metric").

2

177a

Within Lower Risk Communities, upon the commencement of Step 2 of Phase III:
a. Businesses and other organizations identified as Phase III, Step 2 enterprises in
Schedule A attached hereto may open their brick-and-mortar premises to workers,
customers, and the public;
b. Phase I, II, and III enterprises, as identified in Schedule A, may begin operating
pursuant to revised Sector-Specific COVID-19 workplace safety rules, issued
under the authority of COVID-19 Orders No. 33, 37, and 43, that may provide for
increased capacity and other adjustments to safety protocols upon the
commencement of Step 2 of Phase III; and
c. Revised capacity allowances for gatherings shall apply pursuant to COVID-19
Order No. 52, of even date with this Order, or pursuant to any later Order further
adjusting capacity allowances for gatherings.
A municipality that does not qualify as a Lower Risk Cmmnunity shall subsequently
qualify as a Lower Risk Co1mnunity and shall advance to Step 2 of Phase III upon the
publication by DPH of a weekly COVID-19 Public Health Report documenting that the
municipality meets the Lower Risk metric specified above.
2.

Requirement of Continuing Lower Risk Status

A municipality that qualifies as a Lower Risk Cmmnunity, either on October 5, 2020 or
subsequently, shall cease to qualify as a Lower Risk Community if at any time in a weekly rep011
published by DPH the municipality has had an average daily incidence rate of more than 8 cases
per 100,000 residents as recorded in each of the 3 most recent 14-day measurement periods.
Within a municipality that ceases to qualify as a Lower Risk Community, rules and
allowances applicable to Step 1 of Phase III shall apply. Accordingly:
a. Businesses and other organizations identified as Phase III, Step 2 enterprises in
Schedule A attached hereto must iimnediately close their brick-and-mortar
premises to workers, customers, and the public;
b. Phase I, II, and III enterprises, as identified in Schedule A, may not operate
pursuant to revised Sector-Specific COVID-19 workplace safety rules providing
for increased capacity and other adjustments applicable to enterprises operating
under Step 2 of Phase III; and
d. Reduced capacity allowances for gatherings shall apply pursuant to COVID-19
Order No. 52, of even date with this Order, or pursuant to any later Order fmther
adjusting capacity allowances for gatherings.
3.

COVID-19 Workplace Safety Rules for Step 2 of Phase III

The Director of the Department of Labor Standards shall issue, subject to my approval (i)
Sector-Specific COVID-19 workplace safety rules, as that te1m is defined in Section 4 of
COVID-19 Order No. 43, applicable to Step 2 enterprises permitted to open their brick-and-

3

178a

mortar premises to workers, customers, and the public as provided in Section 2 of this Order; and
(ii) revised Sector-Specific COVID-19 workplace safety rules that may provide for increased
capacity and other adjustments for Phase I, III, and III enterprises also as provided in Section 2
of this Order.
The provisions of Sections 4 and 5 of COVID-19 Order No. 43 (and Section 4 of
COVID-19 Order No. 37 as incorporated in COVID-19 Order No. 43), which set requirements
for compliance with generally applicable and Sector-Specific COVID-19 safety rules and
mechanisms for enforcement for all Phase III enterprises shall apply to Step 2 enterprises
authorized to open their premises pursuant to this Order. Any penalty issued in an enforcement
action shall be administered as provided in COVID-19 Order No. 48.
This Order is effective immediately and shall remain in effect until rescinded or until the
state of emergency is ended, whichever occurs first.

Given in Boston at (/... t '-(J, A~
his
29th day of September, two thousand and
twenty

QkbDW
CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

4

179a

Schedule A
to COVID- 19 Order No. 51 issued September 29, 2020

Phase I

All Phase I, II, III, and IV enterprises are required to comply with general and, where
applicable, sector-specific COVID-19 workplace safety rules administered by DPL, DPH, EEA,
and local boards of health. Workplace safety rules include a variety of mandatory contextspecific COVID-19 safety measures such as occupancy limitations, operational modifications,
social distancing rules, and specialized cleaning requirements.
As specified in COVID-19 Order No. 33 :

•
•
•
•
•
•
•
•
•
•
•
•
Phase II

Businesses and other organizations providing products and services identified as
"COVID-19 Essential Services" in COVID-19 Order No. 13
Manufacturing
Construction
Places of Worship
Firearms retailers and shooting ranges
General Use Offices
Car Washes
Hair Salons and Barber Shops
Pet Groomers
Drive-In Movie Theaters
Laboratories
Certain Outdoor Recreational Facilities and Activities as specified in Exhibit 1 to
COVID-19 Order No. 33

As specified in COVID-19 Order No. 37 and including specifically:

•
•

•
•

•
•

•
•
•

•

•
•
•

Retail Stores including stores in enclosed shopping malls
Restaurants providing seated food service prepared on-site and under retail food
pennits issued by municipal authorities pursuant to 105 CMR 590.000, including beer
gardens/wineries/distilleries meeting these criteria
Step 1: outdoor table service
0
Step 2: indoor table service
0
Hote ls, motels, inns, and other short-term lodgings (no events, functions , or meetings)
Limited organized youth and adult amateur sp01ts activities and programs- no contact
and no games or scrimmages, and indoor facilities limited to youth programs
Professional sports practice and training programs--no inter-team games and no
admission for the public
Personal Services provided at a fixed place of business or at a client location
Step 1: Services involving no close personal contact (photography, window
0
washers, individual tutoring, home cleaning, etc.)
0
Step 2: Services involving close personal contact (massage, nail salons,
personal training for individuals or no more than 2 persons from same
household, etc.)
Non-athletic instructional classes in arts/education/life skills for youths under 18 years
of age in groups of fewer than 10
Driving schools and flight schools
Outdoor historical spaces- no functions or gatherings and no guided tours
Funeral homes- increased capacity to permit 40% occupancy for one service at a time
within the facility
Warehouses and distribution centers
Golf facilities including outdoor driving ranges
Other outdoor recreational facilities
pools, playgrounds and spray decks
0

5

180a

•

•
•
Phase III

0
mini golf, go karts, batting cages, climbing walls, ropes courses
Post-Secondary/Higher Ed/Vocational-Tech/Trade/Occupational Schools
for the limited purposes of permitting students to complete a degree, program,
0
or prerequisite for employment, or other similar requirement for completion,
for summer youth progrmmning including athletic facilities, and any
necessary supporting services
Day Camps including sports and arts camps
Public libraries

Step 1

•
•
•
•
•

•
•
•
•
•
•
•
•
•

•
•

•
•

Post-Secondary/Higher Ed/Vocational-Tech/Trade/Occupational Schoo ls- general
operations
Casino gaming floors
Horse racing tracks and simulcast fac ilities
Indoor recreational and athletic faci lities for general use (not limited to youth
programs)
Fitness centers and health clubs including
0
cardio/weight rooms/locker rooms/inside facilities
0
fitness studios (yoga, barre, cross-fit, spin classes, general fitness studios)
0
indoor cmmnon areas
0
indoor swimming pools
indoor racquet courts and gymnasiums
0
locker rooms
0
0
excluding saunas, hot-tubs, steam rooms
Museums
Indoor historic spaces/sites
Aquariums
Outdoor theatres and other outdoor performance venues not designated as Phase IV
enterprises
Movie theatres
Sightseeing and other organized tours (bus tours, duck tours, harbor cruises, whale
watching)
Motion pictme, television, and video streaming production
Fishing and hunting tournaments and other amateur or professional derbies
Outdoor event spaces used for gatherings and celebrations including those in parks,
reservations, and other outdoor spaces not designated as Phase IV enterprises
Indoor event spaces such as meeting rooms, ballrooms, and private party rooms--only
when used for functions or events permitted under Sector-Specific Rules for Indoor
and Outdoor Events
Indoor non-athletic instructional classes in arts/education/life ski lls for persons 18
years or older
Indoor recreational activities with low potential for contact: batting cages, driving
ranges, go kmts, bowling alleys, rock-climbing walls
Indoor and outdoor gaming arcades and associated gaming devices

Step 2

•
•
Phase IV

•
•
•

Indoor performance venues used for live performances such as conceit halls, theaters,
and other indoor performance spaces not designated as Phase IV enterprises
Indoor recreational activities with greater potential for contact: laser tag, roller skating,
trampolines, obstacle courses
Amusement parks, theme parks, indoor or outdoor water parks and indoor or outdoor
ball pits
Saunas, hot-tubs, steam rooms at fitness centers, health clubs, and other facilities
Bars, dance clubs, and nightclubs- venues offering entettainment, beverages, or

6

181a

•

•

•
•
•

dancing and not providing seated food service prepared on-site and under retail food
permits issued by municipal authorities pursuant to 105 CMR 590 .000
Beer gardens/breweries/wineries/distilleries not providing seated food service prepared
on-site and under retail food permits issued by municipal authorities pursuant to 105
CMR 590.000
Large capacity venues used for group or spectator spmts, ente1tainment, business, and
cultural events including
o Stadiums, arenas, and ballparks
o Dance floors
o Exhibition and convention halls
Street festivals and parades and agricultural festivals
Road races and other large, outdoor organized amateur or professional group athletic
events
Overnight camps (Summer 2021)

This listing is subject to amendment.

7

182a
OFFICE OF THE GOVERNOR

COMMONWEAL TH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LJEUTENANTG0VERNOR

PHASE III, STEP 2 ORDER REGULATING GATHERINGS
IN THE COMMONWEALTH
COVID-19 Order No. 52
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control and Prevention ("CDC") have
advised that COVID-19 is spread mainly by person-to-person contact and that the best means of
slowing the spread of the virus is through practicing social distancing and by minimizing
personal contact with large groups and with environments where this potentially deadly virus
may be transmitted including, in particular, spaces that present enhanced risks because of the
large number of persons present or passing through the area who may spread the virus through
respiratory activity or surface contacts;
WHEREAS, the CDC has issued guidance for large gatherings and community events
recognizing that gatherings can significantly contribute to the spread of COVID-19 and introduce
the virus to new communities;
WHEREAS, that CDC guidance states that, while viliual-only activities are the safest,
the risks associated with in-person events can be reduced if they are held outdoors, remain small,
and participants maintain 6 feet of distance and wear face coverings;
WHEREAS, on March 23, 2020, in order to restrict all non-essential person-to-person
contact, non-essential movement outside the home, and reduce oppmiunities for spreading the

@

PRINTED ON RECYCLED PAPER

183a

COVID-19 virus within the Commonwealth, I issued COVID-19 Order No. 13, which
temporarily closed the brick-and-mortar premises of businesses and organizations that do not
provide COVID-19 Essential Services and prohibited gatherings of more than 10 people;

WHEREAS, in response to gradual improvements in the public health data, on May 18,
2020, June 6, 2020, and July 2, 2020, I issued COVID-19 Orders No. 33, 37, and 43,
respectively, which designated certain businesses and other organizations as Phase I, II, III, or IV
enterprises and initiated a progressive, phased plan for re-opening workplaces and other facilities
across the Commonwealth;
WHEREAS, again in response to sustained improvements in the public health data at the
time, on July 2, 2020, I issued COVID-19 Order No. 44, which rescinded the 10 person
limitation on gatherings and set a maximum gatherings limitation of 25 persons for indoor
gatherings and 100 persons for outdoor gatherings, subject to certain exceptions and sectorspecific allowances;
WHEREAS, due to repmis of non-compliance with the gatherings limitations, on August
7, 2020, I issued COVID-19 Order No. 46, which reduced the limitation on outdoor gatherings to
50 persons and instituted a requirement that attendees at gatherings with more than 10 people
wear face coverings;
WHEREAS, the CDC, the Department of Public Health, and other public health
authorities continue to improve their understanding of how COVID-19 is spread, where the risk
of spread is greatest, and how best to mitigate the risk of transmission, which permits periodic
adjustments to safety measures;
WHEREAS, as stated in COVID-19 Order No . 51, effective the same day as this Order,
public health data measuring the incidence of COVID-19 can be monitored at the level of the
individual municipality, and this permits a targeted relaxation ofrestrictions on outdoor
gatherings in municipalities that demonstrate a measurably lower incidence rate of infection over
a sustained period;
WHEREAS, compliance with safety protocols can be effectively overseen and
monitored by public health authorities when gatherings are conducted at outdoor event venues
and public settings, which permits the adoption of higher capacity limitations in such venues;
and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and prope1iy necessary or expedient for meeting a state of emergency, including but

2

184a

not limited to authority over assemblages in order to protect the health and safety of persons,
transpmiation and travel by any means or mode, and policing, protection, and preservation of
public and private property;

NOW, THEREFORE, I hereby Order the following:
l. Entities Subject to Sector-Specific Rules: With the exception of events and gatherings
subject to the Indoor and Outdoor Events Guidance issued by the Depaiiment of Labor
Standards, any Phase I, II, or III enterprise shall not be subject to the limitations in Section 3
of this Order if the enterprise is operating in compliance with applicable sector-specific
COVID-19 safety rules and any applicable capacity limitations issued under the authority of
an executive order.
All indoor and outdoor events shall be required to comply with both the limitations and
requirements in Section 3 of this Order and the sector-specific safety rules for Indoor and
Outdoor Events, except if the gathering or event is exempt pursuant to Section 2.
2. Gatherings for Political Expression and Religious Activities. Gatherings for religious
activities shall not be subject to the limitations in Section 3 of this Order; provided, however,
that such gatherings shall follow the COVID-19 safety rules and capacity limitations set forth

in the Places of Worship sector-specific rules . Outdoor gatherings for the purpose of
political expression shall also not be subject to the limitations of Section 3. Indoor
gatherings for the purposes of political expression shall follow the indoor capacity limitations
of Section 3.
3. Otherwise Applicable Indoor and Outdoor Gathering Limits and Requirements: The
following limitations apply to indoor and outdoor gatherings not exempted by Sections 1 or
2, including, without limitation, all social, community, civic, public, and leisure events, as
well as conferences, conventions, fundraisers, and other similar events or assemblies.
Workers and staff shall not count towai·ds the capacity limitations set fmih in this Section.
a. Required Social Distancing: In addition to the capacity restrictions specified below,
all paiiicipants in indoor and outdoor gatherings, including gatherings at private
residences, must maintain at least 6 feet of physical distance from every other
participant in the gathering except where participants are members of the same
household. A gathering shall violate this provision where, no matter the number of
participants present, conditions or activities at the gathering are such that it is not
reasonably possible for all participants to maintain this degree of separation.
b. All Indoor Gatherings: Indoor gatherings are limited to 25 persons in a single
enclosed, indoor space.
3

185a

c. Outdoor Gatherings at Private Residences and Other Spaces: Outdoor gatherings at
private residences and in private backyards and at any other venue or location not
included in subsection (d) are limited to a maximum of 50 people.
d. Outdoor Gatherings at Event Venues and in Public Settings: The capacity limitations
in this subsection shall apply to outdoor gatherings held in settings open to the public
and at event venues, clubs, parks, and other outdoor venues or spaces, public or
private, that are regularly used or available for gatherings through lease, license,
permit, contract, reservation, or similar mTangement.
1.

In Lower Risk Communities, as defined in COVID-19 Order No. 51 ,
gatherings at event venues and in public settings, as defined above, are limited
to a maximum of 100 persons in a single venue or space.

11.

In communities that do not qualify as Lower Risk Communities, gatherings at
event venues and in public settings, as defined above, are limited to a
maximum of 50 persons in a single venue or space.

e. Not?fication to Local Boards of Health: For outdoor gatherings where more than 50
attendees are anticipated, the operator of the event venue shall provide notice to the
Local Board of Health in the municipality where the gathering is located at least 1
week before the event is scheduled, or otherwise as soon as possible where 1 week
notice is not practicable due to the nature of the event (e.g., memorial services). For
events held in public places like parks, the event organizer shall be responsible for
providing notice. The notification shall include, at minimum, the location and time of
the planned event, the name and contact information of the event organizer, the
number of anticipated attendees, and any other information reasonably requested by
the Local Board of Health.
4. Face Coverings: For gatherings of more than 10 people, all persons over the age of 5 must
wear a face covering when they attend indoor m1d outdoor gatherings where pmiicipants
other than those in the same household will be in attendance, unless they are prevented from
wearing a face covering by a medical or disabling condition. This restriction applies to
gatherings in all venues and locations.
5. Legal Exceptions: This Order shall not apply to any of the following businesses,
organizations, workplaces, or facilities:
a. Any municipal legislative body, the General Court, or the Judiciary
b. Federal governmental entities
c. Any health care facility or licensed health care provider
4

186a

d. Any of the following workplaces or facilities with specialized functions and
populations:
• Polling places
• Public and private elementary and secondary (K-12) schools
• Residential and day schools for special needs students
• Licensed, approved, or exempt child care programs and emergency
residential programs operating under emergency authorization
• Facilities operated by the Department of Correction or any Sheriff
• Facilities operated, contracted, or licensed by the Depaiiment of Youth
Services, Depaiiment of Mental Health, Department of Public Health, or
the Depaiiment of Developmental Services
• Facilities and programs that provide safe spaces for the unstably housed
such as homeless and domestic violence shelters
• and any other facility or workplace that the Commissioner of Public
Health may exempt in writing from the terms of this Order
6. Eriforcement. The Depaiiment of Public Health, local boards of health and their authorized
agents pursuant to G. L. c. 111 , § 3 0, and State and municipal police are authorized to
enforce this Order. Violation of the terms of this Order may result in a civil fine of up to
$500 per violation as provided in St. 1950, c. 639, § 8, provided that the fine shall be
administered in the manner provided for the non-criminal disposition of violations of
municipal by-law, ordinance, rule, or regulation pursuant to G. L. c. 40, § 21D. This Order
may also be enforced by injunction. A motion for an injunction to enforce this Order may be
filed in the district comi or any other comi of competent jurisdiction for the municipality in
which the violation has been charged. The Alcoholic Beverages Control Commission or a
local licensing authority may, after notice to the licensee and a reasonable oppmiunity to be
heard, suspend, revoke, or cancel a license for the sale or service of alcoholic beverages or
take other appropriate enforcement action upon satisfactory proof that the licensee has
violated or permitted a violation of this Order.
If any provision of this Order or the application thereof to any person, entity, or
circumstance is determined to be invalid by a court of competent jurisdiction, such judgment
shall not affect or impair the validity of the other provisions of this Order or its application to
other persons, entities, and circumstances.

The Third Revised Order Regulating Gatherings Throughout the Commonwealth
(COVID-19 Order No. 46) is hereby rescinded effective 12:01 am on October 5, 2020.

5

187a

This Order shall be effective 12:01 am on October 5, 2020 and shall remain in effect until
rescinded or until the state of emergency is ended, whichever occurs first.
Given in Boston at/ J-?{6 AM,@:his
29th day of September, two thousand and
twenty

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

6

188a
OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER REQUIRING EARLY CLOSING FOR CERTAIN BUSINESSES AND
ACTIVITIES, LIMITING HOURS FOR ALCOHOL AND
ADULT USE CANNABIS SALES, AND MODIFYING CHAPTER 138
LICENSE RENEWAL REQUIREMENTS
COVID-19 Order No. 53

WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control and Prevention ("CDC") have
advised that COVID-19 is spread mainly by person-to-person contact and that the best means of
slowing the spread of the virus is through practicing social distancing and by minimizing
personal contact with large groups and with environments where this potentially deadly virus
may be transmitted including, in particular, spaces that present enhanced risks because oflarge
number of persons present or passing through who may spread the virus through respiratory
activity or surface contacts;
WHEREAS, on March 23, 2020, in order to restrict all non-essential person-to-person
contact and movement outside the home and reduce opportunities for spreading the COVID-19
virus within the Commonwealth, I issued COVID-19 Order No. 13, which temporarily closed the
brick-and-mortar premises of businesses and organizations that do not provide COVID-19
Essential Services;
1

®

PrutnED ON REcYCLED PAPER

189a

WHEREAS, in response to gradual improvements in the public health data, commencing
with COVID-19 Order No. 33 issued on May 18, 2020 and continuing through COVID-19 Order
No. 51 issued on September 29, 2020, I issued a series of executive orders that designated certain
businesses and other organizations as Phase I, II, III, or IV enterprises and initiated a
progressive, phased plan for re-opening workplaces and other facilities across the
Commonwealth;
WHEREAS, the CDC, the Department of Public Health, and other public health
authorities continue to improve their understanding of how COVID-19 is spread, where the risk
of spread is greatest, and how best to mitigate the risk of transmission, all of which permits
periodic adjustments to safety measures;
WHEREAS, the Commonwealth has seen an increase in cases since its lowest point in
July, and there has been a steep increase in cases during the month of October. On September
26, the 7-day daily average of new confirmed cases was 385, whereas as of October 31, the 7day daily average of new confirmed cases was 1,214;
WHEREAS, the Commonwealth's COVID-19-related hospitalizations and COVID-19
Intensive Care Unit (ICU) census have more than doubled over the past 2 months. On August
31, the number of individuals in the hospital with a confirmed or suspected case of COVID-19
was 290, whereas on November 1, the number of individuals in the hospital with a confirmed or
suspected case of COVID-19 was 613. The COVID-19 ICU census was 47 on September 9,
whereas on November 1, the COVID-19 ICU census was 113, with 55 individuals intubated. As
of November 1, 67% of hospital beds were full, and during the month of October a number of
hospitals reported using surge capacity;
WHEREAS, the public health data indicate that informal social activity is contributing to
the rise in cases, as evidenced by the fact that household transmission and social gatherings
represent 88% of all new and ongoing COVID-19 clusters identified as of September 27;
WHEREAS, left unchecked, the current COVID-19 case growth poses a risk to the
Commonwealth's healthcare system, and intervention is warranted to moderate case growth and
preserve hospital capacity;
WHEREAS, the Department of Public Health has today issued a Stay at Home Advisory
that urges all persons in the Commonwealth to remain at home between the hours of 10:00 PM
and 5:00 AM in order to slow the spread of the virus, preserve hospital capacity, and save lives;
WHEREAS, certain establishments that hold licenses issued pursuant to section 12 of
chapter 138 of the General Laws (a "section 12 license") authorizing the sale of alcoholic
beverages for on-premises consumption remain closed to the public because of business
disruptions caused by COVID-19, and certain others are not permitted to open to the public until
Phase IV of the Commonwealth's Re-Opening Plan; and
2

190a

WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting the state of emergency, including
but not limited to authority over public assemblages in order to protect the health and safety of
persons, regulating the sale of articles of food and household articles, variance of the terms and
conditions of licenses, permits or certificates of registration issued by the Commonwealth or any
of its agencies or political subdivisions, and regulation of the business of insurance and
protection of the interests of the holders of insurance policies and contracts and of beneficiaries
thereunder and of the interest of the public in connection therewith;
NOW, THEREFORE, I hereby Order the following:

1. Mandatory Night-Time Closing Period for Certain Businesses and Activities
Effective at 12:01 AM on November 6, 2020, all businesses, facilities, or activities
included within the categories listed below must close their premises to the public each day not
later than 9:30 PM and may not re-open their premises to the public before 5:00 AM the
following day (the "mandatory closing period"). Except as otherwise specifically permitted
below, during the daily mandatory closing period, businesses, facilities, or activities within the
categories listed below may not admit customers, patrons, or members of the public to their
premises or otherwise offer, provide, or permit in-person, on-premises services or activities.
Operators of affected businesses, facilities, or activities may keep their premises open to
employees and other workers during the mandatory closing period and otherwise conduct
business activities and operations that do not involve admitting customers, patrons, or members
of the public to their premises.
Businesses, facilities, and activities subject to the daily mandatory closing period:
1. Restaurants, provided however that restaurants may offer food and non-alcoholic
beverages for take-out and by delivery during the mandatory closing period
2. Arcades and Other Indoor and Outdoor Recreation
3. Indoor and Outdoor Events
4. Indoor and Outdoor Theaters, Movie Theaters, and Performance Venues
5. Drive-In Movie Theaters
6. Youth and Adult Amateur Sports Activities
7. Golf Facilities
8. Recreational Boating and Boating Businesses
9. Outdoor Recreational Experiences and Educational Activities
10. Casinos, Horse Racing Tracks, and Simulcast Facilities
11. Driving and Flight Schools
12. Zoos, Botanical Gardens, Wildlife Reserves, and Nature Centers
13. Close Contact Personal Services
14. Fitness Centers and Health Clubs
15. Indoor and Outdoor Pools (Public and Semi-Public Swimming Pools)
3

191a

16. Museums/Cultural & Historical Facilities/Guided Tours
Categories of businesses, facilities, and activities listed above correspond to enterprise sectors
established in Exhibit A to COVID-19 Order No. 51 and further defined in Sector-Specific
COVID-19 Safety Rules and related guidance documents and protocols issued and administered
by the Department of Public Health, the Department of Labor Standards, the Executive Office of
Energy and Environmental Affairs, and the Massachusetts Gaming Commission. Those agencies
are each authorized and directed to amend all relevant rules, guidance documents, and protocols
to incorporate the mandatory closing period requirement.
2. Restriction on Service and Sale of Alcohol and Adult-Use Cannabis During
Mandatory Closing Period
Effective at 12:01 AM on November 6, 2020, the following restrictions shall apply to the
service and sale of alcohol and the sale of adult-use cannabis:

Service and Sale ofAlcohol. During the daily mandatory closing period established in
Section 1, no person, business, organization, establishment, premises, or service holding or
operating under a license issued pursuant to Chapter 138 or Chapter 23K of the General Laws
may sell or serve or provide alcohol of any kind to any person anywhere in the Commonwealth.
This restriction applies, without limitation, to all retailers, restaurants, private clubs, catering
halls, events, and delivery services licensed to offer alcohol service or retail sale pursuant to
Chapter 138 or, in the case of casinos, Chapter 23K.
This restriction shall not displace any provisions of Chapter 138 or Chapter 23K or of any
license issued under those authorities that may establish more restrictive limitations on the hours
during which a licensee may offer sale or service or provision of alcohol each day.

Retail Sale ofAdult-Use Cannabis. During the daily mandatory closing period
established in Section 1, no individual, business, organization, establishment, premises, or entity
holding or operating under a marijuana retailer license issued pursuant to Chapter 94G of the
General Laws may sell adult-use cannabis or adult-use cannabis products of any kind to any
person anywhere in the Commonwealth.
For violations of the restrictions established in this Section, each individual sale or
delivery or service made during the mandatory closing period may be treated as a separate
violation for purposes of administering fines and other penalties.
3. Renewal of Chapter 13 8 Licenses by Establishments Remaining Closed During the
State of Emergency
Notwithstanding anything to the contrary in section 12 of Chapter 138 of the General
Laws, the holder of a section 12 license that remains closed to the public during the state of

4

192a

emergency shall be permitted to renew its section 12 license for 2021 pursuant to section 16A of
the same chapter with the benefit of the following allowances:
a. A licensee shall not be required to submit proof of having liquor liability
insurance, provided, however, that no licensee that has renewed its license under
this allowance may re-open to the public without first submitting to the licensing
authority proof of a current liquor liability insurance policy that names the
licensee as the insured and that otherwise meets the requirements of section 12.
No insurer, broker, agent, or their representative shall impose or collect any
surcharge penalty, fee, or other charge in addition to the premium for any liquor
liability insurance policy obtained under the terms of this allowance; and
b. A licensee shall not be required to submit proof of having a workers'
compensation insurance policy, provided, however, that (1) no licensee that has
renewed its license under this allowance shall have any payroll at the time of
renewal; and (2) no licensee that has renewed its license under this allowance
shall commence operations that involve employees or re-open to the public
without first providing satisfactory proof of workers' compensation insurance as
required by a municipal licensing authority. No insurer, broker, agent, or their
representative shall impose or collect any surcharge penalty, fee, or other charge
in addition to the premium for any such workers' compensation insurance policy
obtained under the terms of this allowance.
A rescission of this Order or a termination of the state of emergency shall not invalidate any
section 12 license that was renewed pursuant to this Section during the period in which this
Order was in effect.
4.

Enforcement Provisions

The Depaiiment of Public Health, the Department of Labor Standards, local boards of
health and their authorized agents pursuant to G. L. c. 111, § 30, and State and municipal police
are authorized to enforce this Order. Violation of the restrictions adopted in Sections 1 or 2 of
this Order may result in a civil fine ofup to $500 per violation as provided in St. 1950, c. 639, §
8, provided that any fine shall be administered in the manner provided for the non-criminal
disposition of violations of municipal by-law, ordinance, rule, or regulation pursuant to G. L. c.
40, § 21D. Each individual instance of non-compliance and each day of a continuing violation
may be fined as a separate violation.
This Order may also be enforced by injunction. A motion for an injunction to enforce
this Order may be filed in the district court or any other comi of competent jurisdiction for the
municipality in which the violation has been charged.
The Alcoholic Beverages Control Commission or a local licensing authority may, after
notice to the licensee and a reasonable opportunity to be heard, suspend, revoke, or cancel a
license for the sale or service of alcoholic beverages or take other appropriate enforcement action
5

193a

upon satisfactory proof that the licensee has violated or permitted a violation of Section 1 or 2 of
this Order.
If any provision of this Order or the application thereof to any person, entity, or
circumstance is determined to be invalid by a court of competent jurisdiction, such determination
shall not affect or impair the validity of the other provisions of this Order or its application to
other persons, entities, and circumstances.
Sections 1 and 2 of this Order are effective at 12:01 AM on November 6, 2020, and
Section 3 is effectively immediately. This Order shall remain in effect until rescinded or until
the state of emergency is ended, whichever occurs first.
Given in Boston at / ~ 60 A ~ h i s 2nd
day of November, two thousan~ twenty

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

6

194a
OFFICE OF THE GOVERNOR

COMMONWEAL TH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE • BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

REVISED ORDER FURTHER REGULATING
GATHERINGS IN THE COMMONWEALTH
COVID-19 Order No. 54
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control have determined that COVID-19 is
spread mainly by person-to-person contact and that the best means of slowing the spread of the
virus is through practicing social distancing and by minimizing personal contact with large
groups and environments where the virus may be transmitted;
WHEREAS, the CDC has issued guidance for large gatherings and community events
recognizing that gatherings can significantly contribute to the spread of COVID-19 and introduce
the virus to new communities;
WHEREAS, that CDC guidance states that, while virtual-only activities are the safest,
the risks associated with in-person events can be reduced if they are held outdoors, remain small,
and participants maintain 6 feet of distance and wear face coverings;

1

*

PRIN'IED ON RECYCLED PAPER

195a

WHEREAS, since March 13, 2020, I have issued a series of executive orders setting
limitations on the numbers of persons who may gather in the Commonwealth, and have adjusted
those limitations periodically according to the public health data available at the time;
WHEREAS, acting pursuant to the authority of executive orders, the Department of
Public Health, the Department of Labor Standards, the Executive Office of Energy and
Environmental Affairs, and the Massachusetts Gaming Commission (each a "regulating agency")
have each issued sector-specific COVID-19 safety rules that set capacity limitations and other
standards for safe operation of enterprises permitted to open their premises to the public under
Phase I, II, or III of the Commonwealth's Re-Opening Plan;
WHEREAS, the CDC, the Department of Public Health, and other public health
authorities continue to improve their understanding of how COVID-19 is spread, where the risk
of spread is greatest, and how best to mitigate the risk of transmission, all of which permit
periodic adjustments to safety measures;
WHEREAS, as stated in COVID-19 Order No. 51, public health data measuring the
incidence of COVID-19 can be monitored at the level of the individual municipality, and this
permits a targeted relaxation of restrictions on outdoor gatherings in municipalities that
demonstrate a measurably lower incidence rate of infection over a sustained period;
WHEREAS, compliance with safety protocols can be effectively overseen and
monitored by public health authorities when gatherings are conducted at outdoor event venues
and in public settings, which permits the adoption of higher capacity limitations for such venues;
WHEREAS, household transmission and social gatherings represent 88% of all new and
ongoing clusters identified as of September 27th, which warrants heightened caution and reduced
capacity limits for gatherings hosted at private residences;
WHEREAS, the Commonwealth has seen an increase in cases since its lowest point in
July, and there has been a steep increase in cases during the month of October. On September 26,
the 7-day daily average of new confirmed cases was 385, whereas as of October 31, the 7-day
daily average of new confirmed cases was 1,214;
WHEREAS, the Commonwealth's COVID-19-related hospitalizations and COVID-19
Intensive Care Unit (ICU) census have more than doubled over the past 2 months. On August 31,
the number of individuals in the hospital with a confirmed or suspected case of COVID-19 was
290, whereas on November 1, the number of individuals in the hospital with a confirmed or
suspected case of COVID-19 was 613. The COVID-19 ICU census was 47 on September 9,
whereas on November 1, the COVID-19 ICU census was 113, with 55 individuals intubated. As

2

196a

of November 1, 67% of hospital beds were full and during the month of October, and a number
of hospitals reported using surge capacity;

WHEREAS, left unchecked, the current COVID-19 case growth poses a risk to the
Commonwealth's healthcare system, and intervention is warranted to moderate case growth and
preserve hospital capacity;

WHEREAS, the Department of Public Health has today issued a Stay at Home Advisory
that urges all persons in the Commonwealth to remain at home between the hours of 10:00 PM
and 5:00 AM in order to slow the spread of the virus, preserve hospital capacity, and save lives;
and

WHEREAS, sections 7, 8, and 8A of Chapter 63 9 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, and policing, protection, and preservation of
public and private property;

NOW, THEREFORE, I hereby Order the following:

1. Entities Subject to Sector-Specific Rules: With the exception of events and gatherings
subject to the Indoor and Outdoor Events Guidance issued by the Department of Labor
Standards, any Phase I, II, or III enterprise shall not be subject to the limitations in Section 3
of this Order if the enterprise is operating in compliance with applicable sector-specific
COVID-19 safety rules and any applicable capacity limitations issued by a regulating agency
under the authority of an executive order.
All indoor and outdoor events shall be required to comply with both the limitations and
requirements in Section 3 of this Order and the sector-specific safety rules for Indoor and
Outdoor Events, except if the gathering or event is exempt pursuant to Section 2.

2. Gatherings for Political Expression and Religious Activities: Gatherings for religious
activities shall not be subject to the limitations in Section 3; provided, however, that such
gatherings shall follow the COVID-19 safety rules and capacity limitations set forth in the
Places of Worship sector-specific rules. Outdoor gatherings for the purpose of political
expression shall also not be subject to the limitations of Section 3. Indoor gatherings for the
purposes of political expression shall follow the indoor capacity limitations of Section 3.

3. Otherwise Applicable Indoor and Outdoor Gathering Limits and Requirements: The
following limitations apply to indoor and outdoor gatherings not exempted by Sections 1 or 2
of this Order, including, without limitation, all social, community, civic, public, and leisure
3

197a

events, as well as conferences, conventions, fundraisers, and other similar events or
assemblies. Members of the same household, when assembled together with no other nonhousehold members present, do not constitute a gathering and shall not be subject to the
capacity limitations in this Section. Workers and staff present to provide services to
participants shall not count towards the capacity limitations in this Section.
For the purposes of this section, the term "event venue or public setting" shall include any
setting open to the public and any event venue, club, park, or other venue or space, public or
private, that is used or available for gatherings through lease, license, permit, contract,
reservation, or similar arrangement
a. Required Social Distancing: In addition to the capacity restrictions specified below,
all participants in indoor and outdoor gatherings, including gatherings at private
residences, must maintain at least 6 feet of physical distance from every other
participant in the gathering, except where participants are members of the same
household. A gathering shall violate this provision where, no matter the number of
participants present, conditions or activities at the gathering are such that it is not
reasonably possible for all participants to maintain this degree of separation.
b. Gatherings at Private Residences:
1. Indoor gatherings at private residences and in any other place not falling
within the definition of an event venue or public setting are limited to a
maximum of 10 people.
2. Outdoor gatherings at private residences and in any other place not falling
within the definition of an event venue or public setting are limited to a
maximum of 25 people.
c. Gatherings at Event Venues and in Public Settings:
1. Indoor gatherings at event venues or in public settings are limited to a
maximum of 25 people.
2. The following capacity limitations shall apply to outdoor gatherings at event
venues or in public settings:
1.

11.

In Lower Risk Communities, as defined in COVID-19 Order No. 51 or
in any successor order, gatherings at event venues or in public settings
are limited to a maximum of 100 persons in a single venue or space.
In communities that do not qualify as Lower Risk Communities,
gatherings at event venues or in public settings are limited to a
maximum of 50 persons in a single venue or space.

4

198a

d. Notification to Local Boards of Health: For outdoor gatherings in Lower Risk
Communities where more than 50 attendees are anticipated, the operator of the event
venue shall provide notice to the Local Board of Health in the municipality where the
gathering is located at least 1 week before the event is scheduled, or otherwise as
soon as possible where 1 week notice is not practicable due to the nature of the event
(e.g., memorial services). For events held in public places like parks where more than
50 attendees are anticipated, the event organizer shall be responsible for providing
this notice. The notification shall include, at minimum, the location and time of the
planned event, the name and contact information of the event organizer, the number
of anticipated attendees, and any other information reasonably requested by the Local
Board of Health.

4. Time Limitation: All gatherings, no matter the size or location, must end and participants
must disperse by 9:30 pm, with the exceptions ofreligious gatherings and political
gatherings.
5. Face Coverings: Consistent with the Revised Order Requiring Face Coverings in Public
Places (COVID-19 Order No. 55), all persons over the age of 5 must wear masks or cloth
face coverings over their mouth and nose when in a public location, including at gatherings
in public, except as provided in Section 2 of COVID-19 Order No. 55.
Masks or face coverings are encouraged at all indoor and outdoor gatherings at private
homes, but are only required when such gatherings include more than 10 people and where
attendees include non-household members.

6. Contact Tracing: If a host or event venue is notified that an event attendee or event worker
has tested positive for COVID-19, the event host or event venue must immediately notify the
Local Board of Health in the city or town where the event took place. Hosts and event
venues must assist the Department of Public Health and Local Boards of Health with contact
tracing and case investigations, including, upon request, providing lists of attendees at social
gatherings and their contact information. Event hosts and venues who fail to timely report
positive cases or cooperate with contact tracing and case investigations may be subject to the
penalties listed in Section 8.
7. Legal Exceptions: This Order shall not apply to any of the following businesses,
organizations, workplaces, or facilities:
a. Any municipal legislative body, the General Court, or the Judiciary
b. Federal governmental entities
c. Any health care facility or licensed health care provider

5

199a

d. Any of the following workplaces or facilities with specialized functions and
populations:
•

Polling places

•

Public and private elementary and secondary (K-12) schools

•

Residential and day schools for special needs students

•

Licensed, approved, or exempt child care programs and emergency
residential programs operating under emergency authorization

•

Facilities operated by the Department of Correction or any Sheriff

•

Facilities operated, contracted, or licensed by the Department of Youth
Services, Department of Mental Health, Department of Public Health, or
the Department of Developmental Services

•

Facilities and programs that provide safe spaces for the unstably housed
such as homeless and domestic violence shelters

•

Any other facility or workplace that the Commissioner of Public Health
may exempt in writing from the terms of this Order

8. Enforcement: The Department of Public Health, Local Boards of Health and their
authorized agents pursuant to G.L. c. 111, § 30, and State and municipal police are
authorized to enforce this Order. Violation of the terms of this Order may result in a civil
fine ofup to $500 per violation as provided in St. 1950, c. 639, § 8, to be assessed on any
person, organization, or business responsible for organizing, hosting, or allowing a gathering
conducted in violation of the Order, or, in the alternative, against the owner, lessee, or other
person who has legal control of the property where the gathering occurs. Each person over
the permissible gathering limitation in Section 3 may be treated and counted as a separate
violation. Any fine shall be administered in the manner provided for the non-criminal
disposition of violations of municipal by-law, ordinance, rule, or regulation pursuant to G. L.
c. 40, § 21D. This Order may also be enforced by injunction. A motion for an injunction to
enforce this Order may be filed in the district court or any other court of competent
jurisdiction for the municipality in which the violation has been charged.
The Alcoholic Beverages Control Commission or a local licensing authority may, after notice
to the licensee and a reasonable opportunity to be heard, suspend, revoke, or cancel a license
for the sale or service of alcoholic beverages or take other appropriate enforcement action
upon satisfactory proof that the licensee has violated or permitted a violation of this Order.

9. Effective Date: This Order shall be effective 12:01 AM on November 6, 2020 and shall
remain in effect until rescinded or until the state of emergency is ended, whichever occurs
first.

6

200a

The Phase III, Step 2 Order Regulating Gatherings in the Commonwealth (COVID-19 Order
No. 52) is hereby rescinded effective 12:01 AM on November 6, 2020.
If any provision of this Order or the application thereof to any person, entity, or
circumstance is determined to be invalid by a court of competent jurisdiction, such determination
shall not affect or impair the validity of the other provisions of this Order or its application to
other persons, entities, and circumstances.

Given in Boston at ~
/ • - - AM~ this 2nd
day of November, two thousand and twenty

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

7

201a
OFFICE OF THE GOVERNOR

COMMONWEAL TH OF MASSACHUSETTS
STATE HOUSE• BOSTON,

MA 02133

(617) 725-4000

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER REVISING PROVISIONS FOR PHASE III RE-OPENINGS IN
MUNICIPALITIES WITH REDUCED INCIDENCE OF COVID-19 INFECTION
COVID-19 Order No. 56
Superseding and Rescinding Order No. 51

WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control and Prevention ("CDC") have
advised that COVID-19 is spread mainly by person-to-person contact and that the best means of
slowing the spread of the virus is through practicing social distancing and by minimizing
personal contact with large groups and with environments where this potentially deadly virus
may be transmitted including, in paiiicular, spaces that present enhanced risks because of the
large number of persons present or passing through the area who may spread the virus through
respiratory activity or surface contacts;
WHEREAS, on March 23, 2020, in order to restrict all non-essential person-to-person
contact and movement outside the home, and reduce opportunities for spreading the COVID-19
virus within the Commonwealth, I issued COVID-19 Order No. 13, which temporarily closed the
brick-and-m01iar premises of businesses and organizations that do not provide COVID-19
Essential Services;

1
@

PRINTED ON RECYCl.f.D PAPER

202a

WHEREAS, in response to gradual improvements in the public health data, on May 18,
2020, June 6, 2020, and July 2, 2020, I issued COVID-19 Orders No. 33, 37, and 43,
respectively, which designated ce1iain businesses and other organizations as Phase I, II, III, or IV
enterprises and initiated a progressive, phased plan for re-opening workplaces and other facilities
across the Commonwealth;
WHEREAS, on September 29, 2020, I issued COVID-19 Order No. 51, which, effective
October 5, authorized the reopening of Phase III, Step 2 enterprises in municipalities with
reduced incidence of COVID-19 infection;
WHEREAS, the CDC, the Depaiiment of Public Health, and other public health
authorities continue to improve their understanding of how COVID-19 is spread, where the risk
of spread is greatest, and how best to mitigate the risk of transmission, which permits periodic
adjustments to safety measures addressing commercial, recreational, and social activities;
WHEREAS, a sustained improvement in public health data for the Commonwealth
permits a phased relaxation of restrictions on businesses and other organizations, provided,
however, that such adjustments can only be maintained or expanded on the basis of continuing
positive trends in the public health data;
WHEREAS, public health data measuring the incidence of COVID-19 can be monitored
at the level of the individual municipality, and this permits a targeted relaxation ofrestrictions on
businesses and other organizations operating in municipalities that demonstrate a lower
incidence rate of infection over a sustained period; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and prope1iy necessary or expedient for meeting the state of emergency, including
but not limited to authority over assemblages in order to protect the health and safety of persons,
transpmiation and travel by any means or mode, regulating the sale of articles of food and
household aiiicles, variance of the terms and conditions of licenses and permits issued by the
Commonwealth or any of its agencies or political subdivisions, and policing, protection, and
preservation of public and private property;
NOW, THEREFORE, I hereby Order the following:
1.

Advancement of Lower Risk Cmmnunities to Phase III, Step 2

Enterprises in municipalities that qualify as "Lower Risk Communities" may operate
according to rules applicable to Step 2 of Phase III of the Co1mnonwealth's phased Re-Opening
Plan. Enterprises in municipalities that do not qualify as Lower Risk Communities must comply
with rules applicable to Step 1 of Phase III.

2

203a

For the purposes of this Order, a "Lower Risk Community" shall mean a municipality
that meets criteria established by the Commissioner of the Department of Public Health as
published on the Massachusetts COVID-19 response website (the "Lower Risk metric"). The
Commissioner may from time to time publish adjustments to the metric as waiTanted by changes
in the available public health data and the developing understanding of the nature of the COVID19 virus.
Within a municipality determined to be a Lower Risk Community and authorized to
advance to or remain in Step 2 of Phase III:
a. Businesses and other organizations identified as Phase III, Step 2 enterprises in
Schedule A attached hereto may open their brick-and-mo1iar premises to workers,
customers, and the public;
b. Phase I, II, and III enterprises, as identified in Schedule A, may operate pursuant
to revised Sector-Specific COVID-19 workplace safety rules, issued under the
authority of COVID-19 Orders No. 33 , 37, and 43, that may provide for increased
capacity and other adjustments to safety protocols upon the commencement of
Step 2 of Phase III operations; and
c. Revised capacity allowances for gatherings shall apply pursuant to COVID-19
Order No. 54, or pursuant to any later Order further adjusting capacity allowances
for gatherings.
The Commissioner may establish a reasonable timeframe in which the adjustments listed
in subsections (a)-(c) above shall be effective once a municipality has qualified as a Lower Risk
Co1mnunity.
2.

Requirement of Continuing Lower Risk Status

A municipality that qualifies as a Lower Risk Community, either as of November 9, 2020
or subsequently, shall cease to qualify as a Lower Risk Cmmnunity if at any time the
municipality fails to meet the Lower Risk metric.
Within a municipality that ceases to qualify as a Lower Risk Community, rules and
allowances applicable to Step 1 of Phase III shall apply. Accordingly:
a. Businesses and other orgai1izations identified as Phase III, Step 2 enterprises in
Schedule A attached hereto must close their brick-and-mortai· premises to
workers, customers, and the public;
b. Phase I, II, and III enterprises, as identified in Schedule A, may not operate
pursuant to revised Sector-Specific COVID-19 workplace safety rules providing
for increased capacity and other adjustments applicable to enterprises operating
under Step 2 of Phase III; and
c. Reduced capacity allowances for gatherings shall apply pursuant to COVID-19
Order No. 54, or pursuant to any later Order ftniher adjusting capacity allowances
for gatherings.

3

204a

The Commissioner may establish a reasonable timeframe in which the adjustments listed
in subsections (a)-(c) above shall be effective once a municipality has ceased to qualify as a
Lower Risk Community.
3.

COVID-19 Workplace Safety Rules for Step 2 of Phase III

The Director of the Depaiiment of Labor Standards shall issue, subject to my approval (i)
Sector-Specific COVID-19 workplace safety rules, as that term is defined in Section 4 of
COVID-19 Order No. 43, applicable to Step 2 enterprises permitted to open their brick-andm01iar premises to workers, customers, and the public as provided in Section 2 of this Order; and
(ii) revised Sector-Specific COVID-19 workplace safety rules that may provide for increased
capacity and other adjustments for Phase I, III, and III enterprises also as provided in Section 2
of this Order.
The provisions of Sections 4 and 5 of COVID-19 Order No. 43 (and Section 4 of
COVID-19 Order No . 37 as incorporated in COVID-19 Order No. 43), which set requirements
for compliance with generally applicable and Sector-Specific COVID-19 safety rules and
mechanisms for enforcement for all Phase III enterprises shall apply to Step 2 enterprises
authorized to open their premises pursuant to this Order. Any penalty issued in an enforcement
action shall be administered as provided in COVID-19 Order No. 48.
This Order is effective on November 9, 2020 and shall remain in effect until rescinded or
until the state of emergency is ended, whichever occurs first. Effective November 9, 2020,
COVID-19 Order No. 51 is rescinded.

Given in Boston at /: b(J AM/~
his 6th
day of November, two thousand and twenty

CHARLES D. BAIZER
GOVERNOR
Commonwealth of Massachusetts

4

205a

Schedule A
to COVID-19 Order No. 56 effective November 9, 2020

Phase I

All Phase I, II, III, and IV enterprises are required to comply with general and, where
applicable, sector-specific COVID-19 workplace safety rules administered by DPL, DPH, EEA,
and local boards of health. Workplace safety rules include a variety of mandatory contextspecific COVID-19 safety measures such as occupancy limitations, operational modifications,
social distancing rules, and specialized cleaning requirements.
As specified in COVID-19 Order No. 33:

•
•
•
•
•
•
•
•
•
•
•
•
Phase II

Businesses and other organizations providing products and services identified as
"COVID-19 Essential Services" in COVID-19 Order No. 13
Manufacturing
Construction
Places of Worship
Firearms retailers and shooting ranges
General Use Offices
Car Washes
Hair Salons and Barber Shops
Pet Groomers
Drive-In Movie Theaters
Laboratories
Certain Outdoor Recreational Facilities and Activities as specified in Exhibit 1 to
COVID-19 Order No. 33

As specified in COVID-19 Order No. 37 and including specifically:

•
•

•

•

•
•

•
•
•
•

•
•
•

Retail Stores including stores in enclosed shopping malls
Restaurants providing seated food service prepared on-site and under retail food
permits issued by municipal authorities pursuant to 105 CMR 590.000, including beer
gardens/wineries/distilleries meeting these criteria
0
filmu_: outdoor table service
0
Step 2: indoor table service
Hotels, motels, inns, and other short-term lodgings (no events, functions , or meetings)
Limited organized youth and adult amateur sports activities and programs- no contact
and no games or scrilmnages, and indoor facilities limited to youth programs
Professional sports practice and training programs--no inter-team games and no
admission for the public
Personal Services provided at a fixed place of business or at a client location
0
Step 1: Services involving no close personal contact (photography, wil1dow
washers, individual tutoring, home cleaning, etc.)
0
Step 2 : Services involving close personal contact (massage, nail salons,
personal training for individuals or no more than 2 persons from same
household, etc.)
Non-athletic instructional classes in arts/education/life skills for youths under 18 years
of age in groups of fewer than 10
Driving schools and flight schools
Outdoor historical spaces- no functions or gatheril1gs and no guided tow-s
Funeral homes- increased capacity to permit 40% occupancy for one service at a time
within the facility
Warehouses and distribution centers
Golf facilities including outdoor driving ranges
Other outdoor recreational facilities
pools, playgrounds and spray decks
0

5

206a

•

•
•
Phase III

mini golf, go karts, batting cages, climbing walls, ropes courses
0
Post-Secondary/Higher Ed/Vocational-Tech/Trade/Occupational Schools
for the limited pw·poses of permitting students to complete a degree, program,
0
or prerequisite for emp loyment, or other simi lar requirement for comp letion,
for summer youth programming including athletic facilities , and any
necessary suppotting services
Day Camps including sports and aits camps
Public libraries

Step 1

•

•
•
•
•

•
•
•
•
•
•

•
•
•
•
•
•
•

Post-Secondary/Higher Ed/Vocational -Tech/Trade/Occupational Schools-general
operations
Casino gaming floors
Horse racing tracks and simulcast faci lities
Indoor recreational and athletic facilities for general use (not limited to youth
programs)
Fitness centers and health clubs including
cardio/weight rooms/locker rooms/inside facilities
0
fitness studios (yoga, barre, cross-fit, spin classes, general fitness studios)
0
0
indoor common areas
indoor swimming pools
0
indoor racquet cowts and gymnasiums
0
locker rooms
0
excluding saunas, hot-tubs, steam rooms
0
Museums
Indoor historic spaces/sites
Aquariums
Outdoor theatres and other outdoor performance venues not designated as Phase IV
enterprises
Movie theatres
Sightseeing and other organized toms (bus toms, duck tours, harbor cruises, whale
watching)
Motion pictw-e, television, and video streaming production
Fishing and hunting tournaments and other amateur or professional derbies
Outdoor event spaces used for gatherings and celebrations including those in parks,
reservations, and other outdoor spaces not designated as Phase IV enterprises
Indoor event spaces such as meeting rooms, ballrooms, and private party rooms--on ly
when used for functions or events permitted under Sector-Specific Rules for Indoor
and Outdoor Events
Indoor non-athletic instructional classes in arts/education/life skills for persons 18
years or older
Indoor recreational activities with low potential for contact: batting cages, driving
ranges, go karts, bowling alleys, rock-climbing walls
Indoor and outdoor gaming arcades and associated gaming devices

Step 2

•

•
Phase IV

•
•
•

Indoor performance venues used for live perfonnances such as concert halls, theaters,
and other indoor performance spaces not designated as Phase IV enterprises
Indoor recreational activities with greater potential for contact: laser tag, roller skating,
h·ampolines, obstacle courses
Amusement parks, theme parks, indoor or outdoor water parks and indoor or outdoor
ball pits
Saunas, hot-tubs, steam rooms at fitness centers, health clubs, and other facilities
Bars, dance clubs, and nightclubs- venues offering ente1tainment, beverages, or

6

207a

•

•

•
•
•

dancing and not providing seated food service prepared on-site and under retail food
permits issued by municipal authorities pursuant to 105 CMR 590 .000
Beer gardens/breweries/wineries/distilleries not providing seated food service prepared
on-site and under retail food permits issued by municipal authorities pursuant to 105
CMR 590.000
Large capacity venues used for group or spectator sp01ts, ente1tainment, business, and
cultural events including
o Stadiums, arenas, and ballparks
o Dance floors
o Exhibition and convention halls
Street festivals and parades and agricultmal festivals
Road races and other large, outdoor organized amateur or professional group athletic
events
Overnight camps (Summer 2021)

This listing is subject to amendment.

7

208a

OFFICE OF THE GOVERNOR

COMMONWEAL TH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

FURTHER REVISED ORDER REGULATING
GATHERINGS IN THE COMMONWEALTH
COVID-19 Order No. 57
Superseding and Rescinding Order No. 54
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control have determined that COVID-19 is
spread mainly by person-to-person contact and that the best means of slowing the spread of the
virus is through practicing social distancing and by minimizing personal contact with large
groups and environments where the virus may be transmitted;
WHEREAS, the CDC has issued guidance for large gatherings and community events
recognizing that gatherings can significantly contribute to the spread of COVID-19 and introduce
the virus to new communities;
WHEREAS, that CDC guidance states that, while virtual-only activities are the safest,
the risks associated with in-person events can be reduced if they are held outdoors, remain small,
and participants maintain 6 feet of distance and wear face coverings;

1

*

P RINTED ON REcvcu;o PAPER

209a

WHEREAS, since March 13, 2020, I have issued a series of executive orders setting
limitations on the numbers of persons who may gather in the Commonwealth and have adjusted
those limitations periodically according to the public health data available at the time;
WHEREAS, acting pursuant to the authority of executive orders, the Department of
Public Health, the Depaiiment of Labor Standards, the Executive Office of Energy and
Environmental Affairs, and the Massachusetts Gaming Commission (each a "regulating agency")
have each issued sector-specific COVID-19 safety rules that set capacity limitations and other
standards for safe operation of enterprises permitted to open their premises to the public under
Phase I, II, or III of the Commonwealth' s Re-Opening Plan;
WHEREAS, the CDC, the Depaiiment of Public Health, and other public health
authorities continue to improve their understanding of how COVID-19 is spread, where the risk
of spread is greatest, and how best to mitigate the risk of transmission, all of which permit
periodic adjustments to safety measures;
WHEREAS, as of December 7, 2020, the Depaiiment of Public Healht has repmied
250,022 confirmed cases of COVID-19 and the average daily rate of COVID-19 incidence per
100,000 is 35 .7;
WHEREAS, the Commonwealth has seen a significant increase in its 7-day average of
new daily confirmed cases of COVID-19: as of December 6, 2020, the daily average was 3,509
compared to 1,837 on November 8;
WHEREAS, the Commonwealth has likewise seen a significant increase in its 7-day
weighted average of positive molecular test rate: as of December 6, 2020, the rate was 5.5%
compared to 2.7% on November 8;
WHEREAS, between Thanksgiving and December 6, hospitalizations for COVID-19 in
the Commonwealth increased 54% from 986 to 1,516 admissions;
WHEREAS, as of December 7, 2020, the Executive Office of Health and Human
Services has moved all regions in Massachusetts to the Tier 3 designation of the Resurgence
Planning and Response Framework due to decreasing hospital capacity and increasing
cornnmnity transmission of COVID-19;
WHEREAS, left unchecked, current COVID-19 case growth poses a risk to the
Commonwealth's healthcare system, and intervention is warranted to moderate case growth and
preserve hospital capacity; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and prope1iy necessary or expedient for meeting a state of emergency, including but
2

210a

not limited to authority over assemblages in order to protect the health and safety of persons,
transp01iation and travel by any means or mode, and policing, protection, and preservation of
public and private property;

NOW, THEREFORE, I hereby Order the following:
1. Entities Subject to Sector-Specific Rules: With the exception of events and gatherings
subject to the Indoor and Outdoor Events Guidance issued by the Depaiiment of Labor
Standards, a Phase I, II, or III enterprise shall not be subject to the limitations in Section 3 of
this Order if the enterprise is operating in compliai1ce with applicable sector-specific
COVID-19 safety rules and any applicable capacity limitations issued by a regulating agency
under the authority of an executive order.

All indoor and outdoor events shall be required to comply with both the limitations and
requirements in Section 3 of this Order and the sector-specific safety rules for Indoor and
Outdoor Events, except if the gathering or event is exempt pursuant to Section 2.

2. Gatherings for Political Expression and Religious Activities: Gatherings for religious
activities shall not be subject to the limitations in Section 3; provided, however, that such
gatherings shall follow the COVID-19 safety rules and capacity limitations set forth in the
Places of Worship sector-specific rules. Outdoor gatherings for the purpose of political
expression shall also not be subject to the limitations of Section 3. Indoor gatherings for the
purposes of political expression shall follow the indoor capacity limitations of Section 3.

3. Otherwise Applicable Indoor and Outdoor Gathering Limits and Requirements: The
following limitations apply to indoor and outdoor gatherings not exempted by Sections 1 or 2
of this Order, including, without limitation, all social, community, civic, public, and leisure
events, as well as conferences, conventions, fundraisers, and other similai· events or
assemblies. Members of the same household, when assembled together with no other nonhousehold members present, do not constitute a gathering and shall not be subject to the
capacity limitations in this Section. Workers and staff present to provide services to
participants shall not count towards the capacity limitations in this Section.
For the purposes of this section, the term "event venue or public setting" shall include any
setting open to the public and any event venue, club, park, or other venue or space, public or
private, that is used or available for gatherings through lease, license, permit, contract,
reservation, or similar arrangement
a. Required Social Distancing: In addition to the capacity restrictions specified below,
all participants in indoor and outdoor gatherings, including gatherings at private
residences, must maintain at least 6 feet of physical distance from every other
3

211a

participant in the gathering, except where participants are members of the same
household. A gathering shall violate this provision where, no matter the number of
participants present, conditions or activities at the gathering are such that it is not
reasonably possible for all participants to maintain this degree of separation.
b. Gatherings at Private Residences:
1. Indoor gatherings at private residences and in any other place not falling
within the definition of an event venue or public setting are limited to a
maximum of 10 people.
2. Outdoor gatherings at private residences and in any other place not falling
within the definition of an event venue or public setting are limited to a
maximum of 25 people.

c. Gatherings at Event Venues and in Public Settings:
1. Indoor gatherings at event venues or in public settings are limited to a
maximum of 25 people.
2. Outdoor gatherings at event venues or in public settings are limited to a
maximum of 50 persons in a single venue or space.
d. Notification to Local Boards of Health: For outdoor gatherings where more than 25
attendees are anticipated, the operator of the event venue shall provide notice to the
Local Board of Health in the municipality where the gathering is located at least 1
week before the event is scheduled, or otherwise as soon as possible where 1 week
notice is not practicable due to the nature of the event (e.g., memorial services). For
events held in public places like parks where more than 25 attendees are anticipated,
the event organizer shall be responsible for providing this notice. The notification
shall include, at minimum, the location and time of the planned event, the name and
contact information of the event organizer, the number of anticipated attendees, and
any other information reasonably requested by the Local Board of Health.

4. Time Limitation: All gatherings, no matter the size or location, must end and paiiicipants
must disperse by 9:30 pm, with the exceptions of religious gatherings and political
gatherings. Section 4 of Order #57 rescinded by Order #62 effective January 25, 2021
5. Face Coverings: Consistent with the Revised Order Requiring Face Coverings in Public
Places (COVID-19 Order No . 55), all persons over the age of 5 must wear masks or cloth
face coverings over their mouth and nose when in a public location, including at gatherings
in public, except as provided in Section 2 of COVID-19 Order No. 55 .

4

212a

Masks or face coverings are encouraged at all indoor and outdoor gatherings at private
homes, but are only required when such gatherings include more than 10 people and where
attendees include non-household members .

6. Contact Tracing: If a host or event venue is notified that an event attendee or event worker
has tested positive for COVID-19, the event host or event venue must immediately notify the
Local Board of Health in the city or town where the event took place. Hosts and event
venues must assist the Department of Public Health and Local Boards of Health with contact
tracing and case investigations, including, upon request, providing lists of attendees at social
gatherings and their contact information. Event hosts and venues who fail to timely report
positive cases or cooperate with contact tracing and case investigations may be subject to the
penalties listed in Section 8.
7. Legal Exceptions: This Order shall not apply to any of the following businesses,
organizations, workplaces, or facilities :
a. Any municipal legislative body, the General Court, or the Judiciary
b. Federal governmental entities
c. Any health care facility or licensed health care provider
d. Any of the following workplaces or facilities with specialized functions and
populations:
• Polling places
• Public and private elementary and secondary (K-12) schools
• Residential and day schools for special needs students
• Licensed, approved, or exempt child care programs and emergency
residential programs operating under emergency authorization
• Facilities operated by the Department of Correction or any Sheriff
• Facilities operated, contracted, or licensed by the Department of Youth
Services, Department of Mental Health, Depaiiment of Public Health, or
the Depaiiment of Developmental Services
• Facilities and programs that provide safe spaces for the unstably housed
such as homeless and domestic violence shelters
• Any other facility or workplace that the Commissioner of Public Health
may exempt in writing from the terms of this Order
8. Enforcement: The Department of Public Health, Local Boards of Health and their
authorized agents pursuant to G.L. c. 111 , § 30, and State and municipal police are
authorized to enforce this Order. Violation of the terms of this Order may result in a civil
fine ofup to $500 per violation as provided in St. 1950, c. 639, § 8, to be assessed on any
person, organization, or business responsible for organizing, hosting, or allowing a gathering
conducted in violation of the Order, or, in the alternative, against the owner, lessee, or other
5

213a

person who has legal control of the property where the gathering occurs. Each person over
the permissible gathering limitation in Section 3 and each individual instance of noncompliance with the requirements of this Order may be treated as a separate violation. Any
fine shall be administered in the manner provided for the non-criminal disposition of
violations of municipal by-law, ordinance, rule, or regulation pursuant to G . L. c. 40, § 21D.
This Order may also be enforced by injunction. A motion for an injunction to enforce this
Order may be filed in the district court or any other court of competent jurisdiction for the
municipality in which the violation has been charged.
The Alcoholic Beverages Control Commission or a local licensing authority may, after notice
to the licensee and a reasonable opp01iunity to be heard, suspend, revoke, or cancel a license
for the sale or service of alcoholic beverages or take other appropriate enforcement action
upon satisfactory proof that the licensee has violated or permitted a violation of this Order.

9. Effective Date: This Order shall be effective 12:01 am on December 13 , 2020 and shall
remain in effect until rescinded or until the state of emergency is ended, whichever occurs
first.
The Revised Order Further Regulating Gatherings in the Commonwealth (COVID-19
Order No . 54) is hereby rescinded effective 12:01 am on December 13 , 2020.
If any provision of this Order or the application thereof to any person, entity, or
circumstance is determined to be invalid by a court of competent jurisdiction, such dete1mination
shall not affect or impair the validity of the other provisions of this Order or its application to
other persons, entities, and circumstances.

Given in Boston at /)_ ,' (.J~

~

is 8th

day of December, two thousand and twenty

(/4.b:O~
CHARLES D. BAIZER
GOVERNOR
Commonwealth of Massachusetts

6

214a

OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER RETURNING ALL MUNICIPALITIES TO
PHASE III, STEP 1 COVID-19 SAFETY RULES
COVID-19 Order No. 58
Superseding and Rescinding Order No. 56

WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11 , 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control and Prevention ("CDC") have
advised that COVID-19 is spread mainly by person-to-person contact and that the best means of
slowing the spread of the virus is through practicing social distancing and by minimizing
personal contact with large groups and with environments where this potentially deadly virus
may be transmitted including, in particular, spaces that present enhanced risks because of the
large number of persons present or passing through the area who may spread the virus through
respiratory activity or surface contacts;
WHEREAS, on March 23 , 2020, in order to restrict all non-essential person-to-person
contact and movement outside the home and reduce opportunities for spreading the COVID-19
virus within the Commonwealth, I issued COVID-19 Order No. 13, which temporarily closed the
brick-and-mortar premises of businesses and organizations that do not provide COVID-19
Essential Services;

1
(!)

PRINTED ON RECYCLED PAPER

215a

WHEREAS, in response to gradual improvements in the public health data, on May 18,
2020, June 6, 2020, and July 2, 2020, I issued COVID-19 Orders No. 33 , 37, and 43 ,
respectively, which designated certain businesses and other organizations as Phase I, II, III, or IV
enterprises and initiated a progressive, phased plan for re-opening workplaces and other facilities
across the Commonwealth;
WHEREAS, on September 29 and November 6, 2020, I issued COVID-19 Order Nos.
51 and 56 which authorized the reopening of Phase III, Step 2 enterprises and the application of
relaxed capacity rules and other allowances in municipalities determined to be "Lower-Risk
Communities" based on a reduced incidence of COVID-19 infection;
WHEREAS, the CDC, the Department of Public Health, and other public health
authorities continue to improve their understanding of how COVID-19 is spread, where the risk
of spread is greatest, and how best to mitigate the risk of transmission, which permits periodic
adjustments to safety measures addressing commercial, recreational, and social activities;
WHEREAS, as of December 7, 2020, the Department of Public Health has repmied
250,022 confirmed cases of COVID-19 and the average daily rate of COVID-19 incidence per
100,000 is 35 .7;
WHEREAS, the Commonwealth has seen a significant increase in its 7-day average of
new daily confirmed cases of COVID-19: as of December 6, 2020, the daily average was 3,509
compared to 1,837 on November 8;
WHEREAS, the Commonwealth has likewise seen a significant increase in its 7-day
weighted average of positive molecular test rate: as of December 6, 2020, the rate was 5.5%
compared to 2.7% on November 8;
WHEREAS, between Thanksgiving and December 6, hospitalizations for COVID-19 in
the Commonwealth increased 54% from 986 to 1,516 admissions;
WHEREAS, as of December 7, 2020, the Executive Office of Health and Human
Services has moved all regions in Massachusetts to the Tier 3 designation of the Resurgence
Planning and Response Framework due to decreasing hospital capacity and increasing
community transmission of COVID-19;
WHEREAS, left unchecked, current COVID-19 case growth poses a risk to the
Commonwealth's healthcare system, and intervention is wan-anted to moderate case growth and
preserve hospital capacity; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting the state of emergency, including
but not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, regulating the sale of articles of food and
2

216a

household articles, variance of the terms and conditions of licenses and permits issued by the
Commonwealth or any of its agencies or political subdivisions, and policing, protection, and
preservation of public and private property;
NOW, THEREFORE, I hereby Order the following:
1.

Statewide Return to Phase III, Step 1 COVID-19 Safety Rules

Effective at 12:01 am on December 13 , COVID-19 Order No. 56, is rescinded, and all
enterprises authorized to open their brick-and-mortar premises to workers, customers, and the
public under the Commonwealth's phased Re-Opening Plan must comply with rules applicable
to Step 1 of Phase III of the Re-Opening Plan.
Accordingly, effective at 12:01 am on December 13, 2020, in every municipality in the
Commonwealth:
a. Businesses and other organizations identified as Phase III, Step 2 enterprises in
Schedule A attached hereto must close their brick-and-mortar premises to
workers, customers, and the public;
b. Phase I and II enterprises, and Phase III, Step 1 enterprises, all as identified in
Schedule A, may only operate pursuant to Step 1 Sector-Specific COVID-19
workplace safety rules issued pursuant to Section 2 of this Order. Earlier-issued
Sector-Specific rules applicable to Step 2 of Phase III, which permitted
enterprises located in "Lower-Risk Communities" to operate with increased
capacity allowances and other adjustments, are hereby withdrawn; and
c. Reduced capacity allowances for gatherings shall apply tmifonnly in every
municipality as provided in COVID-19 Order No. 57, or as provided in any later
Order further adjusting capacity allowances for gatherings.
2.

Step 1 Adjustments to COVID-19 Workplace Safety Rules

The Director of the Department of Labor Standards and the Secretary of the Executive
Office for Energy and Environmental Affairs shall issue, subject to my approval, revised SectorSpecific COVID-19 workplace safety rules for Phase I and II enterprises, and Phase III, Step 1
enterprises as necessary to respond to the increased prevalence of COVID-19 infections that has
required the return to Step 1 rules across the Commonwealth.
The provisions of Sections 4 and 5 ofCOVID-19 Order No. 43 (and Section4 of
COVID-19 Order No. 37 as incorporated in COVID-19 Order No. 43), which set requirements
for compliance with generally applicable and Sector-Specific COVID-19 safety rules and
mechanisms for enforcement shall continue to apply to all Phase I, II, III enterprises authorized
to open their brick-and-mortar premises.
Accordingly, any violation of the terms of this Order or any directives, regulations, or
guidance issued pursuant to or to enforce this Order may result in a civil fine as provided in
3

217a

Section 4 of COVID-19 Order No. 37, provided, however, that as provided in St. 1950, c. 639, §
8, a fine ofup to $500 per violation may apply. Each individual instance of non-compliance and
each day of continuing non-compliance may be fined as a separate violation. Any penalties
issued in an enforcement action shall be administered as provided in COVID-19 Order No. 48.
This Order is effective at 12:01 am on December 13, 2020 and shall remain in effect until
rescinded or until the state of emergency is ended, whichever occurs first.

./

//d 1)

Given in Boston at
AM/~
his 8th
day of December, two thousand and twenty

Qb7)~<
CHARLES D. BAIZER
GOVERNOR
Commonwealth of Massachusetts

4

218a

Schedule A
to COVID-19 Order No. 58 effective December 13, 2020

Phase I

All Phase I, II, III, and IV enterprises are required to comply with general and, where
applicable, sector-specific COVID-19 workplace safety rules administered by DLS, DPH, EEA,
and local boards of health. Workplace safety rules include a variety of mandatory contextspecific COVID-19 safety measures such as occupancy limitations, operational modifications,
social distancing rules, and specialized cleaning requirements.
As specified in COVID-19 Order No. 33:

•
•
•
•
•
•
•

•
•
•
•
•

Phase II

Businesses and other organizations providing products and services identified as
"COVID-19 Essential Services" in COVID-19 Order No. 13
Manufacturing
Construction
Places of Worship
Fireanns retailers and shooting ranges
General Use Offices
Car Washes
Hair Salons and Barber Shops
Pet Groomers
Drive-In Movie Theaters
Laboratories
Certain Outdoor Recreational Facilities and Activities as specified in Exhibit 1 to
COVID-19 Order No. 33

As specified in COVID-19 Order No. 37 and including specifically:

•

•

•
•

•
•

•

•
•
•
•
•
•

•

Retail Stores including stores in enclosed shopping malls
Restaurants providing seated food service prepared on-site and under retail food
permits issued by municipal authorities pursuant to 105 CMR 590.000, including beer
gardens/wineries/distilleries meeting these criteria
0
Step 1: outdoor table service
Step 2: indoor table service
0
Hotels, motels, inns, and other short-term lodgings (no events, functions, or meetings)
Limited organized youth and adult amateur sports activities and programs- no contact
and no games or scrimmages, and indoor facilities limited to youth programs
Professional sports practice and training programs--no inter-team games and no
admission for the public
Personal Services provided at a fixed place of business or at a client location
0
Step 1: Services involving no close personal contact (photography, window
washers, individual tutoring, home cleaning, etc.)
0
Step 2: Services involving close personal contact (massage, nail salons,
personal training for individuals or no more than 2 persons from same
household, etc.)
Non-athletic instructional classes in arts/education/life skills for youths under 18 years
of age in groups of fewer than 10
Driving schools and flight schools
Outdoor historical spaces- no functions or gatherings and no guided tours
Funeral homes- increased capacity to permit 40% occupancy for one service at a time
within the facility
Warehouses and distribution centers
Golf facilities including outdoor driving ranges
Other outdoor recreational facilities
0
pools, playgrounds and spray decks
0
mini golf, go karts, batting cages, climbing walls, ropes comses
Post-Secondary/Higher Ed/Vocational-Tech/Trade/Occupational Schools

5

219a

for the limited purposes of permitting students to complete a degree, program,
or prerequisite for employment, or other similar requirement for completion,
for summer youth programming including athletic facilities, and any
necessary supporting services
Day Camps including sports and arts camps
Public libraries
0

•
•
Phase III

Step 1

•
•
•
•

•

•
•
•
•

•
•

•
•
•
•

•
•
•

Post-Secondary/Higher Ed/Vocational-Tech/Trade/Occupational Schools- general
operations
Casino gaming floors
Horse racing tracks and simulcast facilities
Indoor recreational and athletic facilities for general use (not limited to youth
programs)
Fitness centers and health clubs including
cardio/weight rooms/locker rooms/inside facilities
0
fitness studios (yoga, batTe, cross-fit, spin classes, general fitness studios)
0
0
indoor common areas
indoor swimming pools
0
0
indoor racquet courts and gymnasiums
0
locker rooms
excluding saunas, hot-tubs, steam rooms
0
Museums
Indoor historic spaces/sites
Aquariums
Outdoor theatres and other outdoor performance venues not designated as Phase IV
enterprises
Movie theatres
Sightseeing and other organized tours (bus tours, duck tours, harbor cruises, whale
watching)
Motion picture, television, and video streaming production
Fishing and hunting tournaments and other amateur or professional derbies
Outdoor event spaces used for gatherings and celebrations including those in parks,
reservations, and other outdoor spaces not designated as Phase IV enterprises
Indoor event spaces such as meeting rooms, ballrooms, and private party rooms--only
when used for functions or events permitted under Sector-Specific Rules for Indoor
and Outdoor Events
Indoor non-athletic instructional classes in mis/education/life skills for persons 18
years or older
Indoor recreational activities with low potential for contact: batting cages, driving
ranges, go karts, bowling alleys, rock-climbing walls
Indoor and outdoor gaming arcades and associated gaming devices

Step 2

•

•
Phase IV

•
•
•

Indoor performance venues used for live performances such as concert halls, theaters,
and other indoor performance spaces not designated as Phase IV enterprises
Indoor recreational activities with greater potential for contact: laser tag, roller skating,
trampolines, obstacle courses
Amusement parks, theme parks, indoor or outdoor water parks and indoor or outdoor
ball pits
Saunas, hot-tubs, steam rooms at fitness centers, health clubs, and other facilities
Bars, dance clubs, and nightclubs- venues offering entertainment, beverages, or
dancing and not providing seated food service prepared on-site and under retail food
permits issued bv municipal authorities pursuant to 105 CMR 590 .000

6

220a

•

•

•
•
•

Beer gardens/breweries/wineries/distilleries not providing seated food service prepared
on-site and under retail food permits issued by municipal authorities pursuant to 105
CMR590.000
Large capacity venues used for group or spectator sp01is, ente1iainment, business, and
cultural events including
o Stadiums, arenas, and ballparks
o Dance floors
o Exhibition and convention halls
Street festivals and parades and agricultural festivals
Road races and other large, outdoor organized amateur or professional group athletic
events
Overnight camps (Summer 2021)

This listing is subject to amendment.

7

221a
OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER TEMPORARILY APPLYING FURTHER CAPACITY
RESTRICTIONS TO STATEWIDE COVID-19 SAFETY RULES
COVID-19 Order No. 59
Revising Restrictions Otherwise Applicable Pursuant to Orders No. 57 and 58
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control and Prevention ("CDC") have
advised that COVID-19 is spread mainly by person-to-person contact and that the best means of
slowing the spread of the virus is through practicing social distancing and by minimizing
personal contact with large groups and with environments where this potentially deadly virus
may be transmitted including, in particular, spaces that present enhanced risks because of the
large number of persons present or passing through the area who may spread the virus through
respiratory activity or surface contacts;
WHEREAS, on March 23, 2020, in order to restrict all non-essential person-to-person
contact and movement outside the home and reduce opportunities for spreading the COVID-19
virus within the Commonwealth, I issued COVID-19 Order No. 13, which temporarily closed the
brick-and-mortar premises of businesses and organizations that do not provide COVID-19
Essential Services;

1
@ Prutmm ON Recvcum PAPER

222a

WHEREAS, in response to gradual improvements in the public health data, on May 18,
2020, June 6, 2020, and July 2, 2020, I issued COVID-19 Orders No. 33, 37, and 43,
respectively, which designated certain businesses and other organizations as Phase I, II, III, or IV
enterprises and initiated a progressive, phased plan for re-opening workplaces and other facilities
across the Commonwealth;
WHEREAS, the CDC, the Department of Public Health, and other public health
authorities continue to improve their understanding of how COVID-19 is spread, where the risk
of spread is greatest, and how best to mitigate the risk of transmission, which permits periodic
adjustments to safety measures addressing commercial, recreational, and social activities;
WHEREAS, on December 8, 2020, in response to sustained increases across the
Commonwealth over the prior 30 days in the number of new daily confirmed cases of COVID19 and in positive testing rates and a corresponding rise in hospitalizations following the
Thanksgiving holiday, I issued COVID-19 Order Nos. 57 and 58, which together reduced
capacity allowances for gatherings generally, required the adjustment of certain COVID-19
workplace safety rules issued under prior Orders, and closed certain higher-risk enterprises
across the Commonwealth;
WHEREAS, as of December 22, 2020, the Department of Public Health has reported
314,850 confirmed cases of COVID-19 and the average daily rate of COVID-19 incidence per
100,000 has risen to 65.1;
WHEREAS, the Commonwealth has seen a significant increase in its 7-day average of
new daily confirmed cases of COVID-19: as of December 17, 2020, the daily average was 4,053
as compared to 1,837 on November 8;
WHEREAS, the Commonwealth has likewise seen a significant increase in its 7-day
weighted average of positive molecular test rate: as of December 17, 2020, the rate was 6.1 % as
compared to 2.7% on November 8;
WHEREAS, between Thanksgiving and December 21, hospitalizations for COVID-19 in
the Commonwealth more than doubled from 986 to 1,991 admissions;
WHEREAS, as of December 7, 2020, the Executive Office of Health and Human
Services has moved all regions in Massachusetts to the Tier 3 designation of the Resurgence
Planning and Response Framework due to decreasing hospital capacity and increasing
community transmission of COVID-19;
WHEREAS, this pattern of continuing COVID-19 case growth in the Commonwealth, if
left unchecked, poses an increasing risk to the Commonwealth's healthcare system, and
enhanced intervention to suppress the continuing transmission of the virus is therefore necessary
to moderate case growth and preserve hospital capacity; and

2

223a

WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting the state of emergency, including
but not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, regulating the sale of articles of food and
household articles, variance of the terms and conditions of licenses and permits issued by the
Commonwealth or any of its agencies or political subdivisions, and policing, protection, and
preservation of public and private property;
NOW, THEREFORE, I hereby Order the following:
Temporary Statewide Reduction of Capacity Limitations and Associated Rules
Effective at 12:01 am on December 26, 2020 and continuing for the period in which this
Order remains in effect, the State-wide capacity limitations for gatherings and events set in
COVID-19 Order No. 57 and any capacity limitations set in Sector-Specific COVID-19
workplace safety rules issued under the authority of COVID-19 Order No. 58 or prior Orders are
hereby superseded and revised as specified for the sectors listed on the table below.
The Department of Labor Standards, the Executive Office of Energy and Environmental
Affairs, and any other agency or commission authorized by prior Order to issue COVID-19
workplace safety rules (each a "regulating agency") are hereby directed to provide notice to the
public and to enterprises subject to the revised capacity limitations applicable during the period
in which this Order remains in effect.

Sector
Gatherings (adjusting Order No. 57)

Restaurants

Revised Capacity
Limitst
10 persons indoors
25 persons outdoors
25% of seating capacity

Close Contact Personal Services
Indoor and Outdoor Events
Theaters and Performance Venues
(Indoor perfonnance venues remain closed)

Casinos

25%
10 persons indoors
25 persons outdoors
Movie theaters - 25%
and maximum 50 people
Outdoor perfonnance
venues - 25% and
maximum 25 people
25%

Office Spaces

25%

Places of Worship

25%

3

Notes
applies to both private
homes and event venues and
oublic soaces
(a) workers/staff excluded
from occupancy count;
(b) applies separately to
indoor and outdoor capacity
workers/staff excluded from
occuoancv count
workers/staff excluded from
occupancv count

MGC to re-issue capacity
rules as necessarv
workers/staff excluded from
occupancy count

224a

Retail Businesses

25%

Driving and Flight Schools

25%

Golf Facilities

25%

Libraries

25%

Operators of Lodgings

25%

Arcades & Other Indoor & Outdoor
Recreation Businesses
Fitness Centers and Health Clubs

25%

workers/staff excluded from
occupancy count
applies only to indoor
spaces
applies only to common
areas

25%
25%

Museums / Cultural & Historical Facilities /
Guided Tours by vehicles and vessels
Sectors Not Otherwise Addressed

25%
25%

applies only to indoor
spaces and excludes youth
and amateur sports facilities
tGeneral Provision: Where no licensed or permitted capacity allowance is on record and for any
enclosed space within a larger facility, occupancy shall be limited to no more than 5 persons per 1,000
square feet.
Common Areas in facilities subject to EEAissued COVID-19 safety rules

Except as otherwise noted, the above references to percentage capacity limits shall apply
to a facility's maximum permitted occupancy as documented in its occupancy permit or similar
license or permit on record with the municipal building department or other municipal record
holder.
Adjustments to the above table will be published where necessary to facilitate practical
application of the required capacity limitations.
Except for the specified adjustments to capacity limitations, all other terms of COVID-19
Order No. 57 addressing gatherings generally (including exceptions) and all Sector-Specific
COVID-19 workplace safety rules issued by a regulating agency and in effect as of December
26, 2020 shall continue to apply, including minimum spacing and social distancing requirements.
Allowances to exceed maximum capacity limitations shall be available as cun-ently provided in
COVID-19 workplace safety rules in.order to accommodate public health or public safety
considerations or where strict compliance may interfere with the continued delivery of critical
services.
The capacity limitations specified in this Order shall be enforceable under the terms of
COVID-19 Order No. 57 when applied to gatherings subject to that Order and under the terms of
Section 2 of COVID-19 Order No. 58 when applied to enterprises regulated pursuant to COVID19 safety rules issued by a regulating agency. Each person over the specified capacity limitation
and each individual instance of non-compliance with the requirements of this Order or any
directives, rules, or binding guidance issued pursuant to this Order may be treated as a separate
violation.

4

225a

This Order is effective at 12:01 am on December 26, 2020 and shall remain in effect until
12:00 noon on January 10, 2021 unless further extended.

Given in Boston at~~~:::::_ A ~this
22nd day of December, two thousand and
twenty

CHARLES D. BAIZER
GOVERNOR
Commonwealth of Massachusetts

5

226a

OFFICE OF THE GOVERNOR

COMMONWEALTH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER EXTENDING APPLICATION OF ADDITIONAL CAPACITY
RESTRICTIONS TO STATEWIDE COVID-19 SAFETY RULES
COVID-19 Order No. 60
Extending the Operation of Order No. 59
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control and Prevention ("CDC") have
advised that COVID-19 is spread mainly by person-to-person contact and that the best means of
slowing the spread of the virus is through practicing social distancing and by minimizing
personal contact with large groups and with environments where this potentially deadly virus
may be transmitted including, in particular, spaces that present enhanced risks because of the
large number of persons present or passing through the area who may spread the virus through
respiratory activity or surface contacts;
WHEREAS, since declaring the state of emergency, I have issued a series of Orders that
have required the temporary closing of certain businesses and other facilities and that have
otherwise instituted certain capacity limitations, all in order to reduce opportunities for spreading
the COVID-19 virus within the Commonwealth;
WHEREAS, on December 8, 2020, in response to sustained increases across the
Commonwealth in the number of new daily confirmed cases of COVID-19 and a corresponding
rise in hospitalizations, I issued COVID-19 Order Nos. 57 and 58, which together and for the
reasons recited in those Orders, reduced then applicable capacity limitations for gatherings,

1

®

PRINTED ON RECYCI..ED PAPER

227a

required the adjustment of certain COVID-19 workplace safety rules issued under prior Orders,
including capacity limitations, and closed certain higher-risk enterprises across the
Commonwealth;
WHEREAS, on December 22, 2020, in response to a troubling pattern of continuing
COVID-19 case growth in the Commonwealth and the resulting concern that, unless suppressed,
case growth could put unmanageable pressure on the Commonwealth's healthcare system, I
issued COVID-19 Order No. 59, which imposed additional across the board capacity restrictions
for gatherings, events, and a range of other business sectors and other enterprises;
WHEREAS, the positive test rate for COVID-19 outside of higher education has nearly
doubled from 4.8 percent in the days before Thanksgiving to 9.4 percent today;
WHEREAS, the Commonwealth saw a single day record of over 8,300 cases of COVID19 diagnosed on December 28, nearly 2,000 more than any prior day;
WHEREAS, as a result of these increases, the Commonwealth has experienced
continuing declines in available hospital capacity, including more than a 50 percent reduction
since Thanksgiving, and now faces significant constraint on acute care hospital capacity across
the Commonwealth;
WHEREAS, under the Department of Public Health's Resurgence Planning and
Response guidance, the statewide hospital system designation is currently at Tier 4, the highest
level of concern, and the 7-day average acute care bed availability is at 17 percent statewide,
indicating ongoing capacity constraints that warrant immediate intervention;
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting the state of emergency, including
but not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, regulating the sale of articles of food and
household articles, variance of the terms and conditions of licenses and permits issued by the
Commonwealth or any of its agencies or political subdivisions, and policing, protection, and
preservation of public and private property;
NOW, THEREFORE, I hereby Order the following:
The provisions of COVID-19 Order No. 59 are hereby extended and shall remain in
effect until 12:00 noon on January 24, 2021 unless further extended by subsequent Order.
This Order is effective immediately.

2

228a

Given in Boston at II: 'I. [ ~PM this 7th
day of January, two thousand and twentyone

CHARLES D. BAICER
GOVERNOR
Commonwealth of Massachusetts

3

229a

OFFICE OF THE GOVERNOR

COMMONWEAL TH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER FURTHER EXTENDING APPLICATION OF ADDITIONAL CAPACITY
RESTRICTIONS TO STATEWIDE COVID-19 SAFETY RULES
AND RESCINDING EARLY CLOSING REQUIREMENTS
COVID-19 Order No. 62
Further Extending the Operation of Order No. 59
Rescinding Early Closing Requirements of Order Nos. 53 and 57
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control and Prevention ("CDC") have
advised that COVID-19 is spread mainly by person-to-person contact and that the best means of
slowing the spread of the virus is through practicing social distancing and by minimizing
personal contact with large groups and with environments where this potentially deadly virus
may be transmitted including, in particular, spaces that present enhanced risks because of the
large number of persons present or passing through the area who may spread the virus through
respiratory activity or surface contacts;
WHEREAS, since declaring the state of emergency, I have issued a series of Orders that
have required the temporary closing of certain businesses and other facilities and that have
otherwise instituted certain capacity limitations and safety protocols, all in order to reduce
opportunities for spreading the COVID-19 virus within the Commonwealth;
WHEREAS, in response to a pattern of continuing COVID-19 case growth in the
Commonwealth and the resulting, developing pressure placed on hospital capacity, on November

1
@

PRlNTED ON RECYClED PAPER

230a

2, 2020, I issued COVID-19 Order No. 53 to require the early closing of certain businesses and
activities, and on December 22, 2020, I issued COVID-19 Order No. 59, which imposed
reduced, across the board capacity restrictions for gatherings, events, and a range of other
business sectors and other enterprises;
WHEREAS, recent trends in public health data for the Commonwealth show modest
positive trends in certain key indicators, including a decline in the statewide 7-day average
positive test rate for COVID-19 from 7.11 percent as of January 13 to 5.86 percent as of January
20, 2021, and stabilization in the acute care hospital occupancy rate over the same period, while
at the same time, under the Department of Public Health's Resurgence Planning and Response
guidance, the statewide hospital system's designation remains at Tier 4, the highest level of
concern, which indicates significant ongoing capacity constraints;
WHEREAS, the recent stabilizing trends in public health data permit a limited
adjustment of certain narrowly targeted restrictions on businesses and other organizations, while
continuing pressure on hospital capacity warrants the extension of other, protective measures
with broader applicability and effect; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting the state of emergency, including
but not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, regulating the sale of articles of food and
household articles, variance of the terms and conditions of licenses and permits issued by the
Commonwealth or any of its agencies or political subdivisions, and policing, protection, and
preservation of public and private property;
NOW, THEREFORE, I hereby Order the following:

1. Extension of Statewide Reduction of Capacity Limitations and Associated Rules
The provisions of COVID-19 Order No. 59, which imposed reduced, across the board
capacity restrictions for gatherings, events, and a range of other business sectors and other
enterprises, are hereby further extended and shall remain in effect until 5:00 AM on February 8,
2021 unless further extended by subsequent Order.
COVID-19 Order No. 60, which previously extended the operation of COVID-19 Order
No. 59, is hereby rescinded immediately.
2. Repeal of Mandatory Night-Time Closing Period for Certain Businesses and
Activities
Effective at 5:00 AM on January 25, 2021, Sections 1 and 2 ofCOVID-19 Order No. 53
are rescinded and the nightly mandatory closing period imposed by Order No. 53 on certain

2

231a

businesses, facilities, and activities shall no longer be in effect. More specifically, upon the
rescinding of those foregoing Sections:
a. the nightly 9:30 PM to 5:00 AM mandatory closing period established for
businesses, facilities, or activities included within the categories listed in Section
1 of Order No. 53 shall no longer in be effect;
b. the prohibition on any sale, service, or provision of alcohol during the nightly
9:30 PM to 5:00 AM mandatory closing period, as imposed by Section 2 of Order
No. 53, shall no longer be in effect; and
c. the prohibition on the retail sale of adult-use cannabis and cannabis products
during the nightly 9:30 PM to 5:00 AM mandatory closing period, as imposed by
Section 2 of Order No. 53, shall no longer be in effect.
Section 3 of COVID-19 Order No. 53, which provides special accommodations during
the state of emergency for the renewal of licenses issued pursuant to Section 12 of Chapter 13 8,
shall remain unchanged and in effect.
3. Rescinding of Time Limitation on Gatherings
Effective at 5:00 AM on January 25, 2021, Section 4 of COVID-19 Order No. 57 is
rescinded and the requirement that gatherings subject to the provisions of that Section must end
by 9:30 PM shall no longer be in effect. All gatherings and events in the Commonwealth shall
remain subject to the capacity limitations adopted in COVID-19 Order No. 59, as extended
pursuant to Section 1 of this Order.
Section 1 of this Order is effective immediately, and COVID-19 Order No. 60 is
rescinded effective immediately. Sections 2 and 3 of this Order are effective at 5:00 AM on
January 25, 2021.
Given in Boston at tfll~M~this 21st
day of January, two thousand and twentyone

CHARLES D. BAIZER
GOVERNOR
Commonwealth of Massachusetts

3

232a

OFFICE OF THE GOVERNOR

COMMONWEAL TH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE • BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

FURTHER REVISED ORDER REGULATING
GATHERINGS IN THE COMMONWEALTH
COVID-19 Order No. 63
Superseding and Rescinding Order No. 57
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control ("CDC") have determined that
COVID-19 is spread mainly by person-to-person contact and that the best means of slowing the
spread of the virus is through practicing social distancing and by minimizing personal contact
with large groups and environments where the virus may be transmitted;
WHEREAS, the CDC has issued guidance strongly discouraging large gatherings and
community events and explaining that such gatherings are among the primary means of
spreading COVID-19 and introducing the virus to new communities;
WHEREAS, that CDC guidance states that, while virtual-only activities are the safest,
the risks associated with in-person events can be reduced if they are held outdoors, remain small,
and participants maintain 6 feet of distance and wear face coverings;

1

*

PRINTED ON RECYCLED PAPER

233a

WHEREAS, since March 13, 2020, I have issued a series of executive orders setting
limitations on the numbers of persons who may congregate at in-person gatherings and events in
the Commonwealth and have adjusted those limitations periodically according to the public
health data available at the time;
WHEREAS, acting pursuant to authority granted by executive order, the Department of
Public Health, the Department of Labor Standards, the Executive Office of Energy and
Environmental Affairs, and the Massachusetts Gaming Commission (each a "Regulating
Agency") have each issued sector-specific COVID-19 safety rules that set capacity limitations
and other standards for the safe operation of enterprises permitted to open their premises to the
public under Phase I, II, or III of the Commonwealth's Re-Opening Plan;
WHEREAS, the CDC, the Department of Public Health, and other public health
authorities continue to improve their understanding of how COVID-19 is spread, where the risk
of spread is greatest, and how best to mitigate the risk of transmission, all of which permit
periodic adjustments to safety measures;
WHEREAS, due to significant increases in confirmed cases and hospitalizations in
November and December, I issued COVID-19 Order No 59, which temporarily reduced capacity
and gathering limitations below the limits applicable under a previously-issued Order;
WHEREAS, the public health data has recently improved, as illustrated by the fact that
the 7-day average of COVID-19 confirmed cases was at 2,913 on January 31, as compared to
6,237 on January 8, and that the 7-day average of hospitalizations for COVID-19 was 1,824 on
January 31 as compared to 2,347 on January 7;
WHEREAS, despite these improvements, the number of patients requiring treatment for
COVID-19 continues to put pressure on hospital capacity, with all regions in Massachusetts
currently at the Tier 3 designation of the Department of Public Health's Resurgence Planning
and Response Framework, indicating ongoing capacity constraints that warrant continuing
protective measures to moderate case growth and preserve hospital capacity; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting a state of emergency, including but
not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, and policing, protection, and preservation of
public and private property;

2

234a

NOW, THEREFORE, I hereby Order the following:
1. Entities Subject to Sector-Specific Rules: With the exception of events and gatherings

subject to the Indoor and Outdoor Events Guidance issued by the Department of Labor
Standards, a Phase I, II, or III enterprise shall not be subject to the limitations in Section 3 of
this Order if the enterprise is operating in compliance with applicable sector-specific
COVID-19 safety rules and any applicable capacity limitations issued by a Regulating
Agency under the authority of an executive order.
All indoor and outdoor events shall be required to comply with both the limitations and
requirements in Section 3 of this Order and the sector-specific safety rules for Indoor and
Outdoor Events, except if the gathering or event is exempt pursuant to Section 2.
2. Gatherings for Political Expression and Religious Activities: Gatherings for religious
activities shall not be subject to the limitations in Section 3; provided, however, that such
gatherings shall follow the COVID-19 safety rules and capacity limitations set forth in the
Places of Worship sector-specific rules issued by the Department of Labor Standards.
Outdoor gatherings for the purpose of political expression shall also not be subject to the
limitations of Section 3. Indoor gatherings for the purposes of political expression shall
follow the indoor capacity limitations of Section 3.
3. Otherwise Applicable Indoor and Outdoor Gathering Limits and Requirements: The
following limitations apply to indoor and outdoor gatherings not exempted by Sections 1 or 2
of this Order, including, without limitation, all social, community, civic, public, and leisure
events, as well as conferences, conventions, fundraisers, and other similar events or
assemblies. These limitations apply to both gatherings held at private residences and
gatherings held at event venues and in public settings.

Members of the same household, when assembled together with no other non-household
members present, do not constitute a gathering and shall not be subject to the capacity
limitations in this Section. Workers and staff present to provide services to participants shall
not count towards the capacity limitations in this Section.

a. Gathering Limits:
1. Indoor gatherings are limited to a maximum of 10 people.
2. Outdoor gatherings are limited to a maximum of 25 people.
These limits may be adjusted from time to time based on developments in the public
health data. Such adjustments may be published as appendices to this Order.

3

235a

b. Required Social Distancing: In addition to the capacity restrictions specified above,
all participants in indoor and outdoor gatherings, including gatherings at private
residences, must maintain at least 6 feet of physical distance from every other
participant in the gathering, except where participants are members of the same
household. A gathering shall violate this provision where, no matter the number of
participants present, conditions or activities at the gathering are such that it is not
reasonably possible for all participants to maintain this degree of separation.
4. Face Coverings: All persons over the age of 5 must wear masks or cloth face coverings over
their mouth and nose when in a public location, as specified in the Revised Order Requiring
Face Coverings in Public Places (COVID-19 Order No. 55). This rule applies to all
gatherings held in places open to the public, including any event venue, club, park or other
venue or space, public or private, that is used for gatherings except as provided in Section 2
of COVID-19 Order No. 55.
Masks or face coverings are encouraged at all indoor and outdoor gatherings at private
homes, but are only required when such gatherings include more than 10 people and where
attendees include non-household members.

5. Contact Tracing: If a host or event venue is notified that an event attendee or event worker
has tested positive for COVID-19, the event host or event venue must immediately notify the
Local Board of Health in the city or town where the event took place. Hosts and event
venues must assist the Department of Public Health and Local Boards of Health with contact
tracing and case investigations, including, upon request, providing lists of attendees at social
gatherings and their contact information. Event hosts and venues who fail to timely report
positive cases or cooperate with contact tracing and case investigations may be subject to the
penalties listed in Section 7.
6. Legal Exceptions: This Order shall not apply to any of the following businesses,
organizations, workplaces, or facilities:
a. Any municipal legislative body, the General Court, or the Judiciary
b. Federal governmental entities
c. Any health care facility or licensed health care provider
d. Any of the following workplaces or facilities with specialized functions and
populations:
• Polling places
• Public and private elementary and secondary (K-12) schools
• Residential and day schools for special needs students
• Licensed, approved, or exempt child care programs and emergency
residential programs operating under emergency authorization
4

236a

•
•

Facilities operated by the Department of Correction or any Sheriff
Facilities operated, contracted, or licensed by the Department of Youth
Services, Department of Mental Health, Department of Public Health, or
the Department of Developmental Services

•

Facilities and programs that provide safe spaces for the unstably housed
such as homeless and domestic violence shelters
Any other facility or workplace that the Commissioner of Public Health
may exempt in writing from the terms of this Order

•

7. Enforcement: The Department of Public Health, Local Boards of Health and their
authorized agents pursuant to G.L. c. 111, § 30, and State and municipal police are
authorized to enforce this Order. Violation of the terms of this Order may result in a civil
fine of up to $500 per violation as provided in St. 1950, c. 639, § 8, to be assessed on any
person, organization, or business responsible for organizing, hosting, or allowing a gathering
conducted in violation of the Order, or, in the alternative, against the owner, lessee, or other
person who has legal control of the property where the gathering occurs. Each person over
the permissible gathering limitation in Section 3 and each individual instance of noncompliance with the requirements of this Order may be treated as a separate violation. Any
fine shall be administered in the manner provided for the non-criminal disposition of
violations of municipal by-law, ordinance, rule, or regulation pursuant to G. L. c. 40, § 21D.
This Order may also be enforced by injunction. A motion for an injunction to enforce this
Order may be filed in the district court or any other comi of competent jurisdiction for the
municipality in which the violation has been charged.
The Alcoholic Beverages Control Commission or a local licensing authority may, after notice
to the licensee and a reasonable opportunity to be heard, suspend, revoke, or cancel a license
for the sale or service of alcoholic beverages or take other appropriate enforcement action
upon satisfactory proof that the licensee has violated or permitted a violation of this Order.

8. Effective Date: This Order shall be effective at 5:01 am on February 8, 2021 and shall
remain in effect until rescinded or until the state of emergency is ended, whichever occurs
first.
The Further Revised Order Regulating Gatherings in the Commonwealth (COVID-19
Order No. 57) is hereby rescinded effective 5:01 am on February 8, 2021.
If any provision of this Order or the application thereof to any person, entity, or
circumstance is determined to be invalid by a court of competent jurisdiction, such determination
shall not affect or impair the validity of the other provisions of this Order or its application to
other persons, entities, and circumstances.
5

237a

AM<6)

Given in Boston at ___
this 4th
day of February, two thousand and twentyone

CHARLES D. BAICER
GOVERNOR
Commonwealth of Massachusetts

6

238a
OFFICE OF THE GOVERNOR

COMMONWEAL TH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE • BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER ADVANCING ALL COMMUNITIES TO
PHASE III, STEP 2 OF THE COMMONWEALTH'S REOPENING PLAN

COVID-19 Order No. 65
Superseding and Rescinding Order No. 58
WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11, 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control and Prevention ("CDC") have
advised that COVID-19 is spread mainly by person-to-person contact and that the best means of
slowing the spread of the virus is through practicing social distancing and by minimizing
personal contact with large groups and with environments where this potentially deadly virus
may be transmitted including, in particular, spaces that present enhanced risks because of the
large number of persons present or passing through the area who may spread the virus through
respiratory activity or surface contacts;
WHEREAS, on March 23, 2020, in order to restrict all non-essential person-to-person
contact and movement outside the home, and reduce opportunities for spreading the COVID-19
virus within the Commonwealth, I issued COVID-19 Order No. 13, which temporarily-closed the
brick-and-mortar premises of businesses and organizations that do not provide COVID-19
Essential Services;

1

*

PRINTED ON RECYCLED PAPER

239a

WHEREAS, in response to gradual improvements in the public health data, on May 18,
2020, June 6, 2020, and July 2, 2020, I issued COVID-19 Orders No. 33, 37, and 43,
respectively, which designated certain businesses and other organizations as Phase I, II, III, or IV
enterprises and initiated a progressive, phased plan for re-opening workplaces and other facilities
across the Commonwealth;
WHEREAS, on December 13, 2020, in response to concerning COVID-19 case growth
and the resulting pressure placed on hospital capacity, I returned the Commonwealth to Phase III,
Step 1 of the re-opening plan;
WHEREAS, there have been sustained impr-ovements in the public health data since the
beginning of January, including a decline in the 7-day average of confirmed COVID-19 cases
from 6,241 on January 8, 2021 to 1,157 on February 23, and a decline in the 7-day average of
hospitalizations from 2,347 on January 7 to 956 hospitalizations on February 23;
WHEREAS, at the same time, vaccinations have become available for certain
populations within the Commonwealth and a total of 1,518,481 vaccination doses have been
administered as of February 24, including 433,593 second doses;
WHEREAS, this improvement in the public health data permits a phased relaxation of
restrictions on businesses and other organizations, provided, however, that such adjustments can
only be maintained or expanded on the basis of continuing positive trends in the public health
data; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Govern-or, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting the state of emergency, including
but not limited to authority over assemblages in order to protect the health and safety of persons,
transportation and travel by any means or mode, regulating the sale of articles of food and
household articles, variance of the terms and conditi-ons of licenses and permits issued by the
Commonwealth or any of its agencies or political subdivisions, and policing, protection, and
preservation of public and private property;
NOW, THEREFORE, I hereby Order the following:
1.

Advancement to Phase III, Step 2

Effective March 1, 2021 in all municipalities in the Commonwealth, businesses and other
organizations that are designated as Phase ill, Step 2 enterprises on the attached Schedule A inay
open their brick-and-mortar premises to workers, customers, and the public.
Phase I, II, and III enterprises, as identified in Schedule A, may operate pursuant to
revised Sector-Specific COVID-19 workplace safety rules that may provide for increased
capacity and other adjustments to safety protocols upon the effective date of Step 2 of Phase III.
2

240a

2.

COVID-19 Workplace Safety Rules for Phase III, Step 2

The Director of the Department of Labor Standards shall issue, subject to my approval (i)
Sector-Specific COVID-19 workplace safety rules for Phase III, Step 2 enterprises permitted to
open their brick-and-mortar premises pursuant to Section 1 of this Order; and (ii) revised SectorSpecific COVID-19 workplace safety rules that may provide for increased-capacity and other
adjustments for Phase I, III, and III enterprises.
The provisions of Sections 4 and 5 ofCOVID-19 Order N-o. 43 {and Section 4 of
COVID-19 Order No. 37 as incorporated in COVID-19 Order No. 43), which set requirements
for compliance with generally applicable and Sector-Specific COVID-19 safety rules and
mechanisms for enforcement for all Phase III enterprises shall apply to Phase Ill, Step 2
enterprises that are authorized to open their premises pursuant to this Order. Any penalty issued
in an enforcement action shall be administered as provided in COVID-19 Order No. 48.
Effective March 1, 2021, COVID-19 Order No. 58 is rescinded.
This Order is effective at 12:01 am on March 1, 2021 and shall remain in effect until
rescinded or until the state of emergency is ended, whichever occurs first.

fl:/(

AMJ@his
Given in Boston at
25th day of February, two thousand and
twenty-one

CHARLES D. BAKER
GOVERNOR
Commonwealth of Massachusetts

3

241a

Schedule A
to COVID-19 Order No. 65 effective March 1, 2021

Phase I

All Phase I, II, III, and N enterprises are required to comply with general and, where
applicable, sector-specific COVID-19 workplace safety roles administered by DPL, DPH, EEA,
and local boards of health. Wod.'Jllace safety rules include a variety of mandatory contextspecific COVID-19 safety measures such as occupancy limitations, operational modifications,
social distancing rules, and soecialized cleaning requirements.
As specified in COVID-19 Order No. 33:

•

•
•
•
•
•

•
•
•
•

•
•
Phase II

Businesses and other organizations providing products and services identified as
"COVID-19 Essential Services" in COVID-19 Order No. 13
Manufacturing
Construction
Places of Worship
Firearms retailers and shooting ranges
General Use Offices
Car Washes
Hair Salons and Barber Shops
Pet Groomers
Drive-In Movie Theaters
Laboratories
Certain Outdoor Recreational Facilities and Activities as specified in Exhibit 1 to
COVID-19 Order No. 33

As specified in COVID-19 Order No. 37 and including specifically:

•

•

•
•
•

•

•

•

•

•
•

•
•

Retail Stores including stores in enclosed shopping malJs
Restaurants providing seated food service prepared on-site and under retail food
permits issued by municipal authorities pursuant to 105 CMR 590.000, including beer
gardens/wineries/distilleries meeting these criteria
0
~ : outdoor table service
0
Step 2: indoor table service
Hotels, motels, inns, and other short-teim lodgings (no events, functions, or meetings)
Limited organized youth and adult amateur sports activities and programs-no contact
and no games or scrimmages, and indoor facilities limited to youth programs
Professional sports practice and training programs-no inter-team games and no
admission for the public
Personal Services provided at a fixed place of business or at a client location
0
.Step 1: Services involving no close personal contact (photography, window
washers, individual tutoring, home cleaning, etc.)
Step 2: Services involving close personal contact (massage, nail salons,
0
personal training for individuals or no more than 2 persons from same
household, etc.)
Non-athletic instructional classes in arts/education/life skills for youths under 18 years
of age in groups of fewer than 10
Driving schools and flight schools
Outdoor historical spaces-no functions or gatherings and no guided tours
Funeral homes [a]
Warehouses and distribution centers
Golf facilities including outdoor driving :ranges
Other outdoor recreational facilities
o. pools, playgrounds and spray decks
mini golf, go karts, batting cages, climbing walls, ropes courses .
0

4

242a

•

•
•
Phase III

Post-Secondary/Higher EdNocational-Tecb/Trade/Occupational Schools
0
for the limited purposes of permitting students to complete a degree, program,
or prerequisite for employment, or other similar requirement for completion,
for summer youth programming including athletic facilities, and any
necessary supporting services
Day Camps including sports and arts camps
Public libraries

Step 1

•
•
•

•

•

•

•
•
•
•
•

•

•
•
•
•

•
•

Post-Secondary/Higher Ed!Vocational-Tecb/Trade/Occupational Schools--general
operations
Casino gaming floors
Horse racing tracks and simulcast facilities
Indoor recreational and athletic facilities for general use (not limited to youth
programs)
Fitness centers and health clubs including
cardio/weight rooms/locker rooms/inside facilities
0
0
fitness studios (yoga, barre, cross-fit, spin classes, general fitness studios)
0
indoor common areas
indoor swimming pools
0
0
indoor racquet courts and gymnasiums
locker rooms
0
0
excluding saunas, hot-tubs, steam rooms
Museums
Indoor historic spaces/sites
Aquariums
Outdoor theatres and other outdoor performance venues not designated as Phase IV
enterprises
Movie theatres
Sightseeing and other organized tours (bus tours, duck tours, harbor cruises, whale
watching)
Motion picture, television, and video streaming production
Fishing and hunting tournaments and other amateur or professional derbies
Outdoor event spaces used for gatherings and celebrations including those in parks,
reservations, and other outdoor spaces not designated as Phase IV enterprises
Indoor event spaces such as meeting rooms, ballrooms, and private party rooms----only
when used for functions or events permitted under Sector-Specific Rules for Indoor
and Outdoor Events
Indoor non-athletic instructional classes in arts/education/life skills for persons 18
years or older
Indoor recreational activities with low potential for contact: batting cages, driving
ranges, go karts, bowling alleys, rock-climbing wa11s
Indoor and outdoor gaming arcades and associated gaming devices

Step2

•
•
Phase IV [a]

Indoor performance venues used for live performances such as concert halls, theaters,
and other indoor performance spaces not designated as Phase IV enterprises
Indoor recreational activities with gr~ter potential for contact: laser tag, roller skating,
trampolines, obstacle courses

Step 1

•
•
•

Stadiums, arenas, and ballparks, and other large capacity venues (indoor and outdoor)
used for spectator sports, entertainment. or similar performances
Exhibition and convention halls
Overni!!ht camps (Summer 2021)

5

243a

•

Dance floors at events only

Step2

•
•

•
•

•
•
•

Amusement parks, theme parks, indoor or outdoor water parks and indoor or outdoor
ball pits
Saunas, hot-tubs, steam rooms at fitness centers, health clubs, and other facilities
Bars, dance clubs, and nightclubs--venues offering entertainment, beverages, or
dancing and not providing seated food service prepared on-site and under retail food
permits issued by municipal authorities pursuant to 105 CMR 590.000
Beer gardens/breweries/wineries/distilleries not providing seated food service prepared
on-site and under retail food permits issued by municipal authorities pursuant to 105
CMR.590.000
Dance floors not at events
Street festivals and parades and agricultural festivals
Road races and other large, outdoor organized amateur or professional group athletic
events

This Schedule is subject to amendment.

Note: entries that reflect amendments from the version of Exhibit A adopted in COVID-19 Order No. 58 (December
13, 2020) are designated by the marker "[a]."

6

244a

OFFICE OF THE GOVERNOR

COMMONWEAL TH OF MASSACHUSETTS

MA 02133
(617) 725-4000

STATE HOUSE• BOSTON,

CHARLES D. BAKER

KARYN E. POLITO

GOVERNOR

LIEUTENANT GOVERNOR

ORDER ADVANCING ALL COMMUNITIES TO
PHASE IV, STEP 1 OF THE COMMONWEALTH'S RE-OPENING PLAN
AND TRANSITIONING TO A TRAVEL ADVISORY POLICY
COVID-19 Order No. 66
Rescinding Order No. 45

WHEREAS, on March 10, 2020, I, Charles D. Baker, Governor of the Commonwealth
of Massachusetts, acting pursuant to the powers provided by Chapter 639 of the Acts of 1950
and Section 2A of Chapter 17 of the General Laws, declared that there now exists in the
Commonwealth of Massachusetts a state of emergency due to the outbreak of the 2019 novel
Coronavirus ("COVID-19");
WHEREAS, on March 11 , 2020, the COVID-19 outbreak was characterized as a
pandemic by the World Health Organization;
WHEREAS, the Federal Centers for Disease Control and Prevention ("CDC") have
advised that COVID-19 is spread mainly by person-to-person contact and that the best means of
slowing the spread of the virus is through practicing social distancing and by minimizing
personal contact with large groups and with environments where this potentially deadly virus
may be transmitted including, in particular, spaces that present enhanced risks because of the
large number of persons present or passing through the area who may spread the virus through
respiratory activity or surface contacts;
WHEREAS, on March 23, 2020, in order to restrict all non-essential person-to-person
contact and movement outside the home and to reduce opportunities for spreading the COVID19 virus within the Commonwealth, I issued COVID-19 Order No. 13, which temporarily closed
the brick-and-mo1iar premises of businesses and organizations that do not provide COVID-19
Essential Services;
1
(j

PRINTED ON RECYCLED PAPER

245a

WHEREAS, in response to gradual improvements in the public health data, on May 18,
2020, June 6, 2020, and July 2, 2020, I issued COVID-19 Orders No. 33, 37, and 43,
respectively, which designated certain businesses and other organizations as Phase I, II, III, or IV
enterprises and initiated a progressive, phased plan for re-opening workplaces and other facilities
across the Commonwealth;
WHEREAS, on December 13, 2020 and December 27, 2020, in response to a sharp
increase in COVID-19 case growth and the resulting pressure placed on hospital capacity, I
issued COVID-19 Orders Nos. 58 and 62, respectively, which returned all communities in the
Commonwealth to Phase III, Step 1 of the re-opening plan and temporarily tightened capacity
limits on Phase I, II, and III enterprises open to the public;
WHEREAS, following sustained improvements in the public health data, those stricter,
short-term capacity limits were lifted as of February 8, 2021 and, with the issuance of COVID19 Order No. 65, all communities in the Commonwealth have advanced to Step 2 of Phase III as
of March 1, 2021 ;
WHEREAS, improvements in the public health data have continued since the beginning
of March, including a decline in the 7-day average of confirmed COVID-19 cases from 1,536 on
March 1, 2021 to 1,431 on March 17, 2021 and a decline in the 7-day average of hospitalizations
from 815 to 673 over the same period;
WHEREAS, at the same time, the Commonwealth has continued to administer
vaccinations to targeted populations at a steady pace, and as of March 16, 2021 , a total of
2,671,928 vaccination doses have been administered, which has resulted in 972,103 persons
receiving full vaccination;
WHEREAS, these sustained positive trends in the public health data permit a phased
relaxation of restrictions on businesses and other organizations, provided, however, that such
adjustments can only be maintained or expanded on the basis of continuing favorable
developments in the public health data; and
WHEREAS, sections 7, 8, and 8A of Chapter 639 of the Acts of 1950 authorize the
Governor, during the effective period of a declared emergency, to exercise any and all authority
over persons and property necessary or expedient for meeting the state of emergency, including
but not limited to authority over assemblages in order to protect the health and safety of persons,
transpo1iation and travel by any means or mode, regulating the sale of articles of food and
household articles, variance of the terms and conditions of licenses and permits issued by the
Commonwealth or any of its agencies or political subdivisions, and policing, protection, and
preservation of public and private property;

2

246a

NOW, THEREFORE, I hereby Order the following:
1.

Advancement to Phase IV, Step 1

Effective at 12:01 am on March 22, 2021 in all municipalities in the Commonwealth,
businesses and other organizations that are designated as Phase IV, Step 1 enterprises on the
attached Schedule A may open their brick-and-mortar premises to workers, customers, and the
public.
Businesses and other organizations that are designated as Phase IV, Step 2 enterprises on
the chart attached as Schedule A must keep their brick-and-mortar premises closed to the public
and may not conduct Phase IV activities except as remote means permit until Step 2 of Phase IV
is commenced by subsequent executive order.
2.

Capacity Limits and Safety Requirements for Large Capacity Venues

Indoor and outdoor stadiums, arenas, ballparks, and similar facilities used for spectator
sports, entertainment, or similar perfo1mances that have capacities of 5,000 persons or more as
specified in a certificate of occupancy or other, equivalent authorization are defined as "large
capacity venues" for the purposes of this Order and for the Step 1 designation marked on
Schedule A. The provisions below specify the COVID-19 sector-specific rules under which
large capacity venues shall be required to operate. Similar facilities with capacities of fewer than
5,000 persons must follow sector-specific rules issued by the Director of the Department of
Labor Standards (DLS) that are applicable to any activity conducted at the facility.
Large capacity venues may open to the public on the commencement of Step 1, Phase IV
subject to the following conditions:
a. Submission ofCOVID-19 Safety Plan: At least 10 business days prior to opening
to the public, an operator of a large capacity venue must submit a COVID-19
safety plan for review by the Department of Public Health (DPH). A COVID-19
safety plan must include measures for maintaining social distance and capacity
limitations, staffing and operations plans, hygiene protocols, and cleaning
protocols, all as applied to the unique conditions of the operator's facility and
planned activities. DPH may require an operator to make revisions to a proposed
safety plan as a condition of opening of the venue to the public and may at any
time order revisions to a safety plan where actual operations result in a finding of
unsafe conditions. No large capacity venue may open to the public without
submitting a safety plan for DPH review in accordance with this subsection.
b. Overall Capacity Limitations: Large capacity venues may operate at 12 percent
of permitted capacity as specified in a certificate of occupancy or other,
equivalent authorization. Occupancy counts must include all spectators and
attendees but may exclude workers and staff employed by the venue. The

3

247a

Director of DLS shall from time to time and at my direction publish adjustments
to this capacity limitation based on developments in the public health data.
Following review by DPH, a large capacity venue's COVID-19 safety plan as specified
in subsection (a) together with the then current capacity limitation issued pursuant to subsection
(b) and any additional clarifications issued by the Director DLS to interpret and apply certain
COVID-19 safety rules to large capacity venues generally shall collectively constitute the
"sector-specific COVID-19 safety rules" applicable to a large capacity venue for purposes of
Section 3 of this Order. Large capacity venues operating in compliance with the requirements of
this Order and these sector-specific rules shall not be subject to the gathering limitations set forth
in Section 3 of COVID-19 Order No. 63.
Effective with the commencement of Step 1 of Phase IV, professional sports
organizations may open their large capacity venues to admit spectators subject to the
requirements and limitations specified above. The provisions of COVID-19 Orders No. 35 and
43 prohibiting professional sports organizations from admitting spectators or other members of
the public to any training, practice, scrimmage, game, or tournament or other competition or
exhibition are hereby rescinded for sports organizations operating in compliance with the
requirements of this Order.
3.

COVID-19 Workplace Safety Rules for Phase IV, Step 1

The Director ofDLS shall issue, subject to my approval, sector-specific COVID-19
workplace safety rules for certain Phase IV, Step 1 enterprises permitted to open their brick-andmortar premises pursuant to Section 1 of this Order; provided, however, that sector-specific rules
for large capacity venues shall consist of the elements specified in Section 2 of this Order.
Additionally, the Director of DLS and the Secretary of the Executive Office of Energy and
Environmental Affairs may issue revised sector-specific COVID-19 workplace safety rules for
Phase I, III, and III enterprises that may provide for increased capacity and other adjustments.
The provisions of Sections 4 and 5 of COVID-19 Order No. 43 (and Section 4 of
COVID-19 Order No. 37 as incorporated in COVID-19 Order No. 43), which set requirements
for compliance with generally applicable and sector-specific COVID-19 safety rules and
mechanisms for enforcement shall apply equally to Phase IV, Step 1 enterprises that are
authorized to open their premises pursuant to this Order. Any penalty issued in an enforcement
action shall be administered as provided in COVID-19 Order No. 48.
4. Replacement of Mandatory Travel Order with DPH Travel Advisory
COVID-19 Order No. 45 , which instituted a 14-day quarantine requirement for travelers
aniving in Massachusetts, is rescinded effective at 12:01 am on March 22, 2021. The
Department of Public Health shall issue in its place an Advisory for Travelers to Massachusetts
to inform the public of appropriate safety measures to reduce the risk of transmission of COVID19 through travel.

4

248a

This Order is effective at 12:01 am on March 22, 2021 and shall remain in effect until
rescinded or until the state of emergency is ended, whichever occurs first.

Given in Boston at / : )...D AM,Qthis
18th day of March, two thousand and
twenty-one

CHARLES D. BAIZER
GOVERNOR
Commonwealth of Massachusetts

5

249a

Schedule A
to COVID-19 Order No. 66 effective March 22, 2021

Phase I

All Phase I, II, III, and IV enterprises are required to comply with general and, where
applicable, sector-specific COVID-19 workplace safety rules administered by DPL, DPH, EEA,
and local boards of health. Workplace safety rules include a variety ofmandat01y contextspecific COVID-19 safety measures such as occupancy limitations, operational modifications,
social distancing rules, and specialized cleaning requirements.
As specified in COVID-19 Order No. 33:

•
•

•
•
•
•

•
•
•

•
•
•
Phase II

Businesses and other organizations providing products and services identified as
"COVID-19 Essential Services" in COVID-19 Order No. 13
Manufacturing
Construction
Places of Worship
Firearms retailers and shooting ranges
General Use Offices
Car Washes
Hair Salons and Barber Shops
Pet Groomers
Drive-In Movie Theaters
Laboratories
Certain Outdoor Recreational Facilities and Activities as specified in Exhibit 1 to
COVID-19 Order No. 33

As specified in COVID-19 Order No. 37 and including specifically:

•
•

•
•

•
•

•
•

•
•
•
•
•

Retail Stores including stores in enclosed shopping malls
Restaurants providing seated food service prepared on-site and under retail food
permits issued by municipal authorities pursuant to 105 CMR 590.000, including beer
gardens/wineries/distilleries meeting these criteria
Step 1: outdoor table service
0
0
Step 2: indoor table service
Hotels, motels, inns, and other short-term lodgings (no events, functions, or meetings)
Limited organized youth and adult amateur sports activities and programs-no contact
and no games or scrimmages, and indoor facilities limited to youth programs
Professional sports practice and training programs--no inter-team games and no
admission for the public
Personal Services provided at a fixed place of business or at a client location
Step I: Services involving no close personal contact (photography, window
0
washers, individual tutoring, home cleaning, etc.)
Step 2: Services involving close personal contact (massage, nail salons,
0
personal training for individuals or no more than 2 persons from same
household, etc.)
Non-athletic instructional classes in arts/education/life skills for youths under 18 years
of age in groups of fewer than 10
Driving schools and flight schools
Outdoor historical spaces- no functions or gatherings and no guided tours
Funeral homes
Warehouses and distribution centers
Golf facilities including outdoor driving ranges
Other outdoor recreational facilities
pools, playgrounds and spray decks
0
mini golf, go karts, batting cages, climbing walls, ropes courses
0

6

250a

•

•
•
Phase III

Post-Secondmy/Higher Ed/Vocational-Tech/Trade/Occupational Schools
0
for the limited purposes of permitting students to complete a degree, program,
or prerequisite for employment, or other similar requirement for completion,
for summer youth programming including athletic facilities, and any
necessary supporting services
Day Camps including spotts and arts camps
Public libraries

Step 1

•
•
•
•
•

•
•
•

•
•
•
•
•
•
•

•
•
•

Post-Secondmy/Higher Ed/Vocational-Tech/Trade/Occupational Schools- general
operations
Casino gaming floors
Horse racing tracks and simulcast facilities
Indoor recreational and athletic facilities for general use (not limited to youth
programs)
Fitness centers and health clubs including
0
cardio/weight rooms/locker rooms/inside facilities
0
fitness studios (yoga, barre, cross-fit, spin classes, general fitness studios)
indoor common areas
0
indoor swimming pools
0
0
indoor racquet courts and gymnasiums
0
locker rooms
excluding saunas, hot-tubs, steam rooms
0
Museums
Indoor historic spaces/sites
Aquariums
Outdoor theatres and other outdoor performance venues not designated as Phase IV
enterprises
Movie theatres
Sightseeing and other organized tours (bus tours, duck tours, harbor cruises, whale
watching)
Motion picture, television, and video streaming production
Fishing and hunting tournaments and other amateur or professional derbies
Outdoor event spaces used for gatherings and celebrations including those in parks,
reservations, and other outdoor spaces not designated as Phase IV enterprises
Indoor event spaces such as meeting rooms, ballrooms, and private party rooms-only
when used for functions or events permitted under Sector-Specific Rules for Indoor
and Outdoor Events
Indoor non-athletic instructional classes in arts/education/life skills for persons 18
years or older
Indoor recreational activities with low potential for contact: batting cages, driving
ranges, go karts, bowling alleys, rock-climbing walls
Indoor and outdoor gaming arcades and associated gaming devices

Step 2

•
•
Phase IV

Indoor performance venues used for live performances such as conceit halls, theaters,
and other indoor performance spaces not designated as Phase IV enterprises
Indoor recreational activities with greater potential for contact: laser tag, roller skating,
trampolines, obstacle courses

Step 1

•
•
•

Stadiums, arenas, and ballparks, and other large capacity venues (indoor and outdoor)
used for spectator spmts, entertainment, or similar performances
Exhibition and convention halls
Overnight camps (Summer 2021)

7

251a

•

Dance floors at events only

Step 2

•
•
•
•
•
•
•

Amusement parks, theme parks, indoor or outdoor water parks and indoor or outdoor
ball pits
Saunas, hot-tubs, steam rooms at fitness centers, health clubs, and other facilities
Bars, dance clubs, and nightclubs- venues offering entertainment, beverages, or
dancing and not providing seated food service prepared on-site and under retail food
permits issued by municipal authorities pursuant to 105 CMR 590.000
Beer gardens/breweries/wineries/distilleries not providing seated food service prepared
on-site and under retail food permits issued by municipal authorities pursuant to 105
CMR590.000
Dance floors not at events
Street festivals and parades and agricultural festivals
Road races and other large, outdoor organized amateur or professional group athletic
events

This Schedule is subject to amendment.

8

